APPENDIX

1a
APPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
______________________
No. 18-2852
VIAMEDIA, INC.,
Plaintiff-Appellant,
v.
COMCAST CORPORATION and COMCAST CABLE
COMMUNICATIONS MANAGEMENT, LLC,
Defendants-Appellees.
______________________
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:16-cv-05486 — Amy J. St. Eve, Judge.
______________________
ARGUED FEBRUARY 7, 2019 —
DECIDED FEBRUARY 24, 2020
______________________
Before BAUER, HAMILTON, and BRENNAN,
Circuit Judges.

2a
Table of Contents
I.

The Markets and the Competitors .................. 8[a]
A. Cable Television: History, Revenue
Sources, and Competition ......................... 9[a]
1. Television Programming and
Advertising .......................................... 9[a]
2. Revenue Sources: Competition and
Cooperation ....................................... 11[a]
a. Competition for Advertising
Dollars and Cooperation Through
Interconnects .............................. 11[a]
b. Competition for Subscribers....... 16[a]
i.

Growing MVPD
Competition .......................... 17[a]

ii. Incumbent Cable Companies’
Efforts to Stymie Competition
for Subscribers ..................... 19[a]
B. The Ad Rep Services Market .................. 21[a]
1. The Role of Viamedia ........................ 21[a]
2. Vertically Integrated MVPDs ........... 23[a]
3. Back to the Interconnects ................. 24[a]
C. Comcast Refuses Interconnect Access
to Viamedia ............................................. 25[a]
II. District Court Proceedings ............................ 36[a]
III. Legal Standards and Analysis ...................... 39[a]
A. Sherman Act Section 2—Illegal
Monopolization ........................................ 40[a]
B. Claims of Anticompetitive Conduct:
Refusals to Deal and Tying ..................... 43[a]

3a
1. Refusals to Deal ................................ 45[a]
a. Monopolists and Refusals to
Deal ............................................. 46[a]
b. Aspen Skiing and Comcast ......... 48[a]
c.

Refusals to Deal and Motions to
Dismiss ........................................ 56[a]
i.

Comcast’s Proposed Legal
Standard ............................... 59[a]

ii. Inapposite Vertical
Integration Cases ................. 65[a]
2. Tying .................................................. 70[a]
a. Summary Judgment Standard .. 71[a]
b. Tying and Comcast’s Conduct .... 72[a]
i.

Definition .............................. 73[a]

ii. Separate Products or
Services ................................. 75[a]
iii. Forced Purchase ................... 77[a]
C. Section 2 Monopolization: Harms,
Efficiencies, & Remedies ......................... 86[a]
1. Harm to Competition ........................ 87[a]
a. Ad Rep Services .......................... 87[a]
b. The MVPD Market: MVPDs,
Advertisers, Cable Subscribers .. 88[a]
c.

Back to the Interconnects........... 91[a]

2. Procompetitive Justifications ........... 94[a]
a. The Interconnects ....................... 95[a]
b. The Ad Rep Services Market...... 96[a]
3. Remedies ........................................... 98[a]

4a
D. Antitrust Injury ......................................101[a]
E. Role of Expert Witnesses .......................105[a]
1. Standard ...........................................106[a]
2. Economic Expert Witness ................106[a]
3. Lack of Expert Witness on
Causation .........................................107[a]
Conclusion ...........................................................108[a]

5a
HAMILTON, Circuit Judge. Plaintiff Viamedia,
Inc. has sued defendant Comcast Corporation for violating Section 2 of the Sherman Act, 15 U.S.C. § 2. Viamedia accuses Comcast of using its monopoly power
in one service market to exclude competition and gain
monopoly power in another service market. The district court dismissed Viamedia’s case, in part on the
pleadings and in part on summary judgment. We reverse. Viamedia’s allegations and evidence are sufficient to state and support claims that should be presented to a jury.
Because the district court dismissed part of the
case on the pleadings and the rest on summary judgment, we must treat as true Viamedia’s factual allegations and give it the benefit of factual disputes and
favorable inferences from the evidence. To make
sense of this case, we explain some basic business arrangements in the markets that put television programming in American homes, as well as market definitions necessary in evaluating the antitrust claims.
The parties agree on the definitions of the relevant geographic and service markets. Viamedia asserts claims against Comcast for monopolization in
three geographic markets: the Chicago, Detroit, and
Hartford metropolitan areas. In each of those three
geographic markets Comcast now has monopoly
power over two separate service markets: Interconnect services and advertising representation services.
Interconnect services are cooperative selling arrangements for advertising through an “Interconnect” that
enables providers of retail cable television services to
sell advertising targeted efficiently at regional audiences. Advertising representation services for retail
cable television providers assist those providers with
the sale and delivery of national, regional, and local

6a
advertising slots. This market in advertising representation services is the one in which Viamedia competed with Comcast. In each geographic market, according to Viamedia’s evidence, Comcast used its monopoly power over the cooperative Interconnects to
force its smaller retail cable television competitors to
stop doing business with Viamedia, thereby gaining
monopoly power over the market for advertising representation services.
Viamedia has presented evidence that Comcast’s
elimination of its only competitor in the advertising
representation services market has harmed competition in violation of Section 2. According to Viamedia’s
evidence, its customers for advertising representation
services (i.e., Comcast’s retail cable competitors) did
not switch to Comcast because it offered a better-quality or lower-priced service. They switched because
Comcast used its monopoly power over the Interconnects to present its cable competitors with a Hobson’s
choice: either start buying advertising representation
services from us and regain access to the Interconnects, or keep buying those services from Viamedia
and stay cut off from the Interconnects they needed to
compete effectively. According to Viamedia’s evidence, Comcast deliberately adopted a strategy it
knew would cost Comcast itself millions of dollars in
the short run, but the strategy eventually gave it monopoly power in these local markets for advertising
representation services. Giving Viamedia the benefit
of its allegations and evidence, this is not a case in
which Section 2 is being misused to protect weaker
competitors rather than competition more generally.
See Lee-gin Creative Leather Products, Inc. v. PSKS,
Inc., 551 U.S. 877, 906 (2007), quoting Atlantic Richfield Co. v. USA Petroleum Co., 495 U.S. 328, 338

7a
(1990) (purpose of the antitrust laws is to protect
“competition, not competitors”).
As now the sole provider of advertising representation services to its cable competitors, Comcast can
also damage competition beyond the relatively narrow
markets for advertising representation services in
Chicago, Detroit, and Hartford. This control allows it
to undercut competition in two more markets: cable
television services to retail customers, and the sale of
advertising spots to local retailers. By establishing itself as the gatekeeper for its cable competitors’ advertising, Comcast has gained access to their sensitive
marketing and promotional pricing information. And
because Comcast took control of its rival cable companies’ inventory of local ads, local retailers no longer
have a choice of cable companies from whom they buy
ad time.1
Viamedia has thus offered evidence to defeat summary judgment on its claim that Comcast unlawfully
used its monopoly power over the Interconnects to tie
those services to its advertising representation services. Viamedia has also adequately stated a claim
that Comcast has unlawfully refused to deal with Viamedia and any cable competitor that bought advertising representation services from Viamedia. On the
pleadings and the summary judgment record, Viamedia’s prima facie claims of monopolization are similar
to but stronger than the successful plaintiff’s Section
1

Comcast sells advertising representation services through
an entity called Comcast Cable Communications Management,
LLC, which was formerly called Comcast Spotlight. The district
court and the parties have referred to Comcast’s ad-related services division as both Comcast and Comcast Spotlight. We use
“Comcast” to refer to both together but make clear when we refer
to Comcast Spotlight in particular.

8a
2 claim in Aspen Skiing Co. v. Aspen Highlands Skiing
Corp., 472 U.S. 585 (1985). We remand this case for
any further necessary discovery and for trial.
In Part I, we lay out the key facts: in Part I-A, the
structure of the cable television markets; in Part I-B,
the specifics of Comcast’s and Viamedia’s businesses,
including the advertising representation services they
both offer and the critical role that Interconnects play
for providers of cable television programming; and in
Part I-C, Comcast’s refusal to continue providing Interconnect access to Viamedia or any of its customers
in Chicago, Detroit, and Hartford. In Part II, we review the district court proceedings. Then, in Part IIIA, we lay out the legal standards under Section 2 that
apply to Viamedia’s claims. In Part III-B-1, we apply
that law to Comcast’s decision to refuse to allow Viamedia or its customers access to the Interconnects.
In Part III-B-2, we apply that law to Viamedia’s claim
that Comcast illegally tied Interconnect services to
advertising representation services. In Part III-C, we
evaluate in greater detail the harm to competition alleged by Viamedia and the procompetitive justifications offered by Comcast, highlighting considerations
that will be relevant on remand. Finally, in Parts IIID and III-E, we address issues of antitrust injury and
the district court’s exclusion of expert witnesses.
I.

The Markets and the Competitors

Because the district court dismissed one claim on
the pleadings and the other on summary judgment,
we present the relevant allegations and evidence in
the light reasonably most favorable to plaintiff Viamedia, the non-moving party. The parties agree on the
definition of the relevant geographic markets, and the
relevant service-product markets are not disputed on

9a
appeal. The relevant geographic markets are the Chicago, Detroit, and Hartford metropolitan areas, called
Direct Marketing Areas or DMAs. The monopolized
service market in each metropolitan area is that for
the sale of advertising representation services (“ad rep
services” in industry terms) related to so-called spot
advertising on cable systems. To assess the harm to
competition that can result from monopolization of
the market for ad rep services, we must explain the
related markets for retail cable television services to
consumers, as well as access to the cable companies’
cooperative advertising distribution platforms called
Interconnects.
A. Cable Television: History, Revenue Sources,
and Competition
Understanding these markets’ competitive dynamics requires a bit of history about the evolution of
television in the United States, including the challenges that cable companies have faced in competing
with over-the-air broadcast programming.
1. Television Programming and Advertising
An awkward acronym, MVPDs, stands for “multichannel video programming distributors.” That umbrella term includes cable companies like Comcast
and Cox, as well as “overbuilders” like RCN and Wide
Open West, known as WOW!. Beyond cable companies, MVPDs also include direct-broadcast satellite
companies (AT&T’s DirecTV and Dish Network), as
well as companies formerly associated only with telephone service (e.g., Verizon’s FiOS and AT&T’s Uverse). The two largest MVPDs are Comcast and

10a
AT&T-DirecTV, which together have more than 20
million television subscribers.2
Focusing on the advertising-supported network
programming carried by these MVPDs, we explain the
special obstacles cable companies face in taking advantage of advertising revenue. The cable companies’
solution—jointly developing the Interconnects—created a later opening for a dominant cable company
like Comcast to use its power over several Interconnects to gain a monopoly in a related market and to
gain some measure of oversight and control of its
smaller cable competitors.
For decades, television programming was dominated by three broadcast networks and was funded
largely by the advertisements that ran in the programming. To help advertisers know how many and
which viewers they were reaching, the industry
adopted various audience measurement metrics, most
importantly “Designated Market Areas” or “DMAs.”
DMAs are meant to capture regional audiences that
are likely to view the same programming. They often
encompass more than a single county and can also
cross state lines.
As cable television companies got started, they
typically won exclusive franchise areas granted by local governments. Their further expansion was then
“subsidized by monopoly profits” from these exclusive
territories. U.S. Dep’t of Justice, Voice, Video and
Broadband: The Changing Competitive Landscape
and Its Impact on Consumers 71 (Nov. 2008) (DOJ Report). Cable companies then grew and consolidated by
2

For statutory definitions of “multichannel video programming distributor” (MVPD), “cable service,” and “video programming,” see 47 U.S.C. § 522(13), (6), and (20).

11a
sewing together such local franchises. Critically for
this case, the patchwork combinations of local franchise areas did not align with DMAs.
2. Revenue Sources:
Cooperation

Competition

and

Most revenue for MVPDs comes from (1) the sale
of advertising and (2) customer subscription fees. In
geographic areas where MVPDs overlap, they compete on both fronts. The conduct at issue in this litigation affects both fronts and millions of households
in the key metropolitan areas, and it potentially affects tens of millions more in other metropolitan areas.
a. Competition for Advertising Dollars
and Cooperation Through Interconnects
The mechanics of advertising are central to this
lawsuit, accounting for the existence of the market in
which Comcast and Viamedia competed. For every
hour of programming, networks allot a certain number of minutes for advertisements. Contracts between
an MVPD and a network (e.g., CNN or ESPN) typically make two or three of those minutes per hour
available for the MVPDs to sell themselves, with the
networks selling the remainder. MVPDs can sell
these time slots to advertisers in various increments
of time, such as 15, 30, or 60 seconds. Each increment
is typically referred to as a “spot cable availability,” or
“spot avail.” Approximately 75% of the spot avails are
sold to advertisers. The MVPDs use the remaining
25% to advertise their own products and services.
This brings us to the source of the problem here.
In the early days of cable, advertisers who wanted to

12a
reach an entire DMA such as Chicago faced an obstacle. Cable systems had grown organically, with each
cable service obtaining franchises “through the simple
addition of new systems as opportunities arose,” leaving cable “company holdings . . . typically scattered
across the country.” Patrick R. Parsons, Horizontal
Integration in the Cable Television Industry: History
and Context, 16 The Journal of Media Economics, no.
1 (2003) at 23, 37. Most important, the DMAs that
helped broadcast television advertising reach entire
marketing areas did not align with cable companies’
franchise areas. And yet, for a substantial percentage
of spot avails, it would be most profitable to sell them
on a regional, DMA-wide level.
As a result, cable companies had a weaker competitive position for advertising dollars vis-à-vis the
broadcast networks and satellite providers, who could
easily deliver advertising to an entire DMA. Cable
companies could not offer DMA-wide coverage, so advertisers would pay less for spot avails. To ensure
DMA-wide coverage, an advertiser had to contract
separately with each cable provider whose footprint
included any part of that DMA. This was inefficient.
The cable companies came up with a solution.
They banded together to create a platform called an
Interconnect that could bring together all cable providers within a given DMA. The cable companies
could contribute their DMA-wide spot avails to the Interconnect, which would provide a single point of contact for advertisers. An advertiser could then purchase a particular time slot and be assured that its
advertisement would appear in cable subscribers’ programming throughout the DMA. Thus, Interconnect
services are provided DMA by DMA. As described by
Comcast, “interconnects were formed voluntarily by

13a
MVPDs in markets to pool their resources and offer
DMA-wide selling of cable/MVPD advertising inventory[.] . . . Otherwise, advertisers trying to cobble together a wide-footprint, MVPD-based advertising
campaign would have to go MVPD-by-MVPD.”
To cable subscribers, the national, regional, and
local advertisements appear seamlessly within television shows and live sports events. But the hidden
seam of the Interconnects and the ways its spot avails
are paid for and delivered—is the locus of Comcast’s
allegedly anticompetitive conduct.
For purposes of this suit, the services provided by
the Interconnects must be distinguished from advertising representation services. An Interconnect operator will:
● Pool inventory of spot avails from multiple
MVPDs on a DMA-wide basis;
● Employ sales personnel to sell and/or coordinate sales of DMA-wide spot avails;
● Distribute schedules of participating
MVPDs’ spot avails to facilitate coordinated merging of local advertising schedules;
● Coordinate insertion of ads (although
MVPDs themselves generally provide the
technical equipment for ad insertion into
programming); and
● Collect money from Interconnect advertisers and coordinate payment to participating MVPDs or their ad representatives.
Thus, the Interconnects allow the participating
MVPDs to sell their DMA-wide advertising in a way

14a
that mimics the broadcast networks’ and satellite providers’ comprehensive coverage of a DMA.3
All participating MVPDs were intended to benefit
from the Interconnects, and all were encouraged to
participate to maximize the value of the DMA-wide
spot avails. To quote Comcast again: “The value of an
interconnect increases as more MVPDs in an area participate, so our incentive is to have as many MVPDs
participate as possible.” First Am. Cplt. ¶ 39. Because MVPDs will contribute only about one-third of
their spot avails to the Interconnects, and compete
with one another for local ad sales, Interconnect participants took steps to avoid giving preferential treatment to any single MVPD participant. To ensure fair
administration of the Interconnects, they were initially conceived as being operated by non-MVPD, neutral third parties. At the time of their formation, Interconnects were overseen by boards of directors
elected by all MVPD members.
Interconnects thus became valuable bridges to advertisers, translating into millions of dollars of advertising revenue each year in each market. Interconnects are especially valuable to smaller MVPDs. Once
an Interconnect gains a critical mass of subscribers,
regional or national advertisers are less likely to
bother dealing with standalone MVPDs, especially
those with small shares of DMA subscribers. And selling spot avails only to local (as opposed to DMA-wide
or national) advertisers will not compensate for the
3

This type of cooperative arrangement is also available at the
national level, with National Cable Communications (NCC) able
to place ads across multiple DMAs or nationwide, replicating
broadcast networks’ and satellite providers’ nationwide coverage. As the country’s largest cable provider, Comcast now controls 60% of the NCC.

15a
lost revenue if an MVPD is shut out of the Interconnect. Purely local spot avails are sources of revenue
and local business relationships, but they have lower
profit margins.
An Interconnect is what economists call a “twosided platform.” It serves as a clearinghouse, offering
“different products or services to two different groups
who both depend on the platform to intermediate between them.” Ohio v. American Express Co., 138 S.
Ct. 2274, 2280 (2018). Such connectivity gives an Interconnect its value but can also be misused to harm
competition.
On one side of the Interconnect are the advertisers, who are interested in reaching the greatest number of viewers, especially within a targeted DMA. The
more subscribers an MVPD can bring to the table, the
more advertisers will pay to reach that expanded audience. On the other side of the Interconnect are the
MVPDs and their retail customers. The more advertisers that participate, the more valuable the Interconnect is to the MVPDs and their customers. Cable
customers watching a ballgame or their favorite comedy may not think about the value of the advertisements they see, but MVPDs can use advertising revenue to keep monthly subscription prices lower and to
run promotional discounts to bring in even more subscribers. Those new subscribers will in turn make the
MVPD a more valuable and attractive advertising
venue. The Interconnect can thus produce a competitively virtuous feedback loop. “[T]he value of the services that [an Interconnect] provides increases as the
number of participants on both sides of the [Interconnect] increases.” See American Express, 138 S. Ct. at
2280–81. Or, as Comcast puts it: “The value of an in-

16a
terconnect increases as more MVPDs in an area participate, so our incentive is to have as many MVPDs
participate as possible.”
An Interconnect is not necessarily, however, a
one-way ratchet to increased demand. Decreased participation on either side of the Interconnect can also
reduce its value. Thus, adapting language from American Express, an Interconnect “losing participation on
[the cable provider side] decreases the value” of the
advertiser side, and if advertisers “leave due to this
loss in value, then the [Interconnect] has even less
value to [the cable providers]—risking a feedback loop
of declining demand.” 138 S. Ct. at 2281.
Whether the Interconnects are procompetitive or
not depends on the competitive dynamics among its
participants. In a competitive market, for example,
the risk of negative feedback may serve as a check on
the ability of any one participant to raise prices or otherwise exert market power. See 138 S. Ct. at 2281 n.1.
Conversely, in a less competitive market, access to the
crucial Interconnects can be used to exclude competitors and harm competition. The Interconnects are so
important that exclusionary conduct can become a
weapon to injure competitors.4
b. Competition for Subscribers
We have just outlined the ways in which MVPDs
compete and cooperate in the pursuit of advertising
4

There is no challenge here to the legality of the Interconnects themselves, at least as originally conceived, which seem to
fit the model of certain procompetitive cooperative arrangements
among competitors. See generally Broadcast Music, Inc. v. Columbia Broadcasting System, Inc., 441 U.S. 1 (1979). Whether
that remains the case when one MVPD controls an Interconnect
is a question not presented here.

17a
revenue, which is the focus of Viamedia’s claims. Yet
to see the full potential harm to competition caused by
Comcast’s alleged conduct, we must also describe the
MVPDs’ competition for subscribers. Comcast’s alleged conduct is all the more dangerous to competition
because it was made possible by accelerating industry
consolidation and has the potential to interfere with
MVPDs’ competition with one another. The industry
dynamics provide important context to understand
the exclusion of Viamedia from a handful of DMA Interconnects, at least initially, and the broader potential impact on MVPD markets in general.
i.

Growing MVPD Competition

Until the mid-1990s, cable companies typically operated as monopolists with exclusive local cable franchises in their respective areas. They showed little
interest in building into one another’s franchise areas
and forcing competition. A combination of legal, regulatory, and practical barriers limited competitive entry by new MVPDs, and those limits were often supported by incumbent cable providers. DOJ Report at
32. Thus, only satellite companies DirecTV and Dish
Network, with their nationwide coverage, could compete with cable companies for subscribers. Satellite
companies were able to take some market share, particularly in rural areas, but their competitive threat
to cable companies proved to be limited. DOJ Report
at 5, 10, 22 & n.88, 59.
The 1990s saw major changes in the MVPD landscape. The cable industry shifted “toward regional
consolidation, with specific companies carving out
large parts of the country within which to group their
systems.” Patrick R. Parsons, Horizontal Integration
in the Cable Television Industry: History and Context,
16 Journal of Media Economics, no. 1 (2003) at 23, 37.

18a
The larger companies “bought and traded individual
systems,” with “the various systems in a given city”
increasingly “fall[ing] into the hands of a single cable
company.” Id.
With changes in technology and the regulatory environment, however, cable companies were about to
face new competitors. The Telecommunications Act of
1996 was intended to break down barriers among cable, telephone, satellite, and internet businesses to
galvanize competition—and it did. Larry Satkowiak,
The Cable Industry: A Short History Through Three
Generations 47–48 (The Cable Center 2015). The
lines between MVPDs, traditional telephone companies, and new broadband internet service providers
became increasingly blurred as these companies
started offering multiple services to consumers. DOJ
Report at 1, 17, 19. Cable companies introduced telephone voice services, which had previously been a legal monopoly in many states, and started selling bundles of telephone, video, and broadband Internet access. Id. at 9, 11. Meanwhile, broadband internet service providers like RCN and WOW!, known as “overbuilders,” built their own infrastructure in areas already served by incumbent cable companies and
rolled out multiple services. Id. at 8 & n.33, 21 & n.78,
47.5 And traditional telephone service providers responded in kind. Verizon introduced its FiOS service

5

“The term ‘overbuild’ describes the situation in which a second cable operator enters a local market in direct competition
with an incumbent cable operator. In these markets, the second
operator, or ‘overbuilder,’ lays wires in the same area as the incumbent, ‘overbuilding’ the incumbent’s plant, thereby giving
consumers a choice between cable service providers.” Report and
Order and Further Notice of Proposed Rulemaking at 15 n.97, In
the Matter of Implementation of Section 621(a)(1) of the Cable

19a
in 2005, and AT&T followed with its MVPD service
dubbed “U-Verse.” Id. at 6–7.
Thus, cable providers—formerly the beneficiaries
of cable franchise monopolies—suddenly faced a new
array of competitors. Today, many DMAs are served
by an incumbent cable provider (e.g., Comcast), one or
more overbuilder cable providers (e.g., RCN and
WOW!), one or more telephone companies offering
video services (e.g., Verizon FIOS), and two satellite
dish providers (DISH and AT&T-DirecTV).
ii. Incumbent Cable Companies’
Efforts to Stymie Competition for
Subscribers
This new competition led to credible reports of
lower prices and falling cable subscription rates in areas with new MVPD entrants—exactly what one
would hope to see in competitive markets. DOJ Report at 38–39 & nn.180–83. Incumbent cable companies were forced to “respond[] to new entry by improving customer service, increasing bandwidth speeds
. . ., adding more programming channels and services,
and rolling out enhanced products (such as HD).” Id.
at 48; see also id. at 45–46. But new MVPD competitors continued to encounter obstacles, including some
put in place by the incumbent cable providers. The
incumbents had strong incentives to try to stymie
these new competitors. As the FCC noted, competition from new cable companies reduces rates far more
than competition from satellite companies. FCC 2007
Report and Order at 26 ¶ 50.

Communications Policy Act of 1984 as amended by the Cable Television Consumer Protection and Competition Act of 1992, FCC
MB Docket 05-311 (Mar. 5, 2007) (FCC 2007 Report and Order).

20a
Among the obstacles for new competitors relevant
to this case, incumbent cable providers entered into
exclusive contracts with apartment buildings dense
with potential subscribers, which new entrants could
not reach, and exclusive and discriminatory contracts
with programmers, whose content new entrants could
not carry. FCC 2007 Report and Order at 18 ¶ 35.
Overbuilders and the FCC reported in 2008 that
“[e]xclusivity and discrimination in access to programming are the most powerful tactics that incumbent operators use in an effort to block or otherwise constrain
[new] competition.” DOJ Report at 74; see also id. at
73, 75, 89; Petition of RCN Telecom Services, Inc., to
Deny Applications or Condition Consent at 24, 27, In
the Matter of Applications for Consent to the Transfer
of Control of Licenses of Comcast Corporation and
AT&T Corporation to AT&T Comcast Corp., FCC MB
Docket 02-70 (Apr. 29, 2002) (RCN 2002 FCC Petition)
(RCN recounting “the difficulties it has encountered
in gaining, and keeping, access to critical, non-substitutable local programming controlled by Comcast”
and the “numerous instances in which the incumbents
(Comcast and its predecessors) have received exclusive building rights covering a period of years”).
Incumbent providers also created barriers to signing up individual customers by locking existing subscribers into long-term contracts. Because of these
long-term contracts “there is only a small window
when a customer is able to move.” DOJ Report at 52.
“The incumbent [cable provider] knows when that
window is, but the new entrant does not.” Id. “The
new entrant must spend resources marketing to customers during periods when they cannot switch or will
have disincentives to doing so,” while “an incumbent
can target discounts and other incentives to subscrib-

21a
ers immediately prior to the expiration of their contracts.” Id. at 52–53. This competitive dynamic helps
explain why smaller cable companies would hesitate
to turn over their promotional advertising plans to
their dominant cable competitor in advance of the actual promotions—which is the likely result of Comcast’s actions challenged in this case.
B. The Ad Rep Services Market
1. The Role of Viamedia
As MVPDs were trying to establish themselves in
new markets, the sale of spot avails provided a key
source of revenue that helped subsidize offers to attract subscribers. Incumbent cable companies had
been selling their spot avails to advertisers for decades, with the scale, internal structures, and sales
and operational personnel to support those activities.
The new overbuilders and telephone service providers
had no such experience or infrastructure.
Enter Viamedia. The new MVPD competitors
could have all spent money to hire their own advertising sales staffs, to buy and implement billing systems,
to set up monitoring protocols, and to deal with the
necessary equipment to insert those ads seamlessly
and accurately into programming. Many, including
MVPDs in Chicago, Detroit, and Hartford, chose instead to contract for these spot advertising services
with Viamedia. RCN, for example, could focus on competing with incumbent MVPDs through attracting
subscribers and building out its footprint, with an assured ad revenue stream managed by Viamedia. With
an Interconnect already in place, the new MVPDs (or
Viamedia on their behalf) could sign an agreement
with that Interconnect so that advertisers could place

22a
DMA-wide ads that reached the new entrants’ subscribers along with the those of the incumbents.
These ad rep services are at the core of this lawsuit. The ad rep services that Viamedia provides its
customer MVPDs include:


Allocating the MVPD’s inventory of spot
avails among different sales channels—
i.e., local ads, sold in competition with
other MVPDs; DMA-wide ads; or multiDMA/national ads;



Researching, marketing, pricing, and selling an MVPD’s inventory of spot avails to
advertisers, including the approximately
one-third of spot avails sold to local retailers in competition with other MVPDs;



Interfacing with the relevant Interconnect
for spot avails allocated to regional, DMAwide ads;



Providing technical services such as encoding video files and operating and maintaining the software needed to run, insert,
traffic, monitor, and archive ads;



Organizing the MVPD’s inventory of spot
avails into schedules and ensuring that
each ad runs correctly during those schedules; and



Performing financial services, such as accounting, billing, and collection.

Viamedia employs the personnel needed for these
functions, spreading these costs among all of its
MVPD customers. If an MVPD retained Viamedia to
provide this full range of services for all of its inventory of spot avails, including the competitive selling of

23a
local spot avails, it was said that the MVPD had secured “full turnkey” representation. As overbuilders
and telephone companies continued their build out,
Viamedia was able to expand the areas and MVPD
customers to which it could supply services.
2. Vertically Integrated MVPDs
By contrast, Comcast does not need an independent ad rep services provider like Viamedia. Instead,
Comcast is vertically integrated and has its own
wholly-owned subsidiary that provides ad rep services
both in-house and to other competing MVPDs. In
markets where Comcast does not operate the Interconnects, its in-house ad rep services arm secures Interconnect access for its own MVPD service and its
customer/competitors’ MVPD services, just as Viamedia used to do in Chicago, Detroit, and Hartford. Several other MVPDs have similar internal divisions that
provide spot cable ad rep services.6 In fact, Viamedia
is unique in that it is the only ad rep services firm of
any size that is independent—i.e., not owned by an
MVPD.
MVPDs that have their own ad rep services divisions or subsidiaries, such as Comcast, compete with
Viamedia to provide these services to other MVPDs.
And just as MVPDs compete for subscribers wherever
their service footprints overlap, the providers of ad rep
services compete DMA by DMA. The ad rep services
providers organize their sales forces around the
boundaries of DMAs and provide services only to the
MVPDs who have subscribers within those DMAs.
Hybrid arrangements also exist. Some MVPDs do not
6

These include Charter’s Spectrum Reach, Cox’s Cox Media,
Altice’s Suddenlink Media and Altice Media Solutions, and Mediacom’s OnMedia.

24a
contract for “full turnkey services,” but instead seek
ad rep services for only a portion of their spot avails
and sell the remaining spot avails themselves.
This unusual market structure thus involves
three levels of competition: (1) MVPDs compete
against one another for subscribers; (2) some vertically integrated MVPDs’ ad rep services arms compete
against Viamedia (and potentially against each other)
for clients; and (3) MVPDs compete with one another
for some sales of their spot avails to advertisers. We
need to keep all three levels in mind.
3. Back to the Interconnects
As part of the continuing industry consolidation in
the 2000s, Comcast moved into many new DMAs. It
also expanded from being one of several cable companies that participated in some DMA Interconnects to
being the largest participant. For example, Comcast
was able to acquire over 3,300 local cable franchising
areas through its purchase of AT&T Broadband’s and
Adelphia’s cable properties. FCC 2007 Report and Order at 15 & n.95. As Comcast repeatedly acquired
other cable systems, it grew to be the largest participant in dozens of DMAs and became the sole “operator” or “manager” of those DMAs’ Interconnects, including in Chicago, Detroit, and Hartford.
Yet the Interconnects continued to function as
they had before industry consolidation. They provided a single point of contact for distributing DMAwide ads, as well as access to and collecting fees from
all MVPDs (or their ad rep service providers) that participated in the Interconnects. If an MVPD did not
participate in an Interconnect, an advertiser could not
reach its subscribers, making an ad buy within the

25a
DMA less valuable for any remaining MVPD Interconnect participants.
During this period, in 2003, Viamedia entered into
agreements with Comcast for Interconnect access in
the Chicago and Detroit DMAs, which ran until May
2012. Viamedia sought this access because it provided
ad rep services to cable overbuilders RCN (in Chicago)
and WOW! (in Chicago and Detroit) under contracts
that ran until 2014. As noted above, typical industry
practice is for approximately one-third of an MVPD’s
spot avail inventory to be sold on a DMA-wide basis.
In line with that practice, Viamedia agreed to sell a
portion of RCN’s and WOW!’s spot avail inventory on
a DMA-wide basis through the Comcast-controlled Interconnects. Viamedia sold the remaining portion of
RCN’s and WOW!’s spot avails both nationally and—
in competition with Comcast—locally. Comcast also
agreed not to solicit Viamedia’s MVPD clients until
four months before the Viamedia/MVPD contracts expired, although the MVPDs remained free to contact
Comcast.
C. Comcast Refuses
Viamedia

Interconnect

Access

to

This was the competitive landscape for Comcast’s
conduct challenged in this lawsuit. Internal Comcast
PowerPoint presentations explained that Comcast
viewed its “Next phase” as “consolidat[ing the] core
business” of ad rep services, and then “look[ing] at
other businesses we can leverage (our technologies or
platforms).” A212 n.68. There is evidence that Comcast saw the Interconnects as one such point of “leverage.”
As noted, Viamedia’s Interconnect access agreements with Comcast for the Chicago and Detroit

26a
DMAs were due to expire in 2012. Viamedia’s contracts for ad rep services with RCN and WOW! were
extended until 2015 (RCN) and 2014 (WOW!). As
2012 neared, Comcast faced a choice. It could compete
for RCN’s and WOW!’s ad rep services business the
following year, as it already competed for RCN’s,
WOW!’s, and other MVPDs’ business in many other
DMAs. Or it could try to use its control over the Interconnects to shut out the competition for ad rep services. At first, it appeared that Comcast would take
the route of competition, contacting RCN and WOW!
to express interest in selling them ad rep services.
But Comcast then changed its strategy. It tried instead to take advantage of its control over the Interconnects. Comcast noticed Viamedia in December
2011 that it would refuse to permit Viamedia any further access to the Interconnects. In June 2012 Comcast executed on that notice. For the first time in any
DMA since the Interconnects had been created, an Interconnect operator—Comcast—had cut off Interconnect access to an MVPD or an MVPD representative.
Comcast executed this strategy in other DMAs, as
well, similarly denying Viamedia access to Interconnects on behalf of Viamedia’s customer MVPDs (Comcast’s competitor MVPDs). For example, in the Hartford DMA, Comcast had previously provided full-turnkey service to AT&T’s MVPD. When Frontier acquired AT&T’s Hartford network in 2014, it had the
option of assuming the Comcast contract. Frontier,
however, had been unhappy with Comcast’s customer
service when it used Comcast in other DMAs, so it
switched from Comcast to Viamedia. Comcast then
excluded Frontier’s spot avails from the Hartford Interconnect, resulting in millions of dollars in lost ad
revenues for Frontier and Viamedia, as well as Com-

27a
cast itself, and degrading the value of the Hartford Interconnect.7 By contrast, in DMAs where the Interconnects were controlled not by Comcast but by other
large, incumbent cable companies such as TimeWarner Cable, access to the Interconnects had not yet
been pulled.
Comcast then returned to Viamedia with a series
of offers that would have required Viamedia to “assign” 100% of its customers’ spot avails to Comcast in
exchange for a one-time “finder’s fee.” That was essentially an offer to pay Viamedia to exit the marketplace. At the end of July 2014, Comcast provided a
more detailed offer. It would have had the same effect
as the first offer—a payment to Viamedia to stop
providing spot cable ad rep services. In August 2014,
Viamedia received the third iteration of Comcast’s offer, which at first appeared promising. When Viamedia received a detailed offer in writing, however, it discovered that Comcast had added a provision that
would permit Comcast unilaterally, and on just four
hours’ notice, to take any ad inventory from Viamedia
and contribute it to the Interconnect. That uncertainty would have rendered those spot avails virtually
worthless to advertisers.

7

On these points, the record contains more precise numbers
in documents that have been under seal. Here and elsewhere in
this opinion, we have used verbal descriptions rather than specific numbers for important information that has been submitted
under seal. We are skeptical, however, about the grounds for
sealing much, if not all, of the evidence under seal. Simultaneously with this decision, we are issuing an order that unseals evidence we identified in an earlier order to show cause, and we are
ordering the parties to show cause why any of the remaining
sealed evidence, including that obtained from non-parties,
should remain under seal at this time.

28a
Along with these onerous terms, the revenueshare proposals appeared to be below market rate for
Interconnect-only access, compared to both Viamedia’s prior agreement with Comcast and other Interconnect-only access agreements in any other comparable DMAs. In short, the agreements did not offer
access to the Interconnect in a way that would allow
Viamedia to provide ad rep services to its MVPD customers. Nor were these terms to be found in any other
Interconnect-only agreement employed by any Interconnect operator in any DMA.
Moreover, during these “negotiations” in July
2014, the head of Comcast’s cable spot ad rep services
division and his colleague, Hank Oster, expressed concern that Comcast COO Dave Watson was “wavering
on why we won’t let Viamedia in the Interconnects.”
Whatever second thoughts some within Comcast
might have had, however, Comcast’s approach did not
change. As Oster later candidly explained, by July
2014 Comcast already “had made the decision” to exclude Viamedia from the Interconnects. Comcast was
also telling WOW! that it would not allow it to return
to the Interconnect with Viamedia as its ad rep, and
that Comcast was taking that position as part of its
“strategic plan.” A230.
Comcast urges us to infer—as a matter of law—
that it was acting for procompetitive reasons. The evidence, though, can easily support the inference that
Comcast was instead choosing to inflict financial pain
on both its competitors and itself to gain monopoly
power in the ad rep services market, which would also
produce a new advantage over its retail cable competitors. By cutting Viamedia off from the Chicago and
Detroit Interconnects in 2012, Comcast ensured that

29a
its competitor MVPDs’ spot avails could not be distributed through the Interconnects while they were represented by Viamedia under their existing contracts.
This was an expensive decision for Comcast. As
operator of the Interconnect, Comcast’s internal analysis of the “Revenue Impact” of its decision predicted
that Comcast itself would lose $10.6 million in just the
first six months after cutting off Viamedia’s (and thus
RCN’s and WOW!’s) access, including $2.3 million in
lost cash flow. A838, A787–88. The evidence of actual
effects is consistent with that prediction. In the years
that RCN and WOW! were unable to access the Interconnects (June 2012 through December 2015), they
lost approximately $27 million in ad revenue. Comcast itself lost $7 million in commissions. A248, A637,
A648 (figs. 35, 46). Moreover, Comcast’s own spot
avails would have decreased in value because an advertiser could no longer reach all cable subscribers
within the DMA through the Interconnect.
But as an amicus supporting Comcast points out,
Comcast could easily afford to sacrifice millions in Interconnect fees and lower ad revenue in order to inflict
this harm on its MVPD competitors, advertisers, and
Viamedia. As the dominant MVPD provider in markets across the country, this “temporary and localized
lost revenue is small potatoes,” a mere “rounding error.” Brief for Washington Legal Foundation’s as
Amicus Curiae Supporting Appellees at 22. Just so.
With Comcast and Viamedia as the only two providers of ad rep services in the Chicago and Detroit
DMAs, Comcast’s denial of Interconnect access to Viamedia left Comcast with an effective monopoly over
both Interconnect services and ad rep services. The
window of time between Viamedia’s foreclosure from
Interconnect access and Comcast’s competitor

30a
MVPDs’ return to the market to seek bids for their ad
rep services would be the time for Comcast “to overpower ViaMedia,” as a Comcast employee in the Detroit DMA explained. A217 (budget presentation). So
the evidence supports an inference that Comcast willingly chose to inflict short-term financial losses on itself. Why? A reasonable explanation is that it did so
because it could survive those losses (the “small potatoes” and “rounding error”) to obtain and use monopoly power in the ad rep services market.
In this lawsuit Comcast has argued that RCN and
WOW! chose it over Viamedia on the merits of its offered services. Comcast highlights, for example, testimony from an RCN representative that—after comparing Comcast’s offer with Interconnect access to Viamedia’s offer without—“It was not in the end a very
difficult decision to make.” DA688. But this answer
presupposes that Comcast shutting its competitors
out of the Interconnects could be a reasonable basis to
treat RCN’s decision as uncoerced. There is evidence
that Comcast did just that. Contrary to the assertions
of the district court and our colleague who dissents in
part, for example, a Comcast employee working in the
Chicago and Detroit DMAs explained that Comcast
had adopted “a business practice” that “if an MVPD
wants to get access to a Comcast controlled Interconnect, it has to hire Comcast as its sale representative.”
A215.
Viamedia’s evidence also supports a finding that
WOW! and RCN did not go willingly into Comcast’s
arms. Both pushed back against Comcast’s demands
(or threats) that they either use it for their advertising
services or face exclusion from the Interconnects if
they stayed with Viamedia. A WOW! employee com-

31a
municating with Comcast reported back to WOW! colleagues that Comcast was “maintaining their position
that [WOW!] can be in the IC [Interconnect] but only
if they [Comcast] rep us directly.” A215 n.81, A230
n.129. It is a factual question whether it was reasonable at the time for the smaller MVPDs to “understand [that] to be part of the interconnect [they] would
need to be with Comcast Spotlight,” Comcast’s ad rep
services arm. DA687.
Comcast’s competitor MVPDs immediately began
losing money after Comcast excluded them from the
Interconnects. They lamented that their reductions
in cash flow were “primarily due to the loss of the
Comcast Interconnect revenues in Chicago and Detroit.” A233. Despite that pressure, though, the
MVPDs continued to resist Comcast’s demands. As
discussed above, at the time, Comcast was trying to
buy TimeWarner Cable, a proposed deal that was under review by federal agencies. With a forum to share
their ongoing experiences with Comcast, RCN (futilely) filed comments with the FCC, alerting regulators that “Comcast was not being truthful” when it
said “RCN is free to join the Comcast-managed interconnects at any time,” because “Comcast will only allow RCN to join the interconnects if RCN employs
Comcast Spotlight instead of Viamedia.” A215 n.81,
A886–87.
Viamedia also was not going quietly. Even though
Comcast had barred it from Interconnect access, Viamedia continued to compete for RCN’s and WOW!’s
business. Without Interconnect access, their MVPD
customers’ spot avails would not bring in nearly as
much revenue, which left Viamedia’s bids’ proposed
revenue shares at a substantial disadvantage com-

32a
pared to Comcast’s bids. A231–32. Nonetheless, Viamedia’s bids caused consternation for Comcast. Internal Comcast emails reflect executives’ disbelief.
They called it “absolutely unbelievable” that Viamedia could make a remotely competitive bid without Interconnect access. A232. In contrast to Viamedia’s
bids, Comcast bids touted the “exclusive” benefit of Interconnect access that WOW! would receive if it selected Comcast for ad rep services. Comcast said that
the “generous” financial terms it offered included the
“sizable annual guarantee” that would be attributable
to “the opportunity to add WOW! subscribers [back] to
the important Detroit and Chicago Interconnects.” In
other words, sign up with Comcast for ad rep services,
and we will stop your bleeding—the bleeding that we
have inflicted by barring you from the DMA Interconnects.
Substantial evidence thus shows that Comcast’s
MVPD competitors did not want to buy ad rep services
from Comcast. Their reluctance was not based on a
short-sighted inability to see the procompetitive benefits of Comcast’s vertical integration or what Comcast touts as “one-stop shopping.” Rather, these
MVPDs had economically rational reasons for seeking
to avoid this entanglement with their dominant competitor, which would naturally have divided loyalties.
In addition, WOW! considered Viamedia to be “by far
the best ad partner from a technical team to work
with.” A560, DA 685. RCN testified that it would prefer to obtain ad rep services from an independent company like Viamedia rather than Comcast because, “all
things being equal, even close to being equal,” it “had
concerns about being a partner with a company associated with our competitor.” A236 n.150.

33a
Thus, as Comcast’s MVPD competitors assessed
the situation, the possible outcomes all amounted to
unfair wins for Comcast. Its actions could have resulted in three different outcomes, each of which
would work to its benefit and harm its competitors.
First, if Comcast succeeded in having its competitor
MVPDs buy Comcast ad rep services, Comcast would
gain the following benefits:


Comcast’s smaller MVPD rivals would now be
contributing additional revenue toward their
dominant competitor, Comcast;



The majority of spot avails that MVPDs had
formerly kept out of the Interconnects to allocate to, among other outlets, local ads (for
which the MVPDs compete against each other
for sales) would now come under the control of
their competitor Comcast—whose contracts
required that Comcast have “sole and exclusive control” over all spot avails;



Comcast’s competitor MVPDs would just have
to trust that Comcast would make the best
business decisions on behalf of its competitors
when allocating adds to the national, regional,
and local sales markets. For example, the
smaller MVPDs prefer to weight some of their
ad sales to non-Interconnect local sales, which
help the MVPDs with local business relationships that can lead to additional sales of services, such as providing business internet connectivity (sales for which they compete
against Comcast); the Interconnect operator,
on the other hand, prefers DMA-wide Interconnect ad sales for which it gets higher margins—an ad mix choice that Comcast would be

34a
free to make for its smaller MVPD competitors;


Comcast would be a single seller of advertisements in the local market, eliminating competition;



Comcast would not only have access to its
competitor MVPDs’ ad sales information, but
the MVPDs would have to provide Comcast
with all of their own promotional ad materials
to current and potential subscribers that they
are attempting to retain or win away from
Comcast, giving Comcast a chance to undercut
them. That would be in addition to other competitively sensitive information (e.g., number
and location of its subscribers) that would
need to be disclosed.

Viamedia has offered evidence that what drove
Comcast’s actions was this close relationship with
competing MVPDs—not hypothesized economic efficiencies from ordinary vertical integration. For example, there are some DMAs where Comcast controls the
Interconnects, but the participating MVPDs do not
have overlapping footprints with Comcast’s service areas. In those DMAs, Comcast still offers Interconnectonly agreements on terms similar to the terms of the
former Comcast-Viamedia agreements for the Chicago and Detroit DMAs.
Viamedia offered evidence on summary judgment
(described above) of a second outcome in which Comcast’s MVPD competitors would forgo Interconnect access entirely and renew with Viamedia rather than
switch to Comcast. If its MVPD competitors made
that choice, those MVPDs would be cut off from a large
percentage of ad revenue, which in turn would hinder

35a
them from funding promotional offers to their subscribers, potentially leading their subscribers to
switch to Comcast. In the meantime, Comcast’s lost
millions from Interconnect fees and reduced advertising revenue within the DMA would continue to be a
mere “rounding error.”
In the third potential outcome—which only Comcast contends was actually a possibility—Comcast
would not bar competing MVPDs completely from Interconnect access but instead would permit them to
have Interconnect-only access if they took care of their
own ad services, without using either Viamedia’s or
Comcast’s ad rep services. In this scenario, Comcast
would lose the revenue it would have gained from
providing full-turnkey service to the MVPDs, but it
would still earn Interconnect access fees and the Interconnect’s value would not be degraded. The result
would also raise rivals’ costs by forcing them to provide internally the staff, technology, and services that
Viamedia had previously provided at lower cost.
Those fixed costs would be difficult for those MVPDs
to afford and would shift revenue away from subscriber promotions and further infrastructure buildout. See FCC 2007 Report and Order at 8 ¶ 13 (“Revenues from cable services are, in fact, a driver for
broadband deployment,” i.e., the build-out of additional cable infrastructure).8

8

Viamedia has presented evidence that RCN and WOW! did
not view bringing ad rep services in-house as a viable option.
When confronted with Comcast’s refusal to deal with Viamedia,
both said they had no choice but to enter into ad rep agreements
with Comcast. A215, A887. The in-house option was always
available in theory. But RCN and WOW! are presumed to be
economically rational actors. They had always chosen to buy

36a
Faced with this Hobson’s choice, Comcast’s competitor MVPDs chose to sign with Comcast in 2015.
WOW! noted that “a key decision point” in this
“choice” was its understanding that “in order to remain competitive, we need to be in the Interconnect.”
A233. WOW! signed with Comcast for ad rep services
in Chicago and Detroit in 2015. WOW! continued,
however, to use Viamedia as its ad rep in some nonComcast DMAs.
Similarly, although RCN had
planned to renew its contract with Viamedia, it too ultimately decided to sign with Comcast for Chicago and
Detroit. By 2016, a Comcast employee congratulated
a colleague regarding its new monopoly in ad rep services in the Chicago DMA: “THE WOW AND RCN
DEALS PROVIDE [COMCAST] WITH COMPLETE
REPRESENTATION OF THE CHICAGO MARKET.”
A214 n.77.
II. District Court Proceedings
In 2016, Viamedia sued Comcast for violating Section 2 of the Sherman Antitrust Act, as well as various
state antitrust statutes, and for tortious interference.
The parties agree that analysis under the state antitrust statutes tracks federal antitrust law, so the federal antitrust analysis controls whether the state antitrust claims survive. Viamedia is no longer pressing
its tortious interference claim, so our only focus is Section 2 of the Sherman Act.
Comcast moved to dismiss the complaint for failing to state a claim. The district court construed Viamedia’s complaint as alleging that Comcast engaged
in three types of monopolistic conduct recognized by
the antitrust laws: (1) Comcast’s refusal to deal with
these services from outside companies, suggesting that in-house
was not an economically viable option.

37a
Viamedia by cutting off access to the Interconnects,
(2) Comcast’s exclusive dealing, and (3) Comcast’s tying of Interconnect access to the purchase of Comcast’s ad rep services.
The district court granted the motion to dismiss
with respect to Viamedia’s refusal-to-deal claim, faulting Viamedia for failing to demonstrate through its allegations that Comcast’s conduct was “irrational but
for its anticompetitive effects.” Viamedia, Inc. v. Comcast Corp., 218 F. Supp. 3d 674, 698 (N.D. Ill. 2016).
The court hypothesized that Comcast’s complete foreclosure of Viamedia from the market potentially
serves a procompetitive purpose and “offers potentially improved efficiency.” 218 F. Supp. 3d at 699.
And because “vertical integration is usually procompetitive,” Comcast likely had “a rational procompetitive purpose: it has become ‘a one- stop shop’ in certain
DMAs for MVPDs wishing to sell advertisements on a
regional basis.” Id. at 698–99. Comcast’s “short-term
losses” in excluding Viamedia and Comcast’s competitor MVPDs from the Interconnects were not “necessarily indicative of anticompetitive conduct,” the court
reasoned in dismissing a later version of the complaint on identical grounds, because a “monopolist
might wish to withdraw from a prior course of dealing
. . . in order to pursue perfectly competitive ends.” Viamedia, Inc. v. Comcast Corp., No. 16-CV5486, 2017
WL 698681, at *4 (N.D. Ill. Feb. 22, 2017), quoting
Novell, Inc. v. Microsoft Corp., 731 F.3d 1064, 1075
(10th Cir. 2013).
After discovery on Viamedia’s exclusive dealing
and tying claims, the district court granted Comcast’s
motion for summary judgment because Viamedia had
failed to “present evidence that tends to exclude the

38a
possibility that [defendant’s] conduct was as consistent with competition as with illegal conduct.” Viamedia, Inc. v. Comcast Corp., 335 F. Supp. 3d 1036,
1054 (N.D. Ill. 2018). In the district court’s view, there
was no evidence that Comcast conditioned its sale of
Interconnect services to MVPDs on their purchase of
ad rep services because in DMAs outside the relevant
geographic markets, Comcast did offer Interconnectonly access to other MVPDs. Id. at 1058–59. Further,
because “both RCN and WOW! wanted full-turnkey
representation,” the purchase of the two products together could not be considered tying. Id. at 1059. In
fact, the district court concluded (in tension with the
observation that Comcast offered Interconnect-only
access in other DMAs), Comcast had “no reason to
oěer” Interconnect-only access to RCN and WOW! because, the district court again hypothesized, an Interconnect-only deal would be less substantial, less profitable, and less efficient for Comcast than a full-turnkey deal. Id. at 1059.
In any event, even if Comcast had refused to deal
with its competitor MVPDs unless they met Comcast’s
condition of purchasing ad rep services, the court
viewed this as simply a reformulation of Viamedia’s
already-dismissed refusal-to-deal claim. 335 F. Supp.
3d at 1062, 1070, 1072. To support this conclusion,
the district court noted that Viamedia sought injunctive relief that would restore its access to the Interconnects and give RCN and WOW! the option to decline purchase of Comcast’s ad rep services. Id. at
1074.
In addition, the district court found that Viamedia’s two experts’ testimony was based upon an incorrect understanding of the law—i.e., that Comcast had
engaged in anticompetitive conduct for which it could

39a
be held responsible under the antitrust laws. Id. at
1064–74. The district court concluded that this justified excluding the damages expert’s testimony in its
entirety, as well as a portion of the economic expert’s
testimony. Viamedia has appealed the final judgment
dismissing its claims.
III. Legal Standards and Analysis
With the facts and competitive dynamics set out,
we turn to the legal standards and analysis. In Part
III-A, we describe the standards for an antitrust violation under Section 2, the monopolization provision
of the Sherman Act. Undisputed by the parties, we
explain that Comcast is a monopolist in the relevant
geographic markets (here: Chicago, Detroit, and
Hartford) for both Interconnect and ad rep services,
and that it is the dominant MVPD retail cable provider.
In Part III-B, we address Viamedia’s two claims.
In Part III-B-1, we set out the legal test for refusals to
deal and assess Comcast’s conduct, explaining why
this claim should not have been dismissed on the
pleadings. In Part III-B-2, we turn to Viamedia’s tying claim. These related claims are both based on the
same course of conduct, resulted in the same anticompetitive harms, and would be subject to the same procompetitive justifications or defenses. The decision to
dismiss one claim on the pleadings while allowing the
other, closely related claim to go as far as summary
judgment offered potential for confusion, but in the
end, both claims need to be tried.
In Part III-C, we evaluate in greater detail the
harm to competition alleged by Viamedia and the procompetitive justifications offered by Comcast, high-

40a
lighting considerations that will be relevant on remand. In Part III-D, we explain that Viamedia has
presented evidence of a cognizable antitrust injury as
a rival driven from the market by a tying arrangement.
Finally, in Part III-E, we address the district
court’s rulings excluding expert witness evidence.
Our resolution of Viamedia’s refusal-to-deal and tying
claims largely resolves its challenge to the testimony’s
exclusion. The district court’s decision on this score
was based almost entirely upon its erroneous legal
analysis. On remand, the district court will need to
take a fresh look at the expert reports in light of this
opinion.
A. Sherman Act Section 2—Illegal Monopolization
Section 2 of the Sherman Antitrust Act imposes
liability on “Every person who shall monopolize . . .
any part of the trade or commerce among the several
States.” 15 U.S.C. § 2. A private plaintiff like Viamedia may bring a civil claim as a person who was “injured in his business or property by reason of anything
forbidden in the antitrust laws.” 15 U.S.C. § 15(a).
Judicial decisions interpreting Section 2 have long
held that simple possession of monopoly power, or the
pursuit of it, is not in itself illegal. United States v.
U.S. Steel Corp., 251 U.S. 417, 451 (1920) (“[T]he law
does not make mere size an offence, or the existence
of unexerted power an offense. It . . . requires overt
acts.”); United States v. Aluminum Co. of America, 148
F.2d 416, 429–30 (2d Cir. 1945) (“size does not determine guilt” as the monopolist may have gained market power “by force of accident,” or “by virtue of his
superior skill, foresight and industry”; therefore,

41a
“there must be some ‘exclusion’ of competitors”).
Thus, a firm violates the monopoly provision in Section 2 only when it both (1) possesses “monopoly power
in the relevant market” and (2) engages in “the willful
acquisition or maintenance of that power as distinguished from growth or development as a consequence
of a superior product, business acumen, or historic accident.” Verizon Communications, Inc. v. Law Offices
of Curtis V. Trinko, LLP, 540 U.S. 398, 407 (2004),
quoting United States v. Grinnell Corp., 384 U.S. 563,
570–71 (1966); see also Phillip E. Areeda & Herbert
Hovenkamp, Antitrust Law: An Analysis of Antitrust
Principles and Their Application ¶ 600a, at 3, ¶ 650a,
at 91 (4th ed. 2015) (Areeda & Hovenkamp).9
On appeal, the parties do not dispute several often-contentious issues in antitrust cases: the relevant
geographic and product markets, and market power.
See Goldwasser v. Ameritech Corp., 222 F.3d 390, 397
(7th Cir. 2000) (“Few would say that the first element
is easily proved: it is exceedingly difficult to prove
market power, or monopoly power . . . .”). The relevant geographic markets are the specific DMAs in
which Viamedia asserts Comcast’s conduct harmed
competition: Chicago, Detroit, and Hartford. See
Tampa Elec. Co. v. Nashville Coal Co., 365 U.S. 320,
332–33 (1961) (a relevant antitrust geographic market is the area in which sellers operate and where purchasers can predictably turn for supplies). Comcast’s
conduct in other DMAs may be relevant for comparison purposes.
The relevant product market allegedly monopolized is ad rep services for MVPDs. The immediate

9

This appeal does not present any issues under the Section 2
language barring attempts and conspiracies to monopolize.

42a
effect of Comcast’s conduct was to force out its only
competitor in that market to gain monopoly power in
the relevant geographic markets for those services.
This market is inextricably connected to access to the
cooperative mechanism of the Interconnects, as well
as to the related markets for MVPD retail cable services and the sale of MVPD spot avails. Understanding the harm to competition in these related markets
helps in assessing Comcast’s alleged conduct. “Antitrust analysis must always be attuned to the particular structure and circumstances of the industry at issue.” Trinko, 540 U.S. at 411; see also Areeda &
Hovenkamp ¶ 1802d, at 79–80 (When assessing exclusionary conduct, it is “necessary to examine market
power or share at both of the two market levels involved.”).
As for market power, in the Chicago, Detroit, and
Hartford markets, Comcast started with monopoly
control over Interconnect access and services. Comcast has acquired a pure monopoly in the market for
ad rep services in these metropolitan areas, where it
is also by far the dominant MVPD retail cable provider.10
A firm’s market power is important because, without it, a firm will have little to no ability to distort or
harm competition, no matter how great its desire to
do so, even when engaging in conduct that in different
circumstances might be perceived as anticompetitive.
See Novell, Inc. v. Microsoft Corp., 731 F.3d 1064,
1071 (10th Cir. 2013) (Gorsuch, J.) (“Not infrequently,
10

For antitrust purposes “monopoly power and market power
typically are used interchangeably” and simply mean that “a firm
can influence the price it receives for its product.” Dennis W.
Carlton and Jeffery M. Perloff, Modern Industrial Organization
137 (2d ed. 1994).

43a
the initial question of market power proves decisive.”).
Even “[m]ildly reprehensible behavior might be
enough to challenge a firm whose power is significant.” Areeda & Hovenkamp ¶ 600b, at 4.
B. Claims of Anticompetitive Conduct: Refusals
to Deal and Tying
The dispute here focuses on the second prong of
the Section 2 test: did Comcast “willfully acquire” or
“maintain” its new monopoly power in the ad rep services market, or is its new market dominance “a consequence of a superior product or business acumen” or
the result of an “historic accident”?
Baked into this inquiry is an assessment of what
types of anticompetitive conduct are prohibited as illegally acquiring or maintaining monopoly power, rather than the kind of pro-competitive conduct the antitrust laws do not impede. The latter includes innovation resulting in superior products, the introduction
of efficiencies reflecting superior business acumen, or
even the luck of a firm that unwittingly stumbles into
a monopoly position. See Areeda & Hovenkamp
¶ 600a, at 3 (setting out first two prongs identified
above and articulating the two “subsidiary questions”:
(3) “given that § 2 requires some element of conduct in
addition to substantial market power, what kinds of
conduct or intent transform power into unlawful monopolization; and (4) what defenses, if any, save monopoly power from condemnation?”).
The statutory text does not provide the answers,
but case law over more than a century provides extensive guidance. Courts recognize various types of conduct that have the potential to harm competition. The
types of conduct alleged in this case are “exclusionary”
in nature, impairing rivals’ opportunity to compete in

44a
a way that is inconsistent with “competition on the
merits.” Areeda & Hovenkamp ¶ 650a, at 92; see also
id. ¶ 651b, at 99–100; Covad Communications Co. v.
Bell Atlantic Corp., 398 F.3d 666, 675–76 (D.C. Cir.
2005) (agreeing with plaintiff’s description of defendant’s refusal to deal as “‘predatory’ . . . because, in the
vernacular of antitrust law, a ‘predatory’ practice is
one in which a firm sacrifices short-term profits in order to drive out of the market or otherwise discipline
a competitor”).
In the present case, Viamedia alleges and has offered evidence that Comcast: (1) refused to deal with
Viamedia by denying it Interconnect access, and
(2) engaged in tying by denying MVPDs Interconnect
access unless they purchased Comcast’s ad rep services.11 We set out below the legal tests for refusals to
deal and tying, which help in assessing whether such
conduct is anticompetitive and illegal, or instead
harmless or even procompetitive.
Conduct that can harm competition may fit into
more than one of these court-devised categories. After
all, the “means of illicit exclusion, like the means of
legitimate competition, are myriad.” Trinko, 540 U.S.
at 398, quoting United States v. Microsoft Corp., 253
F.3d 34, 58 (D.C. Cir. 2001) (en banc). Although “the
standard for a § 2 violation is significantly stricter in
its power assessment [than for a § 1 claim], it is
broader and less categorical in its definition of proscribed conduct.” Areeda & Hovenkamp ¶ 777a, at
324. This means that a dominant firm’s conduct may
be susceptible to more than one court-defined category
of anticompetitive conduct. A “simple refusal to deal”

11

To “simplify the issues” on appeal, Viamedia elected not to
pursue exclusive dealing as a distinct theory of liability.

45a
is conduct where one firm “refuses to deal no matter
what,” whereas “[t]ying and exclusive dealing are two
common examples” of “conditional refusals to deal”—
i.e., one firm will refuse to deal with another firm unless “some condition is met.” Herbert Hovenkamp,
FRAND and Antitrust, CORNELL L. REV. (forthcoming
2020) (manuscript at 11), available at http://papers.ssrn.com/sol3/papers.cfm?abstract_id=3420925.
Similarly, “[m]any of the practices that have been
characterized as exclusive dealing could also be described as tying” because “[t]he economic distinction
between the two is most often slight or nil.” Areeda &
Hovenkamp ¶ 1800b, at 7–8, ¶ 1800a, at 4.
The fact that the categories of conduct here are
conceptually related and may overlap should not
cause confusion if we stay focused on the underlying
inquiry: the conduct “must harm the competitive process and thereby harm consumers.” Microsoft, 253
F.3d at 58; see also Nynex Corp. v. Discon, Inc., 525
U.S. 128, 135 (1998) (plaintiffs “must allege and prove
harm, not just to a single competitor, but to the competitive process, i.e., to competition itself”). At bottom, the purpose of identifying these categories of conduct is to help determine “the presence or absence of
harmful effects, which are both the reason for any antitrust concern and often the simplest element to disprove.” Areeda & Hovenkamp ¶ 1701d, at 33. We
therefore start by assessing how Comcast’s conduct
fits into these categories under Section 2, mindful that
we should stay focused on the effect Comcast’s conduct
has on competition.
1. Refusals to Deal
The district court dismissed on the pleadings the
portion of Viamedia’s complaint focused on a refusalto-deal theory. We review de novo a grant of a motion

46a
to dismiss, “constru[ing] the complaint in the light
most favorable to the plaintiff, accepting as true all
well-pleaded facts alleged, and drawing all possible
inferences in [its] favor.” Tamayo v. Blagojevich, 526
F.3d 1074, 1081 (7th Cir. 2008); see also Goldberg v.
United States, 881 F.3d 529, 531 (7th Cir. 2018) (in
reviewing dismissal for failure to state a claim, we accept facts alleged by plaintiff without vouching for
their objective truth). We next set out the general
principles underlying a refusal-to-deal claim and then
explain how the leading case—Aspen Skiing—maps
onto Comcast’s conduct. We then reject Comcast’s argument that Viamedia’s claim could properly be dismissed on the pleadings.
a. Monopolists and Refusals to Deal
Monopolists are both expected and permitted to
compete like any other firm. Cargill, Inc. v. Monfort
of Colorado, Inc., 479 U.S. 104, 116 (1986). A monopolist is not obliged to “watch[] the quality of its products deteriorate and its customers become disaffected”
and “lie down and play dead” because “even a monopolist is entitled to compete.” Goldwasser v. Ameritech
Corp., 222 F.3d 390, 397 (7th Cir. 2000). “Part of competing like everyone else is the ability to make decisions about with whom and on what terms one will
deal.” Id.; see also Authenticom, Inc. v. CDK Global,
LLC, 874 F.3d 1019, 1025 (7th Cir. 2017). And just
because “a firm has monopoly power doesn’t mean
that the law should prevent it from competing,” as “[i]t
would be absurd to require the [monopolist] to hold a
price umbrella over less efficient entrants.” Richard
A. Posner, Antitrust Law 196 (2d ed. 2001). Thus, the
general rule is that even monopolists “are free to
choose the parties with whom they will deal, as well
as the prices, terms, and conditions of that dealing.”

47a
Pacific Bell Telephone Co. v. Linkline Communications, Inc., 555 U.S. 438, 448 (2009), citing United
States v. Colgate & Co., 250 U.S. 300, 307 (1919).
Yet there are “limited circumstances” under
which a monopolist’s refusal to deal with another
party will be illegal anticompetitive conduct. Id.; see
also Areeda & Hovenkamp ¶ 1800c5, at 21 (“Section 2
of the Sherman Act reaches unilateral refusals to deal
when the refusals constitute monopolization . . . .”).
For example, in Lorain Journal Co. v. United States,
342 U.S. 143 (1951), a monopolist newspaper was “an
indispensable medium of advertising for many” local
businesses but refused to deal with any advertiser
who placed any ad with a new radio competitor in an
effort “to destroy and eliminate” the new competitor.
Id. at 152, 150. The Court was not persuaded by the
newspaper’s argument that it had “a right as a private
business concern to select its customers and to refuse
to accept advertisements from whomever it pleases.”
Id. at 155.
In a holding that resonates in this case, Lorain
Journal explained: “In the absence of any purpose to
create or maintain a monopoly, the act does not restrict the long recognized right of trader or manufacturer engaged in an entirely private business, freely
to exercise his own independent discretion as to parties with whom he will deal.” Id., quoting Colgate, 250
U.S. at 307; see also Goldwasser, 222 F.3d at 397 (acknowledging circularity of Colgate test). With the
newspaper’s clear expectation that it would “outlast”
the new competition and regain its complete monopoly, and with “no apparent efficiency justification for
its conduct,” Lorain Journal has been described as
“entirely correct.” Robert H. Bork, The Antitrust Paradox: A Policy at War with Itself 344–45 (2d ed. 1993).

48a
This theory of liability was endorsed again in Aspen
Skiing Co. v. Aspen Highlands Skiing Corp., 472 U.S.
585 (1985), the leading case on this issue.
b. Aspen Skiing and Comcast
Comcast takes the position that after the Supreme
Court’s 2003 Trinko decision, any “antitrust claims
based on a duty to deal with rivals ‘bit the dust.’” In
the face of both Aspen Skiing and the actual language
of Trinko, we must reject that argument about what
the law should be. Trinko itself said just the opposite:
“Under certain circumstances, a refusal to cooperate
with rivals can constitute anticompetitive conduct
and violate Section 2,” and the “leading case for § 2
liability based on refusal to cooperate with a rival . . .
is Aspen Skiing.” 540 U.S. at 408; see also Linkline,
555 U.S. at 448 (“There are also limited circumstances
in which a firm’s unilateral refusal to deal with its rivals can give rise to antitrust liability.”), citing Aspen
Skiing, 472 U.S. at 608–11.
What do those limited circumstances look like? In
addition to reiterating Aspen Skiing’s continued, albeit narrow, validity, the Court has also provided useful guidance on primary factors to consider when determining whether potentially anticompetitive conduct falls within Aspen Skiing’s bounds. To provide
background on what role those factors play in a court’s
analysis, we summarize the facts of Aspen Skiing, focusing on the primary factors the Supreme Court has
continued to highlight.
The case involved four ski mountains that were
initially developed and operated under separate ownership. 472 U.S. at 587. For over a decade, the four
mountains offered a variety of ski-lift tickets and
packages, including a joint ticket that allowed skiers

49a
to gain convenient access to all four mountains. Id. at
588–89. Even as defendant Aspen Skiing Company
(Ski Co.) came to control three of the four mountains,
thus gaining market power over the Aspen ski area,
the joint “interchangeable ticket” program continued
to include the fourth mountain, which was independently owned by plaintiff Aspen Highlands Skiing
Corporation (Highlands). Id. at 590–92. Revenues
from this cooperative arrangement were distributed
according to mountain usage. The joint ticket was a
popular and profitable package for both parties. The
four-mountain package outsold by a two-to-one margin the Ski. Co. packages that offered access to only
its three mountains. Id. at 592.
Ski Co. management concluded, however, that if
the four-mountain ticket were not available at all, customers would default to buying just Ski Co.’s threemountain pass. Ski Co.’s president explained that
“the 4-area ticket was siphoning off revenues that
could be recaptured by Ski Co. if the ticket was discontinued.” Id. In the following year’s negotiations,
Ski Co. made a revenue share offer to Highlands on
such unfavorable terms that Ski Co. correctly expected Highlands “could not accept” it. Id. The joint
ticket was no longer offered. Id. In an attempt to
stanch the flow of lost business, Highlands “tried a variety of increasingly desperate measures to re-create
the [four-mountain] joint ticket,” including “offering to
buy the defendant’s tickets at retail price.” Trinko,
540 U.S. at 408–09, citing Aspen Skiing, 472 U.S. at
593–94. Ski Co. refused to permit Highlands even to
“pay full retail value for the daily lift tickets,” with a
Ski Co. official explaining, “we will not support our
competition.” Aspen Skiing, 472 U.S. at 593–94 n.14.
Highlands filed suit.

50a
At trial, defendant Ski Co. primarily relied on the
testimony of its economic expert, which included the
theory that Ski Co.’s conduct had such procompetitive
justifications as eliminating “free-riding by Highlands.”12 Ski Co. offered evidence that its own product
was being devalued by being associated with “the inferior skiing services offered at Highlands.” Aspen
Skiing, 472 U.S. at 609–10. Ski Co. also argued that it
could save administrative expenses and other costs by
eliminating the joint ticket, which Ski Co. found “administratively cumbersome.” Id. at 592. In short, defendant Ski Co. argued that “the conduct at issue was
pro-competitive conduct that a monopolist could lawfully engage in.” Id. at 599.
Procompetitive justifications were also highlighted in the jury instructions. The jury was instructed that a monopolist “is not barred from taking
advantage of scale economies by constructing a large
and efficient factory,” nor is it “under a duty to cooperate with its business rivals . . . if valid business reasons exist for that refusal.” Id. at 597. Ski Co. could
be found liable only if it “gained, maintained, or used
monopoly power in a relevant market by arrangements and policies which rather than being a consequence of a superior product, superior business sense,
or historic element, were designed primarily to further any domination of the relevant market.” Id.
Therefore, “if there were legitimate business reasons
for the refusal [to deal], then the defendant, even if he
is found to possess monopoly power in a relevant market, has not violated the law,” because the law is not
12

See George L. Priest & Jonathan Lewinsohn, Aspen Skiing:
Product Differentiation and Thwarting Free Riding as Monopolization, in Antitrust Stories 248 (Eleanor M. Fox and Daniel A.
Crane, eds., 2007).

51a
concerned with conduct which may “benefit consumers by making a better product or service available”—
only conduct that “has the effect of impairing competition.” Id. at 597. The jury “resolved all contested
questions of fact in Highlands’ favor,” id. at 599, including a finding “that there were no valid business
reasons for the refusal.” Id. at 605.
The Supreme Court upheld the jury verdict for the
plaintiff. The Court reiterated Lorain Journal’s rejection of the argument that “the right to refuse to deal
with other firms . . . is unqualified.” Id. at 601–02 &
n.27, citing Lorain Journal, 342 U.S. at 155, and Colgate, 250 U.S. at 307. This conclusion was supported
by three key factors.
First, Ski Co. “elected to make an important
change in a pattern of distribution that had originated
in a competitive market and had persisted for several
years,” including after “the character of the market
was changed by Ski Co.’s acquisition of monopoly
power.” Id. at 603. Such a pre-existing relationship
supports a presumption that the joint arrangement
was efficient and profitable. Trinko, 540 U.S. at 408–
09 (distinguishing Aspen Skiing from situation where
that presumption would not apply—e.g., a defendant
who would never have “voluntarily engaged in a
course of dealing with its rivals . . . absent statutory
compulsion”); see also Linkline, 555 U.S. at 450 (refusing to impose a duty to deal on a defendant when
“such duty arises only from FCC regulations, not from
the Sherman Act”). The Court explained in Aspen Skiing:
In any business, patterns of distribution develop over time; these may reasonably be
thought to be more efficient than alternative
patterns of distribution that do not develop.

52a
The patterns that do develop and persist we
may call the optimal patterns. By disturbing
optimal distribution patterns, one rival can
impose costs upon another, that is, force the
other to accept higher costs.
472 U.S. at 604 n.31, quoting Robert H. Bork, The Antitrust Paradox 156 (1978).
Second, the Court compared Ski Co.’s conduct in
the Aspen market with Ski Co.’s arrangements in
comparable markets where it lacked such dominance,
noting that cooperative joint tickets were “used in
other multimountain areas which apparently are competitive.” Aspen Skiing, 472 U.S. at 603–04 & n.30.
The Court could thus “infer that such tickets satisfy
consumer demand in free competitive markets.” Id.
Third, defendant Ski Co. decided to forgo profitable transactions by refusing to permit Highlands to
purchase ski tickets at the retail price for the sake of
harming Highlands. 472 U.S. at 608 (“The jury may
well have concluded that Ski Co. elected to forgo these
short-run benefits because it was more interested in
reducing competition . . . over the long run by harming
its smaller competitor.”). Ski Co. made this “decision
to avoid providing any benefit to Highlands even
though accepting the coupons would have entailed no
cost to Ski Co. itself, would have provided it with immediate benefits, and would have satisfied its potential customers.” Id. at 610.
These factors all pointed to Ski Co.’s conduct causing anticompetitive harm. But whether its conduct
“may properly be characterized as exclusionary” also
required consideration of possible procompetitive justifications, including any beneficial or harmful impacts on consumers or competition itself. Id. at 605,

53a
citing Bork, Antitrust Paradox at 138. Critical to this
case, the Court treated procompetitive justification as
a factual issue properly resolved by the jury. The
Court focused on “the evidence relating to Ski Co. itself, for Ski Co. did not persuade the jury that its conduct was justified by any normal business purpose.”
Id. at 608 (emphasis added). Conflicting evidence presented at trial undermined Ski Co.’s arguments that
the joint ticket was “administratively cumbersome”
(no more so than the joint tickets Ski Co. used in
other, competitive markets) and that Highlands’ “inferior skiing services” were free-riding on Ski Co.’s
services (a joint ticket “allowed consumers to make
their own choice on these matters of quality”). Id. at
608–10.
Highlands refuted Ski Co.’s procompetitive justifications with exactly the kind of evidence that is helpful to prove exclusionary conduct or “predation,” including “statements made by the officers or agents of
the company, evidence that the conduct was used
threateningly and did not continue when a rival capitulated, or evidence that the conduct was not related to
any apparent efficiency.” Id. at 608–09 n.39, quoting
Bork, Antitrust Paradox at 157 (emphasis in Aspen
Skiing). The Court concluded that “the evidence supports an inference that Ski Co. was not motivated by
efficiency concerns and that it was willing to sacrifice
short-run benefits and consumer goodwill in exchange
for a perceived long-run impact on its smaller rival.”
Id. at 611.
The Aspen Skiing factors help case-by-case assessments of whether a challenged refusal to deal is indeed anticompetitive, even though no factor is always
decisive by itself. For example, even “a monopolist
might wish to withdraw from a prior course of dealing

54a
and suffer a short-term profit loss in order to pursue
perfectly procompetitive ends—say, to pursue an innovative replacement product of its own.” Novell, Inc.
v. Microsoft Corp., 731 F.3d 1064, 1075 (10th Cir.
2013) (Gorsuch, J.). Similarly, forgoing short-run
profits may sometimes reflect desirable, procompetitive behavior, such as efforts to oěer “promotional discounts.” Id. And a defendant may have “procompetitive rationales for treating a rival differently,” such as
if “it’s more costly to deal with distant rivals than
other nearby customers.” Id. at 1078 n.4. But because
the factors as a whole provide a window into likely
harm to competition, a court should start with the Aspen Skiing factors in determining whether a refusal to
deal is unlawful.
The Supreme Court has described Aspen Skiing as
“at or near the outer boundary of § 2 liability.” Trinko,
540 U.S. at 409. Given the facts we must assume
here, Viamedia has presented a case that is well
within those bounds and appears stronger than Aspen
Skiing. A comparison of Viamedia’s allegations to the
facts found by the jury in Aspen Skiing (and which the
Supreme Court considered significant to its analysis)
is instructive:
ASPEN SKIING

VIAMEDIA
ALLEGATIONS

Long-term business relationship that created Same
joint offering
Relationship existed absent any statutory obliga- Same
tion/duty (Trinko)

55a
ASPEN SKIING

VIAMEDIA
ALLEGATIONS

Can presume prior relation- ship was thus mutu- Same
ally advantageous
Sudden course reversal

Same

Course reversal came at a
monetary loss for defend- Same
ant
Refused to
vice/product
price

sell serat retail Same

Sold product at retail
price to others in the rel- Same
evant market
Unhappy customers

Same

Discouraged customers
from doing business with Same
its smaller rival
Defendant continued to
deal with competitors in
Same
other competitive markets
Procompetitive justifications are a question for Same
the factfinder
Exclusionary
conduct
aimed at the only other Same
competitor in the market
Ski Mountain Passes

Different:
vices

Ad Rep Ser-

56a
In light of the similarities, unless the Court meant
to limit Aspen Skiing to ski resorts, we see no sound
basis to distinguish Viamedia’s case as a matter of
law. Comcast’s alleged conduct, absent compelling evidence to the contrary, indicates its “calculation that
its future monopoly retail price would be higher” by
foreclosing its ad rep services competitor. Trinko, 540
U.S. at 409. In addition, unlike in Aspen Skiing,
where the ultimate customers were skiers who did not
compete against the defendant ski resort, Comcast’s
refusal to deal with Viamedia has left its MVPD customers in these markets no practical choice but to
turn over their ad sales business, along with their sensitive business information and a large percentage of
their ad revenue, to their dominant MVPD competitor.
c.

Refusals to Deal and Motions to
Dismiss

Comcast nonetheless contends this case can be decided on the pleadings because “there is no liability
under Aspen Skiing where, as here, the defendant’s
alleged termination of a preexisting course of dealing
was not ‘irrational but for its anticompetitive effect.’”
Comcast relies on the district court’s acceptance of
Comcast’s thinly supported assertion that it had a
“valid business purpose” in refusing to deal with Viamedia because Comcast’s replacement of Viamedia
as WOW!’s and RCN’s ad representative is a course of
conduct that “offers potentially improved efficiency.”
See 218 F. Supp. 3d at 698–99 (emphasis added).
Comcast contends this “valid business objective” is
what “distinguishes this case from Aspen Skiing,
where the defendant ‘fail[ed] to offer any efficiency

57a
justification whatever for its pattern of conduct.’” Appellees’ Br at 27, quoting Aspen Skiing, 472 U.S. at
608.
Comcast’s argument has the facts wrong. Its
reading fails to comport with the actual language of
the opinion, the jury instructions, and the evidence
presented by both parties. In Aspen Skiing the Court
was reviewing a jury verdict. Only after a month-long
trial had the jury “resolved all contested questions of
fact in Highlands’ favor” and “concluded that there
were no valid business reasons for the refusal.” Aspen
Skiing, 472 U.S. at 599, 605. The Court concluded
that “the evidence supports an inference that Ski. Co.
was not motivated by efficiency concerns.” Id. at 610
(emphasis added).
Comcast next cites Novell in support of its argument that a factual dispute regarding the existence of
procompetitive justifications is appropriate for resolution on the pleadings. Yet Novell was a decision based
on an eight-week trial. 731 F.3d at 1066. And what
about Olympia Equipment Leasing Co. v. Western Union Telegraph Co., 797 F.2d 370 (7th Cir. 1986)? That
decision followed a “trial [that] lasted more than six
weeks and produced the usual mountain of testimony
and exhibits.” Id. at 372. Valid business justifications
are relevant only to the rebuttal of a prima facie case
of monopolization.
Thus, balancing anticompetitive effects against
hypothesized justifications depends on evidence and
is not amenable to resolution on the pleadings, at least
where the plaintiff has alleged conduct similar to that
in Aspen Skiing. See also, e.g., Illinois ex rel. Burris
v. Panhandle Eastern Pipe Line Co., 935 F.2d 1469,
1482 (7th Cir. 1991) (“Whether valid business reasons
motivated a monopolist’s conduct is a question of

58a
fact.”). Adapting language from our colleagues in the
D.C. Circuit, the correct approach in this situation requires a district court to acknowledge that:
[Comcast’s] defense—that its refusal to deal
was economically justified—depends upon a
question of fact and therefore is not cognizable
in support of a motion to dismiss. It is, of
course, entirely possible [Comcast] will be
able to prove . . . [that] its refusal to deal was
a reasonable business decision. On the other
hand, it is also possible [Comcast’s] refusal to
deal reflected its willingness to sacrifice immediate profits from the sale of [Interconnect
access] in the hope of driving [Viamedia] out
of the market and recovering monopoly profits
in the long-run. . . . The district court cannot
choose between these competing explanations
without first resolving questions of fact not before it upon a motion to dismiss.
Covad Communications Co. v. Bell Atlantic Corp., 398
F.3d 666, 676 (D.C. Cir. 2005) (reversing dismissal of
refusal-to-deal claim on pleadings). This analysis
must also include the harm from Comcast’s alleged tying conduct, which we turn to below. Viamedia has
alleged—and offered evidence of—enough harm to
competition from Comcast’s refusal-to-deal and tying
conduct for its claim to go forward. Consideration of
procompetitive justifications must wait for a comprehensive rule of reason analysis.
i.

Comcast’s
Standard

Proposed

Legal

Comcast both misunderstands the law and relies
on inapposite cases by conflating the vertical integration of its MVPD and ad rep services functions with

59a
its control over the cooperative Interconnects and alleged misuse of that power. Comcast proposes that if
a defendant merely postulates “a valid business purpose”—apparently including any business purpose a
defendant could dream up, regardless of feasibility or
value—that “ends the inquiry.” “[T]here is no ‘balancing’ of benefits and harms,” Comcast declares. In support of that proposition, Comcast points to the United
States’ Amicus Brief (in support of neither party) filed
in this case, which offers a test dubbed the “no economic sense test.” Appellee Br at 27–28; see also
United States Brief at 11–12 (relying on the formulation articulated in the United States’ amicus brief in
Trinko, available at 2003 WL 21269559, and elaborated upon in Gregory J. Werden, Identifying Exclusionary Conduct Under Section 2: The “No Economic
Sense” Test, 73 Antitrust L.J. 413, 422–25 (2006)).
The proposed “no economic sense” test would condemn conduct as “exclusionary or predatory” only if it
“would make no economic sense for the defendant but
for its tendency to eliminate or lessen competition.”
United States Brief at 11. A “gross benefit [or gain]
for the defendant” is not enough, however: “Conduct
fails the no economic sense test if it is expected to yield
a negative payoff, net of the costs of undertaking the
conduct, and not including any payoff from eliminating competition.” Werden at 416 (emphasis added).
Or—as explained by the government at oral argument
here it is an objective “balancing” test that requires
more than just “a slight procompetitive benefit or efficiency gain.”13
13

Comcast’s confusion may stem from the terse proposed
name of “no economic sense,” which does not appear to invite balancing. The test is actually more nuanced than the name suggests, and it is not meant to resolve every Section 2 challenge.

60a
This test is essentially the same one employed by
the Tenth Circuit in Novell, which noted that “the monopolist’s conduct must be irrational but for its anticompetitive effect.” 731 F.3d at 1075, citing Aspen
Skiing, 472 U.S. at 597, Trinko, 540 U.S. at 407, and
Werden at 422–25. However formulated, this test is
aimed in part at the potential overweighting of the Aspen Skiing factor of a defendant forsaking short-term
profits. Id. As noted, this factor is relevant but should
not always be dispositive because “a short-term profit
sacrifice is neither necessary nor sufficient for conduct
to be exclusionary.” Werden at 424; see also id.
As Werden sensibly notes, its “utility . . . ultimately is apt to
vary,” and we “should not presume that a single test must resolve
every exclusionary conduct case.” Werden at 421 & n.31.
Furthermore, it has been observed that although the “no economic sense” test “offers good insights into when aggressive actions by a single firm go too far,” it “can lead to erroneous results
unless” one also “seek[s] to ‘balance’ gains to the monopolist
against losses to consumers, rivals, or others.” Areeda &
Hovenkamp ¶ 651b3, at 106–07. Otherwise we could arrive at
absurd outcomes: “Theoretically, an act might benefit the defendant very slightly while doing considerable harm to the rest of the
economy, and it would be lawful.” Id. It is possible the test could
be adapted to meet these criticisms, given that a court should not
consider any gain from eliminating competition, but—in any
event—the “no economic sense test” was not intended to displace
all other approaches. Rather, it “is likely to be most useful as
one part of a sufficient condition: If challenged conduct has a tendency to eliminate competition and would make no economic
sense but for that tendency, the conduct is exclusionary.”
Werden at 418. Areeda and Hovenkamp also suggest a broader
approach, in which harm “wholly disproportionate” to the valid
business justification can also support a refusal-to-deal-claim.
¶ 772c2, at 223 (“Condemnation would be appropriate only for
conduct that (1) clearly injures an actual or prospective rival either (2a) with no good business justification at all, or (2b) with a
business justification that is poorly fitted to the result or wholly
disproportionate to the harm that is inflicted.”).

61a
(“short-run profit sacrifice also is not necessary for
conduct to be exclusionary because the anticompetitive gains from exclusionary conduct sometimes can
be reaped immediately”); Areeda & Honvenkamp
¶ 651b3, at 107 (“monopolizing conduct is not necessarily costly to the defendant”).
Because the Aspen Skiing factors are helpful but
not dispositive, this more nuanced approach considering both pro-competitive benefits and anticompetitive
harms is necessary to answer the ultimate question of
whether competition was harmed. The plaintiff ultimately needs to prove “that the monopolist’s refusal
to deal was part of a larger anticompetitive enterprise,
such as (again) seeking to drive a rival from the market or discipline it for daring to compete on price.”
Novell, 731 F.3d at 1075. The result of such conduct
is to harm competition by “entrench[ing] a dominant
firm and enabl[ing] it to extract monopoly rents once
the competitor is killed off or beaten down.” Id.
As the above paragraphs suggest, and without our
endorsing any particular catchy title for this analytical approach, the calculation of procompetitive benefits net of anticompetitive harms does not easily lend
itself to a pleading standard. Rule of reason cases
“place[] a premium on objective tests based on evidence that is typically not in the defendant’s exclusive
control”—for example, Comcast’s cost savings and
other efficiencies it may have obtained due to its conduct. See Herbert Hovenkamp, The Rule of Reason,
70 FLA. L. REV. 81, 86 (2018). This is why it is typically considered an “adequate pleading in a rule of
reason antitrust case” for a plaintiff to allege (1) “evidence of market structure” (i.e., market power and relevant markets, which are not in dispute in this case)

62a
and (2) “exclusionary effect” (i.e., foreclosure of a competitor from a market, which is also not in dispute in
this case)—“both of which can ordinarily be obtained
without access to the defendant’s own records—[and]
indicate that an antitrust violation is plausible.” Id at
90.
To the extent that refusal-to-deal claims require
more at the pleading stage, it is enough to allege plausibly that the refusal to deal has some of the key anticompetitive characteristics identified in Aspen Skiing.
The Supreme Court said as much in Trinko, in which
it affirmed dismissal of a complaint, distinguished Aspen Skiing, and emphasized that “the defendant’s
prior conduct sheds no light upon the motivation of its
refusal to deal—upon whether its regulatory lapses
were prompted not by competitive zeal but competitive malice.” 540 U.S. at 409. Trinko specifically identified the absence of two factors—a prior and voluntary course of dealing, and refusal to sell at retail
price—in distinguishing Aspen Skiing. The former
factor was important, because it “suggested a willingness to forsake short-term profits to achieve an anticompetitive end.” Id., citing Aspen Skiing, 472 U.S. at
608, 610–611. In Covad, the D.C. Circuit adopted a
similar, if slightly more explicit, holding that a plaintiff must eventually show a sacrifice of short-term
profits to prevail on a refusal-to-deal claim and that
alleging that a refusal to deal was “predatory” was
sufficient at the pleadings stage. 398 F.3d at 675–76.
Viamedia’s pleading adequately alleges an anticompetitive refusal to deal. As described above, Viamedia’s claim closely tracks Aspen Skiing and contains the key elements that were missing in Trinko: a
prior course of voluntary conduct, sacrifice of shortterm profits, and refusal to sell to rivals on the same

63a
terms as other potential buyers. Certainly, no more is
required. We leave open the question whether allegations of short-term losses are necessary to state a refusal-to-deal claim. A case might present itself in
which other factors—such as a prior course of conduct,
exploitation of power over a cooperative network, refusal to sell at retail price, and discriminatory treatment of rivals—could plausibly support the inference
that a refusal to deal is “prompted . . . by anticompetitive malice.” Trinko, 540 U.S. at 880. But this case
is easier and does not require precise delineation of
the requirements of a refusal-to-deal pleading.
Even if an allegation that a defendant’s conduct
was irrational but for its anticompetitive effect were
necessary, Viamedia has plausibly alleged just that.
In a section of the First Amended Complaint entitled
“Comcast’s Refusal to Deal with Viamedia is Irrational But for its Anticompetitive Effects,” Viamedia
walked through the long-term course of dealing prior
to Comcast’s conduct; the subsequent degradation of
the value of the cooperative Interconnects; the financial losses suffered by Comcast itself, as well as by Viamedia and Comcast’s competitor MVPDs; Comcast’s
willingness to offer Interconnect-only access in other
markets where it did face competition; and the fact
that “[t]here are no procompetitive justifications” to
be achieved by the conduct given that there were “no
material administrability problems in allowing Viamedia to participate in Interconnects” on behalf of its
MVPD customers. First Am. Cplt. ¶¶ 154–68. Viamedia’s allegations—regardless of the standard applied—are more than sufficient to pass muster under
Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007),
and Ashcroft v. Iqbal, 556 U.S. 662 (2009).

64a
With Viamedia meeting the appropriate pleading
standard and presenting evidence of harm to competition, the remainder of the case should settle into the
traditional analysis followed in rule of reason cases,
with the burden shifting to Comcast, which “may, of
course, introduce its own proof of inevitability, superior skill, or business justification.”
Areeda &
Hovenkamp ¶ 650c, at 94. To be more specific, under
this burden-shifting framework, once Viamedia has
“successfully establish[ed] a prima facie case under
§ 2 by demonstrating anticompetitive effect, then
[Comcast] may proffer a ‘procompetitive justification’
. . . a nonpretextual claim that its conduct is indeed a
form of competition on the merits because it involves,
for example, greater efficiency or enhanced consumer
appeal.” Microsoft, 253 F.3d at 59. If such a justification is offered, “the burden shifts back to [Viamedia]
to rebut that claim.” Id. If Viamedia cannot rebut the
evidence of Comcast’s procompetitive justifications,
“then [Viamedia] must demonstrate that the anticompetitive harm of the conduct outweighs the procompetitive benefit.” Id. This burden-shifting has evolved
based on which party has access to the various categories of evidence and information, with any evidence
of pro-competitive justifications likely to be under the
defendant’s control. Cf. United States Department of
Justice and Federal Trade Commission, Horizontal
Merger Guidelines § 10, at 30 (Aug. 19, 2010) (Merger
Guidelines) (“much of the information relating to efficiencies is uniquely in the possession” of the firms
seeking to justify a transaction).14

14

Courts apply a “similar balancing approach” in rule of reason cases, whether alleged under § 1 or § 2. Microsoft, 253 F.3d
at 59, citing Standard Oil Co. v. United States, 221 U.S. 1 (1911).
The Supreme Court has recently reiterated this balancing test

65a
ii. Inapposite Vertical Integration Cases
Comcast also relies on cases involving vertically
integrated defendants with facts that, in crucial ways,
do not map onto this case. In seeking to shoehorn this
case into this category, Comcast caused confusion in
the district court—and continues in this effort on appeal—by glossing over the unusual market structures
in this case and portraying itself as just a “prototypical” vertically integrated firm. This misconception is
accomplished by conflating (1) Comcast’s actual vertical integration of its MVPD cable services with its ad
rep services functions with (2) its control over the cooperative Interconnects in the relevant geographic
markets. Comcast’s argument for dismissal on the
pleadings depends upon this confusion.
To start, “[e]ven a monopolist . . . is free to integrate, especially when integration creates no new monopoly in any second area.” Areeda & Hovenkamp
¶ 1700j1, at 14–15. Such an integration allows the defendant to achieve cost-savings by “elimination of double marginalization.” United States v. AT&T, Inc.,
for a rule of reason § 1 case: “To determine whether a restraint
violates the rule of reason . . . a three-step, burden-shifting
framework applies. Under this framework, the plaintiff has the
initial burden to prove that the challenged restraint has a substantial anticompetitive effect that harms consumers in the relevant market. If the plaintiff carries its burden, then the burden
shifts to the defendant to show a pro-competitive rationale for
the restraint. If the defendant makes this showing, then the burden shifts back to the plaintiff to demonstrate that the procompetitive efficiencies could be reasonably achieved through less
anticompetitive means.” Ohio v. American Express Co., 138 S.
Ct. 2274, 2284 (2018) (omitting internal citations); see also
Areeda & Hovenkamp ¶ 1820a, at 188, ¶ 1821, at 207 (observing
that courts require “stronger proof of offsetting efficiencies” when
defendants possess greater ability to foreclose rivals from the
market).

66a
916 F.3d 1029, 1036 (D.C. Cir. 2019). In other words,
prior to vertical integration, the firms providing complementary products would “earn[] margins over cost
before their products reached consumers.” Id. at
1044. After integration, goes the theory, there is no
need for two entities to earn margins over cost, and
“the merged entity would eliminate that cost and . . .
pass on some of those cost savings to consumers in order to attract additional” customers. Id. Thus, it
would rarely be an antitrust violation for a firm to
supply itself through vertical integration, and a plaintiff would not generally have a right under antitrust
law to demand that a defendant forgo supplying itself
from an in-house source. Areeda & Hovenkamp
¶ 1700j1, at 14–16 & n.35.
This principle has been illustrated in some Section 2 cases, in which a company claimed antitrust injury when a larger company vertically integrated and
provided in-house what it formerly purchased from
the smaller company. For example, in Port Dock &
Stone Corp. v. Oldcastle Northeast, Inc., 507 F.3d 117
(2d Cir. 2007), a company with a local monopoly in
crushed stone (aggregate) sold the aggregate through
two distributors. The aggregate monopolist decided to
vertically integrate by purchasing one of the distributors and bringing all of its distribution in-house. Id.
at 119. The remaining distributor alleged a Section 2
violation, claiming that “its injury resulted from [defendant’s] vertical integration into the distribution
market.” Id. at 120. The facts of Port Dock do not map
onto the conduct of Comcast, which was already vertically integrated and was instead exploiting its control
over the cooperative Interconnects.
Similarly, the defendant in Christy Sports, LLC v.
Deer Valley Resort Co., 555 F.3d 1188 (10th Cir. 2009),

67a
owned the mountain on which it leased property to
plaintiff, and “the creator of a resort has no obligation
under the antitrust laws to allow competitive suppliers of ancillary services on its property.” Id. at 1193.
Notably, the mountain was not a cooperative enterprise, and the customers (skiers) did not compete
against the defendant mountain resort. And in Novell
(which, recall, was a case that went to trial), defendant Microsoft was the sole owner of the intellectual
property it had made available to independent software vendors. 731 F.3d at 1067. And again, the customers (computer users) did not compete against Microsoft.
These opinions about “prototypical” vertically integrated firms recognize, nevertheless, that different
circumstances could support a cognizable antitrust
claim in cases like this one. See Port Dock, 507 F.3d
at 124–25 (“Vertical expansion by a monopolist, without more, does not violate section 2,” unless there is
an allegation of an “anticompetitive incentive to create a downstream monopoly,” or other “special circumstances in which a monopolist’s vertical expansion
could be anticompetitive.”); Christy Sports, 555 F.3d
at 1196 (“We would not even preclude the theoretical
possibility that such a change [by refusing to deal]
could give rise to an antitrust claim, for example, if by
first inviting an investment and then disallowing the
use of the investment the [defendant] imposed costs
on a competitor that had the effect of injuring competition in a relevant market.”); Novell, 731 F.3d at 1076
(plaintiff could have proven refusal-to-deal case
against Microsoft, but at trial “presented no evidence
from which a reasonable jury could infer that Microsoft’s discontinuation of this arrangement suggested a willingness to sacrifice short-term profits, let

68a
alone in a manner that was irrational but for its tendency to harm competition”).
Even if this were a vertical integration case, Viamedia adequately alleged that Comcast presented
just such a “special circumstance.” Its conduct eliminated its only competitor in the ad rep services market
and increased control over its MVPD competitors in
the retail cable market. But again, this is not a case
of simple vertical integration. Comcast is vertically
integrated and has been at all relevant times. No one
objects to a vertically integrated Comcast offering
both Interconnect services and ad rep services. Viamedia does not seek to force Comcast to buy ad rep
services from Viamedia; nor does Viamedia seek to
force Comcast to allow Viamedia to re-sell or distribute Comcast’s ad rep services. Viamedia simply wants
to ensure that MVPDs can freely choose Viamedia as
their supplier of ad rep services if that is their preferred choice.
Another distinguishing fact is that the Interconnects are joint, cooperative efforts among competing
MVPDs. That distinguishes this case from cases involving vertically integrated defendants, as in Port
Dock. Viamedia seeks to regain access to the Interconnects to operate on behalf of its MVPD customers.
It is true that by virtue of acquiring numerous other
cable companies, Comcast now controls the Interconnects at issue. But they are cooperative ventures that
jointly set prices for competitor MVPDs’ spot avails.
Comcast itself has described the Interconnects as a
“collection of two or more cable TV systems that work
together to distribute commercials to a wider geographic area than a single system would otherwise
reach, giving advertisers the option to reach all cable

69a
households within a market with one buy.” First Am.
Cplt. ¶ 156.
The Interconnects’ cooperative structure explains
why Comcast describes itself not as an Interconnect
“owner” but as an Interconnect “operator” and describes its function as a firm that “operates interconnects in DMAs including Chicago and Detroit.” See,
e.g., Appellees’ Br. at 7. It also explains why Comcast
describes Viamedia as having “participated in interconnects,” and after being denied access, Comcast
says, Viamedia sought “readmission.” Id. Typical vertically integrated firms do not refer to themselves as
the “operators” of their assets, and they do not describe their buyers as “participating” in the vertically
integrated firms’ services, let alone say that buyers
might seek “readmission” to those services. Taking
control of and exploiting control of a previously cooperative mechanism is not vertical integration.15
Accordingly, we reverse the Rule 12(b)(6) dismissal of Viamedia’s claim for monopolization through an
unlawful refusal to deal.
2. Tying
The “essential characteristic of an invalid tying
arrangement lies in the seller’s exploitation of its control over the tying product to force the buyer into the
purchase of a tied product that the buyer either did
not want at all, or might have preferred to purchase
elsewhere on different terms.” Jefferson Parish Hos-

15

Viamedia disputes the accuracy of describing Comcast as an
Interconnect “owner.” Deposition testimony characterizes an Interconnect simply as “an agreement between two or more MVPDs
in a DMA to distribute commercials . . . across all partners in the
interconnect.”

70a
pital Dist. No. 2 v. Hyde, 466 U.S. 2, 12 (1984). Viamedia contends that Comcast conditioned the sale of
Interconnect services (the tying product) on the purchase of ad rep services (the tied product). Viamedia
alleges that Comcast engaged in anticompetitive conduct on two fronts. Comcast inserted itself between
Viamedia and its competitor MVPDs by: (1) denying
Viamedia access to the Comcast-controlled Interconnects, and (2) then using its control over the Interconnects to demand that its smaller MVPD competitors
turn over to Comcast 100% of their spot avails, including the sale of local spots, an area in which Comcast
and the MVPDs had formerly competed. Viamedia
has offered evidence that this two-front strategy was
successful. Comcast excluded its only competitor in
the ad rep services market—gaining a pure monopoly.
It also gained new control over and insight into its
MVPD competitors that it could not have achieved
otherwise.
The district court, however, granted summary
judgment on Viamedia’s tying claim, a decision we
also review de novo. Schlaf v. Safeguard Prop., LLC,
899 F.3d 459, 465 (7th Cir. 2018). “Summary judgment is appropriate only if there are no disputed questions of material fact and the moving party is entitled
to judgment as a matter of law,” so we “examine the
record in the light most favorable to the [non-movant],
granting [it] the benefit of all reasonable inferences
that may be drawn from the evidence and reversing if
we find a genuine issue concerning any fact that might
affect the outcome of the case.” Id. (citations omitted);
see also Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
255 (1986) (on summary judgment, courts must refrain from making credibility determinations or
weighing evidence).

71a
a. Summary Judgment Standard
The district court applied, and Comcast argues
for, a summary judgment standard that requires
plaintiffs in Section 2 monopolization cases to present
evidence that “tends to exclude the possibility” that a
monopolist’s conduct is just “as consistent with competition as with illegal conduct.” 335 F. Supp. 3d at
1061, quoting Matsushita Electric Industrial Co. v.
Zenith Radio Corp., 475 U.S. 574, 588 (1986). The
proper question on summary judgment is whether Viamedia has presented evidence to establish a genuine
dispute of material fact as to whether Comcast engaged in exclusionary conduct forbidden by Section 2.
See Matsushita, 475 U.S. at 585; Eastman Kodak Co.
v. Image Technical Services, 504 U.S. 451, 483 (1992);
see also, generally, In re Text Messaging Antitrust
Litig., 782 F.3d 867 (7th Cir. 2015). When determining whether there is a “genuine issue of material fact
. . . the substantive law will identify which facts are
material. Anderson v. Liberty Lobby, Inc., 477 U.S. at
247–48 (emphasis omitted). “The Court’s requirement
in Matsushita that the plaintiffs’ claims make economic sense did not introduce a special burden on
plaintiffs facing summary judgment in antitrust
cases.” Eastman Kodak, 504 U.S. at 467–68.
Viamedia’s tying theory is not economically implausible, unlike the alleged twenty-year-long conspiracy to charge predatorily low prices in Matsushita
itself. A competitor’s claim that a rival used monopoly
power in a tying product market to gain a monopoly
in a tied product market is “facially anticompetitive
and exactly the harm that antitrust laws aim to prevent.” Eastman Kodak, 504 U.S. at 479. The sufficiency of the tying claim depends on whether Comcast
forced RCN and WOW! to buy its ad rep services. Our

72a
summary judgment inquiry can be framed in the language of Matsushita—are the facts “as consistent
with” forcing as with noncoerced action?—but this formulation does not get us anywhere beyond the general
summary judgment standard. In the following analysis, we ask whether Viamedia has presented evidence
of forcing sufficient to create a genuine dispute for
trial.
b. Tying and Comcast’s Conduct
In granting summary judgment, the district court
concluded that no reasonable jury could find as a matter of fact that Comcast tied Interconnect services to
the purchase of its ad rep services. We respectfully
disagree. Viewing the evidence in the light most favorable to Viamedia, and without making credibility
determinations or weighing the parties’ competing evidence, we conclude that Viamedia has offered sufficient evidence that Comcast illegally tied purchase of
its ad rep services to the Interconnect access it already
controlled.
First, it is undisputed that Comcast (a) has market power in the tying market for Interconnect services and (b) has now foreclosed all competition in the
tied market for ad rep services. Second, there is substantial evidence that the cooperative Interconnects
are a separate service from Comcast’s ad rep services.
Third, Viamedia offered evidence that Comcast forced
its competitor MVPDs to become its customers for ad
rep services if they also wanted to keep their access to
the Interconnects.
i.

Definition

Tying is conduct in which a firm will “sell one
product [the tying product] but only on the condition
that the buyer also purchases a different (or tied)

73a
product.” Northern Pacific Ry. Co. v. United States,
356 U.S. 1, 5–6 (1958); see also Sheridan v. Marathon
Petroleum Co., 530 F.3d 590, 592 (7th Cir. 2008);
Areeda & Hovenkamp ¶ 1700a, at 4. The seller will
purchase the tied product “not because the party imposing the tying requirement has a better product or
a lower price” but because the seller has “power or leverage” in the market for the tying product. Northern
Pacific Railway, 356 U.S. at 6.
Tying is still nominally subject to a per se rule of
illegality, but it is “a most peculiar per se rule.”
Areeda & Hovenkamp ¶ 1701c, at 31; see Jefferson
Parish Hospital Dist. No. 2 v. Hyde, 466 U.S. at 26–
29; Eastman Kodak, 504 U.S. at 462.16 The factual
elements that must be proven for a tying claim capture much of what must be demonstrated in a rule of
reason case. Showing that the purchase of the tied
product was forced uses many of the same concepts
used to analyze refusals to deal: some assessment of
market power, rough predictions of anticompetitive
harm, and consideration of procompetitive justifications. See, e.g., Illinois Tool Works Inc. v. Independent

16

We stay “still” because in recent years the Supreme Court
has held that some categories of conduct that were formerly
treated as per se illegal are now subject to a rule of reason analysis. See Leegin Creative Leather Products, Inc. v. PSKS, Inc.,
551 U.S. 877, 907 (2007) (resale price maintenance no longer per
se illegal, overruling Dr. Miles Medical Co. v. John D. Park &
Sons, 220 U.S. 373 (1911)); Continental T.V., Inc. v. GTE Sylvania, Inc., 433 U.S. 36, 57 (1977) (non-price vertical restraints no
longer per se illegal, overruling United States v. Arnold,
Schwinn, & Co., 388 U.S. 365 (1967)); State Oil Co. v. Khan, 522
U.S. 3, 22 (1997) (vertical maximum price restraints no longer
per se illegal, overruling Albrecht v. Herald Co., 390 U.S. 145
(1968)).

74a
Ink, Inc., 547 U.S. 28, 44 (2006) (“While some such [tying] arrangements are still unlawful, such as those
that are the product of a true monopoly . . . that conclusion must be supported by proof of power in the relevant market.”) (citation omitted); Sheridan v. Marathon Petroleum Co., 530 F.3d 590, 593–94 (7th Cir.
2008) (describing the tying rule and its market-power
requirement); Areeda & Hovenkamp ¶ 1760(b), at 379
(noting that, even when treated as per se illegal, “the
Supreme Court has almost always been willing to consider a defendant’s offered justifications”).
“When the defendant is a dominant firm” and
meets “a much stricter power requirement,” however,
the “special screening function” of the tying factors is
“largely unnecessary, and the more general standards
of § 2 become relevant” because “the technical requirements . . . attach only to per se ties.” Areeda &
Hovenkamp ¶ 777, at 324. Thus, “when the defendant
is a monopolist in the ‘tying product,’” it may be superfluous to go through a detailed inquiry into
whether there are “separate products.” Id. ¶ 617b2,
at 52–53; see also id. ¶ 777, at 324–25 & n.9 (noting
that in Eastman Kodak, the Supreme Court treated a
conditional refusal to sell parts without service as a
tying arrangement, although on remand the tying
claim was dropped and a Section 2 violation was found
without any “separate products” requirement); United
States v. Microsoft Corp., 253 F.3d 34, 96–97 (D.C. Cir.
2001) (en banc). Similarly, “[w]hen a defendant’s market share and the underlying market structure make
monopolization or attempt plausible, then a tie that
contributes significantly to the maintenance or creation of monopoly power violates § 2 even though it is
unilaterally imposed.” Areeda & Hovenkamp ¶ 777,
at 325.

75a
Here, Comcast’s monopoly power in the tying market of Interconnect services in the three metropolitan
areas and its successful capture of a monopoly position in the tied market of ad rep services in the same
areas are undisputed. And yet great effort has been
made to parse whether Comcast’s conduct satisfies
some platonic ideal of tying conduct. We, too, walk
through the tying factors at issue (separate product
and forced purchase) and determine, taking the record
as a whole, that Viamedia has provided sufficient evidence to create a question of fact as to each factor. Ultimately, the focus in this Section 2 case must remain
on “whether, viewing the monopolist’s conduct as a
whole, it has unreasonably maintained or enhanced
its monopoly position.” Id. ¶ 777, at 324.
ii. Separate Products or Services
“[W]hether one or two products are involved turns
. . . on the character of the demand for the two items.”
Jefferson Parish, 466 U.S. at 19; see also Eastman Kodak, 504 U.S. at 462 (“For service and parts to be considered two distinct products, there must be sufficient
demand so that it is efficient for a firm to provide service separately from parts.”); Northern Pacific Railway, 356 U.S. at 5–6. Comcast disputes whether Interconnect access and ad rep services are separate services. The district court assumed they are. On this
record, that was correct.
The fact that buyers may wish to purchase and
use two complementary products together does not, in
and of itself, convert the two separate products into a
single product. Rather, the market must “be assessed
at the pre-contract rather than post-contract stage.”
Areeda & Hovenkamp ¶ 1802d6, at 89, citing Tampa
Electric Co. v. Nashville Coal Co., 365 U.S. 320 (1961);
see also id. ¶ 1802d6, at 88 (noting that a “grouping of

76a
sales covered by [a single] contract does not become a
relevant market for that reason”). In this case, RCN
and WOW! viewed the services as separate prior to entering into their present contracts with Comcast.
Interconnect services and ad rep services are different functionally, as already described at length.
See above at pages 10–24. To summarize, a provider
of Interconnect services bundles and re-sells ads from
multiple MVPDs in a regional market. An ad rep has
a more direct relationship with an MVPD, directly
representing it in regional and/or local ad sales, and
potentially acting as its representative with an Interconnect. The “character of the demand” for the two
services also differs, as demonstrated by how the market participants have sold and purchased the services.
See Jefferson Parish, 466 U.S. at 19–21. Viamedia
has offered only ad rep services for almost two decades. Comcast formerly offered the two services separately in the relevant DMA geographic markets. It
continues to offer them separately in other DMAs.
MVPDs like Comcast that also operate Interconnects
“often have separate salespeople selling local advertising and selling Interconnect advertising.” DA650.
And the other alleged victims of Comcast’s tying conduct—its smaller MVPD competitors—previously
purchased these services separately and, as shown
above, expressed strong interest in continuing to do so
when Comcast was forcing them to buy the two together in Chicago, Detroit, and Hartford.
Comcast’s claim that the two services are not distinct is also flatly inconsistent with one of Comcast’s
primary arguments on the next factor. In arguing
that it did not force the MVPDs to buy its ad rep services, Comcast points to other DMAs where it sells Interconnect services separately. Even if there might be

77a
a viable factual dispute on whether it is possible to
consider these two services a single “unified market,”
which we doubt, that would be at minimum a question
to “be resolved by the trier of fact.” Eastman Kodak,
504 U.S. at 463. Comcast is not entitled to summary
judgment on this ground.
iii. Forced Purchase
Ample evidence shows that Comcast conditioned
MVPDs’ access to the Interconnects on hiring Comcast
as their ad rep. Internal Comcast documents indicate
that it ended its relationship with Viamedia specifically to obtain full-turnkey deals with the MVPDs.
A216 n.84. Internal WOW! emails show that its executives understood that WOW! would have to hire
Comcast for ad rep services if it wanted to regain access to the Interconnects. A215 n.81. RCN testified
to the FCC that “Comcast will only allow RCN to join
the interconnects if RCN employs Comcast spotlight
instead of Viamedia.” Id. A Comcast employee working in the Chicago and Detroit markets testified to the
Department of Justice that Comcast had a business
practice that “if an MVPD wants to get access to a
Comcast [Spotlight] controlled Interconnect, it has to
hire Comcast [Spotlight] as its ad sales representative.” Id., A835. And a Comcast employee responded
to the question “were you also clear . . . that Comcast
Spotlight was interested only in a turnkey deal?” with
“Direct relationship, full turnkey, yes, we made that
clear to [WOW!].” A811. Both Comcast and the partial dissent offer explanations and rationales to try to
defang these unusually explicit pieces of evidence.
See Post at 136–37. On review of summary judgment,
of course, Viamedia is entitled to the benefit of reasonable inferences and interpretations in its favor. The

78a
opposing arguments are suitable for a trial but are not
grounds for affirmance.
A jury could easily find that Comcast improperly
forced the smaller MVPDs to buy its ad rep services
using its monopoly in the Interconnect services market. The entire purpose of its refusal to deal with Viamedia—conceded repeatedly by Comcast—was to
force RCN and WOW! to become full-turnkey clients
for ad rep services. A789. Every party involved understood that this was the practical effect of banning
from the Interconnects MVPDs that received ad rep
services from Viamedia.
The fact that the arrangements were structured
so that ownership of the slot avails passed from the
MVPDs to Viamedia does not affect this analysis. In
applying the antitrust laws, we care more about economic substance than about form. See Copperweld
Corp. v. Independence Tube Corp., 467 U.S. 752, 760
(1984). Smaller MVPDs do not have their own ad rep
services divisions. As a practical matter, they cannot
self-provide ad rep services and must work with an ad
rep to interface with the Interconnects. Given these
dynamics, Viamedia offered sufficient evidence that
Comcast explicitly used its control over the Interconnects to deny access to its competitor MVPDs or their
agent to force RCN and WOW! to use Comcast’s ad rep
services for all spot avails, including the two-thirds of
spot avails sold outside of the Interconnects, many of
which used to be sold locally in competition with Comcast. See Collins Inkjet Corp. v. Eastman Kodak Co.,
781 F.3d 264, 272 (6th Cir. 2015) (“When a defendant
adopts a policy that makes it unreasonably difficult or
costly to buy the tying product (over which the defendant has market power) without buying the tied product from the defendant, it ‘forces’ buyers to buy the

79a
tied product from the defendant and not from competitors.”); Microsoft, 253 F.3d at 64 (liability appropriate
where monopolist bars rival from “cost-efficient”
means of distribution even if some means of distribution remain open).17
Because this is not a typical bundling case, Comcast’s and the partial dissent’s reliance on Aerotec
Int’l, Inc. v. Honeywell Int’l, Inc., 836 F.3d 1171 (9th
Cir. 2016), is misplaced. In that case, the plaintiff
purchased Honeywell’s replacement parts and then
“bundle[d] parts and repairs in an effort to woo” the
ultimate airline customers, in part reselling defendant’s products. Id. at 1176. Moreover, Aerotec presented no evidence that Honeywell “explicitly or implicitly” tied or conditioned the sale of the tying prod-

17

The partial dissent insists that that there was no conditioning and that “RCN and WOW! maintained the ability to deal directly with Comcast and access the Interconnect without any ad
representative should they choose not to employ Comcast.” Post
at 118–19 This is wrong as a matter of fact. As described above,
every party involved—Comcast, RCN, and WOW!—understood
that RCN and WOW! would be unable to access the Interconnects
unless they hired Comcast to provide ad rep services. Even
though its reasoning relies on the possibility that RCN and
WOW! could access the Interconnects without Viamedia or Comcast, the partial dissent points to no evidence supporting that
possibility. The record contains evidence of the opposite: RCN
and WOW! needed to employ an ad rep services provider, and
once Comcast refused to deal through their chosen intermediary,
they had no practical choice but to obtain ad rep services from
Comcast. As described above, substantial evidence shows that
both RCN and WOW! understood themselves to be forced by
Comcast into purchasing its ad rep services. A215 n.81. We cannot affirm summary judgment by overlooking that evidence
about the realities of the parties’ dealings and the economic realities of the market.

80a
uct of parts to the ultimate airline customers’ purchase of the tied product of maintenance. Id. at 1179.
The court found compelling that “Honeywell allows
airlines to purchase parts and services in separate
transactions from whichever supplier they please.”
Id. But Viamedia is not a bundler. It has presented
substantial evidence of an explicit tie, and its former
customers could not separately obtain Interconnect
access.
There are other fundamental differences between
the product offered in Aerotec and the one offered
here. Honeywell sold airplane parts and repair services. Comcast, by contrast, operates a platform that
is necessarily cooperative. RCN and WOW! are not
just potential customers of Comcast as the airlines
were potential customers of Honeywell. They are also
Comcast’s rivals in the retail cable market. Because
self-providing ad rep services was not a viable option
for RCN and WOW!, refusing to deal with their chosen
intermediary had the effect of forcing them into much
less desirable direct relationships with Comcast, their
monopolist-competitor. Viamedia has presented evidence that the MVPDs were reluctant to be forced into
their more powerful rivals’ arms. A886–87. There
was no evidence in Aerotec that the airlines felt similarly threatened, that providing repairs in-house was
economically infeasible, or that the airlines viewed
Honeywell as a necessary intermediary.
Comcast’s reliance on It’s My Party, Inc. v. Live
Nation, Inc., 811 F.3d 676 (4th Cir. 2016), is even further off-base. That case involved “a world of robust
market competition where [the ultimate customers]
were free to take a package deal of promotion and venues, free to purchase those products separately, free
to turn down both, and where they in fact exercised

81a
all those options to their advantage.” Id. at 687. That
does not bear even a passing resemblance to the markets here.
The district court’s holding that Viamedia failed
to offer evidence of forcing was premised on three assumptions: first, that the refusal-to-deal claim was
correctly dismissed; second, that Viamedia acted as a
reseller of Interconnect services rather than as the
MVPD’s agent for Interconnect access; and third, that
RCN and WOW! could have purchased Interconnectonly access separately. Viewing the record as a whole,
as we must, we disagree. We address each assumption in turn.
First, the district court acknowledged Viamedia’s
evidence that Interconnect access was conditioned on
the purchase of Comcast’s ad rep services. Yet the
court discounted this evidence because such a condition could be explained by Comcast’s “legal refusal to
deal” rather than “an illegal tying.” 335 F. Supp. 3d
at 1061. This analysis fails on its own terms. As described above, Viamedia alleged a prima facie refusalto-deal claim. Such potentially illegal conduct cannot
justify Comcast’s related tying of Interconnect services to ad rep services, and more fundamentally, a
tying claim does not fail as a matter of law simply because it was implemented by refusing to deal with an
intermediary.
Second, the district court conflated access to the
cooperative Interconnects, formerly granted uniformly to competing MVPDs or their ad rep services
agents, with the Interconnect services themselves.
The district court’s conclusion that the MVPDs
wanted a single entity to “make available to them both
Interconnect Services and Ad Rep Services” is simply
wrong as a matter of fact. Before Comcast excluded

82a
Viamedia, RCN and WOW! received Interconnect services from Comcast and ad rep services separately
from Viamedia. The district court misunderstood Viamedia to be a reseller of Interconnect services as part
of a bundle that included ad rep services, and concluded there was no impermissible tying simply because Viamedia “could not offer that bundle” any
longer due to Comcast’s (supposedly) legal refusal to
deal with Viamedia. 335 F. Supp. 3d at 1058 n.12.
That characterization does not have a factual basis in
the record, and it is certainly not beyond reasonable
factual dispute. Even Comcast characterized Viamedia not as a reseller of Interconnect services but as a
re-seller of MVPD spot avails to the Interconnect operator. DA638. Comcast’s characterization of ad rep
services—including its own ad rep services provided
to customer/competitor MVPDs—as reselling spot
avails and disconnected from its MVPDs customers’
best interests is troubling in its own right, but we return to that below. Neither the district court’s nor
Comcast’s characterization of Viamedia’s role was accurate.
As an ad rep services provider, Viamedia acted in
the best interests of its MVPD customers and served
as their agent or interface with the Comcast-controlled Interconnects for the one-third of MVPD spot
avails that they sold cooperatively not competitively—
on a regional, DMA-wide basis. The district court
acknowledged as much elsewhere in its opinion, explaining that MVPDs view “themselves as receiving
Interconnect Services from interconnect operators
(like Comcast) even when they have hired an unaffliated Ad Rep (like Viamedia) on a full-turnkey basis.”
335 F. Supp. 3d at 1058 n.10. We agree with the district court’s latter characterization.

83a
Third, in considering the summary judgment evidence, the district court drew inferences in favor of
Comcast in concluding that RCN’s and WOW!’s purchases of Interconnect services and ad rep services
from Comcast were not forced. It did not credit RCN’s
and WOW!’s reasonable understanding that Comcast
was tying Interconnect services to ad rep services.
The court (1) read Comcast’s statements as more ambiguous than they actually were; (2) concluded that,
because the MVPDs ultimately purchased Comcast’s
ad rep services, they must have wanted both services
to be provided by Comcast; and (3) pointed to out-ofmarket evidence to infer that Comcast would have offered an Interconnect-only deal if only RCN and
WOW! had asked for one. This analysis departed from
summary judgment standards in several respects.
Even if Comcast’s statements had been ambiguous, a plaintiff does not need an express, written declaration of a proposed tying arrangement. A sale on
the announced or implied condition that the buyer
purchase the tied goods from the seller ordinarily satisfies the tying-agreement requirement. Areeda &
Hovenkamp ¶ 1754b–c, at 315–20. Although it is not
enough for the services to be merely complementary,
a seller is not immunized from a tying claim if there
is a factual dispute as to whether the buyer wished to
purchase the tied service (here ad rep services) from
the defendant with market power in the tying service
market (here Interconnect services). The MVPDs’ ultimate decisions, after much financial pain, to sign
with Comcast for ad rep services do not disprove an
illegal tie. (And notably, in Hartford, Frontier has
continued to resist signing with Comcast for ad rep
services and remains cut off from the Interconnects.)
After all, “the great majority of tying and exclusivedealing provisions that exclude rivals are engaged in

84a
by one market-dominating party and one party that is
‘innocent’ in the sense that it cannot profit from monopoly in the market, but is agreeing to the exclusivity
only at the behest of the other party.” Areeda &
Hovenkamp ¶ 1803a, at 107 n.5.
Finally, the district court incorrectly inferred from
the fact that Comcast offers Interconnect-only access
in other local markets that RCN and WOW! could
have obtained Interconnect-only access if only they
had asked. That reasoning denies the non-moving
party the benefit of reasonable inferences from the evidence. It also overlooks the evidence showing that inhouse provision of ad rep services simply was not a
practical option for RCN or WOW! in these markets.
More specifically, the evidence from other markets actually supports Viamedia’s case, not Comcast’s
defense. It is undisputed that competition takes place
within metropolitan (DMA) markets. If an advertiser
wishes to purchase advertising time in the Chicago
DMA, buying a spot avail in New Orleans is not an
adequate substitute. Similarly, if Comcast was not
permitting RCN an Interconnect-only deal in Chicago,
an Interconnect-only deal in Denver was not an adequate substitute. And we summarized above at pages
24–35 the evidence indicating that RCN and WOW!
did not willingly agree to Comcast’s terms.
The Interconnect-only arrangements that Comcast offered in other DMAs, where it did not have (or
exercise) so much market power, help Viamedia.
Those arrangements show that Interconnect and ad
rep services are indeed separate products. They need
not be sold together. At the same time, Comcast’s willingness to offer Interconnect-only access in other
DMAs may reflect that Comcast does not have an
overlapping footprint—i.e., does not compete—in

85a
those markets. In contrast, the evidence could support a finding that in Chicago, Detroit, and Hartford,
Comcast tied Interconnect services to ad rep services
to exclude its competitor in ad rep services and
thereby force its MVPD competitors into its not-sotender arms. See Areeda & Hovenkamp ¶ 1744g, at
198–99 (explaining that bundling in non-competitive
markets does not necessarily provide insight into
whether a tie is efficient rather than reflective of increased market power exploitation, while unbundling
in competitive markets likely reflects efficiencies). In
drawing inferences in favor of the non-moving party,
we must also recognize the possibility that Comcast
was testing the waters in Chicago, Detroit, and Hartford with an eye toward expanding its tying demands
to other markets if it is not held accountable.18
Outside of the district court’s inconclusive comparison of other, more competitive markets, there was
no basis in the record to support Comcast’s speculation that if RCN and WOW! had just asked once more,
Comcast would have abandoned its strategic plan and
agreed to standalone Chicago and Detroit Interconnect access. To make such an inference, we would

18

The partial dissent incorrectly looks to arrangements in
other geographic markets to draw conclusions about forcing in
the relevant markets. Post at 132–33. The ad rep services and
Interconnect markets are distinct for each DMA. Viamedia’s tying allegations and evidence focused on Comcast’s conduct in
Chicago, Detroit, and Hartford. The fact that Comcast did not
simultaneously monopolize or attempt to monopolize ad rep services in other geographic markets is not a defense to its monopolization of Chicago, Detroit, and Hartford. The dissent’s only
support for its novel market-aggregating approach comes from a
calculation of profit sacrifice in Novell, 731 F.3d at 1077, which
has nothing to do with market definition or tying. See post at
133.

86a
have to assume that the MVPDs went several years
without access to the Interconnects, lost millions of
dollars in advertising revenue, complained to Comcast
and federal regulators, and then chose the ad rep services provider that they least preferred, all because of
a mere misunderstanding. Comcast is free to offer
this misunderstanding theory at trial, but the theory
cannot support summary judgment. We reverse summary judgment for Comcast on Viamedia’s tying
claim.
C. Section 2 Monopolization: Harms, Efficiencies, & Remedies
Undisputed geographic markets, service markets,
and market power make this case unusual. In addition, Viamedia has offered sufficient evidence to
demonstrate prima facie claims for monopolization of
the ad rep service markets in three DMAs through refusal to deal and tying. Comcast’s actions also forced
a new, intimate, and unwelcome relationship upon its
smaller MVPD competitors. If credited, that evidence
will shift to Comcast the burden to prove what would
need to be some dazzling procompetitive benefits to
justify its conduct. We set out below considerations
for the district court to consider in the rule of reason
analysis it will have to conduct on remand.
1. Harm to Competition
The potential harm in this case from Comcast’s refusal to deal and tying ripples outward. Prior to Comcast’s conduct, there was competition in three related
markets: (1) between Comcast and other MVPDs for
subscribers; (2) between Viamedia and Comcast in ad
rep services; and (3) between Comcast and other
MVPDs for the sale of spot avails in the local DMA

87a
market. By forcing out its only competitor in the market for ad rep services and forcing its MVPD competitors to turn over 100% of their spot avails, Comcast
eliminated competition in the market for ad rep services and the market for the sale of local spot avails.
At the same time, it gained the ability to impair competition in the market for MVPD subscribers. These
harms to competition are prototypical antitrust
harms.
a. Ad Rep Services
The ad rep services market went from two service
providers to a single, monopolist provider. With no
other ad rep services providers, the elimination of Viamedia unquestionably harmed competition. The
harms that typically flow from a competitive market
shifting to total control by a monopolist include potentially higher prices, lower output, and reduced innovation. The market at issue here may not have had
time to show ultimate effects from total foreclosure.
But Comcast is forthright about the fact that it has
refused to allow Viamedia entry into other DMAs. Appellees’ Br. at 35–36. The DMAs that have never had
a competitive ad rep services market may provide useful comparison points to the relevant DMAs here,
which are still governed by contracts that were signed
while Viamedia was still trying to compete with Comcast.
b. The MVPD Market:
MVPDs,
Advertisers, Cable Subscribers
Recall that the MVPDs faced three possible scenarios when Comcast refused to deal with Viamedia
and then conditioned the MVPDs’ access to the Interconnects on the MVPDs turning over all of their spot
avails to Comcast’s ad rep services arm. Above at

88a
pages 31–35. Each scenario entailed its own potential
harm to competition.
The MVPDs elected the first scenario, giving in to
Comcast and signing up for its ad rep services. To
summarize, this arrangement has resulted in:


Comcast’s smaller MVPD rivals contributing
additional revenue toward their dominant
competitor;



MVPDs turning over to Comcast the majority
of spot avails they had formerly kept out of the
Interconnects, a large portion of which are allocated to local ads (for which the MVPDs formerly competed against each other);



RCN and WOW! being forced to trust that
their dominant, incumbent cable rival Comcast will make ad sales decisions in the
smaller competitors’ best interests, despite
Comcast’s divided loyalties—as it is more
profitable for Comcast to place ads in ways
that are different from how RCN and WOW!
might allocate them;



Comcast gaining access to its competitor
MVPDs’ competitively sensitive information,
including number and location of subscribers,
ad sales, promotional ad materials to current
and potential subscribers (including promotions trying to get customers to switch away
from Comcast);



And it is not just the MVPDs that have been
harmed. Comcast is now the only seller of
spot avails in the local market. As Viamedia’s
counsel noted at oral argument, local advertisers used to have several outlets to choose
among at various price points when buying

89a
spot avails. Comcast is now their only-stopshop, as well.
And recall that this was the MVPDs’ least-bad
choice—the one they chose when Comcast denied
them their best option. Comcast and the district court
hypothesized that Comcast was not actually barring
competing MVPDs completely from Interconnect access. The hypothesis was instead that Comcast would
have permitted the MVPDs to have Interconnect-only
access without using either Viamedia’s or Comcast’s
ad rep services. In this scenario, Comcast would lose
ad rep services revenue, but would not lose millions
from forgoing Interconnect access fees and from its
own spot avails being less valuable when placed
through a degraded Interconnect.
But contrary to what the district court seemed to
assume, this result still would have been harmful.
Forcing RCN and WOW! to forsake the benefits they
had gained by outsourcing ad sales to an independent
Viamedia would have dramatically raised their costs.
RCN and WOW! would have needed to hire staff, purchase technology, and pay for services that Viamedia
had previously provided at lower cost. Those fixed
costs would have been difficult for those MVPDs to afford, as shown by the fact that the option was always
available in theory, and they never took it, and as
shown by RCN’s filing with the FCC and WOW!’s internal emails. A215 n.81.
In the other possible scenario, RCN and WOW!
could continue working with Viamedia for ad rep services, but Comcast would continue barring them from
the cooperative Interconnects. If the MVPD competitors had made that choice, they would have remained
cut off from a large percentage of their advertising
revenue.

90a
Any loss of revenue or higher costs from these scenarios is not just a loss for competitors. It leads to a
negative feedback loop in the market in which the
MVPDs compete for cable subscribers, further harming competition. Higher costs and less advertising
revenue lead to fewer promotional offers to subscribers and reduced expansion. See FCC 2007 Report and
Order at 8 ¶ 13 (“Revenues from cable services are, in
fact, a driver for broadband deployment,” i.e., the
build-out of additional cable infrastructure). This in
turn hampers RCN and WOW! from obtaining new cable subscribers or retaining the subscribers they already have (who may switch to Comcast). With a
weakened RCN and WOW!, Comcast benefits further
by not needing to oěer the promotions it otherwise
would have if it faced a more vibrant RCN or WOW!
To the extent that cable subscribers are left with
higher priced and lower quality services and competition has been eliminated in the market for the sale of
local spot avails, a trier of fact would have to account
for that additional anticompetitive harm.
c.

Back to the Interconnects

Comcast’s conduct also turned a previously procompetitive platform into a weapon to decrease competition in related markets. As originally conceived
and implemented, the Interconnects appear to have
been comfortably on the “reasonable” side of a rule of
reason analysis for such cooperative ventures among
competitors. See generally Broadcast Music, Inc. v.
Columbia Broadcasting System, Inc., 441 U.S. 1
(1979). Comcast has described the Interconnects in
these procompetitive terms, as a “collection of two or
more cable TV systems that work together to distribute commercials to a wider geographic area than a single system would otherwise reach, giving advertisers

91a
the option to reach all cable households within a market with one buy.” First Am. Cplt. ¶ 156. Consistent
with that description, Comcast itself has told the FCC
that “the revenue share in an interconnect is often the
same for all participants, and fairly standardized
across interconnects.” Opposition to Petitions to Deny
and Response to Comments at 279 n.883, In the Matter of Applications of Comcast Corp., Time Warner Cable Inc., et al. for Consent to Assign or Transfer Control
of Licenses and Authorizations, FCC MB Docket 14-57
(Sept. 23, 2014) (Comcast 2014 FCC Response).
Which is as it should be if this cooperative mechanism
is procompetitive rather than a weapon to inflict anticompetitive harm.
In congressional hearings on its proposed merger
with TimeWarner Cable, Comcast highlighted the
non-exclusionary nature of the Interconnects. A Comcast executive was sent to testify to a congressional
committee about the proposed purchase. Much of the
concern focused on the potential power of a combined
Comcast/TimeWarner Cable to harm other content
providers who relied on access to cable companies’
“pipes” into the home (e.g., Netflix, YouTube). One
Representative, however, asked about Comcast’s actions with the Interconnects it controlled.
Comcast executive vice president David Cohen
was asked to “provide assurances that Comcast will
not exclude competitors or advertising firms from the
advertising interconnects that Comcast operates.”
Cohen replied, “We are not in the business of excluding businesses who want to buy advertising from us.”
Cohen was again pressed: “So your short answer is
that you are not going to exclude competitors or advertising . . . [f]rom the interconnects.” “Correct.” According to Viamedia’s evidence, however, Comcast

92a
was in the midst of doing just what Cohen was denying.19
In this lawsuit, moreover, Comcast now argues
that its control over the cooperative Interconnects is
the source of its competitive advantage. If that were
correct, it would call into question the legality of the
Interconnects themselves. Antitrust law is rightly
skeptical of mechanisms that permit competitors
jointly to set prices and other terms of dealing. Collaboration between actual or potential competitors
“can be rife with opportunities for anticompetitive activity.” American Society of Mech. Engineers, Inc. v.
Hydrolevel Corp., 456 U.S. 556, 571 (1982).
Based on Comcast’s portrayal and use of the Interconnects in this suit, such skepticism is now warranted. The government antitrust enforcement agencies provide guidance on competitor collaborations. A
number of the factors that show anticompetitive effect
appear to be met by the Interconnects as now portrayed by Comcast. The factors include whether the
collaboration may:

19

Comcast abandoned the Time/Warner transaction after investigations by federal enforcement and regulatory agencies.
The government’s “significant concerns” about the merger were
focused on the likelihood that it “would make Comcast an unavoidable gatekeeper for Internet-based services that rely on a
broadband connection to reach consumers.” DOJ Press Release,
Comcast Corporation Abandons Proposed Acquisition of Time
Warner Cable After Justice Department and Federal Communications Commission Informed Parties of Concerns (Apr. 24,
2015), at http://www.justice.gov/opa/pr/comcast-corporationabandons-proposed-acquisitiontime-warner-cable-after-justicedepartment (last visited on Feb. 21, 2020).

93a


“[L]imit independent decision making or
combine the control of or financial interests in production, key assets, or decisions
regarding price, output, or other competitively sensitive variables;”



“[O]therwise reduce the participants’ ability or incentive to compete independently;”



Potentially “facilitate[] explicit or tacit
collusion through facilitating practices
such as the exchange or disclosure of competitively sensitive information or
through increased market concentration;”



“Successfully eliminate[] procompetitive
pre-collaboration conduct, such as withholding services that were desired by consumers when offered in a competitive
market.”

Federal Trade Commission and United States Department of Justice, Antitrust Guidelines for Collaborations Among Competitors § 2.2, at 6, § 3.31, at 12
(April 2000) (Collaboration Guidelines).
Check,
check, check, and check.
These red flags were not raised by the truly cooperative original concept of the Interconnects. Having
taken control of at least some Interconnects, though,
Comcast now has the ability—and now even claims
the right—to use the mechanism as a source of its competitive advantage over rivals, distorting competition
in related markets. The use of the Interconnects to
take control of and set prices for competitors’ local ads
does not appear related to accomplishing the Interconnects’ procompetitive goals. These facts weigh against
Comcast, not for it.

94a
2. Procompetitive Justifications?
The potential harms stemming from Comcast’s
conduct will not lead to Section 2 liability if Comcast
proves that its monopoly in ad rep services “is a consequence of a superior product, business acumen, or
historic accident,” or if its conduct was the result of,
or necessary to achieve, much greater procompetitive
benefits. United States v. Grinnell Corp., 384 U.S.
563, 571 (1966); see also Areeda & Hovenkamp
¶ 650c, at 94–95. The procompetitive benefits typically recognized in antitrust law include evidence of
“higher output, improved product quality, energetic
market penetration, successful research and development, cost-reducing innovations, and the like.”
Areeda & Hovenkamp ¶ 651d, at 119.20 As this issue
must also be decided by a trier of fact on remand, we
offer some observations.
a. The Interconnects
We start with Comcast’s monopoly control over
the Interconnects in Chicago, Detroit, and Hartford,
which Comcast has identified as the source of its competitive advantage that permitted it, in turn, to gain
monopoly control over ad rep services. It appears that
the only skill and foresight demonstrated by Comcast
in obtaining monopoly control over the Interconnects
20

“As a general matter, the evidence supporting a prima facie
case need not be as specific as the evidence supporting a procompetitive justification” because “[i]f the defendants have a procompetitive justification, it must have been a motivating factor for
the restraint, and the defendants should be able to establish it
rather easily.” Herbert J. Hovenkamp, The Rule of Reason, 70
FLA. L. REV. 81, 107 (2018); see also id. at 110 (“To the extent
that the defendants’ expectation of profit came from something
other than a restriction of competition, they should have evidence and are in the best position to provide it.”).

95a
was its ability to acquire a multitude of other cable
MVPD providers without facing a challenge from government antitrust enforcers. Comcast’s acquisitions
are not in and of themselves evidence of superior
skills, services, or accident.
What Comcast now identifies as a source of competitive advantage was produced by the kind of mergers that the agency Merger Guidelines describe as
anticompetitive. The Guidelines identify as their
“unifying theme” the proposition that “mergers should
not be permitted to create, enhance, or entrench market power or facilitate its exercise” by “enhancing [a
firm’s] market power.” § 1, at 2. One example of an
anticompetitive merger is directly on point:
Merging Firms A and B operate in a market
in which network effects are significant, implying that any firm’s product is significantly
more valuable if it commands a large market
share or if it is interconnected with others that
in aggregate command such a share. Prior to
the merger, they and their rivals voluntarily
interconnect with one another. The merger
would create an entity with a large enough
share that a strategy of ending voluntary interconnection would have a dangerous probability of creating monopoly power in this market. The interests of rivals and consumers
would be broadly aligned in preventing such a
merger.
Merger Guidelines § 2, at 6 (emphasis added). Comcast cannot now justify exclusionary conduct by pointing to control over the Interconnects, which was acquired through mergers that themselves may have
been anticompetitive precisely because of the risk that
they could enable Comcast’s exclusionary conduct.

96a
b. The Ad Rep Services Market
Comcast’s new monopoly position in the ad rep
services markets in Chicago, Detroit, and Hartford, if
we draw reasonable inferences in favor of Viamedia,
is a result not of its superior services but of its exclusionary conduct. Any claimed benefits from that conduct must be procompetitive and not simply the result
of eliminating competition. For example, if Comcast
has reduced advertising, promotions, or other incentives that it previously offered to customers or local
retailers when competing with Viamedia, those savings would represent harm to competition. See Covad
Communications Co. v. Bell Atlantic Corp., 398 F.3d
666, 674 (D.C. Cir. 2005), citing Bork, Antitrust Paradox at 314. Similarly, any savings gained by forgoing
investments in research and development, infrastructure, or sales personnel, that otherwise would have
been made under competitive conditions are properly
categorized as harm to competition, not benefits. Finally, any defense premised upon the proposition that
competition itself is inefficient, unreasonable, or confusing is not cognizable. See National Society of Professional of Engineers v. United States, 435 U.S. 679,
696 (1978).
Viewing the facts in the light most reasonably favorable to Viamedia, Comcast’s procompetitive justifications seem to fall into this latter category. If Comcast could offer improved efficiencies by offering ad
rep services and Interconnect services together to
MVPDs, it was always free to do so. If this were the
case, it could have passed on some of those savings to
MVPD customers and possibly outcompeted Viamedia. Refusing to deal with the MVPD’s representative
of choice appears to be an attempt to avoid competition on the merits in the markets for ad rep services.

97a
On the procompetitive side of the ledger, evidence
of reduced pricing could offset harm—although current contracts may not yet reflect ultimate post-competition pricing. They were signed when Comcast was
still bidding against Viamedia. And while protection
against free-riding is generally recognized as a procompetitive goal, “[w]hen payment is possible, freeriding is not a problem because the ‘ride’ is not free.”
Chicago Prof’l Sports Ltd. Partnership v. NBA, 961
F.2d 667, 675 (7th Cir. 1992); see also Hovenkamp,
The Rule of Reason, 70 FLA. L. REV. at 111, 113 (“Often
instances of claimed free riding are really complaints
about competition, particularly when there are joint
costs,” and “complete market exclusion is a suspiciously excessive remedy for claimed free riding, even
where a certain amount of free riding actually occurs.”). If Comcast has evidence of truly procompetitive benefits, it should submit that evidence to the
trier of fact. But the hypotheses it has offered thus far
do not entitle it to summary judgment.
3. Remedies
Comcast’s final defense focuses on the challenge
of remedying its conduct. After all, Comcast points
out, “Courts are ill suited ‘to act as central planners,
identifying the proper price, quantity, and other terms
of dealing.’” Pacific Bell Telephone Co. v. Linkline
Communications, Inc., 555 U.S. 438, 452 (2009), quoting Verizon Communications Inc. v. Law Offices of
Curtis V. Trinko, 540 U.S. 398, 408 (2004). Call this
the “So what?” defense.
We agree that a court should not “impose a duty
to deal that it cannot explain or adequately and reasonably supervise.” Linkline, 555 U.S. at 452–53,
quoting Trinko, 540 U.S. at 415. Yet courts are often

98a
called upon to undertake complicated, long-term supervision of complex cases and remedies. The judiciary need not and should not adopt a posture of learned
helplessness in the face of proven antitrust violations.
For example, courts regularly preside over dozens, if
not hundreds or even thousands, of related cases in
multidistrict litigation that present complicated questions of liability, not to mention supervising and implementing remedies over years if not decades. See,
e.g., MDL 875 In re: Asbestos Products Liability Litigation (No. VI) (overseeing thousands of asbestos
cases, including class actions, since 1991). Courts
oversee the bankruptcy process for companies with
complicated corporate structures and far-flung assets,
supervising sales of those assets worth hundreds of
billions of dollars. See, e.g., In re Lehman Brothers
Holdings, Inc., Case No. 08-13555 (Bankr. S.D.N.Y.).
And of course federal courts currently supervise at
least 115,000 individuals on supervised release, implementing difficult-to-monitor and intrusive conditions limiting those individuals’ jobs, the family and
friends they can see, their drug and alcohol consumption, and locations to which they can travel, among
others—all enforced through routine interviews of
family and associates, electronic monitoring, drug
tests, and random searches. Administrative Office of
the United States Courts, Overview of Probation and
Supervised Release Conditions 42–93 (Nov. 2016). In
this antitrust case, we are not yet ready to cry “uncle”
by affirming dismissal based on the unsubstantiated
claim that this case poses “insoluble administrability
problems.”
In any event, this defense puts the cart before the
horse. The trier of fact must first evaluate the evidence and determine whether Comcast’s procompetitive justifications outweigh the anticompetitive harms

99a
from its conduct. If Comcast is found liable, the district court will then face a decision about appropriate
remedies. That will be the time to face the practical
problems Comcast hypothesizes.
The record thus far offers reasons to think the
problems would be manageable. Comcast and Viamedia did business voluntarily, presumably on profitable
terms for both. That history may well simplify the
problems. As then-Judge Gorsuch wrote for the Tenth
Circuit in Novell, evidence of that earlier course of
dealing “helps address, at least to some degree, administrability concerns—presumably profitable terms
already agreed to by the parties may suggest terms a
court can use to fashion a remedial order without having to cook them up on its own.” 731 F.3d at 1075.
Moreover, Comcast itself told the FCC that this
should not be an insoluble problem. It told the FCC
that “the revenue share in an interconnect is often the
same for all participants, and fairly standardized
across interconnects.” Comcast 2014 FCC Response
at 279 n.883. Such comparison points (both within a
given Interconnect and against other Interconnects in
which Comcast sells or buys Interconnect-only access)
may be used to establish a remedy that addresses pricing.
That being said, “Antitrust courts normally avoid
direct price administration, relying on rules and remedies . . . that are easier to administer.” Linkline, 555
U.S. at 453, quoting Concord v. Boston Edison Co., 915
F.2d 17, 25 (1st Cir. 1990) (Breyer, C.J.). If a pricing
remedy proves too complicated, then structural remedies may be preferable.
See, e.g., Areeda &
Hovenkamp ¶ 600b, at 4 (even “[m]ildly reprehensible
behavior might be enough to challenge a firm whose
power is significant” and could justify imposing a

100a
more substantial remedy (e.g., “divestiture or dissolution” versus “an injunction”)).
Comcast knows that courts are capable of overseeing structural and behavioral remedies (including
ones that govern pricing disputes) that ameliorate
competitive concerns. It agreed to such an arrangement as a condition for court approval of its challenged 2009 merger with NBC Universal. United
States v. Comcast Corp., 808 F. Supp. 2d 145, 147–48
(D.D.C. 2011) (Comcast agreeing to certain remedies
to prevent anticompetitive conduct post-merger).
Such court-imposed and court-supervised remedies
can also be imposed without a defendant’s consent after a finding of liability. One obvious possibility would
be to prohibit Comcast’s control over Interconnects,
which, in light of the evidence of misuse of that power
to harm competition, raises serious problems under
Section 1 of the Sherman Act.21
D. Antitrust Injury
A private civil plaintiff in an antitrust case must
also establish “antitrust injury,” which requires proof
that its “claimed injuries are of the type the antitrust
laws were intended to prevent and reflect the anticompetitive effect of either the violation or of anticompetitive acts made possible by the violation.” Kochert
v. Greater Lafayette Health Servs., Inc., 463 F.3d 710,

21

An amicus brief filed in support of Comcast argued that any
“relief for arbitrary refusals to deal should be left to the legislature.” Brief for the Chamber of Commerce of the United States
of America as Amicus Curiae in Support of Appellees at 25 (internal quotation marks omitted). The Chamber’s argument that
courts should not enforce Section 2 in refusal-to-deal claims is a
policy position—and not one with which we are free to agree.

101a
716 (7th Cir. 2006) (internal quotation marks and citations omitted). Viamedia has offered evidence of antitrust injury.
When a monopolist creates a monopoly in the tied
market, rivals are often excluded from the market,
thereby losing market share or sales. “In such cases
courts ordinarily grant standing to the excluded or impeded rival.” Areeda & Hovenkamp ¶ 1767a, at 449;
see also Brunswick Corp. v. Pueblo Bowl-O-Mat, Inc.,
429 U.S. 477, 490 n.14 (1977) (“[C]ompetitors may be
able to prove injury before they actually are driven
from the market and competition is thereby lessened.
Of course, the case for relief will be strongest where
competition has been diminished.”). We have also often recognized that competitors suffer antitrust injury
when they are forced from the market by exclusionary
conduct. See, e.g., Tri-Gen Inc. v. Int’l Union of Operating Engineers, Local 150, AFL-CIO, 433 F.3d 1024,
1032 (7th Cir. 2006) (“[T]his Court has recognized that
competitors can bring an antitrust claim when they
are excluded from the market and injured by defendants’ actions.”); Serfecz v. Jewel Food Stores, 67 F.3d
591, 597 (7th Cir. 1995) (“When the plaintiff’s injury
is linked to the injury inflicted upon the market, such
as when consumers pay higher prices because of a
market monopoly or when a competitor is forced out of
the market, the compensation of the injured party promotes the designated purpose of the antitrust law—
the preservation of competition.”) (emphasis added).
This rule is integral to an effective antitrust regime
because “the foreclosed rival’s injury is entirely independent of the amount or existence of any injury to
buyers.” Areeda & Hovenkamp ¶ 1767a, at 449.
The general rule is that customers and competitors in the affected market have antitrust standing.

102a
See Associated General Contractors, 459 U.S. at 539;
McGarry & McGarry, LLC v. Bankruptcy Mgmt. Solutions, Inc., 937 F.3d 1056, 1065–66 (7th Cir. 2019), citing In re Aluminum Warehousing Antitrust Litig., 833
F.3d 151, 158 (2d Cir. 2016), citing in turn Serpa Corp.
v. McWane, Inc., 199 F.3d 6, 10 (1st Cir. 1999) (“Competitors and consumers in the market where trade is
allegedly restrained are presumptively the proper
plaintiffs to allege antitrust injury.”), and SAS of P.R.,
Inc., v. P.R. Tel. Co., 48 F.3d 39, 45 (1st Cir. 1995)
(“competitors and consumers are favored plaintiffs in
antitrust cases”). Viamedia is not seeking relief based
on a theory that competition should have been reduced. Cf. Brunswick Corp. v. Pueblo Bowl-O-Mat,
429 U.S. at 488 (rejecting claim for loss of income that
would have been earned if other competitors had been
forced out of the market and competition had thus
been reduced). Instead, Viamedia seeks only an opportunity for fair competition in the ad rep services
markets, based on the quality and prices of its services. It is an appropriate plaintiff to seek damages
based on exclusionary conduct that forced it out of
that market.
Viamedia claims that Comcast’s exclusionary conduct drove it from the ad rep services markets in Chicago, Detroit, and Hartford, thus reducing competition. Viamedia has presented evidence indicating
that if Comcast not tied its sale of Interconnect services to ad rep services, RCN and WOW! likely would
have continued to obtain ad rep services from Viamedia. The harm to competition is particularly pronounced since Viamedia was Comcast’s only competitor in in the relevant markets. To the extent that
Comcast engaged in exclusionary conduct, the evidence indicates that the exclusionary conduct caused

103a
Viamedia’s injuries by forcing it from the ad rep services markets.
The partial dissent expresses great skepticism toward rivals’ antitrust suits and argues that Viamedia
cannot show antitrust injury on its tying claim. As a
general matter, caution is appropriate. The partial
dissent goes astray, however, by contending it is “uncommon” for a “single foreclosed rival” to have standing in a tying case. Post at 122–23. The leading tying
cases and the leading treatise’s specific, on-point discussion of antitrust standing in tying cases teach otherwise.
The foundational tying cases of the past 40 years
were brought by tied-market rivals. Eastman Kodak,
504 U.S. 451; Jefferson Parish, 466 U.S. 2. The partial
dissent cites no case law for its assertion that such
cases are “uncommon.” It also does not cite any case
in which an excluded rival in the tied market was
found to lack antitrust injury. In the single tying case
cited in the partial dissent’s discussion of antitrust injury, the plaintiff lacked antitrust injury precisely because she was not participating in the tied market
when the tie was allegedly implemented. See Kochert,
463 F.3d at 716.
And where Areeda and Hovencamp address antitrust standing in tying cases, they recognize that
standing is appropriate in cases like this. Viamedia
was competing with Comcast in the tied market for ad
rep services. It was forced out of that market in Chicago, Detroit, and Hartford. Areeda and Hovencamp
explain:
Rivals in that market [the tied market] may
be “foreclosed” when their entry or expansion
is impeded or they lose existing market share

104a
or sales. Consumers lose the benefits of any
entry, expansion, competition, or innovation
that independent rivals might have injected
into the tied market. In such cases courts ordinarily grant standing to the excluded or impeded rival.
¶1767a, at 449–50 (emphasis added); accord, Eastman
Kodak, 504 U.S. at 479 (reversing summary judgment
for defendant: market foreclosure in tied market resulting from illegal tying “is facially anticompetitive
and exactly the harm that antitrust laws aim to prevent”). To the extent that the partial dissent suggests
that the tying conduct at issue is not illegal or exclusionary, that goes to the merits, not to antitrust injury.
The partial dissent also suggests that Viamedia’s
injuries cannot establish antitrust injury because
they are the same as those alleged from the refusal to
deal. Post at 125. This point also reflects only disagreement on the merits of the tying claim and the confusion that has stemmed from the different treatment
of the two claims in the district court. Because the
same general course of conduct supports both the refusal-to-deal and tying claims, the two theories necessarily allege similar injuries and damages.
E. Role of Expert Witnesses
The final issue is the admissibility of expert testimony. We review the district court’s exclusion for an
abuse of discretion. Salgado v. General Motors Corp.,
150 F.3d 735, 739 (7th Cir. 1998). If a discretionary
ruling is based on an error of law, though, it can often
be deemed an abuse of discretion. E.g., Cooter & Gell
v. Hartmarx Corp., 496 U.S. 384, 402 (1990) (Rule 11

105a
sanctions); Ervin v. OS Restaurant Services, Inc., 632
F.3d 971, 976 (7th Cir. 2011) (class certification).
The district court struck Viamedia’s expert testimony largely based on the view that Viamedia’s
claims should fail as a matter of law. We disagree
with the district court’s view of the law, so we reverse
the court’s rulings regarding Viamedia’s expert witnesses.22 We address separately the district court’s
ruling regarding a portion of Viamedia’s expert economic witness, whom the court perceived as merely
offering “lay” testimony, as well as an objection Comcast has raised on appeal that Viamedia failed to offer
a causation expert, which Comcast believes should be
fatal.
1. Standard
Expert opinion testimony is admissible if “(a) the
expert’s scientific, technical, or other specialized
knowledge will help the trier of fact to understand the
evidence or to determine a fact in issue; (b) the testimony is based on sufficient facts or data; (c) the testimony is the product of reliable principles and methods; and (d) the expert has reliably applied the principles and methods to the facts of the case.” Fed. R.
Evid. 702. An expert’s opinion may “overlap[] with the
jurors’ own experiences” or “cover matters that are
within the average juror’s comprehension,” so long as
the expert uses some kind of “specialized knowledge”
to place the litigated events “into context.” Lawson v.
22

Viamedia offered Dr. Lys as an expert on damages issues.
The only basis for excluding his opinion was that he assumed
that Comcast’s conduct had violated the antitrust laws and thus
caused Viamedia cognizable harm, and the court had concluded
that Viamedia could not legally prevail on its antitrust claims.
As we are reversing the district court’s legal rulings, the court’s
exclusion of Dr. Lys’ expert opinion must also be reversed.

106a
Trowbridge, 153 F.3d 368, 376 (7th Cir. 1998) (citations omitted); see also United States v. Williams, 81
F.3d 1434, 1441 (7th Cir. 1996) (“All you need to be an
expert witness is a body of specialized knowledge that
can be helpful to the jury.”).
2. Economic Expert Witness
Viamedia offered Dr. Furchtgott-Roth as an expert witness on the economic rationales of Comcast’s
conduct and the competitive ramifications from such
conduct. Setting aside the district court’s ruling regarding Dr. Furchtgott-Roth’s report based on the
court’s legal holdings, the court also excluded a portion of his testimony as offering only a lay impression
of the market and Comcast’s conduct.
Viamedia argues that Dr. Furchtgott-Roth’s undisputed “specialized knowledge” would be helpful to
a jury to place Comcast’s conduct into context, and
that there are some complex facts in this case, “including the economic incentives faced by a set of interrelated firms in the two-sided market for spot cable advertising,” which are not “obvious to the layperson.”
Dr. Furchtgott-Roth clearly drew conclusions
through “expert assessment,” not merely a lay interpretation of the evidence. While he did summarize
and repeat some relevant facts, he drew significantly
on expertise to “add something”—context and supporting information—to the record. Viamedia contends that its exclusion from the Interconnects furthered Comcast’s tying policy. Dr Furchtgott-Roth’s
opinion that self-provision is not a viable business option for smaller MVPDs is an expert interpretation of
evidence on a highly relevant factual point. So too is
his opinion that Viamedia cannot make a competitive

107a
offer for ad rep services if Comcast conditions its competitor MVPDs’ Interconnect access on forgoing Viamedia’s services. He drew on his expertise to make
these two determinations, both of which required
analysis of market conditions. These opinions informed his broader opinion that Comcast’s exclusion
of Viamedia from the Interconnects was integral to its
tying conduct. The district court therefore abused its
discretion in concluding that Dr. Furchtgott-Roth’s
testimony was not significantly informed by his expertise. It was, and it therefore meets the requirement of
Federal Rule of Evidence 702(a).
3. Lack of Expert Witness on Causation
Comcast also argues that Viamedia’s case must
fail because it has not offered an expert on causation.
Hiring another expert on causation is not a legal requirement for successfully bringing an antitrust case.
Rather than requiring “§ 2 liability [to] turn on a
plaintiff’s ability or inability to reconstruct the hypothetical marketplace absent a defendant’s anticompetitive conduct,” which “would only encourage monopolists to take more and earlier competitive action,”
courts have inferred causation when a defendant’s
conduct “reasonably appear[s] capable of making a
significant contribution to . . . maintaining monopoly
power.” United States v. Microsoft Corp., 253 F.3d 34,
78–79 (D.C. Cir. 2001) (en banc) (citation omitted). To
the extent there may be an underlying problem of
proof, “the defendant is made to suffer the uncertain
consequences of its own undesirable conduct,” and
causation “queries go to questions of remedy, not liability.” Id. at 79–80 (citation omitted).

108a
Conclusion
Viamedia alleged sufficiently, and at summary
judgment offered sufficient evidence, that Comcast violated Section 2 of the Sherman Act. Viewing the allegations and evidence in the light most favorable to
Viamedia, Comcast abruptly terminated decade-long,
profitable agreements and sacrificed short-term profits to obtain and entrench long-term market power,
and used its monopoly power in Interconnect services
market to force its MVPD competitors into a relationship that makes Comcast a gatekeeper of its competitors’ advertising revenue. This conduct “reveal[s] a
distinctly anticompetitive bent.” Trinko, 540 U.S. at
409, discussing Aspen Skiing, 472 U.S. 585. Comcast
is free to contest these issues at trial, as well as to try
to prove and quantify any procompetitive justifications. The factual disputes in this case are numerous,
genuine, and material. The judgment of the district
court is REVERSED and the case is REMANDED for
further proceedings consistent with this opinion.

109a
BRENNAN, Circuit Judge, concurring in part and
dissenting in part. The majority opinion is synoptic in
its coverage, deeply researched, and meticulous in its
consideration of the antitrust issues this case presents. It deserves much respect. While I agree Viamedia has plausibly alleged an antitrust violation
and is entitled to reversal and remand on its refusalto-deal claim, I would affirm summary judgment on
its tying claim because the undisputed facts do not
present evidence of an illegal tie. I also respectfully
part company with my colleagues on some other issues the majority opinion tackles.
The last several decades have brought a new regime to antitrust law in the world of exclusionary conduct. Outdated monopolization doctrines have given
way to a sharper and narrower understanding of what
constitutes exclusionary behavior under § 2 of the
Sherman Act, 15 U.S.C. § 2. See Novell, Inc. v. Microsoft Corp., 731 F.3d 1064, 1072 (10th Cir. 2013);
United States v. Microsoft Corp., 253 F.3d 34, 49 (D.C.
Cir. 2001). History teaches this new regime promotes
competition and innovation in the marketplace, and it
informs the resolution of the claims and defenses before us now.
I.

Refusal to Deal

A 2003 agreement between Viamedia and Comcast granted Comcast the exclusive right to sell on its
Chicago, Detroit, and Hartford Interconnects advertising availabilities that Viamedia purchased from
multichannel video programming distributors
(“MVPD”) WOW! and RCN. Viamedia understood
that, upon the agreement’s expiration, Comcast had
the right to solicit RCN’s and WOW!’s advertising
business directly. The agreement between Viamedia
and Comcast expired May 31, 2012. The next day

110a
Comcast informed Viamedia of its intent not to renew
their agreement and to seek RCN’s and WOW!’s business directly.
Comcast “prefers to deal directly with MVPDs, rather than with intermediaries such as Viamedia, and
has found substantial benefits from direct dealings.”
Appellee’s Br. 11. When their contracts with Viamedia expired in 2015, RCN and WOW! contracted with
Comcast to be their ad representative in Chicago and
Detroit and sell their availabilities on its Interconnects. Up to that point, Viamedia’s agreements with
RCN and WOW! prevented them from dealing directly
with Comcast.
Cut out of the deal, Viamedia sued Comcast for
allegedly violating § 2 of the Sherman Act, claiming
Comcast’s decision to end Viamedia’s access to the Interconnects lacked a valid business reason under Aspen Skiing Co. v. Aspen Highlands Skiing Corp., 472
U.S. 585 (1985). Specifically, Viamedia alleged Comcast’s decision caused Comcast to forfeit fees upfront
and reduced the economic value of the Interconnects.
The allegations do not claim that Comcast’s sacrificed
profits later led to monopoly recoupment.
The district court dismissed Viamedia’s refusalto-deal claim. Viamedia, Inc. v. Comcast Corp., 218 F.
Supp. 3d 674 (N.D. Ill. 2016). The court found that
Viamedia’s own allegations admitted a valid business
purpose for Comcast’s refusal: removing an intermediary, Viamedia, to deal directly with MVPD customers.1 Id. at 698. The court further found that Viamedia failed to allege or explain how Comcast’s refusal to
1

This court has characterized this common business practice
of vertical integration or disintermediation as pro-competitive
and efficient. See Jack Walters & Sons Corp. v. Morton Bldg.,

111a
deal with it had “no rational procompetitive purpose.”
Id.
A. The Refusal-to-Deal Claim Survives a
Motion to Dismiss.
We review the grant of a Federal Rule of Civil Procedure 12(b)(6) motion to dismiss de novo and ask
whether there is “plausibility in the complaint.”
Christy Sports, LLC v. Deer Valley Resort Co., 555
F.3d 1188, 1191 (10th Cir. 2009) (citing Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 564 (2007)) (internal
citations omitted); see also Deppe v. NCAA, 893 F.3d
498, 500 (7th Cir. 2018). “A claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Plausibility does not ask whether the allegations are likely
true; the court must assume they are. Instead, the
inquiry is “whether, if the allegations are true, it is
plausible and not merely possible that the plaintiff is
entitled to relief.” Christy Sports, 555 F.3d at 1191–
92. The plaintiff must plausibly allege more than
“wholly conclusory statements” that a defendant violated § 2 of the Sherman Act to advance past the
pleadings stage. Id.
In considering the alleged violation at the root of
Viamedia’s refusal-to-deal claim, we must be cognizant that “the antitrust laws rarely impose on firms—
even dominant firms—a duty to deal with rivals.”
Novell, 731 F.3d at 1066; see also Verizon Commc’ns v.
Law Offices of Curtis V. Trinko, 540 U.S. 398, 411

Inc., 737 F.2d 698, 710 (7th Cir. 1984) (holding “vertical integration usually is procompetitive”).

112a
(2004) (holding even a monopolist has no duty to cooperate with rivals). “As a general rule purely unilateral
conduct does not run afoul of section 2—businesses
are free to choose whether or not to do business with
others and free to assign what prices they hope to secure for their own products.” 731 F.3d at 1072. In the
past, “some courts suggested that a monopolist must
lend smaller rivals a helping hand,” but today it is understood that forcing rivals to cooperate “usually
leaves consumers paying more for less.” Id.; see also
Frank H. Easterbrook, The Chicago School & Exclusionary Conduct, 31 HARV. J.L. & PUB. POL’Y 439, 441–
42 (2008) (antitrust themes incentivizing cooperation
among firms largely “bit the dust in Verizon v. Trinko”
and now “the main goal of antitrust is to compel firms
to be rivals”); Olympia Equip. Leasing v. Western Union Telegraph, 797 F.2d 370, 375 (7th Cir. 1986) (“Today it is clear that a firm with lawful monopoly power
has no general duty to help its competitors, whether
by holding a price umbrella over their heads or by otherwise pulling its competitive punches.”).
Despite this hesitancy to condemn refusals to
deal, a monopolist’s behavior violates § 2 if it is “irrational but for its anticompetitive effect.” Novell, 731
F.3d at 1075; see also 3 Phillip E. Areeda & Herbert
Hovenkamp, ANTITRUST LAW: AN ANALYSIS OF ANTITRUST PRINCIPLES AND THEIR APPLICATION 651b3, p.
107 (4th ed. 2015) (monopolizing conduct is “irrational” if “only explanation that makes it seem profitable is destruction or discipline of rivals”) (hereinafter
Areeda & Hovenkamp, ANTITRUST LAW); Trinko, 540
U.S. at 407 (defendant must be seeking “an anticompetitive end”); Aspen Skiing, 472 U.S. at 605 (“If a firm
has been attempting to exclude rivals on some basis
other than efficiency, it is fair to characterize its behavior as predatory.”) (internal citations omitted);

113a
Christy Sports, 555 F.3d at 1194 (“in rare circumstances a refusal to cooperate with competitors might
constitute a § 2 violation”).
It is unclear—particularly on a motion to dismiss
when a plausibly alleged violation is all that is required—whether conduct “irrational but for its anticompetitive effect” is to be treated the same as conduct
with “no rational procompetitive purpose.” See 218 F.
Supp. 3d at 698. Although slight, there is a difference:
the former provides an antitrust plaintiff the opportunity to argue that, despite some efficiency justification proffered by an antitrust defendant, the rational
or intended goal of the conduct was its anticompetitive
impact. The latter, in contrast, requires the antitrust
defendant to put forward any evidence of some business reason for its conduct, regardless of potential anticompetitive effect. The district court applied the latter and found there was a rational procompetitive purpose because Comcast offered evidence of vertical integration and disintermediation—motives that I
agree reflect lawful and procompetitive marketplace
conduct.2 But it did so by disregarding the plausibility
of Viamedia’s allegations of anticompetitive conduct
and weighing the evidence in Comcast’s favor. This is
not the court’s role on a Rule 12(b)(6) motion.
Any confusion here may stem from a misunderstanding of how to handle conflicting evidence of conduct in the allegations. If only one party advances evidence showing pro-competitive or anticompetitive
2

The majority opinion reviews vertical integration and disintermediation cases cited by Comcast and concludes they are inapposite here on the question of procompetitive conduct. See Majority op. at pp. 63–67. While it does not change my agreement
with the majority to remand the refusal-to-deal claim, I do not
reach this same conclusion.

114a
conduct, the court may find the lack of any opposing
evidence shows either rationality or irrationality for
§ 2 purposes. See Novell, 731 F.3d at 1076 (on review
of judgment as a matter of law, finding no evidence
from which a reasonable jury could conclude monopolist’s conduct was irrational); see also Aspen Skiing,
472 U.S. at 610 (on review of summary judgment,
finding no evidence of efficiency justification for the
refusal to deal). But even these instances are postpleading. What of the parties who, at the pleading
stage, proffer allegations of competing economic justifications for behavior? Are we to accept the defendant’s proffered justification as conclusive of procompetitive rationality without considering the plaintiff’s
allegations of anticompetitive conduct? If so, can an
antitrust plaintiff ever advance past the pleadings
stage when a defendant asserts a procompetitive justification? The district court effectively held the plaintiff cannot, 218 F. Supp. 3d at 698, but this is up for
debate. See 3 Areeda & Hovenkamp, ANTITRUST LAW
¶ 651b3, pp. 106–07 (criticizing approach that relies
on facts which “benefit the defendant very slightly
while doing considerable harm to the rest of the economy;” “[n]ot all monopolizing conduct that we might
wish to condemn is ‘irrational’”); Microsoft Corp., 253
F.3d at 59 (defendant bears the burden of presenting
a “nonpretextual claim” and proving procompetitive
justification on the facts); Illinois ex rel. Burris v. Panhandle Eastern Pipe Line Co., 935 F.2d 1469, 1481–82
(7th Cir. 1991) (finding “the presence of a legitimate
business justification reduces the likelihood that the
conduct will produce undesirable effects on the competitive process”; “[w]hether valid business reasons
motivated a monopolist’s conduct is a question of fact”
for a fact-finder); Olympia, 797 F.2d at 378 (reasoning

115a
the lack of “a clear business justification” among conflicting evidence “may indicate probable anticompetitive effect” but is not conclusive). We need not settle
this debate, though, as it does not impact the decision
to remand.
As the majority opinion recognizes, “the calculation of procompetitive benefits net of anticompetitive
harms does not easily lend itself to a pleading standard.” Majority op. at p. 59. Viamedia alleged Comcast’s conduct could achieve “no pro-competitive justifications” because there were no “problems in allowing
Viamedia to participate in Interconnects” on behalf of
its MVPD customers. Viamedia’s allegations show
more than market power; they allege Comcast’s exclusionary conduct was anticompetitive and harmful to
the economic purpose of the Interconnects, see Christy
Sports, 555 F.3d at 1192 (anticompetitive allegation
must appear in the pleadings), specifically by denying
Viamedia access to the Interconnects. Giving Viamedia the benefit of its allegations, its refusal-to-deal
claim clears the Rule 12(b)(6) pleading bar because it
plausibly alleges it was “excluded from the market
and injured by defendant[‘s] actions,” Tri-Gen Inc. v.
Int’l Un. of Op. Eng’s Local 150, 433 F.3d 1024, 1032
(7th Cir. 2006)—an alleged injury that “harms both
competitors and competition,” Cargill, Inc. v. Monfort
of Colo., Inc., 479 U.S. 104, 118 (1986). Down the
road, the facts Viamedia has pleaded or other facts
discovered may render its refusal-to-deal claim a candidate for summary disposition. See Collins v. Associated Pathologists, Ltd., 844 F.2d 473, 475 (7th Cir.
1988) (considering various antitrust claims: “the very
nature of antitrust litigation encourages summary
disposition of such cases when permissible”). But
viewing the facts in a light favorable to Viamedia, its
refusal-to-deal claim has not reached that point.

116a
On a motion to dismiss, an antitrust plaintiff
seeking § 2 damages must point to plausible allegations showing its rival’s refusal to deal was irrational
but for its anticompetitive effect. Regardless of how
this court in the future resolves competing justifications at the dismissal stage, Viamedia has plausibly
alleged refusal to deal in violation of § 2 and was entitled to advance that claim beyond the pleadings.
B. The Refusal-to-Deal Claim Is Different
than the Claim in Aspen Skiing.
The majority opinion concludes this case is indistinguishable from Aspen Skiing, 472 U.S. 585. Majority op. at p. 54. I respectfully do not join the majority’s
conclusion that Aspen Skiing “maps onto Comcast’s
conduct,” id. at 44, or that on a refusal-to-deal theory
this case “appears stronger than Aspen Skiing.” Id. at
52.
The familiar holding of Aspen Skiing is that the
defendant’s “failure to offer any efficiency justification
whatever for its pattern of conduct” resulted in a § 2
violation. 472 U.S. at 608; see also Christy Sports, 555
F.3d at 1197 (finding the “critical fact in Aspen Skiing
was that there were no valid business reasons for the
refusal” to deal). Its holding is specific: the defendant
could not justify either its insistence on breaking up
the joint lift pass or its refusal to sell the other owner
its passes for the same value just to keep the pass together. 472 U.S. at 603. There was no efficiency reason offered for the defendant’s conduct; the only apparent purpose was to eliminate competition. Id. at
608. The Supreme Court later explained that this conduct constituted a violation because the “unilateral
termination of a voluntary (and thus presumably profitable) course of dealing suggested a willingness to forsake short-term profits to achieve an anticompetitive

117a
end.” Trinko, 540 U.S. at 409. The defendant’s “unwillingness to renew the ticket even if compensated at
retail price revealed a distinctly anticompetitive
bent.” Id.; see also Goldwasser v. Ameritech Corp., 222
F.3d 390, 398 (7th Cir. 2000) (explaining the decision
“to forgo cash revenues and efficient methods of doing
business for the sole purpose of driving its rival out of
the market” is a § 2 violation).
The application of Aspen Skiing’s holding has
been the subject of substantial debate. Albeit a seminal antitrust opinion, Aspen Skiing is recognized as a
factual and legal exception under current antitrust
law. See Trinko, 540 U.S. at 409 (“Aspen Skiing is at
or near the outer boundary of § 2 liability.”). Today, it
fits within the “narrow world of refusal to deal cases.”3
Novell, 731 F.3d at 1079; see Easterbrook, The Chicago School & Exclusionary Conduct, at 441–42 (describing the Court’s holding in Aspen Skiing as “the
last gasp of the old school of antitrust”).
Not all refusal-to-deal challenges fall within the
“limited exception” of Aspen Skiing. Novell, 731 F.3d
at 1074–75. To invoke that exception, there must be
a preexisting, voluntary, and presumably profitable
course of dealing between a monopolist and a rival,
and the discontinuation of that dealing must reveal
irrational willingness to forsake short-term profits to

3

See Gov’t’s Br. in Supp. of Neither Party at 6, 8–11, ECF
No. 33 (arguing only limited circumstances have been recognized
in which a monopolist violates § 2 by refusing to deal with a rival,
and those circumstances are tightly circumscribed due to the
negatives of coerced dealing; recommending this court follow
Novell and its test that a refusal to deal does not violate § 2 “unless it would make no economic sense for the defendant but for
its tendency to eliminate or lessen competition”).

118a
achieve an anti-competitive end. Id. Evidence of forsaking short-term profits may “isolate conduct that
has no possible efficiency justification.” Id. at 1077.
When considering sacrificed profits, though, courts
should not “disaggregate profits from different lines of
business” as “[p]arsing profits” would defeat the purpose of “holding firms liable for making moves that
enhance their overall efficiency.” Id. (disaggregating
profits would make it difficult to assess firm’s goal of
“maximizing overall profits” and is inconsistent with
the Court’s reasoning in Aspen Skiing and Trinko); see
also Christy Sports, 555 F.3d at 1194 (businesses have
ability “to recoup [their] investment[s]” in any number
of ways). In finding the Aspen Skiing exception applies here, the majority opinion points to three key factors underlying the Supreme Court’s decision in that
case: (1) an important change in a pattern of distribution that had persisted for years; (2) conduct in the
market with arrangements in comparable markets;
and (3) forgoing profitable transactions. Majority op.
at pp. 49–51. On these factors, I see Aspen Skiing and
this case as different.
First, in Aspen Skiing there was more than an
“important change” in the distribution pattern, as in
that case the joint pass was terminated altogether.
472 U.S. at 603. Here, no termination of the Interconnect occurred; instead, Comcast encouraged additional MVPD participation and sought to secure their
access to the Interconnects by contracting with them
directly. Second, in Aspen Skiing, the monopolist’s
conduct in comparable markets where it lacked dominance included the use of cooperative tickets in areas
that apparently were competitive. Id. at 603–04. But
Comcast participates in Interconnects across other
DMAs, and, where it is the largest MVPD in a market,
it operates the Interconnect there, too. 335 F. Supp.

119a
3d at 1046. Third, in Aspen Skiing the forgoing of
profitable transactions was not alone, but “in exchange for perceived long-run impact on its smaller
rival,” and referenced in Aspen Skiing only in the context of finding no efficiency justification for the refusal
to deal. 472 U.S. at 608, 610. That is not the case here,
as Comcast was able to proffer an efficiency justification (disintermediation and vertical integration) for
its conduct. See Appellee’s Br. 3.
Aspen Skiing would be more analogous to this
case if a third-party vendor had managed the sales
and advertising of the joint pass directly to skiers, and
then Aspen Skiing Company (the monopolist) took
over that role for vertical integration or other efficiency reasons. Instead, Aspen Skiing Company terminated the joint pass altogether; that would be like
Comcast terminating the Interconnects to create a
sub-optimal new platform to sell advertising, which of
course did not happen here. Rather than terminate
the Interconnects, Comcast encouraged MVPD participation and sought to secure MVPDs’ access to the Interconnects by contracting directly with them. The
record also contains evidence that Comcast acted pursuant to a rational business purpose: Comcast
claimed it sought vertical integration and disintermediation, and Viamedia admitted such an efficiency justification in its allegations. See id. at 3.
Still, the reinstatement of Viamedia’s refusal-todeal claim does not depend on Aspen Skiing. Because
that claim survives the plausibility requirement we
apply under Rule 12(b)(6), that portion of the judgment should be reversed and remanded.

120a
C. Opinion Testimony on the Refusal-toDeal Claim May Be Allowed.
Lastly on the refusal-to-deal claim, the district
court’s order regarding expert witnesses, which we review for abuse of discretion, is properly vacated. See
Salgado ex rel. Salgado v. Gen. Motors Corp., 150 F.3d
735, 739 (7th Cir. 1998). On remand, the landscape of
this case will have sufficiently changed to allow for
this method of proof on the refusal-to-deal claim. This
reversal allows for Viamedia to name expert witnesses on this claim, subject to the usual later motion
practice to exclude or limit their testimony on this
cause of action.
II. Tying
After their agreements with Viamedia expired,
RCN and WOW! sought exclusive, full-turnkey relationships with Comcast. Neither RCN nor WOW! ever
sought Interconnect-only services. The record contains no evidence that Comcast has ever declined an
MVPD’s request for Interconnect-only services; in
fact, 14 percent of Comcast’s agreements with MVPDs
across all DMAs since December 2011 were Interconnect-only agreements. Viamedia, Inc. v. Comcast
Corp., 335 F. Supp. 3d 1036, 1058 (N.D. Ill. 2018).
None of those Interconnect-only agreements prevent
an MVPD from hiring another ad representative for
local sales or conducting their own ad representation.
Under its tying theory, Viamedia claimed Comcast conditioned access to the Interconnect (the “tying” product) on the purchase of Comcast’s ad representation services (the “tied” product). But for whom?
Viamedia conceded that both RCN and WOW! maintained the ability to deal directly with Com- cast and
access the Interconnect without any ad representative

121a
should they choose not to employ Comcast at the termination of their agreements with Viamedia.
The district court granted summary judgment on
Viamedia’s tying claim. 335 F. Supp. 3d at 1074. In
so doing the court found there was no evidence that
Comcast conditioned access to the Interconnect on the
purchase of ad representation services. Id. at 1058
(finding the fact that RCN and WOW! both requested
full-turnkey representation and that 14 percent of
Comcast’s agreements with MVPDs are Interconnectonly “belies any inference that Comcast tied its services.”). The court further found there was no triable
issue as to antitrust injury or damages, both necessary elements of an actionable claim. Notably, Viamedia admitted its injuries were “fully attributable to
Comcast’s decision to deny Viamedia Interconnect access,” id. at 1070, thereby failing to establish a cognizable antitrust injury separate from the refusal to
deal. Viamedia likewise failed to separately prove
damages caused by the alleged tying conduct, again
collapsing that showing into the refusal-to-deal claim.
Id. at 1072–73.
To the district court, the crux of Viamedia’s tying
claim was that Comcast withheld the alleged tying
product from its rival, Viamedia, not from its customers, WOW! and RCN. As the court found, Viamedia
aimed to sell MVPDs a bundle of Comcast’s Interconnect services with Viamedia’s ad representation services, but “Viamedia has no antitrust right to force
Comcast to help it sell such a bundle to their mutual
customers.” Id. at 1064. Finding the undisputed evidence did not show tying conduct, the district court
granted summary judgment. Id. at 1074.

122a
A. Antitrust Injury and Standing
Lacking on the Tying Claim.

are

As a threshold matter, a plaintiff must have antitrust standing to bring an antitrust claim. See
McGarry & McGarry v. Bankr. Man. Solut., 937 F.3d
1056, 1063 (7th Cir. 2019) (antitrust standing required to identify “which plaintiffs may bring the
cause of action”); see also Novell, 731 F.3d at 1080
(“[A] private party must establish some link between
the defendant’s alleged anticompetitive conduct, on
the one hand, and its injuries and the consumer’s, on
the other.”). A showing of antitrust standing requires
more than the standing inquiry under Article III. See
McGarry, 937 F.3d at 1063 (“[T]he Sherman Act has
additional rules for determining whether the plaintiff
is the proper party to bring a private antitrust action.”) (citing Associated Gen. Contractors of Cal., Inc.
v. Cal. State Council of Carpenters, 459 U.S. 519, 535
n.31 (1983)); see also Kochert v. Greater Lafayette
Health Servs., Inc., 463 F.3d 710, 716 (7th Cir. 2006)
(“Antitrust standing requires more than the ‘injury in
fact’ and the ‘case or controversy’ required by Article
III of the Constitution.”).
To establish antitrust standing, a plaintiff must
first show it was injured by anticompetitive conduct.
See McGarry, 937 F.3d at 1063–64. Antitrust standing is limited to “(1) those who have suffered the type
of injury that the antitrust laws were intended to prevent and (2) those whose injuries are a result of the
defendant’s unlawful conduct.” Id. (quoting Serfecz v.
Jewel Food Stores, 67 F.3d 591, 595 (7th Cir. 1995));
see also Brunswick Corp. v. Pueblo Bowl-O-Mat, Inc.,
429 U.S. 477, 489 (1977) (antitrust plaintiff must be
able to show that its injury is “of the type the antitrust
laws were intended to prevent”).

123a
Even if a plaintiff can show its injuries are the result of unlawful anticompetitive conduct, it must be
able to “efficiently vindicate the purposes of the antitrust laws” to gain antitrust standing. Kochert, 463
F.3d at 716; see also Associated Gen. Contractors, 459
U.S. at 537–44 (plaintiff’s ability to efficiently vindicate the law’s purpose confers antitrust standing if
shown antitrust injury); In re Industrial Gas Antitrust
Litig., 681 F.2d 514, 526 (7th Cir. 1982) (“not all persons who have suffered an injury flowing from [an] antitrust violation have standing to sue”). Simply, the
successful antitrust plaintiff must prove both antitrust injury and antitrust standing. See Kochert, 463
F.3d at 716.
“We usually presume that competitors and consumers in the relevant market are the only parties
who suffer antitrust injuries and are in a position to
efficiently vindicate the antitrust laws.” McGarry,
937 F.3d at 1065 (citing Associated Gen. Contractors,
459 U.S. at 538; In re Aluminum Warehousing Antitrust Litig., 833 F.3d 151, 158 (2d Cir. 2016)). “But
‘presumptively’ does not mean always,” SAS of Puerto
Rico v. Puerto Rico Telephone Co., 48 F.3d 39, 45 (1st
Cir. 1995) (finding third-party suppliers are not “automatically improper antitrust plaintiffs”), and often
consumers or competitors are denied antitrust standing.
The majority opinion proffers a bright-line rule
“that customers and competitors in the affected market have antitrust standing,” Majority op. at p. 99.
But in each case cited in the majority opinion the court
denied antitrust standing, including to competitors.
See Kochert, 463 F.3d at 718; Tri-Gen Inc. v. Int’l Union of Operating Engineers, Local 150, AFL-CIO, 433
F.3d 1024, 1031–32 (7th Cir. 2006); Brunswick, 429

124a
U.S. at 477–78, 484, 488 (collectively, competitors); see
also McGarry, 937 F.3d at 1063–66; In re Aluminum,
833 F.3d at 158; Serfecz, 67 F.3d at 597–98; Serpa
Corp. v. McWane, Inc., 199 F.3d 6, 10 (1st Cir. 1999);
SAS of P.R., Inc., 48 F.3d at 44; Associated Gen. Contractors, 459 U.S. at 540 (collectively, neither consumers nor competitors).
Instead, on this prerequisite the relevant case law
prioritizes the type, directness, and cause of an antitrust injury, rather than applying a bright-line rule
for antitrust standing based on the plaintiff’s status.
See McGarry, 937 F.3d at 1064–65 (examining the
“type of injury” alleged, the “remote[ness]” or “direct
link” between the alleged antitrust violation and the
claimed antitrust injury, and the “causal connection”)
(citing Associated Gen. Contractors, 459 U.S. at 537–
40 (explaining these factors)); see, e.g., Blue Shield of
Va. v. McCready, 457 U.S. 465, 476–77 (1982) (plaintiff’s status was neither consumer nor competitor, but
granted antitrust standing based on type, directness,
and cause of antitrust injury suffered).
Even with the presumption favoring consumers
and competitors, standing is granted to rivals only
when it “serves antitrust policy.” 2A Areeda &
Hovenkamp, ANTITRUST LAW ¶ 348a, p. 232 (4th ed.
2014) (examples include when a rival is in a position
to detect a violation earlier than consumers, or the rival’s injury is large while consumers’ injuries are
small or their suits less likely). “[T]he elimination of
a single competitor, standing alone, does not prove anticompetitive effect.” Austin v. McNamara, 979 F.2d
728, 739 (9th Cir. 1992) (quoting Kaplan v. Buroughs
Corp., 611 F.2d 286, 291 (9th Cir. 1979)). Thus, it is
uncommon that a suit by a single foreclosed rival dis-

125a
puting a tying arrangement will have antitrust standing.4 See 2A Areeda & Hovenkamp, ANTITRUST LAW
¶ 348a, p. 232 (“courts are properly skeptical of many
rivals’ suits, particularly when the practices are not
obviously ‘exclusionary’”). First, the rival must show
it suffered the type of injury the antitrust laws intend
to prevent. This is consistent with antitrust jurisprudence that looks to market injury, like raised prices
and decreased output or quality, to determine a competitor’s antitrust injury. See Tri-Gen, 433 F.3d at
1031 (“To have standing as a competitor, [plaintiff]
needed to show that ‘its loss comes from acts that reduce output or raise prices to consumers.’”) (quoting
Stamatakis Industries, Inc. v. King, 965 F.2d 469, 471
(7th Cir. 1992)); see also Serfecz, 67 F.3d at 597 (plaintiff’s injury was “linked to the injury inflicted upon the
market,” including consumers paying higher prices);
Associated Gen. Contractors, 459 U.S. at 539 n.40
(finding no antitrust injury from alleged predatory behavior because competitor failed to show “that output
has been curtailed or prices enhanced throughout an
entire competitive market”).
Next, the rival must show it is the party “who can
most efficiently vindicate the purposes of the antitrust
4

The leading treatise acknowledges the possibility that a rival could have standing if an illegal tying arrangement creates,
enlarges, or perpetuates a monopoly for a tied product, and that
rival may be foreclosed if it loses existing market share or sales.
But “[i]njury to the foreclosed rival occurs, of course, only because
a tie has forced buyers to purchase the defendant’s tied product
rather than the rival’s.” 10 Areeda & Hovenkamp, ANTITRUST
LAW ¶ 1767a, p. 449. This is a high bar: the rival must show (a)
a monopoly in the tied-market, (b) the loss of its existing market
share or sales (not limited to certain customers), and (c) an injury
based only on buyers being forced to purchase defendant’s product over their own.

126a
laws” against unlawful ties. Kochert, 463 F.3d at 718
(quoting Serfecz, 67 F.3d at 598). But, having been
forced to purchase a product it did not want, the tied
consumer is almost always in the superior position to
sue the violator. McGarry, 937 F.3d at 1066 (concluding “[t]here is, after all, a more appropriate person to
pursue [a] claim” when that person’s “self-interest
would normally motivate them to vindicate the public
interest in antitrust enforcement”); see also Kochert,
463 F.3d at 718; 2A Areeda & Hovenkamp, ANTITRUST
LAW ¶ 348a, p. 232 (recognizing that “consumers almost always have the correct incentives for suit, [but]
rivals do not”). The presence of a more appropriate
person to bring a claim “diminishes the justification
for allowing a more remote party” to step in. McGarry,
937 F.3d at 1066 (quoting Associated Gen. Contractors, 459 U.S. at 542). Whether or not there is a more
appropriate plaintiff, a rival may not pursue an antitrust injury that is “entirely derivative” of other injuries. Id. And even when standing is recognized, a
foreclosed rival cannot oppose efficient, legitimate, or
even aggressive lawful competition by its rivals. 2A
Areeda & Hovenkamp, ANTITRUST LAW ¶ 348a, p. at
231 (“[A] rival may allege an antitrust violation by its
rivals not to protect competition but to protect itself
from competition. . . . Such losses are not antitrust injury, so the rival is [] denied standing.”).
Here, Viamedia claims it is a foreclosed rival
harmed by Comcast’s alleged tying conduct. First, Viamedia must show it suffered an injury the antitrust
laws intend to prevent that is directly linked to or
caused by Comcast’s alleged tying conduct. But Viamedia relies on the injuries and damages it claims
from Comcast’s refusal to deal rather than any distinct tying injury. See 335 F. Supp. 3d at 1069–73 (Viamedia’s expert testified that foreclosure from the

127a
market and resulting injury or damages “flows directly from Viamedia’s inability to access” the Interconnects, not tying); see also Novell, 731 F.3d at 1080
(declining to recognize separate, cognizable antitrust
injury for other exclusionary conduct that relied on alleged refusal-to-deal injury). Viamedia has conceded
that any injury it suffered is derivative of Comcast’s
refusal to deal, not the alleged tie. So Viamedia lacks
an independent basis for advancing a tying claim, and
recognizing it as a foreclosed rival with standing to
sue under the narrow exception described above
would not “serve[] antitrust policy.” 2A Areeda &
Hovenkamp, ANTITRUST LAW ¶ 348a, p. 232. While
Comcast offered its customers, RCN and WOW!, access to the Interconnect and exclusive ad representation services, it was not required to make such an offer
to its rival, Viamedia. This reveals the fatal flaw in
Viamedia’s tying theory: even if Comcast acted precisely as Viamedia claims by tying Interconnect access
and ad representation services, Viamedia would suffer no separate, cognizable antitrust injury. 335 F.
Supp. 3d at 1071; see Novell, 731 F.3d at 1080 (“Even
if Microsoft had behaved just as Novell says it should
have, it would have helped Novell not at all.”).
Next, Viamedia must show it is the party “who can
most efficiently vindicate the antitrust laws” regarding tying. Kochert, 463 F.3d at 718 (quoting Serfecz,
67 F.3d at 598). While Viamedia enjoys the general
presumption of antitrust standing as a competitor,
this presumption is limited by the court’s determination of whether an antitrust injury occurred. See 2A
Areeda & Hovenkamp, ANTITRUST LAW ¶ 348a, p. 232.
Here, RCN and WOW! would have been directly impacted by Comcast’s alleged tying conduct and would
be in the superior position to pursue a claim against
Comcast. Viamedia could not participate directly in

128a
this alleged tying arrangement, and it now seems motivated to protect itself from competition rather than
enforce the antitrust laws. See Majority op. at p. 66
(“Viamedia simply wants to ensure that MVPDs can
freely choose Viamedia as their supplier of ad rep services if that is their preferred choice.”).5
Because Viamedia has not shown a cognizable injury that the antitrust laws intend to prevent or that
was directly linked to an antitrust violation caused by
Comcast’s conduct, it has no antitrust injury. Without
an antitrust injury, and not able to efficiently enforce
the law against illegal tying, Viamedia lacks antitrust
standing to bring this claim.
B. Summary Judgment Was
Granted on the Tying Claim.

Properly

The district court’s grant of summary judgment on
Viamedia’s tying claim, which we review de novo, was
proper. We construe all facts and reasonable inferences in favor of the nonmoving party, and we refrain
from weighing any evidence. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986); see also In re
High Fructose Corn Syrup Antitrust Litigation, 295
5

Even if somehow Viamedia could be considered a foreclosed
rival with antitrust injury and standing, the leading treatise
notes the possibility of injunctive relief—which the district court
correctly concluded was misplaced on these facts, 335 F. Supp.
3d at 1074—and that treatise observes how difficult it is in such
a circumstance to prove damages without speculation. 10 Areeda
& Hovenkamp, ANTITRUST LAW ¶ 1767a, p. 450 (“Even for those
established in the market, estimating the number of sales lost as
a result of the tying arrangement is elusive at best.”).
Viamedia’s status as a foreclosed rival, though, would depend
on the existence of a tie. I conclude below the undisputed facts
show no evidence of tying conduct because there was no conditioned sale of services.

129a
F.3d 651, 655 (7th Cir. 2002) (describing the weighing
of evidence as a “trap” to avoid). But the nonmoving
party must “go beyond the pleadings” at summary
judgment. Celotex Corp. v. Catrett, 477 U.S. 317, 324
(1986). It must affirmatively demonstrate through evidence that there is a genuine issue for trial. Anderson, 477 U.S. at 249.
Liability under § 2 requires anticompetitive conduct. Mercatus Grp., 641 F.3d at 854; Endsley v. City
of Chicago, 230 F.3d 276, 282 (7th Cir. 2000). On summary judgment, the § 2 plaintiff must present evidence tending to exclude the possibility that the monopolist’s conduct is as likely to be pro-competitive as
anticompetitive. Matsushita Elec. Indus. Co. v. Zenith
Radio, 475 U.S. 574, 588 (1986) (“conduct as consistent with permissible competition as with illegal
conspiracy does not, standing alone, support an inference of antitrust conspiracy”); Monsanto Co. v. SprayRite Service Corp., 465 U.S. 752, 768 (1984) (“[T]here
must be evidence that tends to exclude the possibility
of independent [pro-competitive] action by the manufacturer and distributor.”).
As noted previously, firms—even monopolies—
generally have the right to decide with whom they will
do business. In this vein, “antitrust law does not require monopolists to cooperate with rivals by selling
them products that would help the rivals to compete.”
Schor v. Abbott Labs., 457 F.3d 608, 610 (7th Cir.
2006); see Pac. Bell Tel. Co. v. Linkline Commc’ns, 555
U.S. 438, 450 (2009) (monopolist may wield “upstream” power “to prevent rival firms from competing
effectively” in a downstream market); see also Trinko,
540 U.S. at 409–10 (a monopolist has no duty to deal
with a rival, let alone a duty to deal on favorable

130a
terms). In presenting its tying claim, though, Viamedia argued that Comcast’s conduct constituted more
than a “mere” refusal to deal. 335 F. Supp. 3d at 1057.
Viamedia claimed that when Comcast excluded Viamedia from the Interconnects, Comcast engaged in
the “distinct” practice of tying, pressing forward with
this claim as an “alternative theor[y]” of relief. Id. After discovery on Viamedia’s tying theory, the district
court ruled that “the record leaves no genuine issue of
material fact.” Id. The district court correctly evaluated Viamedia’s tying claim and rightly concluded
that Viamedia’s proffered evidence did not tend to exclude the possibility that Comcast’s alleged tying conduct was as likely procompetitive as anticompetitive.
Id. at 1055–64.
Under the new antitrust regime, “[o]utright condemnation of product tying has been reversed.” Hon.
Richard D. Cudahy & Alan Devlin, Anticompetitive
Effect, 95 MINN. L. REV. 59, 76 (2010); see Microsoft
Corp., 253 F.3d at 49 (“[N]ot all ties are bad.”). The
“essential characteristic of an invalid tying arrangement lies in the seller’s exploitation of its control over
the tying product to force the buyer into the purchase
of a tied product that the buyer either did not want at
all, or might have preferred to purchase elsewhere on
different terms.” Jefferson Par. Hosp. Dist. No. 2 v.
Hyde, 466 U.S. 2, 12 (1984). An illegal tie, whether
express or as applied, exists only when “the defendant
improperly imposes conditions that explicitly or practically require buyers to take the second product if
they want the first one.” 10 Areeda & Hovenkamp,
ANTITRUST LAW¶ 1752b, p. 291 (4th ed. 2018). The
fundamental feature of a tying claim is the conditioned sale, including by force. See Sheridan v. Marathon Petrol. Co. LLC, 530 F.3d 590, 592 (7th Cir.

131a
2008). No conditioning occurs if a buyer wants to purchase a bundle of the tied and tying products from the
same seller. See Will v. Comprehensive Acct. Corp.,
776 F.2d 665, 669 (7th Cir. 1985) (“A tie within the
meaning of antitrust depends on showing that the
buyer did not want to take both products from the
same vendor.”). Without the actual, conditioned sale
of the tied product, there is no tie. See It’s My Party,
Inc. v. Live Nation, Inc., 811 F.3d 676, 684 (4th Cir.
2016) (“If . . . the buyer is free to decline the tied product . . ., then by definition there is no unlawful tying.”).
Other circuits have acknowledged the essential
and indispensable role conditioning plays in a tying
claim. In Aerotec Int’l, Inc. v. Honeywell Int’l, Inc., 836
F.3d 1171 (9th Cir. 2016),6 the Ninth Circuit con-

6
The majority opinion relies on certain factual assumptions
to attempt to distinguish Aerotec.
First, the majority assumes “this is not a typical bundling
case,” Majority op. at 77, so Aerotec should not control. But Aerotec provides an instructive framework for determining whether
a tie has occurred and illustrates the important role that conditioning plays in an unlawful tying arrangement, see 836 F.3d at
1179.
Second, the majority assumes “self-providing ad rep services
was not a viable option for RCN and WOW!,” Majority op. at 78,
and so they “needed to employ [a third-party] ad rep services provider.” Id. at 77 n.17. As discussed elsewhere in this opinion,
infra at 28–29, this assumption relies on the majority opinion’s
conclusion that it must not have been economically feasible for
RCN and WOW! to internalize ad representation, either regionally or locally. This is not supported by the record, which contains undisputed evidence of various economically feasible options MVPDs choose in structuring their advertising sales. See
infra at 25–26. Regardless, this assumption does not prevent
Aerotec’s application here.

132a
cluded there was no evidence that Honeywell, a monopolist manufacturer of replacement airplane parts,
“explicitly or implicitly tie[d] or condition[ed] the sale”
of replacement parts on a requirement that its customers use its in-house repair services. Id. at 1179.
When Honeywell ceased supplying parts to Aerotec—
a third-party repair service provider—for repairs,
Aerotec sued Honeywell for alleged unlawful tying.
Id. at 1177. Honeywell explained it had long preferred
the benefits it achieved from internalizing its repair
services and working with its affiliated servicers, rather than with independent ones like Aerotec. Id. at
1176–77. The court found it did not matter whether
Honeywell had refused to deal with Aerotec, even if
that made it more difficult for Aerotec to compete. Id.
at 1179–80. The Ninth Circuit “decline[d] to stretch
the tying construct to accommodate the claim that . . .
conduct toward third party servicers . . . acts as an effective, or ‘de facto,’” tying condition. Id. at 1178.

Third, the majority assumes RCN and WOW! had “no choice
but to obtain ad rep services from Comcast,” Majority op. at 34
n.8, and were “forced by Comcast” to do so. Id. at 77 n.17. This
in turn assumes that RCN and WOW! did not want ad representation services from Comcast. But the evidence shows the opposite: neither RCN nor WOW! ever requested Interconnect-only
services from Comcast, and both sought full-turnkey relationships with Comcast to receive ad representation and Interconnect services together. Ultimately, Comcast’s and Viamedia’s offers to solicit RCN’s and WOW!’s business were “nowhere near
equal,” and it was “not a very difficult decision” for the MVPDs
to make. 335 F. Supp. 3d at 1048. Comcast was able to offer
superior terms and better prices with full Interconnect access
and ad representation services. The assumption that any MVPD
was forced or threatened to purchase ad representation services
to gain access to the Interconnects does not follow from the evidence and is not a distinguishing factor from Aerotec.

133a
In Serv. & Training, Inc. v. Data Gen. Corp., 963
F.2d 680 (4th Cir. 1992), the Fourth Circuit reached
the same conclusion, finding there was no conditioned
sale of a licensed product when customers demanded
access to it, even though this hindered the ability of
third-party servicers to compete with the company.
Id. at 687–88. The same is true with the D.C. Circuit,
see Microsoft Corp., 253 F.3d at 85 (tying requires consumer to have “no choice but to purchase the tied
product”), and this court, see Reifert v. South Cent.
Wisconsin MLS Corp., 450 F.3d 312, 318 (7th Cir.
2006) (“conditioning access” to a service based on the
forced purchase of a membership was essential element of tying).
Like these other third-party rivals, Viamedia has
offered no evidence of conditioning. Such evidence is
simply absent from the undisputed facts on which Viamedia attempted to build its tying claim:


An ad representative is responsible for managing and selling an MVPD’s avails to advertisers and can represent their MVPD customers: (1) locally, selling only a part of an
MVPD’s avails in a DMA to local advertisers;
(2) regionally, selling all of the MVPD’s avails
in a DMA; or (3) nationally. Id. at 1044.



The industry standard relationship between
an ad representative and an MVPD is exclusive, region-wide, full-turnkey representation.
Id. at 1045.



MVPDs in a full-turnkey relationship with an
ad representative have an exclusive agreement with that ad representative, which
makes Interconnect services available to them

134a
without requiring a direct relationship with
the Interconnect operator. Id. at 1063–64.

7



Interconnect operators may pursue a direct
relationship with MVPDs to sell a portion of
their avails regionally without a third-party
ad representative. Id. at 1046. This is called
an “Interconnect-only” agreement. Id.



Some MVPDs retain a portion of their avails
for local advertising and hire an ad representative to represent them locally. Id. at
1045.



Some MVPDs choose to conduct their own ad
representation—regionally, locally, or both.
Id.



RCN and WOW! are MVPD customers of Comcast and Viamedia, which compete for
MVPDs’ business on the relevant Interconnects. Id. at 1046.



Comcast refused to deal with Viamedia by disallowing it access to the relevant Interconnects. Id. at 1057.7



No evidence shows that Comcast told MVPDs
across all DMAs, expressly or impliedly, that
they could only access the Interconnects on

The majority opinion casts Comcast’s refusal to deal as a
negative fact, noting that Comcast “conceded repeatedly” that it
had done so. Majority op. at p. 76. It is undisputed that Comcast
refused to deal with Viamedia; the question on remand is
whether that refusal was anticompetitive, which Viamedia will
have to prove. As discussed, refusals to deal are now not disfavored, and in fact the opposite—cooperation among rivals—is a
red flag under antitrust law. See Easterbrook, The Chicago
School & Exclusionary Conduct, at 442 (“cooperation is to be
feared rather than welcomed”).

135a
the condition that they also purchase ad representative services. Id. at 1058.


Fourteen percent of Comcast’s agreements
with MVPDs across all DMAs are Interconnect-only. Id.



RCN and WOW! never requested Interconnect-only services from Comcast, and both
pursued full-turnkey relationships with Comcast. Id. at 1059.

These facts do not show illegal tying conduct.
Both parties stipulate that Comcast never denied an
MVPD’s request to access the Interconnect on a
standalone basis. In fact, 14 percent of Comcast’s
agreements with MVPDs across all DMAs are Interconnect-only. Id. at 1058; see, e.g., It’s My Party, 811
F.3d at 685 (14 percent of standalone, non-tied sales
“exceed [] sufficiently” the minimum threshold required “to cast doubt on any allegation of tying”); see
also 10 Areeda & Hovenkamp, ANTITRUST LAW
¶ 1756b2, p. 334 (“10 percent unbundle[ed]” sales rebuts any “established or presumed inference of a tying
condition”); see also Novell, 731 F.3d at 1077 (aggregating sales and profits across entire market to assess
firm’s “overall efficiency” and not singling out smaller
market or product line). And there is no evidence
Comcast withheld Interconnect access from MVPDs
unless they also purchased ad representative services
from Comcast. Instead, the evidence shows that RCN
and WOW! sought a full-turnkey relationship with
Comcast to receive access to the Interconnects and ad
representation services as a bundle. They were neither forced to purchase ad representation services
from Comcast nor denied access to the Interconnects
unless they purchased ad representation from Com-

136a
cast. Further, if they wished, they were free to contract with a third-party ad representative for local
sales. Even while under exclusive contract with Viamedia, RCN and WOW! were not forced to purchase
ad representation services from Comcast. Comcast
never poached RCN or WOW! during that time to capture their business in the ad market, and RCN and
WOW! could have chosen to forgo ad representation
altogether at the conclusion of those exclusive contracts.
That Comcast did not affirmatively offer RCN or
WOW! Interconnect-only access does not alter these
facts. Courts need not assume antitrust laws require
a business to offer its customer a less profitable or less
efficient option than the one the customer seeks.
Here, it is undisputed that RCN and WOW! sought Interconnect access and ad representation services as a
bundle in a full-turnkey relationship with Comcast.
See 9 Areeda & Hovenkamp, ANTITRUST LAW ¶ 1700i,
p. 12 (4th ed. 2018) (“[F]inding two products does not
mean that they are tied together. The franchisee may
have preferred a ‘turnkey’ franchise and never asked
for the” tying product “separately”); see also Will, 776
F.2d at 670 (the “voluntary purchase of two products
together” is “not a tie at all”). The district court recognized, and correctly rejected, how broad a view of
tying Viamedia attempts to advance. 335 F. Supp. 3d
at 1059 (“the constraining of consumer choice is of
course a feature of a tying arrangement . . . but there
must still be an actual ‘tie’ of products or services”).8

8

Further, if tying occurred, one would expect to see higher
prices or lower output. See Washington Legal Foundation’s Br.
in Supp. of Def. at 12, ECF No. 45. There is no such evidence
here.

137a
Viewing the record in the light most favorable to Viamedia, the evidence reflects that WOW! and RCN
wanted full-turnkey representation, and they were
prepared to hire the company with the ability to deliver both Interconnect access and ad representation
services. Here, that company was Comcast.
My colleagues in the majority conclude, at various
points, that it was not economically feasible for RCN
or WOW! to conduct their own ad representation. See
Majority op. at p. 34 n.8 (finding RCN and WOW! “had
always chosen to buy [ad representation] services
from outside companies, suggesting that in-house was
not an economically viable option”); id. at 77 n.17 (concluding sufficient evidence existed of a “forced” sale
because “RCN and WOW! needed to employ [a thirdparty] ad rep services provider”); id. at 78 (deciding
“self-providing ad rep services was not a viable option
for RCN and WOW!”); id. at 82 (finding evidence
“showing that in-house provision of ad rep services
simply was not a practical option for RCN or WOW! in
these markets”). This conclusion assumes that if RCN
and WOW! chose to outsource ad representation to a
third-party, either locally or regionally, then it must
have been economically feasible to do so. It also assumes the inverse: that internalizing these services
must be economically infeasible. Such assumptions
go beyond the court’s role and presume underlying
facts about the parties’ business practices and strategies that we simply do not know and cannot accurately
predict. These assumptions are not supported by the
record, which instead contains evidence of various economically feasible options MVPDs choose in structuring their advertising sales, including internalizing
part of or all ad representation services. 335 F. Supp.
3d at 1044. I respectfully do not share this economic

138a
feasibility conclusion and rely only on the evidence
presented.
The majority opinion also references “[a]mple evidence” the jury could have relied upon to “easily find
that Comcast improperly forced the smaller MVPDs
to buy its ad rep services” through a tying arrangement. Majority op. at pp. 75–76. In particular, the
majority points to internal Comcast and WOW! documents, deposition responses, and testimonies before
the Federal Communications Commission and the Department of Justice. But the relevant evidence shows
Comcast’s desire to solicit RCN’s and WOW!’s business directly, not the forced purchase of a service that
neither RCN nor WOW! wanted. For example, the
majority references an email from a WOW! employee
to his colleagues explaining his understanding that
“[WOW!] can be in the [Interconnect] but only if [Comcast] rep[s] us directly.” See Majority op. at p. 75.
The majority opinion reads this as revealing Comcast’s “demands” and “threats” with which RCN and
WOW! did not “willingly” comply. Id. But in context,
the email reflects only ongoing business negotiations
between WOW! and Comcast, in which Comcast expressed its desire to no longer accommodate thirdparty ad representatives (its competitors) on the Interconnects it operates. This is consistent with Comcast’s position all along—that it wishes to increase efficiency by internalizing services—and does not constitute tying as defined.
Some other examples: in a different email, a Comcast employee expressed to a WOW! employee Comcast’s “desire to have a direct relationship” with
MVPDs on the Interconnects and noted that “Comcast
would be thrilled to do business directly with WOW,”

139a
reiterating the “tremendous value and benefits [Comcast] can deliver for WOW” in a direct relationship.
Another Comcast employee noted in a deposition that
working “through a middleman” like Viamedia “really
brought no value to the table” and the decision not to
renew its contract with Viamedia was primarily to
“have a direct relationship with WOW and RCN.” Explaining RCN’s decision to contract directly with Comcast, an RCN executive testified to the superior terms
Comcast could provide, noting that Comcast’s and Viamedia’s offers were “nowhere near equal” and that it
was “not a very difficult decision” for RCN to make.
335 F. Supp. 3d at 1048. WOW!, too, selected Comcast’s direct representation based on “better financial
terms.” Id.
These statements are consistent with Comcast’s
position to directly solicit the business of MVPDs.
When questioned by the Department of Justice, a
Comcast executive acknowledged it was Comcast’s
“business practice” to inform MVPDs that want “to get
access to a Comcast controlled Interconnect, it has to
hire Comcast as its ad sales representative” instead of
a third-party rival. Id. at 1061. This does not reveal
a forced purchase that neither RCN nor WOW!
wanted. If anything, such evidence depicts “hardnosed” business practices like those the Tenth Circuit
noted but did not find anticompetitive in Novell, 731
F.3d at 1078 (finding email evidence may suggest “an
uncharitable intent toward rivals” or even an “intent
to undo a competitor,” but did not show that conduct
was “irrational but for its exclusionary tendencies”).
None of this evidence “tends to exclude the possibility”
that Comcast’s conduct “was as consistent” with lawful conduct as with illegal tying conduct. Mercatus
Grp., 641 F.3d at 856.

140a
Importantly, the internal documents the majority
opinion references are dated 2014, when WOW! and
RCN were still under exclusive contract with Viamedia but soliciting bids from other representatives to
sell advertising avails on the Interconnects. While soliciting bids, RCN and WOW! engaged in back-andforth negotiations with Comcast and Viamedia, leading ultimately to new contracts with Comcast. The
timing of these discussions, as preserved in the record,
is key. When reviewing the evidence here, this court
is limited by the prospective nature of these then-ongoing negotiations. Our perspective is necessarily
predictive not retrospective. These internal documents do not contain evidence of the economic impact
after the negotiated deals were made, but only before
when offers were being made, accepted, and rejected.
They do not describe the economic results of these
then-prospective relationships. Because of their prospective nature, they are not a reliable metric for understanding what has transpired since, but merely
what the parties had hoped to achieve. Under our antitrust regime, “[w]hat distinguishes exclusion from
efficiency is what happens in the future,” Easterbrook, The Chicago School & Exclusionary Conduct,
at 443, not what the parties want to happen.
None of this evidence measures whether Comcast’s conduct has resulted in a market injury, such as
raised prices or decreased output. It does not show
that RCN or WOW! understand their contracts with
Comcast to be coercive or conditioned, and there is no
evidence indicating RCN and WOW! are unhappy
with their current relationship with Comcast. While
viewing this evidence in Viamedia’s favor, it is crucial
to acknowledge its limitations in this case.

141a
As the district court noted, the real “gravamen of
Viamedia’s tying claim [is] that Comcast’s refusal to
provide [Viamedia] Interconnect access prevents [Viamedia] from selling the kind of full-turnkey Ad Rep
Services that WOW! and RCN desire.” Id. at 1063
(internal quotations omitted). That differs from the
paradigmatic tying claim, which requires conditioning
and a forced sale to a customer rather than a withheld
advantage from a rival. See 9 Areeda & Hovenkamp,
ANTITRUST LAW ¶ 1700a, p. 4. Antitrust law does not
require Comcast to help Viamedia sell the same bundle it offers to their mutual customers. See 10 Areeda
& Hovenkamp, ANTITRUST LAW ¶ 1748b, pp. 251–53
(no tied product “when the plaintiff’s theory of injury
is not that customers of the defendant’s [tied] bundle
would buy the items unbundled if they could, but rather that a rival could sell the same bundle if only the
defendant would sell it a particular input”).
Finally, even if Viamedia’s refusal-to-deal claim
had survived a motion to dismiss, summary judgment
was appropriate on the tying claim because the undisputed facts do not show Comcast conditioned access to
the Interconnects on the purchase of ad representation services. Although acknowledging that “[t]hese
related claims are both based on the same course of
conduct, resulted in the same anticompetitive harms,
and would be subject to the same procompetitive justifications or defenses,” Majority op. at p. 38, the majority opinion does not explain how Viamedia has established a distinct tying claim that should have advanced beyond summary judgment on its own merits.
In framing its tying analysis, the majority opinion focuses on whether, when viewing Comcast’s conduct as
a whole, “[Comcast] has unreasonably maintained or
enhanced its monopoly position.” Id. at 73. While this

142a
framework would not necessarily reveal anticompetitive conduct in violation of § 2, I hesitate to apply it
here for the simpler reason that our antitrust jurisprudence does not instruct us to do so. Instead, looking to the undisputed facts, Viamedia has failed to
prove the elements of a tying claim.
To the extent the majority opinion also concludes
that the existence of a viable refusal-to-deal claim
saves Viamedia’s tying claim, I am not convinced of
that connection. In comparison to refusal to deal, tying is a form of exclusionary conduct with more specific requirements, which the district court noted. 218
F. Supp. 3d at 698 (a refusal-to-deal claim is different
than a tying claim); accord Novell, 731 F.3d at 1072
(distinguishing unilateral refusals to deal from other
recognized forms of anticompetitive conduct like tying). Viamedia, seeking an “escape route” and “trying
to recast” Comcast’s refusal to deal as unlawful tying
conduct, see Novell, 731 F.3 at 1078, has treated these
two claims interchangeably. But parties’ claims stand
and fall on their own merits, so the district court was
correct to consider them separately.
Conditioning, an essential element of tying, requires the forced sale of a product the buyer did not
want. Based on the record before us, to which we are
limited, there was no conditioning. Because the undisputed facts show no evidence of tying conduct separate from Viamedia’s refusal-to-deal claim, I would
affirm that portion of the district court’s judgment.
III. Section 2 Monopolization Analysis
The majority opinion acknowledges Viamedia
raised only two claims on appeal: refusal-to-deal and
tying. Majority op. at p. 42 n.11. It also suggests an
alternative means of § 2 recovery should Viamedia fail

143a
on either of its alleged claims. Per the majority opinion, Viamedia has sufficiently pleaded and presented
evidence for the court to find an alternative § 2 monopolization claim. Such an open-ended approach
may place courts in the role of the decision-maker on
dense and complex economic issues better left to the
free market. See Easterbrook, The Chicago School &
Exclusionary Conduct, at 442 (“Markets are much better than judges at sifting efficient from anticompetitive practices.”). We are no more skilled at predicting
market shifts than anyone else, and courts are very
rarely the best forum for discerning between exclusionary and efficient conduct. See id. at 442–45.
The district court hewed to the particular types of
exclusionary conduct Viamedia alleged (tying and refusal to deal; its exclusive dealing claim was abandoned on appeal). The court found Viamedia had “affirmatively disavowed” any “free-standing” § 2 monopolization claim. 335 F. Supp. 3d at 1068. Having
failed to plead or preserve an alternative claim before
the district court, Viamedia should not be entitled to
pursue a vague § 2 monopolization theory on appeal.
King v. Kramer, 763 F.3d 635, 641 (7th Cir. 2014) (this
court not in a position to advance claims that party
abandons or fails to preserve below); Geva v. Leo Burnett Co., 931 F.2d 1220, 1225 (7th Cir. 1991) (an issue
not “properly preserved below” in the district court is
generally waived). Nor should the court be required
to consider the restraint on trade or the impact on monopoly powers generally that may arise from Viamedia’s allegations.
This rule is particularly relevant in antitrust law,
which is susceptible to high rates of “false positives”
that occur when the court confuses real competition
with exclusion. See Easter-brook, The Chicago School

144a
& Exclusionary Conduct, at 445; see also Microsoft
Corp., 253 F.3d at 87 (discussing false positives). The
new antitrust regime identifies problems like false
positives, unpredictability, and past court confusion,
and it seeks to protect consumers and promote competition in a technologically advancing marketplace.
Many cases and authorities point in this direction. An
alternative § 2 monopolization theory is not consistent
with how courts now consider potentially exclusionary
conduct. Accordingly, I am unable to join this portion
of the majority opinion.
IV. Conclusion
The majority opinion dives deep into this case’s
complicated facts and thoroughly covers swaths of antitrust law in an insightful manner. As Viamedia has
plausibly alleged an anticompetitive refusal to deal, I
join the majority in reversing and remanding on that
claim. But the undisputed facts do not show an illegal
tie, so summary judgment was proper on that allegation. For the reasons above, I respectfully concur in
part and dissent in part.

145a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
VIAMEDIA, INC.,
Plaintiff,
v.
COMCAST
CORPORATION and
COMCAST
SPOTLIGHT, LP,
Defendants.

)
)
) Case No. 1:16-cv-05486
)
) Hon. Amy J. St. Eve
)
)
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
AMY J. ST. EVE, District Court Judge:
Defendants Comcast Corporation (“Comcast”) and
Comcast Spotlight, LP (“Comcast Spotlight”)1 have
moved to dismiss Plaintiff Viamedia, Inc.’s (“Viamedia”) complaint under Federal Rule of Civil Procedure
12(b)(6). (R. 22.) For the following reasons, the Court
grants in part and denies in part Defendants’ motion.

1

The Court refers to Comcast and Comcast Spotlight collectively as “Defendants.”

146a
BACKGROUND2
This case concerns the spot cable advertising business, which generates approximately $5.4 billion annually in television advertising revenues. (R. 1,
Compl., at ¶ 3.) Spot cable advertisements account for
two-to-three minutes per hour of television programming and are sold by cable service providers—called,
according to industry terminology, “multichannel
video programming distributors” (“MVPDs”)—like
Comcast. (Id. at ¶¶ 23–25, 27, 30.) Viamedia, a spot
cable advertising representation company, “rep-resents cable television companies in the sale, placement, and distribution of Spot Cable Advertising.”
(Id. at ¶¶ 1–2.) Comcast is “one of the largest” MVPDs
in the United States with “more than 22 million cable
and high-speed Internet subscribers.” (Id. at ¶¶ 8,
24.) It also owns, among other assets, Comcast Spotlight, a direct competitor to Viamedia and “the country’s largest Spot Cable Advertising Representative.”
(Id. at ¶¶ 8, 19.)
Broadly speaking, Viamedia alleges that
“[t]hrough its control of technical and business infrastructure that is critical for the sale of Spot Cable Advertising time,” Comcast has unlawfully “impaired
the ability of Viamedia and other Spot Cable Advertising Representatives to compete with Comcast Spotlight.” (Id. at ¶ 2.) To evaluate Viamedia’s claim, the
Court first describes how the spot cable advertising
2

The facts presented in the Background are taken from the
complaint and are presumed true for the purpose of resolving the
pending motion to dismiss under Rule 12(b)(6). See Teamsters
Local Union No. 705 v. Burlington N. Santa Fe, LLC, 741 F.3d
819, 823 (7th Cir. 2014); Alam v. Miller Brewing Co., 709 F.3d
662, 665–66 (7th Cir. 2013); see also Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007).

147a
business functions and what role the parties play in
the industry.
I.

The Spot Cable Advertising Market
A. MVPDs

MVPDs—for example, Comcast, Wide Open West
(“WOW”), and RCN Corporation (“RCN”)—provide
households across the United States with what is “colloquially referred to as ‘cable television service.’” (Id.
at ¶¶ 23, 25.) In some Designated Market Areas
(“DMAs”)—“a regional viewing area used to measure
television ratings”—Comcast is the dominant MVPD.
(Id. at ¶¶ 4, 24.) In the Chicago DMA (which encompasses Northeast Illinois and Northwest Indiana), for
example, “approximately three out of every four cable
households are Comcast subscribers.” (Id. at ¶ 24.)
MVPDs enter into “carriage agreements” with cable networks (e.g., ESPN and CNBC) under which (1)
MVPDs pay the networks a fee to carry their programming, and (2) MVPDs gain the right to sell a percentage of advertising time. (Id. at ¶ 27.) “This reserved
advertising time is referred to as ‘Spot Cable Advertising,’” and a “15-second, 30-second, or one-minute
block of [spot cable advertising] inventory is described
as a ‘Spot Cable Advertising Avail’ or a ‘Spot Cable
Avail.’” (Id. at ¶¶ 27, 29.) Spot cable advertising is one
of the two key ways in which MVPDs generate revenue, the other being the collection of subscription fees
from households in exchange for providing cable service. (Id. at ¶ 26.) Thus, “[t]he ability to sell Spot Cable Advertising is crucial to the economic survival” of
an MVPD. (Id. at ¶ 28.)
Spot cable advertising differs from traditional national advertising. A cable network sells traditional

148a
advertising time directly to advertisers, and traditional advertisements air simultaneously on the network across the United States. (Id. at ¶ 30.) In contrast, MVPDs sell spot cable advertisements. (Id.)
Consequently, a spot cable advertisement reaches
only households that subscribe to the MVPD that sold
the ad, while a traditional advertisement reaches any
household watching the television network that sold
the ad, irrespective of the MVPD providing cable service. (Id.)
Spot cable advertising allows advertisers to “geotarget” customers, “meaning that the advertiser does
not have to buy advertising on a cable network
throughout the entire nation, but can instead select a
particular geographic area to display the ad by buying
Spot Cable Avails from an MVPD serving that area.”
(Id. at ¶ 31.) By purchasing spot advertising during a
national broadcast like the World Series, for example,
a Chicago-area car dealership can advertise only in
the Chicago DMA while a Cleveland restaurant can
simultaneously advertise exclusively in the Cleveland
DMA. (See id. at ¶¶ 31–33.)
B. The three mediums through
MVPDs sell Spot Cable Avails

which

“Spot Cable Avails are generally sold to advertisers in three ways,” (id. at ¶ 34), each of which accounts
for approximately one-third of an MVPD’s Spot Cable
Avail inventory, (id. at ¶¶ 41, 66–68). The Court describes each in turn.
1. Regional sales through an Interconnect
In the past, the market for regional spot cable advertising presented a problem for advertisers. Because individual MVPDs sold spot cable advertising

149a
rather than television networks, and because multiple
MVPDs could operate in a single DMA, an advertiser
wishing to run a commercial in all households in a
DMA at a particular time during a particular broadcast would have to separately negotiate with each
MVPD. (Id. at ¶ 36) “[M]any advertisers found [this]
difficult, if not impossible.” (Id.)
In the 1990s, however, competing MVPDs cooperated with one another to develop Interconnects in
each DMA, “which act as a clearinghouse that aggregate Spot Cable Avails from the MVPDs in a DMA and
sell packaged Avails to advertisers in such a way that
the purchased advertisements will run on all MVPDs
across a given DMA simultaneously.” (Id. at ¶¶ 35–
37.) Each DMA “has typically contained just one Interconnect, in which all of the MVPDs operating
within that DMA have participated” by “making a portion of [their] Spot Cable Advertising inventory available through the Interconnect.” (Id. at ¶¶ 35, 37.) In
short, Interconnects “provide[] a business and technical interface that . . . provid[e] regional advertisers
with a ‘one-stop shop’ where they can buy same-time
Avails from all the MVPDs in the DMA.” (Id.) They
“[are] the only viable and efficient option for advertisers that wish to purchase Spot Cable Advertising
across the entire DMA.” (Id. at ¶ 47.) An Interconnect
therefore has no competitors, “[n]or could a competing
Interconnect be developed.” (Id. at ¶¶ 47–48.)
MVPDs “pay a fee to the Interconnect in exchange
for its coordination services” and “receive the revenues generated from . . . regional sales on approximately a pro rata basis.” (Id. at ¶ 35.) Because
MVPDs compete with one another, “the Interconnects
were originally designed to avoid giving preferential
treatment to any single MVPD participant, and the

150a
dominant MVPD in the region was not able to exercise
its influence over the Interconnect to the detriment of
other participating MVPDs.” (Id. at ¶ 41.) Thus, at
least early on, Interconnect oversight “was performed
by boards of directors that were elected by a vote of all
the MVPD members of the Interconnect.” (Id. at
¶ 42.) The boards would make decisions by majority
vote “with the best interests of all MVPDs in mind.”
(Id.) “In form and practice, Interconnects avoided discriminating among or disadvantaging individual
MVPD or representative members.” (Id.)
Over time, industry consolidation has led to the
largest MVPD managing and controlling the Interconnect in each DMA. (Id. at ¶ 44.) “Interconnects controlled by dominant MVPDs other than Comcast generally continue to treat all participating MVPDs
equally by, for example, charging the same fees to all
MVPDs and ensuring all MVPDs or their representatives have open and equal access to the Interconnect.”
(Id. at ¶ 45.) Comcast, however, controls the Interconnect in fifteen of the twenty-five largest television
markets and twenty-six of the largest fifty markets,
including, for example, the Chicago, Detroit, Philadelphia, Boston, Washington D.C., and Denver DMAs.
(Id. at ¶¶ 44, 86–94.) Viamedia’s allegations of illegality, which are described below, stem in part from
Comcast’s conduct in DMAs in which it is the dominant MVPD.
2. Multiregional sales through National
Cable Communications
If an advertiser wishes to air a commercial at a
particular time during a particular broadcast across
more than one DMA, it can purchase Spot Cable
Avails from National Cable Communications LLC
(“NCC”), a national clearinghouse that “historically

151a
functioned on a multi-DMA level in much the same
way that the Interconnects have functioned on a single-DMA level.” (Id. at ¶¶ 34, 49.) Thus, NCC collects
fees from MVPDs, aggregates Spot Cable Avails from
across multiple DMAs, and sells them to advertisers.
(Id. at ¶¶ 51–52.) “Buying through NCC is the only
practical option for advertisers that wish to purchase
Spot Cable Advertising across multiple DMAs, and
such advertisers have no choice but to use it. NCC has
no competitors.” (Id. at ¶ 54.)
NCC was created in 1981 “as a joint venture
among the five largest MVPDs that existed at the
time.” (Id. at ¶ 50.) Through a series of acquisitions
of other MVPDs, Comcast attained a 60% ownership
stake in NCC, thereby gaining “the ability to effectively control NCC.” (Id.)
“Historically, NCC has had agreements in place
with virtually every MVPD or its representative in all
210 DMAs across the United States . . . .” (Id. at ¶ 52.)
Indeed, NCC says in its promotion materials that “its
participating members cover 98 percent of all multichannel television households in the United States.”
(Id.) As described further below, Viamedia contends
that Comcast has abused its control of NCC, altering
how it has historically functioned in the service of
Comcast’s anticompetitive goals.
3. Local spot cable advertising without
the involvement of an Interconnect
or NCC
The final manner in which MVPDs sell spot cable
advertising is “Local Spot Cable Advertising,” which
“do[es] not involve an Interconnect or NCC acting as
an intermediary.” (Id. at ¶ 59.) In this advertising

152a
sale method, “an advertiser deals directly with a single MVPD or its representative to purchase those Spot
Cable Avails that run in a specific number of the
MVPD’s ad zones,” which are subdivisions of a DMA
that “allow[] advertisements to be displayed on a
neighborhood-by-neighborhood or even a block-byblock basis.” (Id. at ¶¶ 59–60.) Thus, a business can
use local spot cable advertising to reach “narrowly targeted geographic audiences” at a cost that is “generally less expensive . . . than regional or national Spot
Cable Advertising through an Interconnect or NCC.”
(Id. at ¶¶ 61-62.)
C. Spot cable advertising representatives
Viamedia fits into the spot cable advertising landscape by “representing MVPD clients for the purpose
of selling their Spot Cable Avails.” (Id. at ¶ 74.) More
specifically, Viamedia provides MVPDs “sales, marketing, and technology expertise and support to sell
their Spot Cable Avails to local, regional, and national advertisers, including by accessing and participating in the Interconnects and NCC.” (Id.) While some
large MVPDs like Comcast “devote entire subsidiary
organizations to directing and organizing their Spot
Cable Advertisement sales operations,” smaller
MVPDs do not have the resources to do this. (Id. at
¶ 71.) Consequently, these smaller MVPDs turn to
companies like Viamedia for spot cable advertising
representation. (Id. at ¶ 72.)
Viamedia represents more than sixty MVPDs
across more than seventy DMAs, and each day, “Viamedia inserts about one million advertisements . . .
for over 7,000 advertisers nationwide.” (Id. at ¶¶ 76–
77.) These numbers make Viamedia “the largest independent Spot Cable Advertising Representative in

153a
the United States, meaning that it is the largest representative firm that is not wholly owned and controlled by a cable television service provider such as
Comcast.” (Id. at ¶ 17 (emphasis in original).)
Comcast Spotlight directly competes with Viamedia to represent MVPDs to sell their Spot Cable
Avails. (Id. ¶ 79.) It does this despite the fact that
Comcast competes with other MVPDs for household
cable subscriptions and advertising sales. (Id. at
¶¶ 78, 80.) Through its control of Comcast’s Spot Cable Avails, which reach Comcast’s twenty-two million
subscriber households, as well as its representation of
other MVPDs that have more than 13 million subscribers combined, Comcast Spotlight “control[s] Spot
Cable Advertising for . . . more than half of the entire
cable industry.” (Id. at ¶¶ 8, 85.) Comcast Spotlight’s
dominance is even greater in DMAs in which it controls the Interconnect. (Id. at ¶¶ 85–94.) In the Chicago, Detroit, Philadelphia, Boston, and Washington,
D.C. DMAs, for example, Comcast Spotlight controls
approximately 98–100% of all Spot Cable Advertising
Avails available for sale. (Id. at ¶¶ 86–90.) Viamedia
alleges that Comcast “has used its power to exclude
independent MVPDs and their representatives [from
accessing Interconnects that it controls] and to coerce
them into behaviors that benefit Comcast.” (Id. at
¶ 96.) The Court details the specifics of Viamedia’s allegations below.
II. Viamedia’s allegations of anticompetitive
conduct
A. Conduct stemming from Comcast’s control of the Interconnects
The crux of Viamedia’s allegations is that Comcast has used its control over certain Interconnects to

154a
(1) exclude Viamedia from accessing the critical Interconnect infrastructure, and (2) force MVPDs to engage
Comcast Spotlight as their spot cable advertising representatives instead of Viamedia or its competitors.
Viamedia’s complaint focuses on Comcast’s conduct in the Chicago and Detroit DMAs, where Comcast exercises unilateral control of regional advertising through the DMAs’ respective Interconnects. (Id.
at ¶ 102.) Between 2002 and 2012, Viamedia “participated in the Interconnects for Chicago and Detroit”
in its representation of its “then most significant
MVPD clients, WOW and RCN.” (Id. at ¶ 103.) In
2011, Comcast Spotlight began to express its interest
in representing WOW and RCN, but the MVPDs were
not interested. (Id. at ¶¶ 104–06.) Indeed, RCN explained, “Comcast would prefer that RCN use Comcast Spotlight and not Viamedia . . . . [But] RCN is not
comfortable having its largest and most formidable rival as its representative in the spot cable market and
should be free to choose a representative for such services that does not present such an obvious conflict
and competitive disadvantage.” (Id. at ¶ 108 (alterations in original).) Then, between 2011 and early
2012, “Comcast repeatedly told advertising agencies
that it would have sole control over all of WOW’s and
RCN’s Spot Cable Advertising Avails ‘by years end.’”
(Id. at ¶ 109.)
“On June 1, 2012, Comcast unilaterally ended Viamedia’s access to the Chicago and Detroit Interconnects and removed WOW and RCN from participating
in regional ad sales through the Interconnects.” (Id.
at ¶ 110.) This was, according to Viamedia, the first
time a “third-party representation firm or MPVD had
ever been excluded from an Interconnect for any reason.” (Id. at ¶ 116 (emphasis in original).) Comcast’s

155a
sudden closing of the doors to the Interconnect precluded Viamedia, WOW, and RCN “from selling any
Spot Cable Advertising Avails through the Interconnects for Chicago and Detroit, two of the largest markets for regional Spot Cable Advertising sales in the
country,” causing “Viamedia and its MVPD clients [to
lose] tens of millions of dollars in revenue.” (Id. at
¶¶ 114–15.) Initially, Comcast did not give a reason
for the exclusion, but later “acknowledged that the exclusion was motivated by Comcast Spotlight’s desire
to replace Viamedia as WOW’s and RCN’s Spot Cable
Advertising Representative.” (Id. at ¶¶ 111–12.)
Although Viamedia requested that Comcast restore it and its clients’ access to the Interconnect,
Comcast did not oblige. (Id. at ¶¶ 120–21.) In Chicago and Detroit, for example, “Comcast said that it
would be willing to consider Viamedia’s readmission
if, and only if, Viamedia agreed to certain commercially unreasonable terms, which would have prevented Viamedia from meaningfully competing with
Comcast Spotlight.” (Id. at ¶ 122.) Specifically, “Comcast demanded that it be given the right to preempt,
at its sole discretion and with virtually no advance notice, any of the Spot Cable Avails previously sold or
controlled by Viamedia, whether such ads were sold
through the Interconnect or not.” (Id. at ¶ 123.) This,
Viamedia alleges, “would have given Comcast the unilateral ability to assume control over the entire inventory of Viamedia’s MVPD clients and to resell Avails
that had already been sold by Viamedia to other advertisers.” (Id. at ¶ 123.) Viamedia did not agree to
these terms. (Id.)
In 2015, Comcast told WOW and RCN that they
“could resume [their] participation in the Comcastcontrolled Interconnects if they ended their relation-

156a
ship with Viamedia and retained Comcast Spotlight
as their sole Spot Cable Advertising Representative.”
(Id. at ¶ 124.) In April of that year, WOW accepted a
proposal from Defendants to replace Viamedia with
Comcast Spotlight in the Detroit and Chicago DMAs
in exchange for renewed access to those DMAs’ Interconnects. (Id. at ¶ 126–28.) Accordingly, Comcast
Spotlight gained control of “WOW’s Spot Cable Advertising in Chicago and Detroit for national, regional,
and local inventory.” (Id. at ¶ 128.) “Going forward,
no advertiser will be able to reach WOW’s Chicago and
Detroit subscribers without dealing with Comcast
Spotlight.” (Id.) Viamedia claims that it would have
continued to represent WOW in the Chicago and Detroit DMAs but for Comcast’s actions. (Id. at ¶ 129.)
Indeed, Viamedia continues to represent WOW in
DMAs where Comcast does not control the Interconnect. (Id.)
A similar course of events unfolded with respect
to RCN in the Chicago, Detroit, New York, Philadelphia, Boston, and Washington, D.C. DMAs—which
represent “six of the 11 largest DMAs in the United
States (constituting all of the markets in which RCN
operates).” (Id. at ¶¶ 130, 132.) Consequently, “Comcast now controls all of RCN’s Spot Cable Advertising
national, regional, and local inventory in [those
DMAs].” (Id. at ¶ 131.)
Comcast has also used this practice to “gain control of other MVPDs’ Avails, allowing Comcast to consolidate its control over Spot Cable Advertising in
many of the largest DMAs in the United States.” (Id.
at ¶ 134.) In fact, “no MVPD is able to sell a Spot Cable Avail and no advertiser is able to purchase a Spot
Cable Avail in five of the 10 largest DMAs in the

157a
United States without dealing exclusively with Comcast Spotlight.” (Id. at ¶ 135.)
Comcast’s conduct is not limited to only the largest media markets. In the Hartford DMA, for example, Comcast excluded the MVPD Frontier Communications—which had acquired a system operating in
the DMA with over 200,000 subscribers—when it
“transferred the Spot Cable Avails inventory for its
newly acquired Connecticut subscribers to Viamedia.”
(Id. at ¶ 136.) Comcast, however, “intends to condition Frontier’s re-admission to the Hartford Interconnect upon Frontier firing Viamedia as its sales representative and entering into an exclusive representation agreement with Comcast Spotlight.” (Id. at
¶ 138.)
B. Conduct stemming
control of NCC

from

Comcast’s

Viamedia also claims that, “[a]s [Comcast] has
done with the Interconnects, [it] now intends to shut
Viamedia and its MVPD clients out of participating in
national Spot Cable Advertising sales as a way of coercing independent MVPDs into transferring control
of their Spot Cable Avails to Comcast Spotlight.” (Id.
at ¶ 147.) NCC and Comcast, for example, have approached some of Viamedia’s clients and “have urged
them to terminate their representation agreements
with Viamedia if they wish to continue to have access
to NCC.” (Id. at ¶¶ 148–49.) Additionally, although
Viamedia currently has an agreement with NCC to access NCC’s services, that agreement expires in December 2017, and “NCC has refused to entertain a
long-term extension that would ensure Viamedia’s

158a
continued access to NCC beyond that date.” (Id. at
¶ 145.)3
III. The impact of Defendants’ conduct
Viamedia claims that “Comcast and Comcast
Spotlight’s exclusionary conduct harms competition in
several ways.” (Id. at ¶ 154.) First, Viamedia and
other independent advertising representatives “cannot compete with Comcast Spotlight” because they
will not have access to Comcast-controlled Interconnects or NCC, “which together represent more than
two-thirds of the [revenue] generated annually from
Spot Cable Advertising sales.” (Id. at ¶ 155.) Second,
MVPDs suffer because they are unable to choose their
preferred advertising representative and “many do
not want to cede control over their Spot Cable Avails
to Comcast, their largest competitor,” potentially being “forced to provide Comcast with sensitive business
information.” (Id. at ¶¶ 156, 158.) Moreover, if an
MVPD does not acquiesce to Comcast’s demands, it
would limit its “ability to compete against Comcast for
. . . subscribers because the MVPD[] will have to ei-

3

Defendants argue that Viamedia’s “NCC claim is not ripe.”
(R. 23, Mem. Supp. Defs.’ Mot. Dismiss, at 12.) Viamedia disavows that it has a separate NCC claim; instead, Viamedia says
its allegations concerning NCC are “indicative of Comcast’s pattern of conduct” and “part of its overall course of anticompetitive
conduct.” (R. 28 at 15.) Because Viamedia alleges that Comcast
“intends” to close access to NCC in the future but has not yet
done so, the Court will focus on Viamedia’s allegations regarding
the Interconnects. Nevertheless, because Comcast’s conduct
with respect to NCC mirrors its conduct with respect to the Interconnects, the Court’s analysis of Comcast’s conduct associated
with the Interconnects would apply to Comcast’s possible future
conduct associated with NCC.

159a
ther increase [its] subscriber fees or reduce [its] promotional efforts in order to compensate for [its] losses
in advertising revenue.” (Id. at ¶ 157.)
As for Viamedia specifically, it has lost several clients as well as revenue from spot cable advertising
sales through Interconnects. (Id. at ¶¶ 161–62.) In
total, Viamedia claims it will lose no less than $75 million. (Id.)
IV. Viamedia’s Claims
Viamedia’s complaint specifies six counts against
Defendants. In Count One, Viamedia asserts that Defendants violated Section 2 of the Sherman Act, 15
U.S.C. § 2, through “unlawful monopolization in markets for spot cable advertising representation in
DMAs where Comcast controls the Interconnect[].”
(Id. at 36, ¶¶ 164-73.) For this claim, Viamedia alleges: (1) “[t]he provision of Spot Cable Advertising
Representation services constitutes a relevant product market, (2) “the regional DMAs in which Comcast
controls the Interconnect constitute relevant geographic markets,” (3) “Comcast has monopoly power
in Spot Cable Advertising Representation in each of
the DMAs where it controls the Interconnect,” (4)
Comcast has excluded Viamedia and its clients from
accessing Comcast-controlled Interconnects, and (5)
“[b]y refusing to deal with Viamedia and MVPDs represented by Viamedia, by conditioning access to Interconnects upon an MVPD’s agreement to deal with
Comcast Spotlight, by requiring that MVPDs deal exclusively with Comcast Spotlight as a Spot Cable Advertising Representative, [and] by requiring NCC to
refuse to commit to a long term arrangement with Viamedia and to otherwise offer []discriminatory terms
to Viamedia . . . Comcast has unlawfully acquired and
maintained its monopoly power in each of the markets

160a
where it controls the Interconnect.” (Id. at ¶¶ 165–
68.)
Viamedia’s second count is for attempted monopolization in violation of Section 2 of the Sherman Act
based on the same conduct that it alleges in Count
One. (Id. at ¶¶ 174–82.)
Viamedia’s third, fourth, and fifth counts allege
violations of state antitrust laws in Illinois, Michigan,
and Connecticut. (Id. at ¶¶ 183–215.) Finally, for its
sixth claim, Viamedia alleges tortious interference
with a business expectancy. (Id. at ¶¶ 216–23.)
Viamedia seeks damages, costs, attorneys’ fees,
punitive damages, injunctive relief, and the “[o]rdering [of] such divestitures by Comcast as may be required to restore competition and to prevent the recurrence of future antitrust violations.” (Id. at 46.)
LEGAL STANDARD
“A motion to dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(6) challenges the viability of a
complaint by arguing that it fails to state a claim upon which relief may be granted.” Camasta v. Jos. A.
Bank Clothiers, Inc., 761 F.3d 732, 736 (7th Cir. 2014).
Under Rule 8(a)(2), a complaint must include “a short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
The short and plain statement under Rule 8(a)(2)
must “give the defendant fair notice of what the . . .
claim is and the grounds upon which it rests.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)). A plaintiff’s “[f]actual allegations must be enough to raise a
right to relief above the speculative level.” Id. Put differently, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that

161a
is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009) (quoting Twombly, 550 U.S. at 570).
In determining the sufficiency of a complaint under
the plausibility standard, courts must “accept all wellpleaded facts as true and draw reasonable inferences
in [a plaintiff’s] favor.” Roberts v. City of Chicago, 817
F.3d 561, 564 (7th Cir. 2016).
ANALYSIS
I.

Documents considered

Defendants have attached a contract between Viamedia and Comcast that they contend the Court may
consider. (R. 23, Mem. Supp. Defs.’ Mot. Dismiss, at
1 & n.1, 4–5 & n.3, Ex. 1.) According to Defendants,
the contract shows that Viamedia’s access to the Detroit and Chicago Interconnects resulted from a nineyear agreement that expired by its own terms on May
31, 2012—the day before Viamedia claims Comcast
“unilaterally ended” its access to those Interconnects.
(Id. at 4–5 (quoting R. 1 at ¶ 110).) Viamedia objects
to Defendants’ inclusion of this contract, arguing that
the Court cannot properly consider it at this stage in
the litigation. (R. 28, Pl.’s Opp., at 13 & n.6.) The
Court agrees with Viamedia.
“In general, if ‘matters outside the pleadings are
presented to and not excluded by the court, the motion
[to dismiss under Rule 12(b)(6)] must be treated as
one for summary judgment under Rule 56.’” United
States v. Rogers Cartage Co., 794 F.3d 854, 861 (7th
Cir. 2015) (quoting Fed. R. Civ. P. 12(d)); see Serban
v. Cargurus, Inc., No. 16 C 2531, 2016 WL 4709077,
at *2 (N.D. Ill. Sept. 8, 2016); F.D.I.C. v. Pantazelos,
No. 13 C 2246, 2013 WL 4734010, at *3 (N.D. Ill. Sept.
3, 2013). An exception to this rule exists, however,
when the parties present documents “to which the

162a
Complaint ha[s] referred,” that are “concededly authentic,” and “central” to the plaintiff’s claims. Santana v. Cook Cty. Bd. of Review, 679 F.3d 614, 619 (7th
Cir. 2012) (quoting Hecker v. Deere & Co., 556 F.3d
575, 582 (7th Cir. 2009)). A court may also consider
materials that are attached to the complaint. See Fed.
R. Civ. P. 10(c) (“A copy of a written instrument that
is an exhibit to a pleading is a part of the pleading for
all purposes.”); Tierney v. Vahle, 304 F.3d 734, 738
(7th Cir. 2002); Pantazelos, 2013 WL 4734010, at *3.
Defendants contend that although “Viamedia fails
to mention the [contract] explicitly, . . . the complaint
refers to its end date.” (R. 23 at 5 n.3 (citing R.1 at
¶ 110).) Viamedia counters by arguing that it does not
refer to the contract in its complaint. (See R. 28 at 13
n.6.) Viamedia has the better of the argument. It is
too far of a stretch to say that Viamedia referenced the
contract by merely noting the day upon which it
claims Comcast barred it from accessing the Interconnects without making any reference to the agreement.
This assertion is too far from “the usual example” of a
plaintiff failing to attach a contract in a suit for breach
of contract. Tierney, 304 F.3d at 738; cf., e.g., Wright
v. Associated Ins. Cos. Inc., 29 F.3d 1244, 1248 (7th
Cir. 1994) (considering an agreement that is “repeatedly quote[d]” in the complaint). The Court therefore
excludes the contract. See Sams v. City of Chicago,
No. 13 CV 7625, 2014 WL 6685809, at *2 n.5 (N.D. Ill.
Nov. 25, 2014) (refusing to consider letters that were
not referred to in the plaintiff’s complaint).
The contract also is not “central” to Viamedia’s
claims. Defendants argue to the contrary, maintaining that “Viamedia essentially asks the Court to extend its terms.” (R. 23 at 5 n.3.) The Court disagrees.
Viamedia’s claims center on the allegations that (1)

163a
Comcast excluded it and its clients from the Interconnects when no third-party representation firm or
MVPD had ever been excluded before, and (2) Comcast forced MVPDs to hire Comcast Spotlight as their
exclusive advertising representative. While perhaps
the contract will ultimately be relevant to this case or
even central to Defendants’ defense, it is not central
to Viamedia’s allegations. See Fleece v. Volvo Constr.
Equip. N. Am., No. 10 C 4496, 2010 WL 4386866, at
*1 (N.D. Ill. Oct. 27, 2010); Lincoln Nat’l Life Ins. Co.
v. Donaldson, Lufkin & Jenrette Sec. Corp, 9 F. Supp.
2d 994, 999 (N.D. Ind. 1998) (“While [a certain document] . . . is clearly evidence that would be relevant at
trial, and may very well be central to [the defendant’s]
defense, the court determines that it is not central to
the claim asserted by the Plaintiffs.”).4
Accordingly, the Court does not consider the contract because Viamedia does not refer to it in its complaint nor is it central to Viamedia’s claims. Defendants are of course free to rely on the document at the
appropriate procedural stage.
II. Viamedia’s Sherman Act Claims
Viamedia alleges that Defendants are liable for
monopolization and attempted monopolization under
Section 2 of the Sherman Act. To succeed in its monopolization claim, Viamedia must prove “(1) ‘the possession of monopoly power in the relevant market[,]’
4

Because the Court concludes that the contract is not central
to Viamedia’s allegations, the Court also rejects Defendants’ argument that it should consider the contract because Viamedia
strategically avoided including the contract in its complaint and
“courts consistently reject such artful pleading efforts.” (R. 29,
Defs.’ Reply, at 2.) Moreover, the Court disagrees that Viamedia
engaged in this sort of “artful pleading” given Viamedia’s claims
in this case.

164a
. . . (2) ‘the willful acquisition or maintenance of that
power[,] as distinguished from growth or development
as a consequence of a superior product, business acumen, or historic accident,’” and (3) the monopolization
caused injury. Comcast Corp. v. Behrend, 133 S. Ct.
1426, 1438 (2013) (third alteration in original) (quoting United States v. Grinnell Corp., 384 U.S. 563, 570–
71 (1966)); Hannah’s Boutique, Inc. v. Surdej, No. 13
C 2564, 2013 WL 4553313, at *3 (N.D. Ill. 2013). To
prove attempted monopolization, Viamedia must
show (1) “[Comcast’s] specific intent to achieve monopoly power in a relevant market; (2) predatory or anticompetitive conduct directed to accomplishing this
purpose; and (3) a dangerous probability that the attempt at monopolization will succeed.” Mercatus
Grp., LLC v. Lake Forest Hosp., 641 F.3d 834, 854 (7th
Cir. 2011); Hannah’s Boutique, 2013 WL 4553313, at
*3.
The second element of both monopolization and
attempted monopolization requires proof of anticompetitive conduct. See Verizon Commc’ns Inc. v. Law
Offices of Curtis V. Trinko, LLP, 540 U.S. 398, 407
(2004) (“To safeguard the incentive to innovate, the
possession of monopoly power will not be found unlawful unless it is accompanied by an element of anticompetitive conduct.” (emphasis in original)); Mercatus,
641 F.3d at 854 (“The second element of each claim
can be met by showing that the Hospital engaged in
predatory or anticompetitive conduct of some kind.”);
Endsley v. City of Chicago, 230 F.3d 276, 283 (7th Cir.
2000) (“Under § 2, intent to obtain a monopoly is unlawful only where an entity seeks to maintain or
achieve monopoly power by anticompetitive means.”);
VBR Tours, LLC v. Nat’l R.R. Passenger Corp., 14-cv00804, 2015 WL 5693735, at *6 (N.D. Ill. Sept. 28,

165a
2015). Here, Viamedia alleges that Defendants violated Section 2 of the Sherman Act through tying, exclusive dealing, and refusing to deal.5 (See R. 1 at
¶ 168; R. 28 at 7–14.)
Defendants do not base their motion to dismiss on
a failure to plead monopoly power in a relevant market or a dangerous probability that attempted monopolization will succeed. (R. 29 at 3 n.3.) Instead, Defendants contend that Viamedia failed to plead antitrust injury and anticompetitive conduct.6 The Court

5

Defendants argue that Viamedia also has a claim based on
a monopoly-leveraging theory. Viamedia, however, denies this.
The Court discusses this argument in Section II.C.2.
6
Defendants contend that they “expressly argued that the
Complaint does not establish that [they] acted with anticompetitive intent.” (R. 29 at 3 n.3 (citing R. 23 at 10).) Defendants are
referring to a passage of their brief in which they argue that they
engaged in procompetitive conduct rather than an illegal refusal
to deal, and therefore their actions are not evidence of anticompetitive intent. It thus appears that Defendants’ arguments regarding intent are intertwined with their arguments regarding
a lack of anticompetitive conduct. The Court therefore will consider and resolve those arguments together. See Spectrum
Sports, Inc. v. McQuillan, 506 U.S. 447, 459 (1993) (explaining
that anticompetitive conduct “may be sufficient to prove the necessary intent to monopolize”); Lenox MacLaren Surgical Corp. v.
Medtronic, Inc., 762 F.3d 1114, 1130 (10th Cir. 2014) (“We have
elsewhere concluded that the fact-finder could reasonably infer
monopoly power and exclusionary conduct. With these inferences, the jury could also find an intent to monopolize.”); M & M
Med. Supplies & Serv., Inc. v. Pleasant Valley Hosp., Inc., 981
F.2d 160, 166 (4th Cir. 1992) (“Specific intent may be inferred
from the defendant’s anticompetitive practices.”); see also Aspen
Skiing Co. v. Aspen Highlands Skiing Corp., 472 U.S. 585, 603
(1985) (“Improper exclusion (exclusion not the result of superior
efficiency) is always deliberately intended.” (quoting Robert
Bork, The Antitrust Paradox 160 (1978))); 2-16 Earl W. Kinter et

166a
addresses these issues in turn. First, however, it is
necessary to address a preliminary matter regarding
whether Viamedia’s complaint places tying and exclusive dealing at issue.
A. Viamedia’s complaint raises tying and
exclusive dealing
Viamedia argues that Defendants failed to address in their opening brief Viamedia’s tying and exclusive dealing claims, which Viamedia contends are
“not hidden in the interstices of the Complaint.” (R.
28 at 9; see also R. 32, Pl.’s Surreply, at 1–2.) Defendants respond by contending that “[t]he word ‘tying’ appears nowhere in the Complaint,” that Viamedia
“d[id] not plead” tying or exclusive dealing claims, and
that “Viamedia did not clearly allege tying or exclusive dealing claims.” (R. 29 at 9–10 n.8.) Thus, Defendants contend, “[i]t is perfectly appropriate for [Defendants] to address for the first time on reply theories not clearly made in the complaint but asserted for
the first time in an opposition brief.” (Id.) The Court
then gave Viamedia the opportunity to respond in a
surreply to any new arguments Defendants raised in
their reply in order to “allay any concerns that [Viamedia] would suffer prejudice.” (R. 31, Order Oct. 6,
2016); see Autotech Techs. Ltd. P’ship v. Automationdirect.com, Inc., 235 F.R.D. 435, 437 (N.D. Ill.
2006) (“To insure that the aggrieved party is not impermissibly affected, a court must either invoke the
waiver doctrine or allow the filing of a surreply” when
a party raises new matter in its reply brief); see also
Flory v. Mays, No. 06 C 3523, 2007 WL 4232781, at *3

al., Federal Antitrust Law § 16.17 (2015) (“[I]n both monopolization and attempted monopolization cases, courts typically infer
intent from the character of the practice.”).

167a
(N.D. Ill. Nov. 26, 2007) (“Since plaintiff was permitted to file a surreply, no argument of defendants will
be treated as waived for failure to raise it in the opening brief.”).
To the extent that Defendants contend that Viamedia hid the ball as to its tying and exclusive dealing claims so to require dismissal of those claims, Defendants’ argument fails. First, “Plaintiffs need only
plead facts, not legal theories, in their complaints.”
Reeves ex rel. Reeves v. Jewel Food Stores, Inc., 759
F.3d 698, 701 (7th Cir. 2014); see also Polzin v. Ericksen, 607 F. App’x 572, 574 (7th Cir. 2015) (“[F]ederal
complaints need not cite law or develop legal theories.”); Collier v. City of Chicago, No. 08-cv-5645, 2010
WL 476649, at *3 (N.D. Ill. Feb. 4, 2010) (“The plaintiff is not required to plead facts or legal theories or
cases or statutes, but merely to describe his claim
briefly and simply.” (quoting Shah v. Inter-Continental Hotel Chi. Operating Corp., 314 F.3d 278, 282 (7th
Cir. 2002))). They need not invoke particular “magic
words” in their complaint. See Vance v. Bureau of Collection Recovery LLC, No. 10-cv-06324, 2011 WL
881550, at *2 (N.D. Ill. Mar. 11, 2011) (“[P]leading certain ‘magic words’ that track the language of a legal
theory ‘is no more necessary than including other legal arguments in the complaint.’” (quoting Gustafson
v. Jones, 117 F.3d 1015, 1018 (7th Cir. 1997))); see
also, e.g., King v. Rubenstein, 825 F.3d 206, 222 (4th
Cir. 2016). Accordingly, Defendants’ argument that
Viamedia failed to use the word “tying” in its complaint falls flat.
Second, the Court agrees with Viamedia that its
claims “are not hidden in the interstices of the complaint.” (R. 28 at 9.) In “Count I,” for example, Viamedia says:

168a
By refusing to deal with Viamedia and
MVPDs represented by Viamedia, by conditioning access to Interconnects upon an
MVPD’s agreement to deal with Comcast
Spotlight, by requiring that MVPDs deal exclusively with Comcast Spotlight as a Spot Cable Advertising Representative, . . . Comcast
has unlawfully acquired and maintained its
monopoly power in each of the markets where
it controls the Interconnect, in violation of
Section 2 of the Sherman Act, 15 U.S.C. § 2.
(R. 1 at ¶ 168 (emphasis added).) This paragraph
plainly enumerates three anticompetitive acts
through which Defendants allegedly acquired monopoly power in violation of the Sherman Act. Viamedia—though it is by no means required to do so—explicitly used the phrase “deal exclusively,” indicating
an exclusive dealing claim. Additionally, Viamedia alleges that Defendants “condition[ed] access to Interconnects upon an MVPD’s agreement to deal with
Comcast Spotlight.” This assertion sufficiently refers
to a tying claim.7 See Sheridan v. Marathon Petroleum Co., 530 F.3d 590, 592 (7th Cir. 2008) (“In a tying

7

Other portions of Viamedia’s complaint also reference its tying and exclusive dealing claims. (See, e.g., R. 1 at ¶ 2 (“Comcast
has used its unilateral power to admit or deny competing cable
television companies access to this infrastructure and condition
access to this infrastructure upon those companies’ exclusive use
of Comcast Spotlight as their Spot Cable Advertising Representative. Comcast has also banned any competing company
that wishes to access this infrastructure from doing business
with Viamedia.”); id. at ¶ 95 (explaining that Comcast has used
its power over the Interconnects to “forc[e] [MVPDs] to accept
representation agreements with Comcast Spotlight”); id. at
¶ 153 (“Comcast’s conditioning of access to the Interconnects and

169a
agreement, a seller conditions the sale of a product or
service on the buyer’s buying another product or service from . . . the seller.”); Rocha v. FedEx Corp., 15 F.
Supp. 3d 796, 810 (N.D. Ill. 2014) (“A tying agreement
is an ‘agreement by a party to sell one product but only
on the condition that the buyer also purchases a different (or tied) product[.]’” (alteration in original)
(quoting N. Pac. Ry. Co. v. United States, 356 U.S. 1,
5–6 (1958))).
In short, Viamedia’s complaint raises tying and
exclusive dealing claims. The question remains, however, whether those claims (as well as Viamedia’s refusal-to-deal claim) pass muster under Rule 8. The
Court turns to that question now.
B. Antitrust Injury
Defendants argue that all of Viamedia’s Sherman
Act claims fail because Viamedia does not plead harm
to competition and therefore cannot establish antitrust injury and antitrust standing. (See R. 23 at 12–
14; R. 29 at 8–9.) The Court disagrees.
Private antitrust plaintiffs seeking damages must
plead more than mere injury; instead, they must plead
antitrust injury—“injury of the type the antitrust
laws were intended to prevent and that flows from
that which makes the defendants’ acts unlawful.” Atl.
Richfield Co. v. USA Petroleum Co., 495 U.S. 328, 334
(1990) (quoting Brunswick Corp v. Pueblo Bowl-OMat, Inc., 429 U.S. 477, 489 (1977)); see Alarm Detection Sys., Inc. v. Orland Fire Protection Dist., 129 F.
Supp. 3d 614, 634 (N.D. Ill. 2015). Plaintiffs seeking
NCC on its rival MVPDs entering into exclusive dealing arrangements with Comcast Spotlight . . . is an anticompetitive means
of acquiring and maintaining monopoly power in the market for
Spot Cable Advertising Representation.”).

170a
injunctive relief must plead “threatened” antitrust injury. Cargill, Inc. v. Monfort of Col., Inc., 479 U.S.
104, 113 (1986); see Static Control Components, Inc. v.
Lexmark Int’l, Inc., 697 F.3d 387, 409 (6th Cir. 2012)
(“The only difference between a claim for equitable relief and one for damages is that equitable relief is
available at the mere threat of antitrust injury.”); IIA
Phillip E. Areeda et al., Antitrust Law ¶ 335b (4th ed.
2014). “The antitrust-injury doctrine was created to
filter out complaints by competitors and others who
may be hurt by productive efficiencies, higher output,
and lower prices, all of which the antitrust laws are
designed to encourage.” U.S. Gypsum Co. v. Ind. Gas
Co., 350 F.3d 623, 627 (7th Cir. 2003). It ensures that
antitrust lawsuits carry out the purpose of the antitrust laws, which are “concern[ed] with the protection
of competition, not competitors.” See Brown Shoe Co.
v. United States, 370 U.S. 294, 320 (1962); Alarm Detection, 129 F. Supp. 3d at 634.
Viamedia can plead antitrust injury by sufficiently alleging that “its loss comes from acts that reduce output or raise prices to consumers.” Tri-Gen
Inc. v. Int’l Union of Operating Eng’rs, Local 150,
ALF-CIO, 433 F.3d 1024, 1031 (7th Cir. 2006) (quoting Stamatakis Indus. v. King, 965 F.2d 469, 471 (7th
Cir. 1992)). Additionally, the “[Seventh Circuit] has
recognized that competitors can bring an antirust
claim when they are excluded from the market and
injured by defendants’ actions.” Id. at 1032; see
Serfecz v. Jewel Food Stores, 67 F.3d 591, 597 (7th Cir.
1995) (“[The antitrust injury] test focuses on the connection between the purpose of the antitrust laws
(protecting market competition) and the alleged injury. When the plaintiff’s injury is linked to the injury
inflicted upon the market, such as when consumers
pay higher prices because of a market monopoly or

171a
when a competitor is forced out of the market, the compensation of the injured party promotes the designated purpose of the antitrust law—the preservation
of competition.” (emphasis added)); Hannah’s Boutique, 2013 WL 4553313, at *4 (explaining that the
plaintiff established antitrust injury because it “alleged conduct that affects the relevant market as a
whole,” including “forcing competitors out of the market”); William Holmes & Melissa Mangiaracina, Antitrust Law Handbook § 9:6 n.19 (2015) (describing TriGen as setting out two paths to prove antitrust standing).
Viamedia alleges antitrust injury because it plausibly claims that it was “excluded from the market and
injured by defendants’ actions.” Tri-Gen, 433 F.3d at
1032. By allegedly forcing customers—in this case,
MVPDs—to accept Comcast Spotlight’s representation services, Viamedia and representation firms like
it cannot compete in the spot cable advertising market
in areas where Comcast controls the Interconnect.
Additionally, Viamedia alleges that Defendants’ conduct could entirely foreclose competition in the spot
cable advertising representation market nationwide
due to firms’ inability to generate revenue in the
DMAs in which Comcast controls the Interconnect.
(R. 1 at ¶¶ 155, 159.) In short, Viamedia’s alleged injury is one that “harms both competitors and competition,” see Cargill, 479 U.S. at 117 (emphasis in original), and the antitrust laws properly address such
harm.
Viamedia also alleges that Defendants’ conduct
has diminished the quality of available spot cable advertising representation services, further demonstrating harm to competition. See Jefferson Parish Hosp.
Dist. No. 2 v. Hyde, 466 U.S. 2, 31 (1984) (explaining

172a
that the petitioner’s conduct “does not have the obviously unreasonable impact on purchasers that has
characterized the tying arrangements that [the Supreme Court] has branded unlawful,” as “[t]here is no
evidence that the price, the quality, or the supply or
demand for either the ‘tying product’ or the ‘tied product’ involved in this case has been adversely affected”
(emphasis added)), abrogated on other grounds by Ill.
Tool Works Inc. v. Indep. Ink, Inc., 547 U.S. 28 (2006);
Rebel Oil Co. v. Atl. Richfield Co., 51 F.3d 1421, 1433
(9th Cir. 1995) (explaining that an act is anticompetitive when it, among other things, diminishes the quality of available goods); Synthes, Inc. v. Emerge Med.,
Inc., No. 11-1566, 2012 WL 4473228, at *16 n.12 (E.D.
Pa. Sept. 28, 2012) (“[A]n antirust plaintiff must allege that ‘the challenged conducted affected the
prices, quantity or quality of goods or services, not just
his own welfare.’” (internal quotation marks omitted)
(quoting Mathews v. Lancaster Gen. Hosp., 87 F.3d
624, 641 (3d Cir. 1996)); cf. VBR Tours, 2015 WL
5693735, at *12 n.13 (explaining that a lower “qualityadjusted price to the consumer” may indicate procompetitive effects (quoting Roland Mach. Co. v. Dresser
Indus., Inc., 749 F.2d 380, 395 (7th Cir. 1984))). Specifically, Viamedia pleads facts indicating that
MVPDs find Comcast Spotlight to be an inferior alternative to independent third-party representation.
(See, e.g., R.1 at ¶ 108 (alleging that RCN said, “RCN
is not comfortable having its largest and most formidable rival as its representative in the spot cable market and should be free to choose a representative for
such services that does not present such an obvious
conflict and competitive disadvantage”); id. at ¶ 129
(explaining that Viamedia still represents RCN and
WOW in DMAs where Comcast does not control the
Interconnect); id. at ¶ 156 (explaining that MVPDs

173a
“do not want to cede control over their Spot Cable
Avails to Comcast, their largest competitor); id. at
¶ 158 (alleging that MVPDs “will be forced to provide
Comcast with sensitive business information” if they
must sign on with Comcast Spotlight, and that “[t]his
sensitive business information will give Comcast an
advantage over its rival MVPDs and limit the ability
of independent MVPDs to compete for cable subscribers”)). Accordingly, Viamedia has plausibly alleged
that Defendants engaged in conduct that lowered the
quality of service available in the spot cable advertising representation market, and that this conduct resulted in harm to Viamedia. These allegations sufficiently plead antitrust injury.8

8

Defendants present a brief argument in a footnote that Viamedia lacks antitrust standing because it cannot assert claims
based on alleged harm to MVPDs. (R. 23 at 13 n.7.) Such cursory
arguments are deemed waived. See Harmon v. Gordon, 712 F.3d
1044, 1053 (7th Cir. 2013); Long v. Teachers’ Ret. Sys. of Ill., 585
F.3d 344, 349 (7th Cir. 2009); Keith v. Ferring Pharma., Inc., No.
15 FC 10381, 2016 WL 5391224, at *13 (N.D. Ill. Sept. 27, 2016);
see also Hammes v. AAMCO Transmissions, Inc., 33 F.3d 774,
778 (7th Cir. 1994) (“[D]espite the suggestive terminology, ‘antitrust standing’ is not a jurisdictional requirement and is therefore waivable.”); ChampionsWorld, LLC v. U.S. Soccer Fed’n, 890
F. Supp. 2d 912, 924 (N.D. Ill. 2012). Moreover, while MVPDs
are harmed by Comcast’s alleged conduct, so is Viamedia based
on its exclusion from the market. Both consumers and competitors may have standing to enforce the antitrust laws. See Illinois
ex rel. Ryan v. Brown, 227 F.3d 1042, 1046 (7th Cir. 2000) (explaining that “normally only consumers or competitors have [antitrust] standing”); Areeda, supra, at ¶ 339d (“The mere fact that
an antitrust violation produces two different classes of victims
hardly entails that their victories are duplicative of one another.
For example, successful predatory pricing, exclusive dealing, or
similar exclusionary practices injure rivals by destroying their
profits or their business; it ultimately injures consumers as well
through higher product prices. There is no sense in which the

174a
C. Anticompetitive Conduct
1. Tying
“In a tying agreement, a seller conditions the sale
of a product or service on the buyer’s buying another
product or service from . . . the seller.” Sheridan, 530
F.3d at 592; see Eastman Kodak Co. v. Image Tech.
lost-profit injury incurred by the competitors ‘duplicates’ that incurred by consumers, and awarding damages to one interest does
nothing to make the other interest whole.”).
Defendants also argue that there is no antitrust in-jury because “there is simply no reason to infer that Comcast’s decision
to replace an intermediary with a direct relationship with
MVPDs has an anticompetitive motive or effect.” (R. 23 at 14.)
“Such disintermediation,” Defendants say, “is a ‘prototypical
valid business purpose.’” (Id. (quoting Port Dock & Stone Corp.
v. Oldcastle Ne., Inc., 507 F.3d 117, 124 (2d Cir. 2007).)
This argument fails. First, the Court has already found that
Viamedia has alleged antitrust injury based on Defendants’ exclusion of competition and the diminished quality of spot cable
advertising representation in a market in which Comcast Spotlight is the only option. Second, the cases Defendants cite deal
with manufacturers vertically expanding to dis-tribute their own
product. (Id. at 14 & n.8); see Port Dock, 507 F.3d at 124; Jack
Walters & Sons Corp v. Morton Bldg., Inc., 737 F.2d 698, 710 (7th
Cir. 1984); Institutional Foods Packing, Inc. v. Creative Prods.,
Inc., No. 89 C 4499, 1992 WL 111133, at *3 (N.D. Ill. May 12,
1992). That sort of cutting out of a middle-man “usually is procompetitive.” Jack Walters, 737 F.2d at 710. It is for this reason,
as explained further below, that Viamedia fails to state a claim
based on Defendants’ refusal to deal with Viamedia. Nevertheless, at this stage of the litigation, Viamedia has adequately alleged that Defendants tying and exclusive dealing arrangements
have done more than merely eliminate a middleman in the provision of Interconnect services. Instead, Viamedia has alleged
these arrangements have entirely foreclosed competition in the
market for advertising representation even for ad sales that do
not involve an Interconnect. For these reasons, Viamedia has
sufficiently pled antitrust in-jury.

175a
Servs., Inc., 504 U.S. 451, 461 (1992) (“A tying arrangement is ‘an agreement by a party to sell one
product but only on the condition that the buyer also
purchases a different (or tied) product, or at least
agrees that he will not purchase that product from any
other supplier.’” (quoting N. Pac. Ry., 356 U.S. at 5–
6)). The Supreme Court teaches that the “essential
characteristic of an invalid tying arrangement lies in
the seller’s exploitation of its control over the tying
product to force the buyer into the purchase of a tied
product that the buyer either did not want at all, or
might have preferred to purchase elsewhere on different terms.” Jefferson Parish, 466 U.S. at 12. As the
parties agree, tying constitutes a type of anticompetitive conduct that can give rise to Section 2 liability.
(R. 29 at 12–14; R. 32 at 4 & n.3); see, e.g., Sheridan,
530 F.3d at 593 (“The Court has not discarded the tying rule, and we have no authority to do so.”); It’s My
Party, Inc. v. Live Nation, Inc., 811 F.3d 676, 683–84
(4th Cir. 2016); Multistate Legal Studies, Inc. v. Harcourt Brace Jovanovich Legal & Prof’l Publ’ns, Inc., 63
F.3d 1540, 1550 (10th Cir. 1995) (“Illegal tie-ins . . .
under section 1 may also qualify as anticompetitive
conduct for section 2 purposes.”); Great Escape, Inc. v.
Union City Body Co., 791 F.2d 532, 541 (7th Cir. 1986)
(noting that “[p]redatory conduct [under Section 2]
may be broadly defined as conduct that is in itself an
independent violation of the antitrust laws); Oracle
Am., Inc. v. Terix Comput. Co., 5:13-cv-03385-PSG,
2014 WL 5847532, at *7 (N.D. Cal. Nov. 7, 2014); Hon
Hai Precision Indus. Co., v. Molex, Inc., No. 08 C 5582,
2009 WL 310890, at *2 (N.D. Ill. Feb. 9, 2009).
A tying claim has four elements: (1) “the tying arrangement is between two distinct products or services,” (2) “the defendant has sufficient economic
power in the tying market to appreciably restrain free

176a
competition in the market for the tied product,” (3) “a
not insubstantial amount of interstate commerce is affected,” and (4) “the tying seller . . . has some economic
interest in the sales of the tied product.” Reifert v. S.
Cent. Wis. MLS Corp., 450 F.3d 312, 316–17 (7th Cir.
2006) (quoting Carl Sandburg Vill. Condo. Ass’n No.
1 v. First Condo. Dev. Co., 758 F.2d 203, 207–08 (7th
Cir. 1985)). Viamedia alleges that Comcast has conditioned access to the Interconnects in which it exercises exclusive control to MVPDs’ acceptance of Comcast Spotlight’s services. This arrangement, Viamedia contends, constitutes illegal tying because MVPDs
are forced to purchase a service they do not want—
Comcast Spotlight’s representation services—in order
to obtain something that they need—access to Interconnects to make regional spot cable advertising
sales. (See R. 1 at ¶ 2; R. 28 at 8; R. 32 at 3.)
Defendants argue that “Viamedia’s tying claim is
deficient as a matter of law because Viamedia’s own
allegations establish that [Interconnect services and
spot cable advertising representation services] are
part of the same alleged product market.” (R. 29 at 13
(emphasis in original).) Defendants point to the complaint’s description of the market for spot cable advertising representation, which “defin[es] the services
provided by Spot Cable Advertising Representation
firms as ‘assum[ing] responsibility for [MVPDs’] Spot
Cable Advertising for the purpose of marketing and
selling their Spot Cable Avail inventory to national,
regional, and local advertisers.’” (R. 29 at 13 (quoting
R. 1 at ¶ 72).) Defendants contend that this is “exactly
what Comcast does when it operates an Interconnect,”
according to Viamedia’s complaint. (Id. at 13–14 (citing R.1 at ¶¶ 35, 48).)

177a
A tying arrangement must be “between two distinct products or services.” Reifert, 450 F.3d at 317
(quoting Carl Sandburg, 758 F.2d at 207); see also Jefferson Parish, 466 U.S. at 19–21. To determine if two
products are separate, “the question . . . turns not on
the functional relation between them, but rather on
the character of the demand for the two items.” Jefferson Parish, 466 U.S. at 19; see also, e.g., In re Time
Warner Inc. Set-Top Cable Television Box Antitrust
Litig., Nos. 08 MDL 1995(PKC), 08 Civ. 7616(PKC),
2010 WL 882989, at *4 (S.D.N.Y. Mar. 5, 2010). In
Jefferson Parish, the Supreme Court concluded that
anesthesiological services and other hospital services
were distinct products. 466 U.S. at 18–25. The Court
looked to a number of factors to reach this conclusion,
including the fact that (1) “the anesthesiological component of the package offered by the hospital could be
provided separately and could be selected either by
the individual patient or by one of the patient’s doctors if the hospital did not insist on including anesthesiological services in the package it offers to its customers,” (2) “anesthesiological services are billed separately from the hospital services petitioners provide,”
and (3) “patients or surgeons often request specific anesthesiologists to come to a hospital and provide anesthesia.” Id. at 22.
Similarly, in Eastman Kodak Co. v. Image Technical Services, Inc., the Supreme Court considered the
issue of whether the provision of service and the provision of parts for photocopiers and micrographic
equipment constituted separate products. 504 U.S. at
456–57, 459, 462–63. The Supreme Court framed the
test from Jefferson Parish as whether there was “sufficient consumer demand so that it is efficient for a
firm to provide service separate from parts.” Id. at
462. The Supreme Court concluded that “[e]nough

178a
doubt [was] cast on Kodak’s claim of a unified market
that it should be resolved by the trier of fact.” Id. at
463. The Court noted “that service and parts have
been sold separately in the past and still are sold separately to self-service equipment owners,” and that
“the development of the entire high-technology service
industry is evidence of the efficiency of a separate
market for service.” Id. at 462. Moreover, the Court
rejected the contention that because “there is no demand for parts separate from service, there cannot be
separate markets for service and parts.” Id. at 463.
Viamedia has plausibly alleged distinct markets
for spot cable advertising representation services and
Interconnect services. First, the complaint alleges
that MVPDs have hired representation firms like Viamedia that do not provide Interconnect services
themselves. Thus, similar to how patients could have
purchased anesthesiology services separate from hospital services absent a tying arrangement in Jefferson
Parish, 466 U.S. at 22, and how customers purchased
parts and service separately in Eastman Kodak, 504
U.S. at 462, MVPDs have acquired Interconnect services and representation services separately. Second,
similar to how “patients or surgeons often request[ed]
specific anesthesiologists to come to a hospital and
provide anesthesia” in Jefferson Parish, 466 U.S. at
22, Viamedia has alleged that MVPDs prefer to engage independent third-party representatives like Viamedia to handle their entire spot cable advertising
inventory. Finally, spot cable advertising representation concerns the sale of Spot Cable Avails “across the
three tiers of the sales system”—sales through Interconnects, sales through NCC, and local sales directly
to advertisers—while Interconnect services concern
only one of the three tiers of the sales system. (R. 1 at
¶ 70.) Additionally, representation firms “[p]lan[] and

179a
coordinat[e] an MVPD’s Spot Cable Advertising transactions,” identify buyers and negotiate business
terms, and provide “complete turnkey advertising
sales, spot insertion, encoding, validation, IT, monitoring, traffic, billing, and collection services.” (Id. at
¶¶ 70, 75.) In contrast, the complaint indicates that
Interconnects merely “aggregate Spot Cable Avails
. . . and sell packaged Avails to advertisers in such a
way that the purchased advertisements will run on all
MVPDs across a given DMA simultaneously.” (Id. at
¶ 35.) Thus, while Interconnect services are related
to spot cable advertising representation services in
that some Spot Cable Avails are sold through an Interconnect, Viamedia has pled that advertising representation firms offer qualitatively different services
than an Interconnect. Taking the allegations in the
complaint as true, it is plausible that the demand for
spot cable advertising representation services is distinct from the demand for Interconnect services. Viamedia therefore adequately alleges that there are
two distinct products at issue.
Defendants also contend that “[t]he deficiency of
Viamedia’s purported tying claim is further underscored by its failure (in either the Complaint or opposition brief) to fully address the essential elements of
such a claim.” (R. 29 at 13.) Defendants, however,
offer analysis only with respect to the element of
whether there are two separate products at issue. As
previously noted, Viamedia need not enumerate the
elements of its claim. See supra § II.A. Additionally,
“perfunctory and undeveloped legal arguments are
waived.” Schaefer v. Universal Scaffolding & Equip.,
LLC, No. 15-2393, 2016 WL 5864513, at *5 (7th Cir.
Oct. 7, 2016) (published opinion); see also United
States v. Alden, 527 F.3d 653, 664 (7th Cir. 2008);

180a
United States v. Key, No. 13 CR 726, 2016 WL
6135666, at *9 n.1 (N.D. Ill. Oct. 21, 2016).
Even putting waiver aside, however, Viamedia
pleads all of the necessary elements of a tying claim.
As described above, Viamedia pleads the existence of
two separate products. It also alleges the existence of
a tying arrangement that coerces MVPDs to purchase
the tied product, Comcast Spotlight’s services. See
Jefferson Parish, 466 U.S. at 12 (“Our cases have concluded that the essential characteristic of an invalid
tying arrangement lies in the seller’s exploitation of
its control over the tying product to force the buyer
into the purchase of a tied product that the buyer either did not want at all, or might have preferred to
purchase elsewhere on different terms. When such
‘forcing’ is present, competition on the merits in the
market for the tied item is restrained and the Sherman Act is violated.”); It’s My Party, 811 F.3d at 684–
85 (describing the importance of coercion to distinguish illegal tying from a legal package deal). With
respect to the second element of market power in the
tying product market, the complaint alleges that Comcast has total control of Interconnect services in the
Chicago and Detroit DMAs, among other locations.
The third element—whether “a not substantial
amount of interstate commerce is affected”—is adequately alleged because the complaint claims that
competitors in the tied product market, including Viamedia, are being entirely excluded from competition.
Reifert, 450 F.3d at 316–18. Indeed, as noted above,
the complaint specifically alleges that Defendants’ tying arrangement forced WOW and RCN to drop Viamedia for Comcast Spotlight. Finally, with respect
to the final element, Viamedia alleges Defendants’
economic interest in the sales of the tied product—
Comcast Spotlight’s representation services.

181a
In short, while Defendants may of course attempt
later in the litigation to show why their conduct does
not violate the Sherman Act, Viamedia’s allegations of
a tying arrangement sufficiently state a claim at this
stage.
2. Monopoly Leveraging
Defendants argue that Viamedia bases its claims
on a “monopoly leveraging” theory— the use of monopoly power in one market to gain a competitive advantage in a second market— that must fail under
Verizon Communications Inc. v. Law Offices of Curtis
V. Trinko, 540 U.S. 398 (2004), and Schor v. Abbott
Laboratories, 457 F.3d 608 (7th Cir. 2006). (R. 29 at
11–12.) In Trinko, the Supreme Court, rejected a monopoly leveraging theory, explaining that “leveraging
presupposes anticompetitive conduct, which in this
case could only be the refusal-to-deal claim we have
rejected.” 540 U.S. at 415 n.4; see also Four Corners
Nephrology Assocs., P.C. v. Mercy Med. Ctr. of Durango, 582 F.3d 1216, 1222 (10th Cir. 2009) (citing
Trinko and rejecting a monopoly leveraging theory
where there is no viable claim for anticompetitive conduct like a refusal to deal). In Schor, as Defendants
point out, the Seventh Circuit explained “that there is
no Section 2 liability for a ‘free-standing’ monopoly
leveraging theory that lacks any underlying anticompetitive conduct.” (R. 29 at 12 (citing Schor, 457 F.3d
at 611–13).)
Unlike in Trinko and Schor, however, Viamedia’s
claim is not “free-standing” because it alleges particular types of anticompetitive conduct—namely, tying,
exclusive dealing, and refusing to deal. Viamedia’s
success turns on whether it states a claim based on
those three classes of anticompetitive conduct, not

182a
whether a free-standing leveraging theory is independently viable. In Schor, in contrast, the Seventh
Circuit took care to note that “Schor’s complaint does
not allege any of the normal exclusionary practices—
tie-in sales (or another form of bundling), group boycotts, exclusive dealing and selective refusal to deal,
or predatory pricing.” 457 F.3d at 610. Furthermore,
in Schor, the defendant supposedly leveraged a monopoly in one market to gain a relative advantage in
a second market, but did not foreclose all competition
in that second market. See id. at 611 (explaining that
without an allegation that the defendant would
“knock[] out” rivals from the market, “[a]nd without
any prospect of rivals’ exit, there is . . . no antitrust
worry”); id. at 613 (noting that “[a]s long as rivals continue to sell,” monopoly leveraging theories fail).
Here, in contrast, Viamedia alleges that Defendants
have used specific anticompetitive practices—tying,
exclusive dealing, and refusing to deal—to successfully eliminate all competition.
Defendants also argue in a sentence that Viamedia’s claims fail because “based on Schor’s reasoning,
. . . ‘monopoly leveraging’ cannot violate the antitrust
laws because it cannot increase an alleged monopolist’s profits.” (R. 29 at 12 (quoting VBR Tours, 2015
WL 5693735, at *11, *13).) As noted above, perfunctory or undeveloped legal arguments are waived. See
Alden, 527 F.3d at 664; see also Puffer v. Allstate Ins.
Co., 675 F.3d 709, 718 (7th Cir. 2012) (explaining that
arguments that “are undeveloped, conclusory, or unsupported by law” are waived). Defendants do not explain the economic principles at issue in Schor or how
they apply in this case. Nor do they explain why Schor
should control despite the factual differences between
that case and the current one discussed in the preced-

183a
ing paragraph. In short, Defendants’ one-sentence argument is insufficient to allow the Court to evaluate
the strength of their contention. This invites the court
to play “the role of advocate [rather] than judge”—an
invitation that the Court must decline. See Nichols v.
Vilsack, No. 13-01502 (RDM), 2015 WL 9581799, at *1
(D.D.C. Dec. 30, 2015). Accordingly, while Defendants
are free to develop this argument at the appropriate
time, the Court will not evaluate it in resolving this
motion to dismiss.
3. Exclusive Dealing
Exclusive dealing can violate Section 2 of the
Sherman Act. See, e.g., United States v. Microsoft
Corp., 253 F.3d 34, 69–71 (D.C. Cir. 2001) (per curiam); see also LePage’s Inc. v. 3M, 324 F.3d 141, 157–
59 (3d Cir. 2003) (en banc); VBR Tours, LLC v. Nat’l
R.R. Passenger Corp., No. 14-cv-804, 2016 WL
4945015, at *3, *6 (N.D. Ill. Sept. 15, 2016). Courts
“often approve” of exclusive dealing because of its
“procompetitive benefits.” See Republic Tobacco Co.
v. N. Atl. Trading Co., 381 F.3d 717, 736 (7th Cir.
2004) (noting that exclusive dealing can “eliminate[]
divided loyalties and reduce[] free riding” (citing Roland Mach., 749 F.2d at 395)); VBR Tours, 2015 WL
5693735, at *12. “[E]xclusive dealings violate the
Sherman Act ‘only when they foreclose competition in
a substantial share of the line of commerce at issue.’”
VBR Tours, 2015 WL 5693735, at *12 (quoting Republic Tobacco, 381 F.3d at 738); see also Kolon Indus. Inc.
v. E.I. DuPont de Nemours & Co., 748 F.3d 160, 175
(4th Cir. 2014) (citing Tampa Elec. Co. v. Nashville
Coal Co., 365 U.S. 320, 327 (1961)); Microsoft, 253
F.3d at 69. This requirement exists to ensure that the
exclusive dealing has “an adverse effect on competition.” Microsoft, 253 F.3d at 69; see Kolon, 748 F.3d

184a
at 175; Roland Mach., 749 F.2d at 394 (explaining
that exclusive dealing is cause for antitrust concern
only if there is injury to competition).
As Viamedia points out, Defendants “do[] not appear to genuinely dispute that the Complaint establishes exclusive dealing.” (R. 32 at 5.) Instead, Defendants argue that Viamedia’s exclusive dealing
claim “fails because the Complaint establishes that
exclusivity in the Spot Cable Advertising Representative business is the norm and Viamedia simply seeks
to replace one allegedly exclusive deal (between an
MVPD and Comcast) with another (between an
MVPD and Viamedia).” (R. 29 at 14.) Defendants go
on to say “[t]hat exclusivity is the norm is consistent
with it being efficient and with the presumption that
it is procompetitive.” (Id. at 15.)
Once again, Defendants’ argument that exclusive
dealing is the “norm” and therefore is “efficient” and
“procompetitive” is conclusory and unaccompanied by
citations to authority. The Court therefore need not
consider it. See Puffer, 675 F.3d at 718; Alden, 527
F.3d at 664. Even if the Court considers the argument, however, it fails. As described above, the complaint alleges that Defendants’ conduct harmed competition by excluding all competitors. Thus, although
an exclusive dealing arrangement may be procompetitive when certain advertising representation firms
engage in it, the complaint alleges that Defendants’
exclusive dealing and unique position in the spot cable
advertising business caused harm to competition. See
E.I. du Pont de Nemours & Co. v. Kolon Indus., Inc.,
637 F.3d 435, 441 (4th Cir. 2011) (explaining that
sometimes a monopolist may not engage in conduct in
which nonmonopolists may engage); United States v.
Dentsply Int’l, Inc., 399 F.3d 181, 187 (3d Cir. 2005).

185a
Viamedia does not assert that exclusive dealing is
generally unlawful; instead, it contends that Defendants’ exclusive dealing violates the Sherman Act. Accordingly, at this juncture, Defendants’ argument
does not persuade the Court to dismiss Viamedia’s exclusive dealing claim.
4. Refusal to Deal
The Supreme Court has explained that, “as a general matter, the Sherman Act ‘does not restrict the
long recognized right of [a] trader or manufacturer engaged in an entirely private business, freely to exercise his own independent discretion as to parties with
whom he will deal.’” Trinko, 540 U.S. at 408 (emphasis
in original) (quoting United States v. Colgate & Co.,
250 U.S. 300, 307 (1919)). The Supreme Court enumerated three reasons why refusals to deal are generally not actionable. First, “[c]ompelling such firms to
share the source of their advantage is in some tension
with the underlying purpose of antitrust law, since it
may lessen the incentive for the monopolist, the rival,
or both to invest in those economically beneficial facilities.” Id. at 407–08. Second, “[e]nforced sharing . . .
requires antitrust courts to act as central planners,
identifying the proper price, quantity, and other terms
of dealing—a role for which they are ill suited.” Id. at
408. Finally, “compelling negotiation between competitors may facilitate the supreme evil of antitrust:
collusion.” Id.; see also Schor, 457 F.3d at 610 (“[A]ntitrust law does not require monopolists to cooperate
with rivals by selling them products that would help
the rivals to compete. Cooperation is a problem in antitrust, not one of its obligations.” (emphasis in original) (citation omitted)).
Pointing to these legal principles, Defendants contend that “[i]t is axiomatic that a firm has no legal

186a
duty to deal with its rivals.” (R. 23 at 7.) While it is
true that refusals to deal are generally legal, Defendants overstate the law. “[T]he high value that [the
Supreme Court] ha[s] placed on the right to refuse to
deal with other firms does not mean that the right is
unqualified.” Trinko, 540 U.S. at 408; see also VBR
Tours, 2015 WL 5693735, at *7. The Supreme Court
“ha[s] been very cautious in recognizing” exceptions to
the general rule allowing refusals to deal, but one
such exception comes from Aspen Skiing Co. v. Aspen
Highlands Skiing Corp., 472 U.S. 585, 601 (1985).
Trinko, 540 U.S. at 408–09; VBR Tours, 2015 WL
5693735, at *7. While the Supreme Court has said
that “Aspen Skiing is at or near the outer boundary of
§ 2 liability,” Trinko, 540 U.S. at 409, the Court has
reaffirmed that Aspen Skiing provides a viable path
to liability for a refusal to deal claim, id.; see also Pac.
Bell Tel. Co. v. Linkline Commc’ns, Inc., 555 U.S. 438,
448 (2009) (citing Aspen Skiing for the proposition
that “[t]here are also limited circumstances in which
a firm’s unilateral refusal to deal with its rivals can
give rise to antitrust liability); VBR Tours, 2015 WL
5693735, at *7 (considering a refusal to deal claim
based on Aspen Skiing).
Viamedia argues that, under Aspen Skiing, Defendants’ refusal to provide access to its Interconnects
violates the Sherman Act. (R. 28 at 10.) The Court
therefore turns to that case. Aspen Skiing concerned
the four mountains that constituted the Aspen ski
area. 472 U.S. at 587–95. The defendant owned three
of the mountains, and the plaintiff owned the fourth.
Id. at 589–91. For a number of years, the owners cooperated by selling a joint ticket, providing customers
access to all of the mountains. Id. Later, however, the
defendant demanded an increasingly greater percent-

187a
age of the revenue generated from the joint ticket until the cooperative relationship between the defendant
and the plaintiff ended. Id. at 591–93; see also Trinko,
540 U.S. at 408–09 (analyzing Aspen Skiing). The
plaintiff tried what the Trinko Court referred to as “a
variety of increasingly desperate measures to recreate
the joint ticket, even to the point of in effect offering
to buy the defendant’s tickets at retail price.” Trinko,
540 U.S. at 408–09 (citing Aspen Skiing, 472 U.S. at
593–94). The defendant rebuffed these efforts. Aspen
Skiing, 472 U.S. at 592–94; see also Trinko, 540 U.S.
at 408–09.
The Supreme Court affirmed a jury verdict for the
plaintiff. Aspen Skiing, 472 U.S. at 610. As the Trinko
Court described it, the Aspen Skiing Court “found significance in the defendant’s decision to cease participation in a cooperative venture.” Trinko at 540 U.S.
at 409 (citing Aspen Skiing, 472 U.S. at 608, 610–11).
“The unilateral termination of a voluntary (and thus
presumably profitable) course of dealing suggested a
willingness to forsake short-term profits to achieve an
anticompetitive end.” Id. (emphasis in original) (citing Aspen Skiing, 472 U.S. at 608, 610–11). Additionally, “the defendant’s unwillingness to renew the
ticket even if compensated at retail price revealed a
distinctly anticompetitive bent.” Id. Thus, “the evidence suggested that the defendant’s decision was ‘irrational but for its anticompetitive effect.’” VBR
Tours, 2015 WL 5693735, at *7 (quoting Novell, Inc.
v. Microsoft Corp., 731 F.3d 1064, 1075 (10th Cir.
2013)). Accordingly, Aspen Skiing is a “narrow[]”
opinion. Olympia Equip. Leasing Co. v. W. Union Tel.
Co., 797 F.2d 370, 379 (7th Cir. 1986). Indeed, the
Seventh Circuit has said that if Aspen Skiing “stands
for any principle that goes beyond its unusual facts, it
is that a monopolist may be guilty of monopolization

188a
if it refuses to cooperate with a competitor in circumstances where some cooperation is indispensable to effective competition.” Id.
Defendants argue that Viamedia has failed to
plead facts showing that Defendants’ decision was irrational but for its anticompetitive effects because “replac[ing] an intermediary with a direct relationship
. . . is a ‘prototypical valid business purpose.’” (R. 29
at 8 (quoting Port Dock & Stone Corp v. Oldcastle Ne.,
Inc., 507 F.3d 117, 124 (2d Cir. 2007)); see also It’s My
Party, 811 F.3d at 689 (“A single firm incorporating
separate but closely related production processes can
often be far more efficient than various independent
entities transacting to produce the same good or bundle of goods.”); Jack Walters & Sons Corp. v. Morton
Bldg., Inc., 737 F.2d 698, 710 (7th Cir. 1984) (“We just
said that vertical integration is not an improper objective. But this puts the matter too tepidly; vertical integration is usually procompetitive.”); Institutional
Foods Packing, Inc. v. Creative Prods., Inc., No. 89 C
4499, 1992 WL 111133, at *3 (N.D. Ill. May 12, 1992).
The Court agrees. Viamedia has not alleged or explained how Defendants’ refusal to deal with it—separate from Defendants’ other conduct like conditioning MVPDs’ access to Interconnects on accepting Comcast Spotlight’s services even for advertising sales
that do not involve an Interconnect—has no rational
procompetitive purpose. See VBR Tours, 2015 WL
5693735, at *9 (“[T]he question is not whether [the defendant] chose the most competitive offer but whether
it had any procompetitive purpose.” (emphasis in original)); see also Novell, 731 F.3d at 1075–77. Before
Comcast’s refusal to deal, MVPDs gave Viamedia control of their Spot Cable Avails and then Viamedia gave
control over a portion of those Avails to the Interconnect. After Comcast’s refusal to deal, for the portion

189a
of Avails sold through an Interconnect, MVPDs
simply deal with Comcast directly. Consequently, at
least with respect to the portion of advertising sales
made through Interconnects, Defendants’ refusing to
deal with Viamedia offers potentially improved efficiency. Given the Supreme Court’s hesitancy to force
“firms to share the source of their advantage,” Trinko,
540 U.S. at 407–08, the administrability problems associated with forcing a company to deal with its rival,
see Novell, 731 F.3d at 1073 (citing Trinko, 540 U.S.
407–08), and the principle that replacing intermediaries is a “prototypical valid business purpose,” Port
Dock, 507 F.3d at 124, Viamedia’s current allegations
of an illegal refusal to deal cannot proceed.
Viamedia’s tying and exclusive dealing claims are
distinct from the refusal to deal claim. Unlike a unilateral refusal to deal, they involve “some assay . . .
into the marketplace—to limit the abilities of third
parties to deal with rivals (exclusive dealing), [or] to
require third parties to purchase a bundle of goods rather than just the ones they really want (tying).”
Novell, 731 F.3d at 1072. Refusing to provide Viamedia access to Interconnects is, for example, different
than conditioning MVPDs’ access to Interconnects on
their acceptance of Comcast Spotlight’s representation services even for advertising sales that are unrelated to the use of Interconnects (like local sales directly to advertisers).9

9

At times it appears that Viamedia’s refusal to deal claim
also turns on Comcast refusing to provide Interconnect services
to MVPDs. This refusal, however, is simply part of the tying
claim. Indeed, Comcast has now provided WOW and RCN with
access to the Interconnects at issue. The potential problem with
Comcast’s conduct, however, is that it provided this access only

190a
Defendants argue, however, that Viamedia’s exclusive dealing and tying claims are really just Viamedia’s refusal to deal claim in disguise. (R. 29 at 10–
11.). They point to Novell, Inc. v. Microsoft Corp., 731
F.3d 1064 (10th Cir. 2013), where the Tenth Circuit
rejected the plaintiff’s attempt to “recast” the defendant’s refusal to deal as an affirmative act of interference, (R. 29 (citing Novell, 731 F.3d at 1078–79)).
Here, however, Viamedia is not merely attempting to
“recast” its refusal to deal claim. Rather, it has alleged different claims involving distinct conduct: tying, exclusive dealing, and refusing to deal. Indeed,
as explained in the preceding paragraph, Novell specifically discusses the difference between unilateral
refusals to deal and other anticompetitive conduct like
exclusive dealing and tying. Novell, 731 F.3d at 1072–
74. Accordingly, Viamedia’s exclusive dealing and tying claims may proceed without the refusal to deal
claim.10

after allegedly coercing the MVPDs to accept Comcast Spotlight’s
services.
10
Viamedia also alleges various claims under state antitrust
law as well as a state law claim for tortious interference with a
business expectancy. (R. 1 at ¶¶ 183–223.) Comcast contends
that there are “no relevant differences between Viamedia’s state
and federal antitrust claims.” (R. 23 at 15.) The Court accordingly treats those claims just as it treats Viamedia’s claims under
the Sherman Act. Comcast also argues that the Court should “relinquish supplemental jurisdiction over any remaining state law
claims” if the Court dismisses the federal antitrust claims. (Id.)
Because the Court does not dismiss the federal claims, it maintains supplemental jurisdiction.

191a
CONCLUSION
For the foregoing reasons, the Court grants Defendants’ motion in part and dismisses Viamedia’s refusal to deal claim without prejudice. The Court denies Defendants’ motion with respect to Viamedia’s
other claims.
DATED: November 4, 2016 ENTERED

_/s/ Amy J. St. Eve__
AMY J. ST. EVE
United States
District Court Judge

192a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
VIAMEDIA, INC.,
Plaintiff,
v.
COMCAST
CORPORATION and
COMCAST
SPOTLIGHT, LP,
Defendants.

)
)
) Case No. 1:16-cv-05486
)
) Hon. Amy J. St. Eve
)
)
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
AMY J. ST. EVE, District Court Judge:
Defendants Comcast Corporation (“Comcast”) and
its wholly owned subsidiary Comcast Spotlight, LP
(“Comcast Spotlight”),1 (R. 40, Am. Compl., ¶ 1), have
moved, pursuant to Federal Rule of Civil Procedure
12(b)(6), to dismiss with prejudice Counts I-V of Plaintiff Viamedia, Inc.’s (“Viamedia”) amended complaint,
“to the extent the monopolization claims asserted are
based on alleged refusal to deal.” (R. 45.) For the following reasons, the Court grants Defendants’ motion.

1

The Court refers to Comcast and Comcast Spotlight collectively as “Defendants.”

193a
BACKGROUND2
In the 1990s, competing cable service providers—
called, according to industry terminology, “multichannel video program distributors” (“MVPDs”)—developed Interconnects, cable industry cooperatives that
facilitate the sale of spot cable advertising across particular Designated Media Markets (“DMAs”). (R. 40,
Am. Compl., ¶¶ 23, 34-36.) Specifically, an “Interconnect functions as the central marketplace around
which all regional Spot Cable Advertising sales in [a]
DMA are transacted.” (Id. at ¶ 37.) Regional spot cable advertising sales are one of the three ways in
which MVPDs sell spot cable advertising time. (Id. at
¶ 34.)
Initially, “Interconnects were open to all MVPDs
and their representatives, and MVPDs were encouraged to participate in order to maximize the numbers
of households advertisers could reach in that DMA.”
(Id. at ¶ 38.) Following the formation of the Chicago
and Detroit Interconnects, Comcast acquired competing MVPDs in the Chicago and Detroit DMAs, which
allowed Comcast to gain “majority interest in” and
“assume unilateral control of regional advertising
through” the Interconnects in the two DMAs. (Id. at
¶ 102.)

2

The Court takes the facts presented in the Background from
Plaintiff’s Amended Complaint and presumes them as true for
purposes of resolving the pending motion to dismiss under Rule
12(b)(6). See Teamsters Local Union No. 795 v. Burlington N.
Santa Fe, LLC, 741 F.3d 819, 823 (7th Cir. 2014); Alam v. Miller
Brewing Co., 709 F. 3d 662, 665-66 (7th Cir. 2013); see also Bell
Atl. v. Twombly, 550 U.S. 544, 555 (2007). The Court also presumes the parties’ familiarity with the Court’s prior opinion in
this case. See Viamedia Inc. v. Comcast Corp., No. 16-cv-5486,
2016 WL 6568074 (N.D. Ill. Nov. 4, 2016) (published op.).

194a
Between 2002 and 2012, Viamedia, a spot cable
advertising representation company, participated in
the Interconnects for Chicago and Detroit “on behalf
of two of its then most significant MVPD clients,”
Wide Open West (“WOW”) and RCN Corporation
(“RCN”). (Id. at ¶ 103.) During this period, “Viamedia
paid over $23 million to Comcast in its role as Interconnect manager to participate in the Chicago and Detroit Interconnects.” (Id. at ¶ 157).
Viamedia’s participation in the Chicago and Detroit Interconnects ended, however, in June of 2012.
(Id. at ¶ 110.) “Comcast informed WOW and RCN
that if they wished to regain access to the Interconnects, they would be required to cease using Viamedia
as their Spot Cable Advertising Representative and
would instead be required to retain Comcast Spotlight.” (Id. at ¶ 113.)
Viamedia alleges that, as an Interconnect manager, Comcast has an incentive to maximize participation in the Interconnect by eligible MVPDs because
Comcast collects fees from Interconnect participants
and “[t]he economic value of each Interconnect is derived from its ability to provide a single point of access
for advertisers to purchase Spot Cable Avails that are
capable of reaching all subscribers within a DMA.”
(Id. at ¶ 154–55, 157 (emphasis in original).) According to Viamedia, when Comcast refused to deal with
Viamedia, it prevented WOW and RCN from participating in regional ad sales through the Interconnects.
(Id. at ¶¶ 159–60.) This refusal allegedly “reduced
significantly the number of cable subscribers covered
by the [Chicago and Detroit] Interconnect[s].” (Id.)
Additionally, it reduced the fees Comcast would have
collected if WOW and RCN had continued to partici-

195a
pate in the Interconnects. (Id.) Accordingly, Viamedia claims that Comcast’s exclusion of Viamedia was
“irrational and contrary to” Comcast’s economic incentives. (Id. at ¶ 158–60.) Additionally, Viamedia alleges that dealing with Viamedia “would have entailed no cost to Comcast as the Interconnect manager, would have provided the Interconnect and Comcast . . . with immediate benefits, and would have
served the interests of the Interconnect customers,
namely the regional advertisers, to reach all subscribers in the market.” (Id. at ¶ 158.)3
Comcast continued to exclude WOW and RCN
from the Chicago and Detroit Interconnects until they
retained Comcast Spotlight as their spot cable advertising representative. (Id. at ¶¶ 113, 124, 126.) Eventually, at least by January 1, 2016, WOW and RCN
capitulated to Comcast’s demands and retained Comcast Spotlight as their sole spot cable advertising representative in the Detroit and Chicago DMAs. (Id. at
¶¶ 126–31.) Viamedia also alleges that Comcast has
used this coercive tactic in other DMAs. (See, e.g., id.
at ¶¶ 132–35.)
On May 26, 2016, Viamedia filed a six-count complaint against Defendants Comcast and Comcast
Spotlight, asserting, among other things, that Defendants violated Section 2 of the Sherman Act through
attempted monopolization and “unlawful monopolization in markets for spot cable advertising representation in DMAs where Comcast controls the Interconnect[].” (R. 1 at ¶¶ 164–82.) Specifically, Viamedia
alleged that Defendants, “[b]y refusing to deal with
Viamedia and MVPDs represented by Viamedia, by

3

Viamedia alleges that Comcast repeated its conduct in other
DMAs outside of Chicago and Detroit. (R. 40 at ¶¶ 161–62.)

196a
conditioning access to Interconnects upon an MVPD’s
agreement to deal with Comcast Spotlight, [and] by
requiring that MVPDs deal exclusively with Comcast
Spotlight as a Spot Cable Advertising Representative”
and “by conditioning access to Interconnects upon an
MVPD’s agreement to deal with Comcast Spotlight,”
imposed upon RCN and WOW an invalid tying arrangement and engaged in impermissible exclusive
dealing. (Id. at ¶¶ 168, 176.) In other words, Viamedia alleged that Defendants violated the Sherman Act
through tying, exclusive dealing, and a refusal to deal.
(R. 36, Mem. Op. & Order, 18.) Viamedia repeats
those allegations in its amendment complaint. (R. 40
at ¶¶ 183, 191.)
On July 22, 2016, Defendants filed a Motion to
Dismiss, (R. 22), which the Court denied in part and
granted in part, Viamedia, 2016 WL 6568074, at *17.
Specifically, the Court dismissed Viamedia’s refusal
to deal claim without prejudice but denied Defendants’ motion with respect to Viamedia’s other claims.
Id. The Court reasoned that “Viamedia has not alleged or explained how Defendants’ refusal to deal
with it—separate from Defendants’ other conduct like
conditioning MVPDs’ access to Interconnects on accepting Comcast Spotlight’s services even for advertising sales that do not involve an Interconnect—has
no rational competitive purpose.” Id. at 16.
Viamedia filed an Amended Complaint on November 21, 2016. (See R. 40.) Defendants subsequently
filed a Motion to Dismiss the Refusal to Deal Claims
as Restated in the Amended Complaint. (R. 45.)

197a
LEGAL STANDARD
“A motion to dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(6) challenges the viability of a
complaint by arguing that it fails to state a claim upon
which relief may be granted.” Camasta v. Jos. A.
Bank Clothiers, Inc., 761 F.3d 732, 736 (7th Cir. 2014).
Under Rule 8(a)(2), a complaint must include “a short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2).
The short and plain statement under Rule 8(a)(2)
must “give the defendant fair notice of what the . . .
claim is and the grounds upon which it rests.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S. 41, 47 (1957)). A plaintiff’s “[f]actual allegations must be enough to raise a
right to relief above the speculative level.” Id. Put
differently, “a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at
570). In determining the sufficiency of a complaint
under the plausibility standard, courts must “accept
all well-pleaded facts as true and draw reasonable inferences in [a plaintiff’s] favor.” Roberts v. City of Chicago, 817 F.3d 561, 564 (7th Cir. 2016).
ANALYSIS
The only issue before the Court is whether Comcast’s alleged refusal to deal plausibly constitutes the
type of anticompetitive conduct that violates Section
2 of the Sherman Act.4 (See R. 45.) The Supreme

4

The Court previously outlined the standards for monopolization and attempted monopolization under Section 2 of the
Sherman Act. See Viamedia, 2016 WL 6568074, at *17-18.

198a
Court has long held that “[a]s a general rule, businesses are free to choose the parties with whom they
will deal, as well as the prices, terms, and conditions
of that dealing.” Pac. Bell Tel. Co. v. Linkline
Commc’ns, Inc., 555 U.S. 438, 448 (2009) (citing
United States v. Colgate & Co., 250 U.S. 300, 307
(1919)). Accordingly, a business’s refusal to deal is
generally not actionable. See id.; see also Verizon
Commc’ns Inc. v. Law Offices of Curtis V. Trinko, 540
U.S. 398, 408 (2004). The Supreme Court has explained that “[c]ompelling . . . firms to share the
source of their advantage is in some tension with the
underlying purpose of antitrust law” for three central
reasons. Trinko, 540 U.S. at 408-09. First, courtmandated cooperation among businesses “may lessen
the incentive for the monopolist, the rival or both to
invest in” the capital projects that give them a competitive advantage. Id. at 409. Second, “[e]nforced
sharing . . . requires antitrust courts to act as central
planners, identifying the proper price, quantity, and
other terms of dealing-a role for which they are ill
suited.” Id. Third, “compelling negotiation between
competitors may facilitate the supreme evil of antitrust: collusion.” Id.; see also Schor v. Abbott Labs.,
457 F.3d 608, 610 (7th Cir. 2006) (“[A]ntitrust law
does not require monopolists to cooperate with rivals
by selling them products that would help the rivals
compete. Cooperation is a problem in antitrust, not
one of its obligations.” (emphasis in original) (citation
omitted)).
Nevertheless, the Supreme Court explained that
“[t]he high value that we have placed on the right to
refuse to deal with other firms does not mean that the
right is unqualified.” Trinko, 540 U.S. at 408 (quoting
Aspen Skiing Co. v. Aspen Highlands Skiing Corp.,

199a
472 U.S. 585, 601 (1985)). “Under certain circumstances, a refusal to cooperate with rivals can constitute anticompetitive conduct and violate § 2.” Id.
“The leading case for § 2 liability based on refusal to
cooperate with a rival . . . is Aspen Skiing.” Id.
Aspen Skiing concerned the four mountains that
constituted the Aspen ski area. 472 U.S. at 587–95.
The defendant owned three of the mountains, and the
plaintiff owned the fourth. Id. at 589–91. For a number of years, the owners cooperated by selling a joint
ticket, providing customers access to all of the mountains. Id. Later, however, the defendant demanded
an increasingly greater percentage of the revenue generated from the joint ticket until the cooperative relationship between the defendant and the plaintiff
ended. Id. at 591–93; see also Trinko, 540 U.S. at 408–
09 (analyzing Aspen Skiing). The plaintiff tried what
the Trinko Court referred to as “a variety of increasingly desperate measures to re-create the joint ticket,
even to the point of in effect offering to buy the defendant’s tickets at retail price.” Trinko, 540 U.S. at 408–
09 (citing Aspen Skiing, 472 U.S. at 593–94. The defendant rebuffed these efforts. Aspen Skiing, 472 U.S.
at 592–94; see also Trinko, 540 U.S. at 408–09.
The Supreme Court affirmed a jury verdict for the
plaintiff. Aspen Skiing, 472 U.S. at 610. As the
Trinko Court described it, the Aspen Skiing Court
“found significance in the defendant’s decision to
cease participation in a cooperative venture.” Trinko
at 540 U.S. at 409 (citing Aspen Skiing, 472 U.S. at
608, 610–11). “The unilateral termination of a voluntary (and thus presumably profitable) course of dealing suggested a willingness to forsake short-term profits to achieve an anticompetitive end.” Id. (emphasis
in original) (citing Aspen Skiing, 472 U.S. at 608, 610–

200a
11). Additionally, “the defendant’s unwillingness to
renew the ticket even if compensated at retail price revealed a distinctly anticompetitive bent.” Id. Thus,
“the evidence suggested that the defendant’s decision
was ‘irrational but for its anticompetitive effect.’” VBR
Tours, LLC v. Nat’l R.R. Passenger Corp., No. 14-cv804, 2015 WL 5693735, at *7 (N.D. Ill. Sept. 28, 2015)
(quoting Novell, Inc. v. Microsoft Corp., 731 F.3d 1064,
1075 (10th Cir. 2013) (Gorsuch, J.), and citing 3B Phillip E. Areeda & Herbert Hovenkamp, Antitrust Law
¶ 772, at 223 (3d ed. 2008) (“the refusal must be ‘irrational’ but for its anticompetitive tendencies”)).
The Supreme Court has made clear that “Aspen
Skiing is at or near the outer boundary of Section 2
liability.” Trinko, 540 U.S. at 409. To state it more
clearly, “[s]ince Aspen [Skiing], the Supreme Court
has refused to extend liability to various other refusal
to deal scenarios, emphasizing that Aspen [Skiing]
represents a ‘limited exception’ to the general rule of
firm independence.” Novell, 731 F.3d at 1074 (quoting
Trinko, 540 U.S. at 409).
“To invoke Aspen[] [Skiing’s] limited exception,
the Supreme Court . . . explained, at least two features present in Aspen [Skiing] must be present in the
case at hand.” Id. First, “there must be a preexisting
voluntary and presumably profitable course of dealing
between the monopolist and rival.” Id. Second, “the
monopolist’s discontinuation of the preexisting course
of dealing must ‘suggest[] a willingness to forsake
short-term profits to achieve an anticompetitive end.’”
Id. (quoting Trinko, 540 U.S. at 407). Importantly,
courts “require proof not just that the monopolist decided to forsake short-term profits. Just as in predatory pricing cases, [courts] also require a showing that
the monopolist’s refusal to deal was part of a larger

201a
anticompetitive enterprise.” Id. at 1075 (emphasis in
the original). “Put it simply, the monopolist’s conduct
must be irrational but for its anticompetitive effect.”
Id. (citing, among other authorities, Trinko, 540 U.S.
at 407, and 3B Areeda & Hoevnkamp, supra, ¶ 772, at
223).
In opposing the first motion to dismiss in this
case, Viamedia relied on the Aspen Skiing exception
to courts’ general aversion to imposing antitrust liability on the basis of a unilateral refusal to deal. (R.
28 at 10–14.) Once again, Viamedia relies on the Aspen Skiing exception, contending that Comcast’s actions were irrational but for their anticompetitive effects. (R. 56, Pl.’s Opp., 4–10.) As the Court concluded
in resolving the first motion to dismiss, Viamedia fails
to meet its pleading burden.
Viamedia argues that “[t]he immediate effect of”
Comcast terminating Viamedia and its clients’ access
to the Chicago and Detroit Interconnects “was to significantly reduce the number of eligible cable subscribers to the Interconnects in those DMAs, reducing
the value of the Interconnect regional advertisers and
forfeiting fees Comcast otherwise would have received
as the Interconnect manager.” (Id. at 4.) Accordingly,
Viamedia contends that Comcast “was exercising its
monopoly power to simply exclude Viamedia and Viamedia’s clients from the Interconnect[s], to Comcast’s own economic detriment.” (Id. at 4–5.)
While these allegations, taken as true, establish
that Comcast’s discontinuation of its business relationship with Viamedia caused Comcast to suffer

202a
short-term losses, this is not by itself necessarily indicative of anticompetitive conduct.5 As the Tenth
Circuit recognized in Novell:
[F]irms routinely sacrifice short-term profits
for lots of legitimate reasons that enhance
consumer welfare (think promotion discounts). Neither is it unimaginable that a monopolist might wish to withdraw from a prior
course of dealing and suffer a short-term
profit loss in order to pursue perfectly competitive ends—say, to pursue an innovative replacement product of its own.
731 F.3d at 1075. Accordingly, plaintiffs seeking to
establish an unlawful refusal to deal must show that
the defendant’s actions serve no rational procompetitive purpose. See id; see also VBR Tours, 2015 WL
5693735, at *9 (“[T]he question is not whether [the defendant] chose the most competitive offer but whether
it had any procompetitive purpose. . . . Aspen Skiing’s
limited exception authorizes intervention only when a
defendant’s decision is ‘irrational but for its anticompetitive effect.’” (quoting Novell, 731 F.3d at 1075)).
As, Judge Easterbrook explained, Aspen Skiing and
arguments “demanding[ing] that holders of market
power cooperate with rivals” represent “the last gasp
of the old school antitrust.” Frank H. Easterbrook,
The Chicago School and Exclusionary Conduct, 31
Harv. J.L. & Pub. Pol’y 439, 441–42 (2008). PostTrinko, “[m]any of these themes bit the dust”; no
5

The Court also notes that Comcast’s refusal to deal with Viamedia did not, by itself, exclude MVPDs from participating in
the Interconnects. Instead, it had the temporary effect of excluding such MVPDs, presumably because of their representation
contracts with Viamedia. Comcast’s alleged tying arrangement,
however, resulted in the temporary exclusion of MVPDs.

203a
longer does “even a monopolist ha[ve a] general duty
to cooperate with rivals.” Id. at 442.
Thus, Viamedia must adequately allege that Comcast’s refusal to deal was irrational but for its anticompetitive effects. In the Court’s previous decision,
it explained that, based on Plaintiff’s allegations,
“[a]fter Comcast’s refusal to deal, for the portion of
[spot cable advertising] sold through an Interconnect,
MVPDs simply deal with Comcast directly.” Viamedia, 2016 WL 6568074, at *16. The Court reasoned
that this offered “potentially improved efficiency” because it replaced an intermediary with a direct relationship. Id. This type of vertical integration or elimination of a middleman, the Court explained, represented a “prototypical valid business purpose.” Id.
(quoting Port Dock & Stone Corp v. Oldcastle Ne., Inc.,
507 F.3d 117, 124 (2d Cir. 2007)); see also It’s My
Party, Inc. v. Live Nation, Inc., 811 F.3d 676, 689 (4th
Cir. 2016) (Wilkinson, J.) (“A single firm incorporating
separate but closely related production processes can
often be far more efficient than various independent
entities transacting to produce the same good or bundle of goods.”); Jack Walters & Sons Corp. v. Morton
Bldg., Inc., 737 F.2d 698, 710 (7th Cir. 1984) (“We just
said that vertical integration is not an improper objective. But that puts the matter too tepidly; vertical integration is usually procompetitive.”); Institutional
Foods Packing, Inc. v. Creative Prods., Inc., No. 89 C
4499, 1992 WL 111133, at *3 (N.D. Ill. May 12, 1992).
In an effort to establish that Comcast’s refusal to
deal lacks any procompetitive purpose, Viamedia argues that Comcast did not engage in procompetitive
disintermediation. (R. 56 at 5–7.) Instead, Viamedia
contends, Comcast simply replaced one intermediary
(Viamedia) with another (Comcast Spotlight). (Id.)

204a
Viamedia’s argument fails. Indeed, Viamedia’s allegations belie its argument that the Court should
treat Comcast and Comcast Spotlight as “two separate entities” that cannot achieve efficiencies that can
result from vertical integration. (See id. at 5.) In the
amended complaint, Viamedia treats Comcast and
Comcast Spotlight as a single economic entity—a sensible thing to do given that Comcast Spotlight is Comcast’s wholly-owned subsidiary. (See, e.g., R. 40 at
¶ 165 (alleging that Comcast’s refusal to deal requires
that “MVPDs either transfer their Spot Cable Advertising Representation from Viamedia to Comcast, a direct competitor, or cease participating in the Interconnect at all.” (emphasis added)); id. at ¶ 155 (explaining that Comcast competes, “through Comcast Spotlight” with representation firms like Viamedia); id. at
¶ 181 (“Comcast has monopoly power in Spot Cable
Advertising Representation in each of the DMAs
where in controls the Interconnect.” (emphasis
added)); id. at ¶ 174 (alleging that “Comcast has or
will monopolize the market for Spot Cable Advertising
Representation in every DMA in which Comcast manages the Interconnect” (emphasis added)); id. at ¶ 14
(“Comcast has acted with the specific intent to monopolize the market for representing cable television service providers . . . .” (emphasis added); id. at ¶ 166
(“Even if there were any potentially improved efficiencies to be realized by consolidating management of an
Interconnect with Comcast’s provision of Spot Cable
Advertising Representation services, refusing to deal
with Viamedia is not necessary in order to realize any
such efficiencies.”).) Because Viamedia’s complaint
consistently treats Comcast and Comcast Spotlight as
a single entity, its arguments in its opposition brief
imploring the Court to do otherwise fall flat.

205a
Viamedia’s argument that Comcast has not removed a middleman because Comcast Spotlight will
fill the role Viamedia used to play also is unavailing.
Such replacement is a common feature of vertical integration. If a firm, for example, sells its products directly to the public at its own stores rather than
through independent retail outlets, the firm is vertically integrated even though it fills the role that independent retail outlets would otherwise play. See Jack
Walters, 737 F.2d at 770. The same goes for a computer manufacturer that makes its own steel and creates and places its own advertising—though the manufacturer has replaced rather than eliminated elements of production and distribution processes, the
manufacturer nonetheless has vertically integrated.
See It’s My Party, 811 F.3d at 689. In this case, based
on Viamedia’s allegations, Comcast has engaged in a
business practice that has a rational procompetitive
purpose: it has become “a one-stop shop” in certain
DMAs for MVPDs wishing to sell advertisements on a
regional basis. See id. at 688.
Based on the above, the Court sees no reason to
alter its prior conclusion that Comcast’s refusal to
deal potentially serves a procompetitive purpose. See
Viamedia, 2016 WL 6568074, at *16. Viamedia’s allegations in the amended complaint, which are effectively the same as its allegations in its first complaint,
fail to raise a plausible inference that Comcast’s refusal lacked any rational, procompetitive business
purpose. In other words, Viamedia has not adequately alleged that Comcast’s elimination of a middleman in the regional spot cable advertising business
was irrational but for its anticompetitive effect.

206a
CONCLUSION
For the foregoing reasons, the Court grants Defendants’ motion.
DATED: February 22, 2017
ENTERED
_/s/ Amy J. St. Eve________
AMY J. ST. EVE
United States District
Court Judge

207a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS EASTERN DIVISION
VIAMEDIA, INC.,
Plaintiff,
v.
COMCAST
CORPORATION and
COMCAST SPOTLIGHT,
LP,
Defendants.

)
) Case No.
) 1:16-cv-05486
)
)
) Hon. Amy J. St. Eve
)
)
)
)
)
)

MEMORANDUM OPINION AND ORDER
AMY J. ST. EVE, Circuit Judge:
This antitrust suit was born when a monopolist in
one market decided not to do business with a competitor from a related market. The monopolist, Comcast
Corporation, denied its competitor, Viamedia, Inc., access (or access on terms Viamedia considered reasonable) to much-needed sales platforms called interconnects. Hurting as it lost revenue and customers
turned to Comcast, Viamedia sued under Section 2 of
the Sherman Act and various state antitrust laws.
See Compl., R. 1; Am. Compl., R. 40.



Sitting by designation (R. 346).

208a
At the motion-to-dismiss stage, the Court ruled
that Comcast had no antitrust duty to deal with Viamedia and thus its refusal to deal was not cognizably
anticompetitive under Verizon Commc’ns Inc. v. Law
Offices of Curtis V. Trinko, LLP, 540 U.S. 398 (2004),
and its progeny. Viamedia, Inc. v. Comcast Corp., 218
F. Supp. 3d 674, 698–69 (N.D. Ill. 2016); Viamedia,
Inc. v. Comcast Corp., No. 16-CV-5486, 2017 WL
698681, at *3–6 (N.D. Ill. Feb. 22, 2017). Now, at the
summary-judgment stage, the question is whether
Comcast’s conduct can be characterized as something
more—tying, exclusive dealing, or another form of anticompetitive conduct. It cannot. Undisputed facts reveal that Viamedia’s alternative theories are lacking
as a matter of law. Undisputed facts demonstrate
that Comcast’s refusal to deal with Viamedia—not coercive conduct directed at their mutual customers—is
what caused Viamedia’s injuries and damages.
Before the Court are Comcast’s motion for summary judgment (R. 264), motion to exclude opinions
proffered by Viamedia, Inc.’s damages expert, Thomas
Lys, Ph.D. (R. 212), and motion to exclude certain
opinions proffered by Viamedia’s liability expert, Harold Furchtgott-Roth (R. 208). For the reasons explained below, the Court grants Comcast’s motion for
summary judgment, grants in part Comcast’s motion
to exclude Dr. Furchtgott-Roth’s opinions and denies
the remainder as moot, grants Comcast’s motion to exclude Dr. Lys’s opinions, and enters judgment in Comcast’s favor.

209a
BACKGROUND
I.

Factual Background

Northern District of Illinois Local Rule 56.1
frames how district courts receive facts at the summary-judgment stage. See Delapaz v. Richardson, 634
F.3d 895, 899 (7th Cir. 2011). Local Rule 56.1(a)(3)
requires the movant to provide “a statement of material facts as to which the moving party contends there
is no genuine issue and that entitle the moving party
to a judgment as a matter of law.” L.R. 56.1(a)(3);
Curtis v. Costco Wholesale Corp., 807 F.3d 215, 219
(7th Cir. 2015). The nonmovant must then file “a response to each numbered paragraph in the moving
party’s statement, including, in the case of any disagreement, specific references to the affidavits, parts of
the record, and other supporting materials relied
upon.” L.R. 56.1(b)(3)(B); Petty v. Chicago, 754 F.3d
416, 420 (7th Cir. 2014). The nonmovant may also
submit a separate statement of additional facts that
require the denial of summary judgment, including
references to the affidavits, parts of the record, and
other materials relied upon to support those facts.
L.R. 56.1 (b)(3)(C); see also Ciomber v. Coop. Plus, Inc.,
527 F.3d 635, 643–44 (7th Cir. 2008).
The purpose of Local Rule 56.1 statements and responses is to identify the relevant admissible evidence
supporting the material facts, not to make factual or
legal arguments. Cady v. Sheahan, 467 F.3d 1057,
1060 (7th Cir. 2006); see also United States v. 5443
Suffield Terrace, Skokie, Ill., 607 F.3d 504, 510 (7th
Cir. 2010) (“[S]ummary judgment may only be defeated by pointing to admissible evidence in the summary judgment record that creates a genuine issue of
material fact, and it was not the district court’s job to
sift through the record and make [a claimant’s] case

210a
for him”). Unresponsive, argumentative, evasive, and
unsupported denials are improper, e.g., Morrill v.
Nielsen, Phillips v. Quality Terminal Servs., LLC, 855
F. Supp. 2d 764, 771 (N.D. Ill. 2012), and district
courts may disregard improper denials and deem the
opponent’s facts admitted, e.g., Aberman v. Bd. of
Educ. of Chi., 242 F. Supp. 3d 672, 677 (N.D. Ill. 2017).
See also Boss v. Castro, 816 F.3d 910, 914 (7th Cir.
2016) (“The district court’s discretion to require strict
compliance with Local Rule 56.1 has been upheld time
and again.”). Moreover, “[w]hen reviewing a summary judgment motion, courts may only consider admissible evidence.” FED. R. CIV. P. 56(c); McGreal v.
Vill. of Orland Park, 850 F.3d 308, 312-14 (7th Cir.
2017). “To be considered on summary judgment, evidence must be admissible at trial, though ‘the form
produced at summary judgment need not be admissible.’” Cairel v. Alderden, 821 F.3d 823, 830 (7th Cir.
2016) (quoting Wragg v. Village of Thornton, 604 F.3d
464, 466 (7th Cir. 2010)). With those principles and
the Rule 56 standard in mind, the parties’ respective
Local Rule 56.1 statements and responses describe
the following backdrop to this lawsuit.1

1

Comcast argues that Viamedia’s Statement of Additional
Facts exceeds the court-ordered limit of 75 facts (see R. 315) by
compounding multiple facts into single paragraphs, and asks the
Court to strike the stated facts exceeding that limit. R. 339 at
25. Although Comcast has a point—Viamedia’s fact-packing borders on gamesmanship—the Court, in its discretion, will not
strike any of Viamedia’s stated facts. See Benuzzi v. Bd. of Educ.
of Chi., 647 F.3d 652, 655 (7th Cir. 2011) (courts have “broad discretion” in enforcing local rules). Comcast is (though less so)
guilty of the same tactic, and the additional facts Viamedia offers
do not impact the Court’s analysis.

211a
A. The
Spot
Cable
Interconnects

Business

and

Cable networks, like ESPN or CNN, typically allocate small windows of air time—two to three
minutes per hour—to the multichannel video programming distributors (“MVPDs”) that show their
programming. CSF ¶ 7.2 These windows, according
to industry parlance, are called “availabilities,”
“avails,” or “spot cable ads.” Id. ¶¶ 7, 9. About a quarter of the time, MVPDs retain those avails to advertise
their or their affiliates’ services. VSF ¶ 5. MVPDs sell
the remainder to outside advertisers—and how they
choose to do so is the focus of this case. See CSF ¶ 9.
There are many MVPDs nationwide, including
Comcast, RCN Corporation, Wide Open West
(“WOW!”), Charter Communications, Inc., Atlantic
Broadband, and Verizon Communications. MVPDs
come in different forms—cable operators, like Comcast or Charter; telecom providers, like Verizon and
AT&T; overbuilders, like WOW! and RCN; and satellite providers, like DISH or DirectTV. Id. ¶ 8. Most
MVPDs offer their services in one or more metropolitan regions, called designated market areas (“DMAs”).
Id. ¶ 5. There are typically four or more MVPDs in a
DMA. Comcast Ex. 2, Furchtgott-Roth Report ¶ 17 (R.
273-5).
In any given DMA, there are different ways in
which MVPDs sell avails to advertisers. Some
2

The Court will refer to Comcast’s Rule 56.1 Statement of
Undisputed Facts with Viamedia’s responses (R. 327) as “CSF,”
and Viamedia’s Rule 56.1 Statement of Additional Facts with
Comcast’s responses (R. 341) as “VSF.” Unless otherwise
noted—specifically, with a “Resp. to ¶”—a citation to a paragraph refers to the paragraph itself and not to the opposing
party’s response.

212a
MVPDs sell directly through their own sales force.
CSF ¶ 10. Others hire advertising-representation
firms that specialize in spot cable advertising (“Ad
Reps”). Id. ¶ 11. Viamedia is such an Ad Rep, and it
has no corporate affiliation with any MVPD. Id. ¶ 13.
Viamedia, in fact, is the only independent Ad Rep with
significant market presence. VSF ¶ 9.3 Comcast, under the trade name Comcast Spotlight, also does business as an Ad Rep, both on its own behalf and on behalf of other MVPDs.4 CSF ¶ 5.
When an MVPD hires an Ad Rep, the two typically
enter into an “advertising purchase and sale” agreement. Id. ¶ 11. Under these agreements, an Ad Rep
is responsible for managing and selling an MVPDs’
avail inventory (or some portion of it) to advertisers.
Id. ¶¶ 11–12; VSF ¶ 1. Ad Reps can represent their
MVPD customers: (1) locally, selling only a part of an
MVPD’s avails in a DMA to local advertisers; (2) regionally, selling all of the MVPD’s avails in a DMA; or
(3) nationally. Furchtgott-Roth Report ¶ 21. In any
event, Ad Reps’ sales responsibilities entail ancillary
responsibilities, too, including: marketing and pricing
the avails; maintaining the software and hardware
needed to run, insert, traffic, monitor and advertise
spot cable ads; organizing inventory into schedules
and ensuring each ad runs correctly during those
3

Comcast challenges this fact, proffered by Viamedia’s expert
Dr. Furchtgott-Roth, as unsupported because Dr. FurchtgottRoth’s opinions are inadmissible. See Furchtgott-Roth Report
¶ 44. Comcast, however, did not move to exclude this opinion
from Dr. Furchtgott-Roth’s report. See R. 211.
4
Comcast Cable Communications Management, LLC is a
successor to Comcast Spotlight, and it is a wholly owned subsidiary of Comcast Corporation. CSF ¶ 5. Both parties nevertheless
refer to Comcast’s spot cable ad rep business as Spotlight, and so
will the Court.

213a
schedules; and performing financial services, like accounting, billing, and collection. VSF ¶ 1. Ad Reps are
also responsible for working with interconnects to sell
avails. Id. These services make up “Ad Rep Services,”
according to Viamedia. Id.; see also Furchtgott-Roth
Report ¶¶ 22–29.
An interconnect is a “one stop shop” where advertisers can purchase spot cable ads on a DMA-wide basis. CSF ¶ 16. Developed by MVPDs in the 1990s,
interconnects solve a market inefficiency. Before interconnects, an advertiser wanting to reach television
audiences with commercials running at the same time
on the same channel across the DMA had to either
rely on over-the-air broadcast stations exclusively or
negotiate separately with each MVPD. CSF ¶¶ 14–
15, Resp. to ¶ 14. An interconnect—of which there is
one per DMA—fixes that problem by pooling together
avails among the DMAs’ MVPDs, scheduling allocations, selling and coordinating the sale of those avails,
and billing the parties. Id. ¶ 17, Resp. to ¶ 17. These
collective services make up “Interconnect Services,”
according to Viamedia. Id.; see also Furchtgott-Roth
Report ¶¶ 30–42.
Over the last decade or so, the largest MVPD in a
DMA has come to operate that DMA’s interconnect.
Id. ¶ 18; see also Am. Compl. ¶¶ 13, 44. In operating
the interconnect, the controlling MVPD makes investments to support and maintain the platform. The degree and nature of those investments are disputed,
but, at a minimum, MVPDs invest in and maintain a
sales infrastructure for the interconnects. CSF ¶ 20,
Resp. to ¶ 20; see also Comcast Ex. 14 at 147:11–14
(David Solomon, Viamedia’s Chief Revenue Officer,
testifying that, “I’m sure [Comcast] ha[s] over the past

214a
18 years . . . spent significant [sic] to establish support, build and maintain their infrastructure” over the
interconnects”).
Ad Reps, pursuant to the purchase and sale agreements, profit from the sale of MVPDs’ avails based on
an agreed revenue share, or split, with the MVPD.
CSF ¶ 38. The split is the percentage division of the
revenue generated from the avails’ sales, with a share
going to the Ad Rep and the remainder to the MVPD.
Id. A higher split share for the Ad Rep means a worse
price for the Ad Rep’s services to the MVPD, and vice
versa. Id. ¶ 39. Also important, of course, is the
amount of revenue generated—an MVPD could concede a less favorable split if it thought that the Ad Rep
would be able to generate more revenue. Id., Resp. to
¶¶ 38, 39. Ad Reps also sometimes provide MVPDs
with minimum-revenue guarantees. Id. ¶ 40. Revenue splits and guarantees are “critical points of competition” between Ad Rep firms vying for MVPD business. Id. ¶ 41.
As to other terms of Ad Rep-MVPD agreements,
the industry standard is exclusive, region-wide, fullturnkey representation. CSF ¶¶ 25–27. In a fullturnkey representation, the MVPD sells all of its
avails in one or more DMA (absent the portion it
wants to retain for self-advertising) to a single Ad
Rep. Id. The Ad Rep then enjoys the “exclusive right
to manage and sell” the avails. Id. ¶ 27; VSF ¶ 2. This
arrangement offers “one stop shopping” for both
MVDPs and Ad Reps. CSF ¶ 28. Full-turnkey representation comes with other services, too; Viamedia,
for example, assists MVPDs with their branding efforts, product promotions, and technical problems.
VSF ¶ 6.

215a
Though the most prominent, full-turnkey is not
the only form of Ad Rep Services. Some MVPD customers hire Ad Reps to represent them locally, and
sign over only a portion of their avails in a DMA. E.g.,
Furchtgott-Roth Report ¶¶ 24–25; see also id. ¶ 53
(“Spot Cable Ad Rep Services and Interconnect Services are separate products regardless of whether
Spot Cable Ad Rep Services are provided on a full
turnkey basis”). Other MVPDs may self-provide Ad
Rep Services. Furchtgott-Roth Report ¶¶ 24–25.
Interconnect operators can also work directly with
an MVPD customer to sell a portion of the MVPD’s
avails without a third-party Ad Rep. See id. ¶ 53; CSF
¶ 29. This arrangement is called an “interconnectonly” agreement. CSF ¶ 30. In such an agreement,
the MVPD sells a portion of its avails to the interconnect operator for sale on a DMA-wide basis. Id. ¶ 29.
Interconnect-only agreements allow interconnect operators to provide Interconnect Services directly to
MVPDs. VSF ¶ 67. To sell the remaining avails on a
local (i.e., not regional or DMA-wide) basis, MVPDs
with an interconnect-only agreement may sell their
own avails or hire an Ad Rep for “local-only” agreements. CSF ¶¶ 29, 31, 33, 126; see also VSF ¶ 67.
Verizon and Frontier, Verizon’s successor in certain
DMAs, have previously opted for this arrangement in
some DMAs. CSF ¶¶ 32–37. For its part, Comcast
has been willing to enter into interconnect-only agreements; since December 2011, 14 percent of Comcast’s
agreements with MVPDs have been interconnectonly. Id. ¶ 129. Comcast entered into its most recent
interconnect-only deal in September 2016. Id. ¶ 125;
Comcast Ex. 58.

216a
B. Comcast’s Competition with Viamedia
and Control of the Interconnects
Viamedia and Comcast compete as Ad Reps for
business from MVPD clients in many DMAs. VSF ¶ 9.
The record reflects that both have respective advantages. Comcast, as a large MVPD, and in some
DMAs the largest (and therefore the operator of the
interconnect), requires less incremental operation expenses to represent fellow MVPDs. CSF ¶ 115; Comcast Ex. 96 at 16 (internal Viamedia presentation stating “Viamedia can not [sic] compete economically
within the footprint of a major cable company”); see
also Comcast Ex. 18 at 93:5–19. Particularly relevant
here, Comcast operates the interconnects in Chicago,
Detroit, and Hartford, Connecticut. Id. ¶ 10. At the
same time, some MVPDs have expressed that “all
things being equal” they would prefer that a competitor, like Comcast, not represent them. VSF ¶ 7; Viamedia Ex. 69 at 8 (“RCN is not comfortable having
its largest and most formidable rival as its representative in the spot cable market”). This benefits an unaffiliated Ad Rep, like Viamedia. Id. Viamedia’s former
Chief Financial Officer, Christopher Black, has also
testified that Viamedia had “[l]ong term relationships
with . . . certain MVPDs” and provided strong customer service. Id. ¶¶ 6, 8; Viamedia Ex. 8. Both Viamedia and Comcast pursue full-turnkey relationships with their MVPD clients, Id. ¶ 55; VSF ¶ 7, although, as noted, Comcast has entered into interconnect-only agreements with some frequency.
Ad Reps require interconnect “access” to compete
effectively for MVPDs’ business because of the substantial amount of advertising revenue interconnects
generate. Am. Compl. ¶ 73; CSF ¶ 111; VSF ¶ 20.
The parties engage in a semantic debate about

217a
whether Ad Reps access interconnects “on behalf” of
their MVPD clients, and whether the MVPD clients
“feel” as though they participate in the interconnects,
but the economic facts of the transaction are straightforward. For an Ad Rep to obtain access, the interconnect operator contracts with the Ad Rep to acquire a
portion of ad inventory from the Ad Rep, which the Ad
Rep has already acquired responsibility for selling
from its MVPD-client. See CSF ¶ 42; Comcast Ex. 34.
The interconnect operator then arranges for the sale
of those avails on the interconnect, and distributes
proceeds to the Ad Rep accordingly. Id.
This was the agreement Comcast and Viamedia
entered into in 2003. Id. ¶¶ 42–43. Pursuant to that
agreement, Comcast had the exclusive right to sell
through its Chicago and Detroit interconnects a portion of an ad inventory for which Viamedia had acquired responsibility from two of its clients, RCN and
WOW!. Id. ¶ 43. Viamedia’s representations of RCN
and WOW! were, as is typical, exclusive and full-turnkey, meaning that RCN and WOW! could not resell
their avails through another third party in the Chicago and Detroit DMAs. Id. ¶¶ 44, 49. Viamedia’s exclusive relationship with RCN was to expire at the end
of 2015, and its exclusive relationship with WOW! was
to expire at the end of 2014. CSF ¶¶ 88, 96; VSF ¶¶ 26,
32. Further, the 2003 agreement contained a non-solicitation clause, which prohibited Comcast from contacting RCN or WOW! for certain periods. CSF ¶ 45.
The 2003 agreement between Comcast and Viamedia
contemplated an expiration date of May 31, 2012. Id.
¶ 46.
Months before that expiration date, in December
2011, Comcast notified Viamedia that it would not be
renewing the agreement. VSF ¶ 15; CSF ¶ 47. As a

218a
result, from June 2012 until the expiration of Viamedia’s exclusive contracts with RCN and WOW!, Viamedia, RCN, and WOW! lost out on revenue they
may have made if Viamedia could have continued to
use Comcast’s interconnects. See VSF ¶ 17.
Comcast did not renew its contract with Viamedia
so that it could pursue full-turnkey relationships with
RCN and WOW!. Id. ¶ 15. According to Comcast, it
“prefers to do direct deals with MVPDs rather than
intermediaries like Viamedia.” CSF ¶ 48. Put another way, Comcast’s strategy, starting in 2011, was
“to get” MVPDs to employ Comcast on a full-turnkey
basis. VSF ¶ 15; Viamedia Ex. 57; see also, e.g., Viamedia Ex. 53 (citing Comcast’s “[r]ealigned business
strategy for 2012 and beyond with non-renewal of Viamedia contract for allowing for full turnkey opportunities into the future.”). To that end, Comcast stopped
contracting “with ‘middlemen’ media firms, such a Viamedia.” Viamedia Ex. 69 at 9. One Comcast executive explained: “Working through a middleman, intermediary, like Viamedia really brought no value to the
table other than their contract with their respective
MVPDs,” and so the company looked to deal directly
with the MVPDs. Viamedia Ex. 21 at 167.
Whatever Comcast’s motivations, its strategy and
Viamedia’s resultant inability to access the interconnects in Chicago and Detroit cost Viamedia, RCN, and
WOW! “millions of dollars in revenue” between June
2012 and 2015. VSF ¶ 23. This came as no surprise to
Comcast. In 2011, it knew that Viamedia had the exclusive right to sell all of WOW! and RCN’s avails in
Chicago and Detroit “for several years into the future,” VSF ¶ 14, and it conducted an internal analysis
that projected that its decision to not renew with Viamedia would negatively impact Comcast Spotlight,

219a
Viamedia, RCN, and WOW! in 2012, id. ¶ 16. In addition to Chicago and Detroit, Comcast has denied Viamedia’s request to enter into an interconnect agreement with it in the Hartford DMA, where Viamedia
represents Frontier. Id. ¶ 18.
In 2014, however, Comcast and Viamedia began
negotiating a contract to permit Viamedia access to
the Chicago, Detroit, and Hartford interconnects. Id.,
Resp. to ¶ 18. WOW! even got involved, and directly
requested that Comcast allow its avails (still contracted to Viamedia) to be sold on the interconnects
“immediately.” See VSF ¶ 19.5 Yet Comcast and Viamedia failed to reach terms. Viamedia’s Chief Executive Officer, Mark Lieberman, called Comcast’s offer
“neither fair nor reasonable.” Comcast Ex. 116.
C. Viamedia’s Subsequent Lost Business
From 2011, when Comcast notified Viamedia that
it would not renew their interconnect agreement in
Chicago and Detroit, until 2016, when Viamedia filed
this lawsuit, Viamedia operated in 90 DMAs representing at least nine MVPDs. CSF ¶¶ 54, 57. In that
period, Viamedia bid for and lost several MVPD clients—and it attributes many of those losses, and others, to Comcast’s conduct in Chicago, Detroit, and
Hartford.

5

Viamedia paints these requests by WOW! as “directly solicited proposals.” VSF ¶ 19. To the extent Viamedia means that
WOW! sought a direct, interconnect-only deal with Comcast, it is
mistaken. The record makes clear that WOW! in 2014 was still
under contract with Viamedia (and so could not “directly” engage
Comcast for anything, even an interconnect-only deal), and that
WOW!’s 2014 request sought “to get Viamedia back into the Chicago and Detroit interconnects.” Viamedia Ex. 14 at 108:25–
109:4; id. at 105:16–19 (emphasis added).

220a
1. RCN
Up until 2015, Viamedia was RCN’s only Ad Rep
nationwide. VSF ¶ 32. In 2014, RCN and Viamedia
began to negotiate renewing their full-turnkey agreements. CSF ¶ 96. During negotiations, Viamedia
“stepped back its guarantees” and gave a “less favorable” offer in November of that year, which caused RCN
to react negatively. CSF ¶ 97. RCN then, and for apparently the first time in its relationship with Viamedia, requested Viamedia’s financials, which showed
that the company was suffering. VSF ¶ 33. According
to Viamedia, without interconnect access in Chicago
and Detroit, it was “unable to make a competitive financial offer.” Id. ¶ 33. RCN requested a bid for exclusive, full-turnkey services from Comcast in 2015.
CSF ¶ 99. It never sought from Comcast an interconnect-only agreement. See id. Comcast ultimately offered superior terms, which, as a former RCN executive testified, made the offers “nowhere near equal”
and a “not [ ] very difficult decision” for RCN to make.
Id. ¶ 100. It selected Comcast as its full-turnkey Ad
Rep, knowing that its decision could result in Viamedia exiting the Chicago DMA market. Id. ¶ 103.
RCN understood that it could not have its avails
sold on Comcast-operated interconnects if it sought to
do so through a third-party Ad Rep, like Viamedia.
Id., Resp. to ¶ 104; see also VSF ¶ 19. RCN wrote to
the Federal Communications Commission during
Comcast’s proposed merger with Times Warner Cable
(“TWC”), and explained that Comcast “limit[s] access
to the interconnects to those firms [i.e., MVPDs] that
eschew the use of Viamedia and other third party representatives.” Viamedia Ex. 69. It cited Comcast’s
policy, that it “does not typically contract with ‘middlemen’ media firms, such as Viamedia.” Id.

221a
2. WOW!
WOW! and Viamedia’s relationship began in 2001.
VSF ¶ 26. As of 2015, and after several contract renewals, Viamedia represented WOW! in 12 DMAs. Id.
Expecting its contract with WOW! to expire at the end
of 2014, WOW! solicited bids from Viamedia and Comcast in October 2013. CSF ¶ 88. WOW! selected Viamedia, but only for a year—to the end of 2015. Id.
¶ 89. In 2015, WOW! issued another bid to Comcast
and Viamedia seeking proposals for exclusive, fullturnkey representation in eight DMAs, including Chicago and Detroit. Id. ¶ 90. WOW!, like RCN, never
requested an interconnect-only deal from Comcast.
See id. By the 2015 request for bids, WOW! was “very
unhappy” that Viamedia had not been able to sell its
avails on the Chicago and Detroit interconnects. VSF
¶ 27. Comcast again offered better financial terms to
represent WOW! in the Chicago and Detroit DMAs,
and WOW! selected Comcast in those regions. CSF 11
91, 92. In so doing, WOW! recognized that its decision
could force Viamedia out of the Chicago and Detroit
regions. Id. ¶ 94. WOW!, however, selected Viamedia
to represent it in other DMAs, like Columbus, Cleveland, and Tampa. VSF ¶ 29.
WOW! valued having its avails sold on the interconnects and the resulting substantial revenue. Id.
¶ 28. WOW!, like RCN, understood that if it wanted
its avails sold on the Comcast-operated interconnects
in Chicago and Detroit, it would need to directly contract with Comcast—it could not do so through Viamedia. Id. In weighing Viamedia and Comcast, for example, WOW! listed Comcast’s interconnect access as
a “pro” and Viamedia’s lack thereof as a “con.” Viamedia Ex. 68. Internal WOW! emails similarly reflect
that the company believed it needed to have a “rep

222a
agreement” with Comcast to have its avails sold on the
interconnects. CSF ¶ 95, Resp. to ¶ 95.
3. Verizon
In 2006, Viamedia and Verizon entered into a fullturnkey representation agreement for nine DMAs.
CSF ¶ 58. In 2009, the parties extended the agreement through December 2013, but contracted to allow
for Verizon to “negotiate for the sale of regional and/or
national Commercial Advertising in any Other Market by means of an ‘interconnect’ in such DMA,” including Dallas, Los Angeles, and New York. Id. ¶ 59.
In May 2010, Verizon and TWC entered into an agreement, pursuant to which TWC purchased 40 percent
of Verizon’s avails in Dallas, Los Angeles, and New
York—where TWC operated the interconnects—for
sale on TWC’s interconnects. Id. ¶ 60. That agreement contained a “Local Business Option.” If TWC
met certain performance metrics in 2011 and 2012, it
could “elect to present Verizon’s local advertising
sales business” beginning in 2014. Id. ¶ 61.
In January 2013, pursuant to the Verizon-TWC
contract, TWC notified Verizon that it was contemplating exercising the Local Business Option and attached its performance-metric calculations. Id. ¶ 62.
Verizon responded on February 15, 2015, with a metrics report. Under the original TWC-Verizon contract,
TWC had until March 15, 2013, or 30 days after receipt of the metrics report to exercise its Local Business Option. VSF ¶ 50. On March 15, 2013, however,
the parties amended the agreement and extended the
date by which TWC could exercise the Local Business
Option to April 5, 2013. VSF ¶ 50, Resp. to ¶ 50. TWC
exercised the Local Business Option on that day. Id.
¶ 50. Verizon then replaced Viamedia with TWC in
those DMAs. See CSF ¶ 65. Further, and also in

223a
2013, Verizon informed Viamedia that it had selected
other Ad Reps—including Bright House, Cox, and
Comcast—to represent it in several respective DMAs.
VSF ¶ 47, Resp. to ¶ 47.
Before then, Verizon and Viamedia had started to
negotiate for Viamedia’s continued representation after 2013. Id. ¶ 50. During those negotiations, Verizon
expressed concerns about Viamedia’s fiscal health.
Id. ¶ 50. In each DMA that Viamedia lost Verizon’s
business, it failed to match the terms offered by the
competing Ad Reps. CSF ¶ 69.
4. Frontier
Viamedia has been an Ad Rep for Frontier since
2010. VSF ¶ 37. In 2014, Frontier acquired AT&T’s
MVPD system in Hartford. CSF ¶ 71. Comcast,
which operates the Hartford interconnect, had previously represented AT&T on a full-turnkey basis, and,
under that agreement, any successor (like Frontier)
had the right to assume Comcast’s Ad Rep agreement.
Id. ¶ 72. Frontier instead entered into an exclusive,
full-turnkey agreement with Viamedia for the Hartford DMA, set to expire at the end of 2018. Id. ¶ 73;
VSF ¶ 37. Comcast, however, has refused to enter
into an agreement with Viamedia to allow for the sale
of Frontier’s avails on the Hartford interconnect. Id.
¶ 39. As a result, Viamedia and Frontier have not
benefited from those potential sales, and Frontier’s
revenues fell below the baselines guaranteed by Viamedia in 2015 and 2016. Id. ¶ 41.
Outside of Hartford, Viamedia bid for Frontier’s
business in Los Angeles and Dallas (where Comcast
does not run the interconnects). CSF ¶ 77. Frontier
rejected Viamedia’s offer because it fell “significantly
below market value.” Id. ¶ 78. Viamedia also lost

224a
Frontier’s business in Tampa (where Comcast also
does not control the interconnects) to Bright House.
Id. ¶ 79.
5.

Atlantic Broadband

In 2014, Atlantic Broadband sought bids from
Comcast and Viamedia for exclusive, full-turnkey representation in seven DMAs (none of which was Chicago, Detroit, or Hartford). Id. ¶ 82. At the time,
Comcast already represented Atlantic Broadband in
each DMA; Viamedia had never represented Broadband. Id. ¶¶ 84–85. Comcast offered Atlantic Broadband terms “superior” to Viamedia. Id. ¶ 86. Atlantic
Broadband chose Comcast. Id. ¶ 87. Viamedia, however, believes that it was “well positioned” to compete
for Atlantic Broadband’s business, and could have offered better terms and a more substantial guarantee
if it had been allowed access to Comcast-controlled interconnects. VSF ¶¶ 51, 53.
6. Other Claimed Losses
Viamedia also claims that Comcast’s refusal to allow its acquired avails to be sold on the Chicago, Detroit, and Hartford interconnects has harmed it in a
bevy of ways. The refusal, according to Viamedia, has
forced it to negotiate debt amendments, and incur
bank and legal fees. Id. ¶ 54. In addition, it has had
to pay certain personnel expenses, like “retention bonuses and severance payments,” as well as wasteful
fixed expenses, like “rent on unused office space in
Chicago.” Id. In 2012, Viamedia generated $212 million in revenue and had $23.5 million in EBITA annually, plus 460 employees who worked for 32 MVPD
partners covering 4.7 million subscribers in 57 DMAs.
Id. ¶ 56. Since 2012, however, Viamedia claims to

225a
have lost millions of investment dollars, its good reputation, talented employees, and the ability to renew
or obtain new contracts with MVPD partners. Id.
¶ 57.
II. Procedural Background
Out of that factual backdrop, Viamedia filed this
lawsuit on May 23, 2016. Viamedia brings claims of
monopolization and attempted monopolization by
Comcast in markets where it operates the interconnects in violation of Section 2 of the Sherman Act, 15
U.S.C. § 2. Viamedia additionally raises state-law antitrust claims under the Illinois Antitrust Act, 740
ILCS 10/3, Michigan Antitrust Reform Act, Mich.
Comp. Laws § 445.771, and Connecticut Antitrust
Act, Title 35, § 35-27.6 (Viamedia also brought a claim
for tortious interference with business expectancy,
which it has since abandoned. See R. 326 at 14 n.2.)
For Comcast’s supposed antitrust wrongs, Viamedia
seeks damages and asks the Court to “[e]njoin[ ] Comcast from engaging in the anticompetitive . . . conduct
alleged, including any effort to exclude Viamedia or
its MVPD clients from participating on a fair and open
basis in the Interconnects.” Compl. at 46; Am Compl.
at 50.
A. The Motion-to-Dismiss Decisions
Comcast moved to dismiss the first complaint. R.
22, 23. As every claim of monopolization or attempted
monopolization requires anticompetitive conduct, Vi-

6

Comcast and Viamedia agree that there is no material difference between the federal antitrust claims and their state-law
claims. R. 271 at 11 n.3; R. 23 at 15; R. 28 at 15. For the same
reasons why Viamedia’s federal antitrust law claims fail (as explained below), so too does its state-law claims.

226a
amedia proffered three in response to Comcast’s motion to dismiss: tying, of Comcast’s Interconnect Services to its Ad Rep Services; exclusive dealing, in that
Comcast’s contracts with MVPDs were exclusive; and
a refusal to deal, by denying interconnect agreements
with Viamedia or offering commercially unacceptable
terms.7 Viamedia, via a surreply, made clear that it
was pursuing only “straightforward tying and exclusive dealing theories,” plus refusal to deal or essential
facilities claims; it was not pursuing a “free-standing”
monopolization claim. R. 32. The Court held that Viamedia sufficiently pled tying and exclusive dealing
so as to permit discovery on those claims, but dismissed the refusal to deal claim without prejudice because it did not meet the high bar set by Aspen Skiing
Co. v. Aspen Highlands Skiing Corp., 472 U.S. 585
(1985), and Verizon Commc’ns Inc. v. Law Offices of
Curtis V. Trinko, LLP, 540 U.S. 398 (2004).8 Namely,
Viamedia did not plead that Comcast’s exclusion of it
from the interconnects was irrational but for an anticompetitive purpose. See Viamedia, Inc. v. Comcast
Corp., 218 F. Supp. 3d 674, 698–99 (N.D. Ill. 2016) (Viamedia I).
Viamedia amended its complaint, realleging its
refusal to deal claim. Comcast moved to dismiss this
part of the amended complaint, R. 45, 46, which the
Court granted. Again, the Court ruled, Viamedia did
7

Viamedia also raised a monopoly-leveraging theory, but
that claim is predicated on underlying anticompetitive activity.
See Schor v. Abbott Labs., 457 F.3d 608, 611–13 (7th Cir. 2006).
8
At the pleading stage, Viamedia also complained that Comcast had threatened to “shut Viamedia and its MVPD clients out”
of using National Cable Communications LLC (“NCC”), a multiDMA exchange. See Compl. ¶ 59. Viamedia appears to no longer
pursue that theory, as “NCC” is mentioned in neither its response brief nor its Statement of Additional Facts.

227a
not plead that Comcast’s decision to exclude it from
the interconnects was an independently anticompetitive act. Viamedia, Inc. v. Comcast Corp., No. 16-CV5486, 2017 WL 698681, at *4–6 (N.D. Ill. Feb. 22,
2017) (Viamedia II). As such, this case proceeded to
discovery on Viamedia’s tying and exclusive dealing
claims.
B. Comcast’s
Experts

Liability

and

Damages

During discovery, and in support of its case, Viamedia identified and proffered two expert witnesses:
Dr. Furchtgott-Roth, to opine on Comcast’s liability;
and Dr. Lys, to opine on damages.
1. Dr. Furchtgott-Roth’s Opinions
Dr. Furchtgott-Roth’s opinions touch on “the nature and extent of Comcast’s monopoly power,” the
distinction between Ad Rep Services and Interconnect
Services, and the “exclusionary nature” of Comcast’s
actions and their impact on the Ad Rep Services market. According to Dr. Furchtgott-Roth, Ad Rep Services and Interconnect Services are “separate products” because there is a “sufficient demand to purchase” those services separately. Furchtgott-Roth Report ¶ 47. He cites “substantial evidence” in support,
including Viamedia’s own “business model” and the
MVPDs that receive “unbundled” Ad Rep and Interconnect Services. By a “conservative” estimate, he
submits, 21.5% of cable subscribers use an MVPD that
relies on unbundled services, once subscribers to
MVPDs that self-provide Ad Rep Services are removed from the mix. Id. ¶ 50. He includes in that
group MVPDs that enter into full-turnkey agreements
with third-party Ad Reps, which in turn contract with
the interconnect operator to have a portion of the

228a
avails sold on the interconnects. Id. Dr. FurchtgottRoth further notes that, although Interconnect Services also entail the selling of avails to advertisers, Ad
Rep Services include additional “back office” services,
unlike Interconnect Services, which entail “creating
and maintaining schedules of advertising, inserting
advertising, negotiating with and monitoring Interconnect operators, and allocating advertising inventory among multiple sales channels.” Id. ¶ 51. In further support of his separate-products opinion, Dr.
Furchtgott-Roth states that “some MVPDs unbundle”
services by entering into interconnect-only agreements and “self-providing” Ad Rep Services. Id. ¶ 53.
Having defined separate products, Dr. FurchtgottRoth explains his tying opinion. Interconnect Services are the tying product, and Ad Rep Services are
the tied product. Id. ¶ 63. Evidence of Comcast’s tying policy, according to Dr. Furchtgott-Roth, is found
in testimony in which a Comcast executive—who
worked in the Chicago and Detroit DMAs—agreed
with the proposition that “if an MVPD wants to get
access to Comcast [Spotlight] controlled Interconnect,
it has to hire Comcast [Spotlight] as its ad sales representative.” Id.¶ 64. Dr. Furchtgott-Roth also cites
testimony and documents suggesting that WOW! and
RCN “understood” that they had to purchase Ad Rep
Services from Comcast Spotlight to obtain access to
the interconnects in 2014 and 2015. Id. Dr. Furchtgott-Roth reasons further that Comcast had to “exclude” Viamedia from Comcast-controlled interconnects as a “necessary” part of this tying policy, as it
ostensibly made clear in 2011 when it “announced”
that it was not going to renew its Interconnect agreement with Viamedia as a “continuation of a strategy
to have full turnkey direct relationships with the
MVPDs.” Id. ¶ 65. Similarly, Comcast Spotlight’s

229a
chief operating officer testified that non-renewal with
Viamedia “freed [Comcast Spotlight] up” to “have the
opportunity to present and have a direct relationship
with WOW and RCN.” Id. That tying practice has
“manifested” in at least ten other DMAs as well, according to Dr. Furchtgott-Roth, as Comcast has also
declined Viamedia interconnect access in those DMAs.
Id. ¶ 69. Dr. Furchtgott-Roth opines further that the
same conduct “that amounts to tying also amounts to
exclusive dealing.” Id. ¶ 72.
These practices lead Dr. Furchtgott-Roth to conclude that Comcast has foreclosed competition in the
market for Ad Rep Services. Id. ¶ 90. That is, “by
tying Spot Cable Ad Rep Services to Interconnect Services and entering into multi-year, exclusive contracts
to provide both services as a bundle, Comcast Spotlight has created a formidable competitive advantage
for itself over Viamedia.” Id. ¶ 87. There is additional
market foreclosure, Dr. Furchtgott-Roth opines, because MVPDs recognize that interconnect access is
necessary to maximize their profits on avails, and
Comcast has cut off Viamedia’s access to Comcast-controlled interconnects. Id. ¶ 89–90.
2. Dr. Lys’s Opinions
Dr. Lys’s Amended Report calculates the damages
Viamedia has purportedly suffered as a result of Comcast’s conduct. He opines, ultimately, that Comcast
has caused Viamedia $158 million in damages. Comcast Ex. 6, Lys Am. Report ¶ 37 (R. 273-9). Dr. Lys’s
opinions assume Comcast’s liability for committing
anticompetitive conduct. Id. ¶ 16. His opinions make
the additional assumptions—albeit phrased as “understanding[s]” in his Amended Report—that Comcast’s anticompetitive behavior resulted in the loss of
several MVPD contracts. Id. ¶¶ 57–59. Specifically,

230a
Dr. Lys predicates his opinions on the “understanding” that “Comcast’s anticompetitive conduct” caused
Viamedia to lose the RCN and WOW! agreements in
2015, had a “material adverse effect on” Viamedia’s
retention of an agreement with Verizon in 2013, and
caused Viamedia to fail to obtain an agreement with
Atlantic Broadband in 2014. Id. His opinions also assume that Comcast’s exclusion of Viamedia from the
interconnects in Chicago, Detroit, and Hartford
caused Viamedia to lose interconnect-related revenues, id. ¶ 56, and that Viamedia lost “out of pocket
expenses” from Comcast’s conduct. Id. ¶ 60. Dr. Lys
divides his damages opinions into seven categories.
His ultimate conclusion analyzes Viamedia’s damages
relating to: (1) interconnect-revenue losses in Chicago
and Detroit; (2) interconnect-revenue losses in Hartford; (3) lost future agreements with WOW! for two
DMAs; (4) lost agreements with RCN for five DMAs;
(5) lost agreements with Verizon for nine DMAs; (6)
lost agreements with Atlantic Broadband for six
DMAs; and (7) out-of-pocket expenses.
On April 4, 2018, the Court held an evidentiary
hearing regarding Dr. Lys’s opinions pursuant to
Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579
(1993), and Federal Rule of Evidence 702. At the
hearing, Dr. Lys explained his Amended Report in
greater detail. In addition, he confirmed that his
Amended Report assumed causation. The facts supporting his causation assumptions had been provided
by Viamedia’s management, although Dr. Lys noted
that he “poked” their assertions to ensure that they
had some sound basis. Dr. Lys elaborated that he did
not think causation in this case could be demonstrated
with economic analysis, because the market is one for
services, not commodities. At the hearing, Viamedia’s

231a
counsel, too, confirmed that Dr. Lys was not offered as
an expert on causation.9
LEGAL STANDARDS
I.

Summary Judgment Standard

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” FED. R. CIV. P. 56(a). A genuine dispute as to any material fact exists if “the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party.” Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986). In deciding summaryjudgment motions, “facts must be viewed in the light
most favorable to the nonmoving party”—but “only if
there is a ‘genuine’ dispute as to those facts.” Scott v.
Harris, 550 U.S. 372, 380 (2007).
The party seeking summary judgment has the
burden of establishing that there is no genuine dispute as to any material fact. See Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986). After “a properly
supported motion for summary judgment is made, the
adverse party ‘must set forth specific facts showing
that there is a genuine issue for trial.’” Anderson, 477
U.S. at 255 (quotations omitted). That is, the nonmovant “must point to specific facts showing that
there is a genuine issue for trial, and inferences relying on mere speculation or conjecture will not suffice.”
DiPerna v. Chicago Sch. of Prof’l Psychology, 893 F.3d
1001, 1006 (7th Cir. 2018) (citation omitted); see also
Bunch v. United States, 880 F.3d 938, 941 (7th Cir.
9

Belatedly, and despite not designating Dr. Lys as causation
expert, Viamedia submitted additional opinions from Dr. Lys, including opinions regarding causation. The Court granted Comcast’s motion to strike those opinions. R. 283.

232a
2018) (“The party that bears the burden of proof for an
issue at trial must ‘cite the facts which it believes
[would] satisf[y]’ that burden and ‘demonstrate why
the record is so one-sided as to rule out the prospect of
a finding in favor of the non-movant.’”) (quoting Hotel
71 Mezz Lender LLC v. Nat’l Ret. Fund, 778 F.3d 593,
601 (7th Cir. 2015)). If the nonmovant “fails to make
a showing sufficient to establish the existence of an
element essential to that party’s case, and on which
that party will bear the burden of proof at trial, summary judgment must be granted.” Blow v. Bijora, Inc.,
855 F.3d 793, 797-98 (7th Cir. 2017) (citation and quotations omitted). “When ruling on a motion for summary judgment, ‘[t]he court should neither look the
other way to ignore genuine issues of material fact,
nor strain to find material fact issues where there are
none.’” Simpkins v. DuPage Hous. Auth., 893 F.3d
962, 964 (7th Cir. 2018) (quoting Sec’y of Labor, U.S.
Dep’t of Labor v. Lauritzen, 835 F.2d 1529, 1534 (7th
Cir. 1987)).
“In the field of antitrust law, summary judgment
serves a vital function—it avoids wasteful trials and
prevents lengthy litigation that may have a chilling
effect on pro-competitive market forces.” Anderson
News, L.L.C. v. Am. Media, Inc., --- F.3d. ----, 2018 WL
3716083, at *7 (2d Cir. July 19, 2018) (citation, modifications, and quotations omitted); see also Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
594 (1986). Indeed, “the very nature of antitrust litigation encourages summary disposition of such cases
when permissible.” Collins v. Associated Pathologists,
Ltd., 844 F.2d 473, 476 (7th Cir. 1988). That is not to
say that there is heightened summary-judgment
standard in antitrust cases—there is not. Nevertheless, at summary judgment, an antitrust claimant

233a
must “present evidence that tends to exclude the possibility that the [defendant’s] conduct was as consistent with competition as with illegal conduct.” Mercatus Grp., LLC v. Lake Forest Hosp., 641 F.3d 834,
856 (7th Cir. 2011) (quoting Nelson v. Monroe Reg’l
Med. Center, 925 F.2d 1555, 1578 (7th Cir. 1991)); see
also Matsushita, 475 U.S. at 594; It’s My Party, Inc. v.
Live Nation, Inc., 811 F.3d 676, 685 (4th Cir. 2016);
Indiana Grocery, Inc. v. Super Valu Stores, Inc., 864
F.2d 1409, 1412 (7th Cir. 1989).
II. Rule 702 and Daubert Standard
Courts may decide the admissibility of an expert
witness’s testimony in the context of a summary-judgment motion and when deciding whether the case presents a genuine issue of material fact warranting
trial. See, e.g., Manpower, Inc. v. Ins. Co. of Pa., 732
F.3d 796, 806 (7th Cir. 2013); Lewis v. CITGO Petroleum Corp., 561 F.3d 698, 704 (7th Cir. 2009); see also
Porter v. Whitehall Labs., Inc., 9 F.3d 607, 612 (7th
Cir. 1993) (expert testimony must be admissible to be
considered in a motion for summary judgment). “Any
assessment of the admissibility of expert witness testimony begins with Federal Rule of Evidence 702 and
the Supreme Court’s opinion in Daubert, as together
they govern the admissibility of expert witness testimony.” Krik v. Exxon Mobil Corp., 870 F.3d 669, 673
(7th Cir. 2017); see also Owens v. Auxilium Pharm.,
Inc., 895 F.3d 971, 972 (7th Cir. 2018). Rule 702
states:
A witness who is qualified as an expert by
knowledge, skill, experience, training, or education may testify in the form of an opinion or
otherwise if:

234a
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier
of fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts
or data;
(c) the testimony is the product of reliable
principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of the case.
FED. R. EVID. 702. In Daubert v. Merrell Dow Pharm.,
509 U.S. 579 (1993), “the Supreme Court interpreted
Rule 702 to require the district court to act as an evidentiary gatekeeper, ensuring that an expert’s testimony rests on a reliable foundation and is relevant to
the task at hand.” Gopalratnam v. Hewlett-Packard
Co., 877 F.3d 771, 778 (7th Cir. 2017).
In deciding whether to admit expert testimony under Rule 702 and Daubert, “the district court must
evaluate: (1) the proffered expert’s qualifications;
(2) the reliability of the expert’s methodology; and
(3) the relevance of the expert’s testimony.” Gopalratnam, 877 F.3d at 779 (emphases in original). A
district court’s evaluation of expert testimony under
Daubert does not “take the place of the jury to decide
ultimate issues of credibility and accuracy.” Lapsley
v. Xtek, Inc., 689 F.3d 802, 805 (7th Cir. 2012); see also
Ortiz v. City of Chicago, 656 F.3d 523, 536 (7th Cir.
2011) (“The admissibility determination is not intended to supplant the adversarial process, and so
even ‘shaky’ testimony may be admissible.”). Once a
court determines that “the proposed expert testimony
meets the Daubert threshold of relevance and reliability, the accuracy of the actual evidence is to be tested

235a
before the jury with the familiar tools of ‘vigorous
cross-examination, presentation of contrary evidence,
and careful instruction on the burden of proof.’” Lapsley, 689 F.3d at 805 (quoting Daubert, 509 U.S. at
596); see also Manpower, 732 F.3d at 806. The “proponent of the expert bears the burden of demonstrating that the expert’s testimony would satisfy the
Daubert standard” by a preponderance of the evidence. Lewis, 561 F.3d at 705; see also United States
v. Saunders, 826 F.3d 363, 368 (7th Cir. 2016) (“[F]or
expert testimony to be admissible, the proponent of
the evidence must establish that the expert’s testimony is reliable (and relevant) by a preponderance of
the evidence”).
ANALYSIS
Comcast argues that summary judgment is appropriate for numerous reasons: Viamedia cannot establish anticompetitive conduct; Viamedia cannot establish causation, in the antitrust sense or for damages
purposes; and Viamedia cannot otherwise establish
harm to competition. The first two matters are dispositive, and so the Court will address only them.
Along the way, the Court will address Comcast’s motions to exclude Viamedia’s expert opinions where relevant to the analysis.
I.

Viamedia Cannot Establish Anticompetitive
Conduct

Under Section 2 of the Sherman Act, “[e]very person who shall monopolize, or attempt to monopolize”
is subject to antitrust liability. 15 U.S.C. § 2; see also
15 U.S.C. § 15 (providing individual right of action).
But like its fraternal twin, Section 1, Section 2 bans
less than its literal reading suggests. “Simply possessing monopoly power and charging monopoly

236a
prices does not violate” Section 2. Pac. Bell Tel. Co. v.
Linkline Commc’ns, Inc., 555 U.S. 438, 447–48 (2009)
(citing United States v. Grinnell Corp., 384 U.S. 563,
570–571 (1966)). Instead, liability under Section 2,
whether for monopolization or the attempt at it, requires “anticompetitive conduct.” Mercatus Grp., 641
F.3d at 854; Endsley v. City of Chicago, 230 F.3d 276,
282 (7th Cir. 2000) (“The offense of monopoly under
§ 2” requires “the willful acquisition or maintenance
of that power as distinguished from growth or development as a consequence of a superior product, business acumen, or historic accident”); American Acad.
Suppliers, Inc. v. Beckley-Cardy, Inc., 922 F.2d 1317,
1320 (7th Cir. 1991) (“The offense of monopolization is
the acquisition of monopoly by improper methods or,
more commonly . . . the abuse of monopoly”); State of
Ill. ex rel. Burris v. Panhandle E. Pipe Line Co., 935
F.2d 1469, 1481 (7th Cir. 1991) (“Section 2 forbids not
the intentional pursuit of monopoly power but the employment of unjustifiable means to gain that power.”).
Such conduct, or “exclusionary practices,” comes in
many forms—“tie-in sales . . . , group boycotts, exclusive dealing . . . , or predatory pricing.” Schor, 457
F.3d at 610.
Not usually counted among the traditional anticompetitive practices is a refusal to deal. Under wellrooted antitrust principles, firms generally have the
right to determine with whom they will do business.
United States v. Colgate & Co., 250 U.S. 300, 307
(1919). That right extends to monopolists, as “antitrust law does not require monopolists to cooperate
with rivals by selling them products that would help
the rivals to compete.” Schor, 457 F.3d at 610; see also
Authenticom, Inc. v. CDK Glob., LLC, 874 F.3d 1019,
1025 (7th Cir. 2017) (“Even monopolists are almost

237a
never required to assist their competitors”); Goldwasser v. Ameritech Corp., 222 F.3d 390, 400 (7th Cir.
2000); Olympia Equip. Leasing Co. v. W. Union Tel.
Co., 797 F.2d 370, 375 (7th Cir. 1986).
In the flagship case of Trinko, the Supreme Court
held that a telecommunications monopolist had no antitrust duty to deal with a rival, let alone a duty to
deal on favorable terms. 540 U.S. 409–10. Trinko
teaches:
Firms may acquire monopoly power by establishing an infrastructure that renders them
uniquely suited to serve their customers.
Compelling such firms to share the source of
their advantage is in some tension with the
underlying purpose of antitrust law, since it
may lessen the incentive for the monopolist,
the rival, or both to invest in those economically beneficial facilities. Enforced sharing
also requires antitrust courts to act as central
planners, identifying the proper price, quantity, and other terms of dealing—a role for
which they are ill suited. Moreover, compelling negotiation between competitors may facilitate the supreme evil of antitrust: collusion.
Id. at 407–08. A few years later, the Supreme Court
echoed these principles. In Linkline, it held that another telecommunications monopolist had no duty to
deal, let alone a duty to deal on favorable terms, in
selling services to its competitors in the retail market.
555 U.S. at 450. Linkline confirmed that a monopolist
can generally wield its “upstream” power “to prevent
rival firms from competing effectively” in a downstream market. Id.; see also Novell, Inc. v. Microsoft
Corp., 731 F.3d 1064, 1074 (10th Cir. 2013) (“Even a

238a
monopolist generally has no duty to share (or continue
to share) its intellectual or physical property with a
rival.”).
Indisputably, Comcast refused to deal with Viamedia by disallowing it access (or refusing it “reasonable” access) to the Chicago, Detroit, and Hartford interconnects. See, e.g., CSF ¶ 48, VSF ¶ 15. That was
its right under Trinko and the law of this case. See
Viamedia I, 218 F. Supp. 3d at 697-99; Viamedia II,
2017 WL 698681 at *4-6. As Linkline explains, the
fact that Comcast may have refused to deal (or refused
to deal on certain terms) to “prevent” Viamedia from
“competing effectively” is largely irrelevant in the absence of a duty to deal. 555 U.S. at 450; cf. FurchtgottRoth Report ¶¶ 97–120 (opining on whether Comcast’s “proposed justifications” for “excluding Viamedia from the Chicago and Detroit Interconnects” are
“persuasive”); Comcast Ex. 1.1, Report of Dennis W.
Carlton (R. 273-2) (opining of the economic efficiencies
of Comcast’s conduct).
Viamedia, however, submits that Comcast’s conduct constitutes more than a “mere” refusal to deal.
R. 326 at 26. It argues that Comcast, in excluding Viamedia (and by extension, Viamedia’s customers)
from the interconnects and later taking RCN’s and
WOW!’s business, has engaged in the “distinct” practices of tying, exclusive dealing, or general exclusionary conduct. See Viamedia I, 218 F. Supp. 3d at 699.
Yet discovery has demonstrated otherwise. The record leaves no genuine issue of material fact regarding
the viability of Viamedia’s alternative theories.

239a
A. There Is Insufficient Evidence that
Comcast Engaged in Anticompetitive
Tying
Viamedia claims that Comcast tied access to the
interconnects, or Interconnect Services (the tying
product), to Comcast’s Ad Rep Services (the tied product). “A tying arrangement is ‘an agreement by a
party to sell one product but only on the condition that
the buyer also purchases a different (or tied) product,
or at least agrees that he will not purchase that product from any other supplier.’” Eastman Kodak Co. v.
Image Tech. Servs., Inc., 504 U.S. 451, 461–62 (1992)
(quoting N. Pac. Ry. Co. v. United States, 356 U.S. 1,
5–6 (1958)). The Supreme Court has emphasized that
the “essential characteristic of an invalid tying arrangement lies in the seller’s exploitation of its control
over the tying product to force the buyer into the purchase of a tied product that the buyer either did not
want at all, or might have preferred to purchase elsewhere on different terms.” Jefferson Par. Hosp. Dist.
No. 2 v. Hyde, 466 U.S. 2, 12 (1984); see also Sheridan
v. Marathon Petroleum Co. LLC, 530 F.3d 590, 592
(7th Cir. 2008) (“The traditional antitrust concern
with such an agreement is that if the seller of the tying product is a monopolist, the tie-in will force anyone who wants the monopolized product to buy the
tied product from him as well, and the result will be a
second monopoly.”). Accordingly, a tie, whether expressly instituted or effectively applied, exists only
where “the defendant improperly imposes conditions
that explicitly or practically require buyers to take the
second product if they want the first one.” Phillip E.
Areeda and Herbert Hovenkamp, ANTITRUST LAW: AN
ANALYSIS OF ANTITRUST PRINCIPLES AND THEIR APPLICATION ¶ 1752b (3d ed. 2018).

240a
1. No Evidence Tends to Exclude the
Likelihood That Comcast, Rather
Than Tying Services, Simply Refused
to Deal with Viamedia
Viamedia has not identified a genuine issue of fact
as to whether Comcast tied the sale of Interconnect
Services and Ad Rep services.10 A fundamental element of a tying claim— conditioning—is absent from
Viamedia’s construct. See Sheridan v. Marathon Petroleum Co. LLC, 530 F.3d 590, 592 (7th Cir. 2008);
Carl Sandburg Vill. Condo. Ass’n No. 1 v. First Condo.
Dev. Co., 758 F.2d 203, 207 (7th Cir. 1985).
No evidence shows that Comcast told MVPDs, expressly or impliedly, that they could only purchase Interconnect Services on the condition that they also
purchase Ad Rep Services. See Photovest Corp. v. Fotomat Corp., 606 F.2d 704, 722 (7th Cir. 1979) (“we are
reluctant to find a tying arrangement without some
evidence that [the defendant]” created applied a “de
facto tying clause”); Areeda & Hovenkamp, Antitrust
Law ¶ 1700i (“products are not tied unless the supplier refuses to accommodate those who prefer one
without the other”). To the contrary, it is undisputed
that 14 percent of Comcast’s agreements with MVPDs
are interconnect-only. CSF ¶¶ 123-24. With an interconnect-only agreement, an MVPD is free to: forego
employing any Ad Rep Services; hire another Ad Rep
to sell a portion of their remaining avails on a non-

10

The Court assumes that Interconnect Services and Ad Rep
services are distinct services for tying purposes, and that MVPDs
“consider” themselves as receiving Interconnect Services from interconnect operators (like Comcast) even when they have hired a
unaffiliated Ad Rep (like Viamedia) on a full-turnkey basis. See,
e.g., R. 326 at 27.

241a
full-turnkey basis11; and/or self-provide Ad Rep Services by selling its own avails. See CSF ¶¶ 29, 32-36,
126. In antitrust terms, the customer (an MVPD) can
purchase the tying product (Interconnect Services)
without purchasing the tied product (Ad Rep Services). Accord Datagate, Inc. v. Hewlett-Packard Co.,
60 F.3d 1421, 1427 (9th Cir. 1995) (“The harm from
tying arrangements is the forced sale of the tied product, not the withholding of the tying product.”) (emphasis in original). That Comcast has so often entered
into such standalone sales of the tying product belies
any inference that Comcast tied its services. See Live
Nation, 811 F.3d at 685 (14 percent of non-tied sales
“exceed [ ] sufficiently” whatever baseline is required
“to cast doubt on any allegation of tying”); Areeda &
Hovenkamp, ANTITRUST LAW ¶ 1756b2 (suggesting
that “10 percent unbundling” rebuts “an otherwise established or presumed inference of a tying condition”).
Viamedia tries to do away with this inconvenient
fact in two ways. First, it argues that Comcast did not
sell interconnect-only deals in Chicago, Detroit, and
Hartford, where Comcast denied Viamedia use of the
interconnects. This case, however, is not limited to
those markets—Viamedia challenges Comcast’s conduct in the markets in which it operates the interconnects generally. Am. Compl. ¶¶ 1, 180; see also Furchtgott-Roth Report ¶¶ 63–73. Second, Viamedia contends that substantial evidence of unbundled sales
does little to defeat a tying claim in cases where there
is an “announced condition,” “rebuffed request for separate provision,” or “publicized policy” of tying. See
11

As noted, Viamedia does not define Ad Rep Services as exclusive, full-turnkey representation. See, e.g., Furchtgott-Roth
Report ¶¶ 24-25; R. 326 at 7. Doing so would necessarily defeat
its tying claim, for reasons discussed below.

242a
Areeda & Hovenkamp, ANTITRUST LAW ¶¶ 1756a,
1756b. True enough, but this is no such case. The
record lacks evidence showing that Comcast told customers that they could not receive an interconnectonly deal—that is, Interconnect Services—standing
alone.12
Even focusing exclusively on Chicago, Detroit, and
Hartford, there is insufficient evidence of conditioning. “A high percentage, even 100 percent, of unbundled sales does not itself indicate that two products
may have been tied together” because “buyers may
have all bought the products bundled because they
preferred them together.” Id. ¶ 1756b2. Viewing the
record in the light most favorable to Viamedia, this is
precisely what it reflects. It is undisputed that both
RCN and WOW! wanted full-turnkey representation,
and whichever company they hired had to have the
ability to make available to them both Interconnect
Services and Ad Rep Services. CSF ¶¶ 90, 99. When
“a consumer wants to purchase a bundle of the alleged
tying and tied products, the seller is simply satisfying
consumer demand and monopolization concerns are
12

Viamedia does not claim a “negative tie.” See In re Dealer
Mgmt. Sys. Antitrust Litig., --- F. Supp. 3d ----, 2018 WL 2193236,
at *20 (N.D. Ill. May 14, 2018). Even if it did, the record would
not support it. There is no evidence suggesting that Comcast conditioned the sale of Interconnect Services to MVPDs on them
agreeing not to purchase Viamedia’s Ad Rep Services. Cf. Eastman Kodak, 504 U.S. 463 n. 8 (“Assuming, arguendo, that Kodak’s refusal to sell parts to any company providing service can
be characterized as a unilateral refusal to deal, its alleged sale of
parts to third parties on condition that they buy service from Kodak is not.”). As discussed further below, RCN and WOW!
wanted full-turnkey representation and at least a portion of their
avails sold on the Interconnects; because of Comcast’s refusal to
deal with Viamedia, a full-turnkey agreement with Viamedia
could not offer that bundle.

243a
irrelevant.” Kaufman v. Time Warner, 836 F.3d 137,
142 (2d Cir. 2016).
Viamedia responds by pointing out that Comcast
never offered RCN or WOW! an interconnect-only
deal. VSF ¶ 19. But why would it? Firms soliciting
business have no reason to offer potential customers a
less substantial (and presumably less profitable and
less efficient) deal than the one those customers seek.
Areeda & Hovenkamp, ANTITRUST LAW ¶ 1700i
(“[F]inding two products does not mean that they are
tied together. The franchisee may have preferred a
‘turnkey’ franchise and never asked for the” tying
product “separately”); see also Kaufman, 836 F.3d at
142. RCN and WOW! sought both Interconnect Services and Ad Rep Services made available through a
single full-turnkey relationship, and the “voluntary
purchase of two products together” is “not a tie at all.”
Will v. Comprehensive Accounting Corp., 776 F.2d
665, 669 (7th Cir. 1985).
Viamedia thus cannot show that Comcast ever
withheld the tying product from customers unless they
also purchase the tied product. Live Nation, 811 F.3d
at 684 (if “the buyer is free to decline the tied product
or to purchase the two products separately, then by
definition there is no unlawful tying”). The real rub
of Viamedia’s tying claim is, instead, that Comcast
withheld the tying product from its rival Viamedia.
The consequence: customers that contracted with Viamedia could not obtain Comcast’s Interconnect Services through their Viamedia representation, and customers wanting a full-turnkey deal that made available to them both Interconnect Services and Ad Rep
Services could not get such a deal through Viamedia.
In Viamedia’s words, Comcast withholds Interconnect
Services from “Viamedia’s MVPD partners”—not

244a
MVPDs, period—and therefore “constrains improperly [MVPDs’] choice” by “excluding Viamedia” as a
competitor. R. 326 at 19.
Viamedia’s theory extends tying beyond the law’s
recognition. The constraining of consumer choice is of
course a feature of a tying arrangement, Areeda &
Hovenkamp, ANTITRUST LAW ¶ 1756b2, but there
must still be an actual “tie” of products or services,
Reifert v. S. Cent. Wisconsin MLS Corp., 450 F.3d 312,
317 (7th Cir. 2006); Photovest, 606 F.2d at 722. Viewing the record in Viamedia’s favor, it shows none.
Aerotec Int’l, Inc. v. Honeywell Int’l, Inc., 836 F.3d
1171 (9th Cir. 2016), illustrates the point. In Aerotec,
a manufacturer, Honeywell, operated in two related
markets. Id. at 1175. It was a monopolist in the replacement parts market, and a competitor in the repair services market. Id. at 1175–76. Honeywell had
long dealt on prioritized and better terms with itself
and its affiliated servicers than with independent
ones, like Aerotec. Id. at 1176–77. But when a parts
shortage hit, Honeywell’s supply of parts to Aerotec
came to a halt. This was ruinous for Aerotec; it could
not live up to certain contracts and lost future work,
including work that went to Honeywell. Id. at 1177.
Aerotec sued alleging, among other things, anticompetitive tying of replacement parts to repair services
(it called the parts shortage pretextual). The district
court granted Honeywell summary judgment, and the
Ninth Circuit affirmed. Regarding the tying claim,
the Ninth Circuit reasoned that there was no evidence
that Honeywell “explicitly or implicitly ties or conditions the sale of APU parts to APU owners on a requirement that the owners” use Honeywell services.
Id. at 1179 (emphases in original). It did not matter
if Honeywell had refused to deal fairly with Aerotec,

245a
which made it more difficult for Aerotec to compete
and owners to receive Honeywell parts without Honeywell repair services. Id. at 1179–80. The Ninth Circuit “decline[d] to stretch the tying construct to accommodate the claim that . . . conduct toward third party
servicers . . . acts as an effective, or ‘de facto,’” tying
condition. Id. at 1178.13
A similar story unfolded in Serv. & Training, Inc.
v. Data Gen. Corp., 963 F.2d 680 (4th Cir. 1992). In
that case, Data General manufactured computer systems and offered a diagnostic tool that was critical to
servicing those systems. Data General used the diagnostic tool in servicing its systems for customers, but
it refused to license the diagnostic tool to competing
third-party maintenance servicers. Data Gen., 963
F.2d at 682–83. One servicer sued, alleging that Data
General effectively tied the provision of its diagnostic

13

Viamedia’s attempt to distinguish Aerotec is meritless. It
argues that, “unlike the plaintiff in Aerotec, Viamedia does not
purchase Interconnect Services for its own account, but rather
purchases them on behalf of MVPDs.” R. 326 at 28. How one
could read Aerotec and conclude that the plaintiff (a repair servicer) purchased replacement airplane parts “for its own account”—as opposed to “on behalf of” its airplane-owning customers—is questionable. Like Viamedia, it was precisely because
the plaintiff could not make available the supposedly tying product (replacement parts) to its customers that its business suffered. Aerotec, 836 F.3d at 1177; see also Aerotec Int’l, Inc. v.
Honeywell Int’l, Inc., 4 F. Supp. 3d 1123, 1133 (D. Ariz. 2014)
(“Aerotec asserts that Honeywell’s practices amount to per se illegal tying, claiming that Honeywell uses its dominant position
in the market for Honeywell APU parts to coerce APU owners,
who need Honeywell APU component parts for APU repairs, to
purchase MRO services from Honeywell.” (emphasis added).
Whatever Viamedia means by “on its own account,” it is an economically meaningless distinction in comparing Aerotec to this
case.

246a
tool to the sale of its services. Id. at 683. The district
court granted Data General summary judgment and
the Fourth Circuit affirmed. The Fourth Circuit held
that, even if the diagnostic tool and maintenance services could be tied together, the plaintiff-servicer had
not produced sufficient evidence of such a tie. Id. at
687–88. Evidence showed that customers demanded
that their servicers be able to use the diagnostic tool,
and, as the result of Data General’s refusal to license,
third-party servicers simply could not compete for
that business. See id. at 687. This was not a tying
condition, according to the court. See id. at 687–688;
see also id. at 686 (“The fact that Data General has
selectively licensed [the diagnostic tool] is not evidence of an illegal tying arrangement. Data General
may lawfully license [the tool] to whomever it
chooses.”).
Like the third-party competitors in Aerotec and
Data General, Viamedia has shown “no direct condition” of a tie. Aerotec, 836 F.3d at 1179; see Data Gen.,
36 F.2d at 687–88. It admits that Comcast has been
willing to deal with MVPDs on an interconnect-only
basis, and no evidence shows that a sales condition—
as opposed to prevailing MVPD preference combined
with Comcast’s refusal to deal—is what kept RCN and
WOW! from purchasing Viamedia’s Ad Rep Services.
See Data Gen., 36 F.2d at 687–88. Rather than show
a direct tying condition on MVPD customers, Viamedia takes issue with how Comcast has chosen (not) to
deal with it and the consequences that choice has had
on its ability to compete. But “tactics imposed on a
third-party competitor” are insufficient “to create a tie
with respect to a separate buyer simply because they
make it less desirable to purchase from the third
party.” Aerotec, 836 F.3d at 1180; accord Linkline, 555

247a
U.S. at 450 (a monopolist can generally wield its “upstream” power “to prevent rival firms from competing
effectively” in a downstream market).14
Viamedia’s insistence that comments made by
RCN, WOW!, and Comcast create a genuine issue of
fact as to whether there was tying is misplaced. RCN
and WOW! stated that they understood that they
could not have their avails sold on Comcast-operated
interconnects without hiring Comcast as their “representative.” VSF ¶ 18. A Comcast executive, moreover, answered “yes” when asked by the Department of
Justice whether it was Comcast’s “business practice”
that if “an MVPD wants to get access to a Comcast
controlled Interconnect, it has to hire Comcast as its
ad sales representative.” See id. ¶¶ 13, 18, 19. None
14

The Court recognizes that commentators and courts have
remarked on the fact that a refusal to deal with related-market
competitors—and vertical integration generally—can appear to
have a tying effect in certain markets. MCI Commc’ns Corp. v.
Am. Tel. & Tel. Co., 708 F.2d 1081, 1144 & n. 96 (7th Cir. 1983)
(noting the similarity in the plaintiffs’ claims but not “imply[ing]
that a tying violation will always flow from any denial of an essential facility by a dominant firm”); Live Nation, 811 F.3d at 689
(“it is no surprise that vertical integration has generally been
permitted despite its apparent similarity to tying”); Glen O. Robinson, On Refusing to Deal with Rivals, 87 CORNELL L. REV.
1177, 1178 (2002). Professor Hovenkamp, for example, has noted
that “in dominated, path-dependent networks,” refusals to deal
with competitors can resemble “tying arrangements.” See Herbert Hovenkamp, The Obama Administration and Section 2 of
the Sherman Act, 90 B.U. L. REV. 1611, 1642–43 (2010); Areeda
& Hovenkamp, ANTITRUST LAW ¶ 772. Here, however, there
is no tying effect, as no evidence shows that MVPDs cannot obtain (from Comcast at least) the tying product alone—they just
cannot obtain it through Viamedia’s representation. That
MVPDs typically choose not to obtain the tying product alone underscores the fact that this dispute should be resolved by the
market, not the courts.

248a
of these statements, however, “tend[ ] to exclude the
possibility” that Comcast’s conduct “was as consistent” with a legal refusal to deal as an illegal tying
of its services. Mercatus Grp., 641 F.3d at 856; see also
Authenticom, 874 F.3d 1019 (after a preliminary-injunction hearing, expressing “dubious[ness] in the extreme” that a dealers’ supposed tying of two related
products “amounts to tying, rather than simply participation at two levels of the market, as in Linkline”).
The undisputed context of those statements matters. See Matsushita, 475 U.S. at 586. Only two companies competed for RCN’s and WOW!’s Chicago and
Detroit business in 2015, Viamedia and Comcast.
They did so, at RCN’s and WOW!’s invitations, on a
full-turnkey basis. CSF ¶¶ 90, 99. RCN and WOW!
knew that they could not have their avails sold on the
interconnects if they contracted with Viamedia; Comcast, as interconnect operator, had made clear that it
did not want to do business with Viamedia. Thus, to
have their avails sold on the interconnects, RCN and
WOW! had to deal directly with Comcast, the only
source who made could make both services available
in a single full-turnkey deal. This does not mean that
the MVPDs could not have received an interconnectonly deal if they had requested one—that is, that they
could have received the tying product without the tied
product—but the record indisputably shows they did
not want that service alone, instead opting for the fullturnkey bundle. See Will, 776 F.2d at 669.
Data General is again instructive. There, the
plaintiff-servicer presented evidence that in pitching
its maintenance service Data General had “stated to
potential customers that only Data General” could use
the diagnostic tool—the implication being, of course,
that customers had to hire Data General services to

249a
receive the benefit of the diagnostic tool. Data Gen.,
963 F.2d at 687 (emphasis added). But this evidence
did not tend to exclude legal conduct. Id. Other servicers had no right to use the diagnostic tool, and so
Data General’s statements were “entirely consistent”
with it “lawfully extolling the superiority of its repair
services.” Id. Similarly, in Data General the “customers as a matter of fact have demanded that any” servicers “be able” to use the diagnostic tool, and thus the
evidence that they choose Data General over other
servicers suggested simply that customers “preferred
Data General services using [the diagnostic tool] over
[third-party servicers] that do not.” Id. at 687. The
same is true here. Viewing the record in Viamedia’s
favor, Comcast said that its “practice”—in an industry
dominated by full-turnkey business, where MVPDs
generally prefer not to do interconnect-only deals—is
that an MVPD must employ Comcast to have its
avails sold on the interconnects. See VSF ¶ 13. Likewise, RCN and WOW! did not complain that were unable to receive Interconnect Services from Comcast on
a standalone basis. The record shows they complained, at most, that they could not receive Interconnect Services through Viamedia, and had to work with
Comcast directly because they wanted full-turnkey
representation that could make available Interconnect Services. See, e.g., VSF ¶ 18. This evidence is, at
a minimum, equally consistent with Comcast’s refusal
to deal with Viamedia as it is a tying arrangement.
None of this is to say that, as a matter of law, for
a tying condition to be cognizably anticompetitive it
must be applied directly and only to the end user, not
its representative. Cf. COPECA, Inc. v. Western Aviation Servs. Corp., 653 F. Supp. 2d 141, 147 (D.P.R.
2009) (not seeing “the relevance” that a defendant applied an alleged tie “via an intermediary” because the

250a
defendant could still “impose its condition”). It is to
say, however, that at summary judgment the claimant
must present evidence tending to exclude the possibility that the defendant engaged in legitimate conduct.
Viamedia lacks any evidence that Comcast withheld
Interconnect Services from customers (as opposed to
Viamedia) unless they also purchased Ad Rep Services, and it has not otherwise pointed to evidence
suggesting that Comcast’s conduct was anything more
than a refusal to deal with Viamedia.
Another wrinkle of Viamedia’s claim is worth addressing. Although Viamedia does not define Ad Rep
Services as only full-turnkey services, see FurchtgottRoth Report ¶¶ 22–29, it occasionally refers to Comcast’s tie as one of Interconnect Services to full-turnkey Ad Rep Services, see VSF ¶ 18, CSF, Resp. to ¶ 48.
That changes little. For one, the record is devoid of
evidence that customers could not receive Comcast’s
Interconnect Services standing alone (only that they
could not receive those services through Viamedia’s
representation). Equally important, in a full-turnkey
relationship with a third-party Ad Rep the MVPD
does not directly contract for Interconnect Services. It
relies on its Ad Rep—to which it has assigned all of its
avails in a DMA—to make sure that a portion of those
avails are sold on the interconnects. See, e.g., VSF
¶¶ 1–3. Focusing on that scenario, there can be no
anticompetitive tie.
Professors Areeda and Hovenkamp explain why.
Suppose an ingot manufacturer “refuses to sell separately but rather fabricates into products like building
wall sections, which it sells directly to builders.”
Areeda & Hovenkamp, ANTITRUST LAW ¶ 1748a. A rival fabricator demands ingot separately “so that it too
can bundle it with fabrication services in order to

251a
make and sell walls. When the defendant refuses,
[the rival] claims the defendant is tying ingot to fabrication services.” Id. The claim fails as a matter of
law:
[T]he gravamen of the complaint is not that
the defendant’s bundled sales have foreclosed
rivals from selling unbundled fabrication to
the defendant’s customers. Rather, the gravamen is that the defendant’s refusal to sell unbundled ingot to the defendant’s rival has prevented the rival from selling the very same ingot/fabrication bundle sold by the defendant. . . . For example, the plaintiff does not
want the defendant to offer ingot separately to
builders; nor would doing so eliminate any relevant “foreclosure” when builders do not want
“un-tied” ingot in order to arrange separately
for its fabrication. Rather, the plaintiff seeks
to hold the defendant liable for not selling the
plaintiff ingot so that it can fabricate ingot
into wall sections too.
Id. ¶ 1748b. The antitrust laws do not favor such attacks on vertical integration, which are resolvable
only by enforcing a duty to deal with a rival. Id.; see
also id. ¶ 1700j1.
Viamedia submits that this principle applies only
“to situations where the only separate demand for the
tying product comes from the defendant’s rivals.” R.
326 at 31; see also R. 235 at 10. Not so. “Even if the
separate provision of ingot [the tying product] and fabrication [the tied product] is common in competitive
analogues,” there is no liability for tying “when the
plaintiff’s theory of injury is not that customers of the
defendant’s bundle would buy the items unbundled if
they could, but rather that a rival could sell the same

252a
bundle if only the defendant would sell it a particular
input.”
Areeda & Hovenkamp, ANTITRUST LAW
¶ 1748b; see also id. ¶ 1748b n.2 (a finished-product
exists even where the claimant meets the “threshold
requirement of showing buyer interest because we can
find some buyers desiring the items unbundled”).
This is the “gravamen” of Viamedia’s tying
claim—that Comcast’s refusal to provide it interconnect access prevents it from selling the kind of fullturnkey Ad Rep Services that WOW! and RCN desire.
Although MVPDs in a full-turnkey relationship with
a third-party Ad Rep may consider themselves to receive Interconnect Services from the interconnect operator, see VSF ¶ 3, it is undisputed that those
MVPDs have one agreement with one Ad Rep that
makes those Interconnect Services available to them
without having to have a direct relationship with the
interconnect operator. (That is, of course, Viamedia’s
business model.) See, e.g., id. ¶¶ 1, 3; see also Furchtgott-Roth Report ¶ 53 (describing arrangements, unlike Viamedia’s practice, in which MVPDs contract
separately for Ad Rep Services and Interconnect Services as “unbundle[d]” transactions). Viamedia has no
antitrust right to force Comcast to help it sell such a
bundle to their mutual customers. See Areeda &
Hovenkamp, ANTITRUST LAW ¶¶ 1748a, 1748b; accord
Linkline, 555 U.S. at 450.
Viamedia further argues that deciding Comcast
did not tie services would “conflict[ ] with sound antitrust policy.” R. 326 at 29. It provides no authority
for its perspective on what antitrust policy should be,
and understandably. Viamedia’s view “demand[s]
that holders of market power cooperate with rivals”—
a view that “bit the dust” with Trinko. Frank H.
Easterbrook, The Chicago School & Exclusionary

253a
Conduct, 31 HARV. J.L. & PUB. POL’Y 439, 441–42
(2008). Courts routinely tout the procompetitive benefits of integration, even if middlemen suffer. See,
e.g., It’s My Party, 811 F.3d at 689 (“A single firm incorporating separate but closely related production
processes can often be far more efficient than various
independent entities transacting to produce the same
good or bundle of goods.”). Viamedia’s contrary claim
“echoes a plea for relief on behalf of a competitor, not
for the sake of competition itself.” Aerotec, 836 F.3d
at 1180.15
2. Dr.
Furchtgott-Roth’s
Regarding
Comcast’s
Tying Are Inadmissible

Opinions
Supposed

Dr. Furchtgott-Roth also opines that Comcast had
an effective tying policy. He asserts that Comcast’s
own admissions and MVPDs’ statements demonstrate
that Comcast had a practice of tying, and that excluding Viamedia from the interconnects was a “necessary
aspect” of that tying strategy. Furchtgott-Roth Report
¶ 3.e.; see also id. ¶¶ 63–71. These opinions, however,
are inadmissible. They would not assist the trier of
fact and are contrary to the law.
Rule 702(a) and Daubert provide that “[a]n expert’s opinion is helpful only to the extent the expert
draws on some special skill, knowledge, or experience
to formulate that opinion”—in other words, “the opin-

15

Viamedia makes no argument that Comcast effectively and
anticompetitively ties Interconnect Services to Ad Rep Services
through discounted bundling. Nor could it, as no evidence shows
that Comcast ever predatorily priced—or even sold below cost—
its services. See Midwest Gas Servs., Inc. v. Indiana Gas Co., 317
F.3d 703, 713 (7th Cir. 2003).

254a
ion must be an expert opinion.” United States v. Benson, 941 F.2d 598, 604 (7th Cir. 1991), amended on
other grounds 957 F.2d 301 (7th Cir. 1992); see also
FED. R. EVID. 702(a); Owens, 895 F.3d at 972 (the expert’s testimony must “assist the trier of fact”). “Expert testimony does not assist the trier of fact when
the jury is able to evaluate the same evidence and is
capable of drawing its own conclusions without the introduction of a proffered expert’s testimony.” Matter
of the Complaint of Ingram Barge Co., No. 13 C 3453,
2016 WL 3763450, at *10 (N.D. Ill. July 14, 2016); see
also Dhillon v. Crown Controls Corp., 269 F.3d 865,
871 (7th Cir. 2001) (“An expert must testify to something more than what is ‘obvious to the layperson’ in
order to be of any particular assistance to the jury.”);
Taylor v. Ill. Cent. R.R. Co., 8 F.3d 584, 585–86 (7th
Cir. 1993) (affirming the exclusion of expert testimony
where “any lay juror could understand th[e] issue
without the assistance of expert testimony”). As such,
expert testimony “cannot be presented to the jury
solely for the purpose of constructing a factual narrative based upon record evidence.” Newman ex rel.
Newman v. McNeil Consumer Healthcare, No. 10 C
1541, 2013 WL 9936293, at *6 (N.D. Ill. Mar. 29,
2013); United States v. Hall, 93 F.3d 1337, 1343 (7th
Cir. 1996) (“Unless the expertise adds something, the
expert is at best offering a gratuitous opinion, and at
worst is exerting undue influence on the jury.”). Expert testimony, further, must be consistent with the
law; otherwise it is necessarily unhelpful and risks
confusing and misleading the jury. Loeffel Steel Prod.,
Inc. v. Delta Brands, Inc., 387 F. Supp. 2d 794, 806
(N.D. Ill. 2005) (“Expert opinions that are contrary to
law are inadmissible. They cannot be said to be scientific, to be reliable, or to be helpful to the trier of fact.”)
(citations omitted).

255a
Dr. Furchtgott-Roth’s tying opinions fail these requirements. Furchtgott-Roth Report ¶¶ 63–71. His
opinion that Comcast had a tying policy rests exclusively on a lay interpretation of evidence that this
Opinion has already discussed. Id. ¶¶ 64–66. Quoting the Comcast testimony provided to the DOJ cited
above, supra at 34–35, for example, he matter-offactly asserts that “Comcast has admitted that it ties
Spot Cable Ad Rep Services to Interconnect Services.”
Id. ¶ 64. He also relies on the MVPDs’ statements to
conclude that the MVPDs “understood” that they had
to deal with Comcast to obtain Interconnect Services.
Id. ¶ 64. Although Dr. Furchtgott-Roth later adopts
his interpretation of those documents “[a]s a matter of
economics,” id. ¶ 68, he does not undertake any expert
assessment in arriving at that conclusion. Elorac, Inc.
v. Sanofi-Aventis Canada Inc., No. 14 C 1859, 2017
WL 3592775, at *27 (N.D. Ill. Aug. 21, 2017) (excluding expert because “[n]o expert economic analysis is
necessary on [a] basic point, nor, in truth, did [the expert] perform any; his opinion appears to be based
simply on his review of [evidence], not a scientific
analysis”); In re Live Concert Antitrust Litig., 863 F.
Supp. 2d 966, 993 (C.D. Cal. 2012) (excluding expert
opinions because a “key ingredient missing” was “economic analysis (be it quantitative or qualitative) tying
these statements by [witnesses and observers] to” the
“ultimate conclusion”) (emphasis in original). All he
cites is the undisputed and unremarkable fact that
Comcast and Viamedia were the only two full-turnkey
Ad Reps in certain DMAs, like Chicago and Detroit.
Id. ¶ 67.
So unhelpful are Dr. Furchtgott-Roth’s tying opinions that Viamedia, in arguing that there is an issue
of fact as to whether Comcast engaged in tying, does
not rely on them (either directly or via its Statement

256a
of Additional Facts). See R. 326 at 18–22, 26–30. Viamedia, instead, simply cites directly to many of the
same pieces of evidence that Dr. Furchtgott-Roth
does. Indeed, no expertise is needed to interpret, contextualize, or synthesize that evidence. See Davis v.
Duran, 276 F.R.D. 227, 231 (N.D. Ill. 2011) (“expert
testimony is helpful to the jury if it concerns a matter
beyond the understanding of the average person”).
But this betrays that Viamedia simply seeks to use
Dr. Furchtgott-Roth’s tying opinion to give an expert
mouthpiece to its preferred (and unreasonable) narrative of the evidence. See, e.g., McNeil Consumer, 2013
WL 9936293, at *6; Sullivan v. Alcatel-Lucent USA
Inc., No. 12 C 07528, 2014 WL 3558690, at *5 (N.D.
Ill. July 17, 2014) (excluding expert who “simply reads
and interprets documents” without drawing “on any
expert qualifications or experience”).
Dr. Furchtgott-Roth’s narrative, moreover, is contrary to the law for reasons already explained. His
opinions seek to hold Comcast liable for the mere
withholding of the tying product, not the forced sale of
a tied product, and not even to a customer, but to a
competitor. See Furchtgott-Roth Report ¶¶ 67, 69–71;
see Aerotec, 836 F.3d at 1178–80. Those opinions are
“inconsistent with the definitions of tying and coercion
in the context of tying claims,” and thus inadmissible.
Gumwood HP Shopping Ptrs., L.P. v. Simon Prop.
Grp., Inc., No. 3:11-CV-268 JD, 2016 WL 6091244, at
*4 (N.D. Ind. Oct. 19, 2016); accord Norwest Bank v.
K-Mart Corp., No. 3:94-CV-78RM, 1997 WL
33479072, at *3 (N.D. Ind. Jan. 29, 1997) (excluding
opinions “close enough to this case’s legal issues” so as
to “create a risk of jury confusion”). The Court, accordingly, excludes Dr. Furchtgott-Roth’s opinions on
whether Comcast had a tying practice. See Report
¶¶ 3.e. 64–71.

257a
B. There Is Insufficient Evidence that
Comcast Engaged in Anticompetitive
Exclusive Dealing
Viamedia next contends that Comcast engaged in
exclusive dealing. Generally, “[a]n exclusive dealing
contract obliges a firm to obtain its inputs from a single source.” Paddock Publ’ns, Inc. v. Chicago Tribune
Co., 103 F.3d 42, 46 (7th Cir. 1996); see also Areeda &
Hovenkamp, ANTITRUST LAW ¶ 1800a; Methodist
Health Servs. Corp. v. OSF Healthcare Sys., 859 F.3d
408, 410 (7th Cir. 2017). “The objection to exclusivedealing agreements is that they deny outlets to a competitor during the term of the agreement.” Roland
Mach. Co. v. Dresser Indus., Inc., 749 F.2d 380, 393
(7th Cir. 1984); see also, e.g., Methodist Health Servs.
Corp. v. OSF Healthcare Sys., No. 13-CV-01054, 2016
WL 5817176, at *8 (C.D. Ill. Sept. 30, 2016) (“Exclusive dealing claims brought under § 2 are analyzed in
much the same way as § 1 claims”). As the Court has
recognized, however, the law “‘often approve[s]’ of exclusive dealing because of its ‘procompetitive benefits.’” Viamedia I, 218 F. Supp. 3d at 696 (N.D. Ill.
2016) (quoting Republic Tobacco Co. v. N. Atl. Trading
Co., 381 F.3d 717, 736 (7th Cir. 2004)). These benefits
include “increasing allocative efficiency, reducing adverse selection and moral hazard barriers to deals,
and preventing free-riding.” VBR Tours, LLC v. Nat’l
R.R. Passenger Corp., No. 14-CV-00804, 2015 WL
5693735, at *12 (N.D. Ill. Sept. 28, 2015) (citing Republic Tobacco, 381 F.3d at 736).
Viamedia does not explain its exclusive dealing
claim.16 It is not clear if Viamedia takes issue with

16

Viamedia’s defense of its exclusive dealing claim is near perfunctory. It devotes just a page and a half to this claim in its 46-

258a
the exclusive and full-turnkey representations that
are the undisputed industry norm, the fact that Comcast deals exclusively with MVPDs that work directly
with it, or some combination of the two. In any event,
Viamedia’s claim fails.
“The exclusion of competitors is cause for antitrust concern only if it impairs the health of the competitive process itself.” Roland Mach., 749 F.2d at
394. “Hence” a plaintiff must be able to “prove that
the probable (not certain) effect of the exclusion will
be to raise prices above (and therefore reduce output
below) the competitive level, or otherwise injure competition.” Id. Viamedia has not produced any such
evidence. It does not meaningfully argue that Comcast’s exclusive dealings have harmed competition; it
cites only is exclusion as a competitor. See R. 326 at
22–23. Indeed, the record lacks any evidence showing
that Comcast has raised, plans to raise, or even has
the ability to raise prices. Accord Schor, 457 F.3d at
612 (“The monopolist can take its profit just once; an
effort to do more makes it worse off and is self-deterring.”); see also, e.g., Ohio v. Am. Express Co., 138 S.
Ct. 2274, 2288 (2018) (claim of anticompetitive conduct failed, in part, because it “did not offer any evidence that the [defendant’s] price . . . was higher than
the price one would expect to find in a competitive
market”). Nor does the record contain any evidence
showing that Comcast has reduced or plans to reduce
output. See Methodist Health, 859 F.3d at 410 (affirming summary judgment because plaintiff had not
shown evidence of the “dire consequences” required to
deem exclusive contracting illegal).

page brief, and in the course of that page and a half neither cites
a single fact nor raises a single case save for Viamedia I.

259a
To the contrary, Viamedia’s own expert, Dr.
Furchtgott-Roth, explains the procompetitive benefits
of Comcast’s deals. By bundling Interconnect Services
and Ad Rep Services and selling them on an exclusive
basis, Comcast is “able to offer financial terms to
MVPDs that are much more generous than any terms
Viamedia could feasibly (much less profitably) offer.”
Furchtgott-Roth Report ¶ 87.17 Elsewhere in its brief,
Viamedia cites the fact that MVPDs “consider” Viamedia’s lack of MVPD-affiliation in weighing Ad Rep Services. But Viamedia provides no support for the notion that the fact that MVPDs deal with a fellow
MVPD for the terms of their Ad Rep Services contracts
constitutes a cognizable harm to competition. MVPDs
themselves made clear that such a concern matters
only when “all else [is] equal”—meaning they, like any
rational consumer, value price and quality foremost.
See R. 326 at 42; VSF ¶ 7; see also CSF ¶ 100 (RCN
representative saying that Comcast’s and Viamedia’s
offers were “nowhere near equal” and it was “not [ ]
very difficult decision” for RCN to choose Comcast).
Viamedia, further, has presented no expert evidence
showing that it could have offered terms “equal” to
Comcast’s. See id. ¶¶ 116–122 (Comcast, on average,
offered better revenue shares to MVPDs than Viamedia).

17

To the extent Dr. Furchtgott-Roth opines that Comcast has
foreclosed Viamedia from the market as a result of its tying or
exclusive dealing practices, see Furchtgott-Roth Report ¶ 90,
those opinions are inadmissible because, for the reasons discussed in the text, his predicate opinions regarding the alleged
tying and exclusive dealing are inadmissible as they are unhelpful to the jury and contrary to the law. In any event, Viamedia’s
response does not rely on Dr. Furchtgott-Roth’s foreclosure opinions.

260a
That Comcast’s exclusive deals do not harm competition is further established by the fact that they are
the very deals that MVPD-consumers seek. To be
sure, the law can prohibit monopolists from engaging
in conduct generally permitted to those without market power. Eastman Kodak, 504 U.S. at 488 (Scalia,
J., dissenting); E.I. du Pont de Nemours & Co. v. Kolon
Indus., Inc., 637 F.3d 435, 441 (4th Cir. 2011); United
States v. Dentsply Int’l, Inc., 399 F.3d 181, 187 (3d Cir.
2005). But here it is undisputed that both RCN and
WOW! requested “exclusive, full turnkey representation,” CSF ¶¶ 90, 99, and only for a fixed period in limited geographic markets. See Methodist Health, 859
F.3d at 410; Areeda & Hovenkamp, ANTITRUST LAW
1802g2. Frontier wanted the same in Hartford, a deal
which Viamedia won and assented to. Id. ¶ 73.
MVPDs’ desire for exclusive, full-turnkey deals is,
moreover, economically sound. It is undisputed that
such Ad Rep Services provide both MVPDs and advertisers a “one stop shop” for the sale and purchase of
avails. CSF ¶ 28. Thus, doing as Viamedia requests—requiring a monopolist to rebuff customers’
requested, and mutually beneficial, terms in order to
assist competitors—would itself “impair[ ] the health
of the competitive process.” Roland Mach., 749 F.2d
at 394.
Viamedia does not dispute these facts. It admits
that “full turnkey Spot Cable Ad Rep Services agreements have benefits.” R. 326 at 23. It complains, instead, that it lacks “a fair playing field” on which to
compete for such agreements, because of “Comcast’s
use of its conceded monopoly power over the Interconnects.” Id. That is not a complaint about exclusive
dealing, see, e.g., Roland Mach., 749 F.2d at 394, but
about Comcast’s refusal to deal with Viamedia. As

261a
such, Viamedia has presented evidence neither showing exclusive dealing that harms competition nor evidence tending to exclude Comcast’s legal conduct.18
C. Viamedia’s Claim for Otherwise Anticompetitive Conduct is Procedurally
Barred and Meritless
Viamedia also invokes a catchall exclusionary
conduct claim, arguing that “however” Comcast’s conduct is described it is anticompetitive. As Viamedia
notes, the law precludes exclusionary conduct for Section 2’s purposes even if that conduct does not neatly
fall into one of the traditional forms of anticompetitive
conduct under Section 1.
See, e.g., Areeda &
Hovenkamp, ANTITRUST LAW ¶ 777a (“While the
standard for a § 2 violation is significantly stricter in
its power assessment, it is broader and less categorial
in its definition of proscribed conduct.”).
Viamedia, however, is procedurally barred from
raising this claim. Despite extensive motion to dismiss briefing and numerous hearings in court, Viamedia has never raised this claim before. “It is well settled that a plaintiff may not advance a new argument
in response to a summary judgment motion.”

18

Viamedia’s response does not rely on Dr. Furchtgott-Roth’s
opinion about exclusive dealing. This opinion, in any event, is
inadmissible. See Furchtgott-Roth Report ¶¶ 72–73. Constituting just two paragraphs, Dr. Furchtgott-Roth’s opinion conflates
tying and exclusive dealing. He asserts, “the same conduct by
Comcast Spotlight that amounts to tying also amounts to exclusive dealing.” Id. ¶ 72. Dr. Furchtgott-Roth, again, applies no
expertise, analysis, or study in reaching that conclusion. See
FED. R. EVID. 702. He merely posits the broad assertion. Further, because his predicate tying opinions are inadmissible, so
too is his one-in-the-same exclusive dealing opinion. The Court
therefore excludes it. Id. ¶¶ 71–72.

262a
Abuelyaman v. Illinois State Univ., 667 F.3d 800, 814
(7th Cir. 2011); see also, e.g., Anderson v. Donahoe,
699 F.3d 989, 998 (7th Cir. 2012); Midco Int’l, Inc. v.
Metro. Life Ins. Co., No. 14 CV 9470, 2017 WL
2868949, at *4 n.1 (N.D. Ill. July 5, 2017) (“a new theory” of liability “raised for the first time in response to
the motion for summary judgment” that “was not
plaintiff’s theory at the motion-to-dismiss stage” is
“waived”). Viamedia, in fact, was not just silent in
failing to advance this theory earlier. It affirmatively
disavowed any “free-standing” monopolization claim
“unaccompanied by . . . ‘any of the normal exclusionary practices.’” R. 32 at 7 (quoting Schor, 457 F.3d at
610–11).
The Court relied on that assertion in Viamedia I,
concluding that Viamedia’s claim was not “‘free standing’ because it alleges particular types of anticompetitive conduct.” Viamedia I, 218 F. Supp. 3d at 695; see
also id. (“Viamedia’s success turns on whether it
states a claim based on those three classes of anticompetitive conduct [tying, exclusive dealing, and a refusal to deal], not whether a free-standing leveraging
theory is independently viable.”). Now accepting Viamedia’s claim—about which Viamedia’s liability expert did not clearly opine—would add a new dimension to this two-year-old litigation after the close of all
fact and expert discovery and allow Viamedia to circumvent motion to dismiss procedures. See, e.g.,
Shuffle Tech Int’l LLC v. Sci. Games Corp., No. 15 CV
3702, 2017 WL 3838096, at *8 (N.D. Ill. Sept. 1, 2017)
(judicial estoppel “requires that the court accepted the
earlier position such that its acceptance of the new position would lead to inconsistent determinations”). It
would, moreover, prejudice Comcast by forcing it to
defend a claim that Viamedia indicated at the motion
to dismiss stage that it was not pursuing. See The

263a
Medicines Co. v. Mylan Inc., No. 11-CV-1285, 2014
WL 1979261, at *3–4 (N.D. Ill. May 15, 2014).
Setting waiver and estoppel aside, Viamedia’s
claim fails.19 It hits the same roadblock Viamedia’s
tying claim did: viewing the record in light most favorable to Viamedia, no evidence tends to exclude the fact
that Comcast’s conduct was merely a refusal to deal,
rather than anticompetitive conduct. See Mercatus
Grp., 641 F.3d at 856. The claim is just a “recast” of
the refusal to deal, complaining, again, about Comcast’s refusal to allow Viamedia to resell MVPDs’
avails on the Interconnects and the impact that conduct has had on its ability to compete. Novell, 731
F.3d at 1079; see R. 326 at 25 (complaining that “Comcast has used its control over the Interconnects to
squeeze its only competitor”). The “refusal to deal doctrine is not so easily evaded.” Novell, 731 F.3d at
1079. Viamedia may have been rendered unable to
“compete effectively,” Linkline, 555 U.S. at 450, see
also Furchtgott-Roth Report ¶¶ 86–92, but even Section 2 does not concern itself with the welfare of a competitor; it asks whether the monopolist’s actions were
cognizably anticompetitive. Id. at 448–450; Trinko,
540 U.S. at 407–08; see also Schor, 457 F.3d at 611–
14 (rejecting monopoly claims not tied to “normal exclusionary practices”); Ball Mem’l Hosp., Inc. v. Mut.
Hosp. Ins., Inc., 784 F.2d 1325, 1338 (7th Cir. 1986)

19

Viamedia appears to use its catchall theory as protection in
case the Court found that Interconnect Services and Ad Rep Services are not separate products for tying purposes. See R. 326 at
25 (“In particular, unlike Section 1 tying claims, Section 2 doctrine does not require Viamedia to establish the existence of separate products”). As noted earlier, the Court has assumed that
the products are separate.

264a
(“Action that injures rivals may ultimately injure consumers, but it is also perfectly consistent with competition, and to deter aggressive conduct is to deter competition. Thus the plaintiff faces a stiff burden in any
§ 2 litigation.”). For reasons explained above, and in
Viamedia I and Viamedia II, Comcast’s refusal to permit Viamedia to participate in the interconnects does
not violate the Sherman Act.
II. Even If Comcast Had Engaged in Anticompetitive Conduct, Viamedia Cannot Show
that It Caused Viamedia’s Antitrust Injury
or Damages
Even if Viamedia had presented a question of fact
as to whether Comcast engaged in tying, exclusive
dealing, or other anticompetitive conduct, its case still
fails. At summary judgment, a plaintiff must demonstrate an issue of fact with respect to each element of
its claim—including causation. See Dalton v. Teva N.
Am., 891 F.3d 687, 691 (7th Cir. 2018); O.K. Sand &
Gravel, Inc. v. Martin Marietta Techs., Inc., 36 F.3d
565, 573 (7th Cir. 1994). Viewing the record in the
light most favorable to Viamedia, there is no issue of
fact for the jury to decide regarding whether Comcast’s anticompetitive conduct caused: (1) Viamedia’s
antitrust injury, or (2) its damages.
A. Viamedia Cannot Show Antitrust Injury
To establish an antitrust injury, a plaintiff must
show that the anticompetitive conduct complained of
was “the cause-in-fact of the injury”—that is, “‘but for’
the violation, the injury would not have occurred.”
Kochert v. Greater Lafayette Health Servs., Inc., 463
F.3d 710, 718 (7th Cir. 2006) (antitrust injury must

265a
“reflect the anticompetitive effect of either the violation or of anticompetitive acts made possible by the
violation”); see also O.K. Sand & Gravel, 36 F.3d at
573 (holding that antitrust injury requires “not only
that the injury is of the type intended to be protected
by the antitrust laws, but that the violation was ‘the
cause-in-fact of the injury: that but for the violation,
the injury would not have occurred’”) (citing Greater
Rockford Energy & Tech. Corp. v. Shell Oil Co., 998
F.2d 391, 395 (7th Cir. 1993)); see also, e.g., In re
Publ’n Paper Antitrust Litig., 690 F.3d 51, 66 (2d Cir.
2012) (“to prevail on an antitrust claim, a plaintiff
must establish that ‘the injuries alleged would not
have occurred but for [the defendant’s] antitrust violation’ . . . adding necessity to the materiality requirement of our antitrust causation analysis.”) (emphasis
in original, internal citation omitted). A plaintiff,
thus, must be able to distinguish between “financial
loss from the lawful activities of a competitor” from
loss “caused by the unlawful acts of the defendant.”
MCI Commc’ns Corp. v. Am. Tel. & Tel. Co., 708 F.2d
1081, 1161 (7th Cir. 1983) (citing Brunswick Corp. v.
Pueblo Bowl-O-Mat, Inc., 429 U.S. 477, 489 (1977)).
In other words, if lawful competition “fully accounts
for” a plaintiff’s “claimed injury,” the law will “deny
any injury” because “the plaintiff’s situation would be
the same with or without the challenged restraint.”
Areeda & Hovenkamp, ANTITRUST LAW ¶ 338b–c.
In assessing whether a defendant’s anticompetitive conduct caused a plaintiff’s antitrust injury,
courts assume that the defendant acted anticompetitively. Id. ¶ 338. Here, that means assuming that
Comcast engaged in tying, exclusive dealing, or other
exclusionary and cognizably anticompetitive conduct.
So doing, Viamedia is nevertheless unable to present

266a
an issue of fact as to whether its alleged antitrust injuries resulted from that anticompetitive conduct as
opposed to Comcast’s undisputed and legal refusal to
deal.
Without exception, each injury Viamedia identifies—the lost revenue from the Chicago and Detroit
interconnects after Comcast refused to renew the
2003 agreement in 2012; lost contracts with MVPDs;
the lost revenue from the Hartford interconnect; and
the attendant business expenses and talent loss—is
fully attributable to Comcast’s decision to deny Viamedia interconnect access. Dr. Furchtgott-Roth, for
example, asserts that Viamedia’s foreclosure from the
market “flows directly from Viamedia’s inability to access” the interconnects. Furchtgott-Roth Report ¶ 90
(emphasis added). Dr. Lys, likewise, premises all of
his damages opinions on the assumption that absent
Comcast’s anticompetitive conduct Viamedia would
have had reasonable access to the interconnects. E.g.,
Lys Report ¶ 34(1)–(7). He even testified that his “entire damages estimate is based directly or indirectly
on Viamedia’s lack of access to Comcast Spotlight’s interconnect in Chicago, Detroit, and Hartford.” Comcast Ex. 7 at 235:18–236:20. Mark Lieberman, Viamedia’s CEO, similarly complains that “Viamedia lost
business and revenues as a consequence of being excluded from Comcast-operated Interconnects.” Viamedia Ex. 5 at 5. By all accounts, Viamedia’s refusal
to deal with Comcast explains entirely Viamedia’s injuries. See MCI Commc’ns Corp., 708 F.2d at 1161.
Novell is on point. In that case, a software-providing competitor of Microsoft’s, Novell, filed suit under
Section 2. Novell, 731 F.3d at 1065 (Gorsuch, J.). In
rolling out Windows 95, Microsoft had initially decided to share certain intellectual property—like

267a
namespace extensions, which allow users to search for
and open documents outside of a particular application—with independent software providers. Id. at
1067–68. It later changed course, after concluding
that not sharing the intellectual property would maximize its profits. Id. at 1068. This conduct impeded
Novell’s ability to build (and sell) software around the
extensions, and its “business suffered” because it was
delayed in launching its new software. Id. at 1069.
Unable to sustain a refusal to deal case under Aspen
Skiing and Trinko, Novell argued at summary judgment that Microsoft’s conduct was not merely a refusal to deal but an act of business deception that sufficed independently for Section 2 purposes. Id. at
1079–1080. The Tenth Circuit disagreed, concluding
that Novell lacked antitrust injury to bring such a
claim. Id. at 1080. It reasoned that even if Microsoft
had been upfront about its competitive decisions, and
engaged in nothing nearing a business tort, “Novell
and consumers still would have suffered the same alleged harm”—the delayed release of products caused
by Microsoft’s refusal to deal. Id. (emphasis in original). So too here. Viamedia’s own evidence decisively
establishes that Comcast’s refusal to deal was sufficient unto itself to cause Viamedia’s injuries.
Viamedia offers no meaningful rejoinder to this
plain fact. At most, Viamedia submits that as long as
it has established the type of injuries with which the
antitrust laws are concerned, the Court should “presume that such an injury . . . was caused by” an anticompetitive act. R. 326 at 35 (citing Publ’n Paper, 690
F.3d at 66). Even if that were true, Viamedia’s own
evidence shows that tying and exclusive dealing were
not “but for” causes of Viamedia’s injuries. Publ’n Paper, 690 F.3d at 67 (the presumption is rebuttable).
Those injuries, which Viamedia concedes stem from

268a
Comcast’s decision to deny Viamedia interconnect access in Chicago, Detroit, and Hartford, would have occurred with or without attendant tying and exclusive
dealing. Supra at 50; infra at 53–55; Furchtgott-Roth
Report ¶ 91; see generally Lys Am. Report. No evidence suggests otherwise. Apart from that argument,
Viamedia offers little to explain how it can demonstrate that anticompetitive conduct, not an independent and already-deemed legal refusal to deal, caused
its antitrust injury.20
It is black-letter law that Viamedia must show
that it would have suffered antitrust injury but for Viamedia’s anticompetitive conduct. E.g., Kochert, 463
F.3d at 718; MCI Commc’ns Corp., 708 F.2d at 1161.
Critically, Viamedia does not argue or present any evidence showing that absent tying or exclusive dealing
practices, Comcast would have felt any differently
about excluding Viamedia from the interconnects. To
the contrary, the record presents ample evidence of
Comcast’s decision to stop dealing with middlemen
and go after full-turnkey relationships with more
MVPDs. As such, in the but-for world, Comcast still
would have refused to deal with Viamedia; it just
could not further condition services or engage in anticompetitive exclusive dealing. Viamedia makes no effort to account for that but-for world, and that is the
fundamental flaw in its case.

20

In fact, Viamedia’s short shrift of the issue prompts Comcast to argue that Viamedia has waived any argument about causation and antitrust injury. R. 339 at 4 n.3.

269a
B. Viamedia Cannot Show Damages Resulting from Supposedly Anticompetitive
Conduct
Viamedia’s asserted damages suffer the same
problem. Despite the complicated nature of proving
damages causation in an antitrust case, see J. Truett
Payne Co. v. Chrysler Motors Corp., 451 U.S. 557, 566
(1981), Viamedia elected not to employ an expert to
opine on causation. Instead, Viamedia submits affidavits signed by three executives: CEO Lieberman
(Viamedia Ex. 5), co-founder and former president Jeff
Carter (Viamedia Ex. 3), and co-founder and former
CEO Todd Donnelly (Viamedia Ex. 4). Viamedia rests
primarily on these affidavits (most often, Lieberman’s), “Viamedia management project[ions],” and its
“track record with its partners” to support its notion
of what profits Viamedia would have made but for
Comcast’s anticompetitive conduct. R. 326 at 36.
1. Viamedia’s Evidence of Causation
Does Not Distinguish Between
Damages Caused by Competitive and
Anticompetitive Conduct and Thus
Fails
“When a plaintiff improperly attributes all losses
to a defendant’s illegal acts, despite the presence of
significant other factors”—like lawful competition—
”the evidence does not permit a jury to make a reasonable and principled estimate of the amount of damage.” MCI Commc’ns Corp., 708 F.2d at 1162; Areeda
& Hovenkamp, ANTITRUST LAW ¶ 675b; see also Comcast Corp. v. Behrend, 569 U.S. 27, 35 (2013) (it is an
“unremarkable premise” that a claimant is “entitled
only to damages resulting from” to the claimed anticompetitive conduct).

270a
That it is precisely what Viamedia has done. Its
evidence fails to disaggregate the damages caused by
Comcast’s lawful refusal to deal from Comcast’s supposed tying, exclusive dealing, and other exclusionary
conduct. Lieberman’s affidavit is exemplary. He attests that “Viamedia’s exclusion from” the Chicago
and Detroit “Interconnects has caused Viamedia and
its MVPD partners to lose revenues they otherwise
would have earned from Interconnect sales, which
has, in turn, reduced Viamedia’s cash flows and financial stability,” causing in turn “MVPD partners to
switch to other ad representation firms.” Viamedia
Ex. 5 at 6. It repeats similar claims for pages. See id.
at 7 (“Due to loss of access to the Chicago and Detroit
Interconnects, Viamedia was ultimately unable to
make a competitive financial offer” to RCN), 11 (complaining of the purported results of Comcast’s decision
to “deny[ ] Viamedia the ability to continue purchasing Interconnect Services on behalf of [its] MVPD clients), 13 (“If Viamedia had never been excluded from
the Interconnects Chicago, Detroit, and Hartford, I
am confident that the momentum Viamedia had in the
marketplace prior to 2012 . . .”). Dr. Lys’s damages
opinion likewise conflates the financial consequences
of Comcast’s refusal to deal with the results of Comcast’s supposedly anticompetitive conduct. See generally Lys Am. Report. He, again, admitted that his “entire damages estimate is based directly or indirectly
on Viamedia’s lack of access” to the interconnects in
Chicago, Detroit, and Hartford. Comcast Ex. 7 at
236:10–20. All of this evidence (to the extent it is admissible) attributes Viamedia’s damages to Comcast’s
decision not to permit Viamedia interconnect access—
its refusal to deal.
Under the law, Viamedia must be able to segregate the damages (to a reasonable degree, at least)

271a
caused by lawful competition from those caused by anticompetitive acts. See MCI Commc’ns Corp., 708
F.2d at 1162; see also ABA Section of Antitrust Law,
Proving Antitrust Damages: Legal and Economic Issues 13–14 (3d ed. 2017) (“courts require that the antitrust violation be the sole cause of the plaintiff’s
damages, by insisting on a but-for world that eliminates only the defendant’s unlawful conduct separately from all other sources that may also have
caused the plaintiff’s damages”). Considering them to
be one in the same, Viamedia fails to do so.21 It therefore seeks to “force” Comcast “to pay treble damages

21

Even assuming arguendo that the but-for world is a place
where Comcast decides to permit Viamedia on the interconnects
on friendly terms, the Court is dubious that Viamedia’s lay evidence of causation regarding the loss of future business (the largest part of its damages claim) would suffice. Despite Viamedia’s
pronouncements about its management team’s work (e.g., R. 326
at 40), “Viamedia’s projections” are not based on any economic
price or terms analyses (at least as far as the record is concerned). Viamedia’s refrain that it need not examine prices because the Ad Rep market is a “relationship business” is convenient; there is in fact no specific evidence showing that Viamedia
could have competed with Comcast on price. See CSF ¶¶ 116–
122 (Comcast, on average, offered better revenue shares to
MVPDs than Viamedia). Further, not a single MVPD testified
that it would have selected Viamedia but for its lack of interconnect access. Viamedia did not hire an expert to opine on causation, and lay persons are generally forbidden from doing precisely as Viamedia’s management does here—testify regarding
“hypotheticals or assumptions” about what might have happened
in the future. Gumwood HP Shopping Ptrs. L.P. v. Simon Prop.
Grp., Inc., 2017 WL 3016385, at *4 (N.D. Ind. July 17, 2017). In
short, this multimillion-dollar antitrust case is “far removed
from situations in which a causation issue is so obvious that a
plaintiff may forgo expert testimony.” Dalton, 891 F.3d at 691.
The Court, however, need not ultimately decide whether Comcast has presented sufficient evidence with respect to this part of

272a
for conduct that was determined to be entirely lawful.”
MCI Comm’ns, 708 F.2d at 1162–63.
2. Dr. Lys’s Damages Opinions Are
Inadmissible
As Dr. Lys’s Report and testimony, plus Viamedia’s representations at the Daubert hearing, make
clear, the entirety of his opinion assumes that but for
Comcast’s supposed anticompetitive practices, Viamedia would have been able to access the interconnects
and compete as it had before 2011. See, e.g., Daubert
Hr’g Tr., R. 354, at 153:24–154:5 (Viamedia’s counsel
indicating that Dr. Ly’s “assume[d] causation” and
that the question of whether those assumptions are
permissible is “a question about summary judgment”).
An expert’s testimony is inadmissible, however, if it
does not fit “the facts of the case.” Owens, 895 F.3d at
971.
Dr. Lys’s opinions are inadmissible, as they rest
on the unfounded assumption that Viamedia could
have accessed the interconnects but for Comcast’s anticompetitive conduct. See, e.g., Buscaglia v. United
States, 25 F.3d 530, 533 (7th Cir. 1994) (expert testimony may not be based on “unsupported assumptions”); see also, e.g., Craftsmen Limousine, Inc. v.
Ford Motor Co., 363 F.3d 761, 777 (8th Cir. 2004);
Concord Boat Corp. v. Brunswick Corp., 207 F.3d
1039, 1055–1057 (8th Cir. 2000); Rickman v. Deere &
Co., 36 F.3d 1093 (4th Cir. 1994); accord Brooke Group
Ltd. v. Brown & Williamson Tobacco Corp., 509 U.S.
209, 242 (1993) (“When an expert opinion is not supported by sufficient facts to validate it in the eyes of
its damages case because Viamedia has failed to meet its threshold burden to show an issue of fact as to whether the any of the
damages it seeks stem from unlawful conduct.

273a
the law, or when indisputable record facts contradict
or otherwise render the opinion unreasonable, it cannot support a jury’s verdict.”); Areeda & Hovenkamp,
ANTITRUST LAW ¶ 657b (“If the plaintiff’s expert’s
damages study cannot segregate lawful from unlawful
practices, then no damages may be awarded on the
basis of that study.”).
3. Viamedia’s Claim
Relief Fails

for

Injunctive

On a final note, Viamedia also requests injunctive
relief from Comcast’s conduct. R. 40 at 50. As an initial and obvious matter, Viamedia is not entitled to
this relief because it has not shown an issue of fact as
to whether Comcast engaged in anticompetitive conduct or that any such conduct caused it injury or damages. But the Court addresses Viamedia’s request—
that it enjoin Comcast from “any effort to exclude Viamedia or its MVPD clients from participating on a
fair and open basis in the Interconnects”—because it,
too, betrays the fundamental flaw in its case.
Antitrust law does not allow the injunctive relief
Viamedia seeks. See Areeda & Hovenkamp, ANTITRUST LAW ¶ 774c. Trinko and Linkline prohibit enforced sharing absent a duty to deal, and for good reason. Forced sharing “lessen[s] the incentive for the
monopolist, the rival, or both to invest,” it requires
courts to act as “central planners” over the proper
terms of such sharing, and it can compel the “supreme
evil of antitrust: collusion.” Trinko, 540 U.S. at 407–
08; see also Easterbrook, The Chicago School & Exclusionary Conduct, at 441–42; Richard A. Posner, ANTITRUST LAW 242 (2d ed. 2001) (“Where the refusal to
deal is unilateral, the only effective remedy is an order
that defendant do business with the victim of the refusal to deal. The antitrust court becomes charged

274a
with the supervision of an ongoing commercial relationship, a function that courts are not equipped to
perform effectively.”).
Indeed, while examining
claims similar to the ones Viamedia brings, the Seventh Circuit recently warned about “fail[ing] to adhere to the lessons of” Trinko and Linkline. Authenticom, 874 F.3d at 1021. In doing so, it vacated a preliminary injunction that forced two firms that dominated upstream markets to allow their downstream
competitors access to their systems. The Seventh Circuit noted that if there is a tie, “the proper remedy
would be to enjoin the tie”—not, as Viamedia requests, “to create a duty to deal.” Id. at 1026.
Viamedia brought this case in an attempt to
force—under Court order—Comcast to provide it access to the interconnects on favorable terms. Antitrust law does not oblige.

275a
CONCLUSION
For the foregoing reasons, the Court grants Comcast’s motion for summary judgment, grants in part
Comcast’s motion to exclude Dr. Furchtgott-Roth’s
opinions and denies the remainder as moot, grants
Comcast’s motion to exclude Dr. Lys’s opinions, and
enters judgment in Comcast’s favor.
Dated: August 16, 2018 ENTERED
_/s/ Amy J. St. Eve.______
AMY J. ST. EVE
United States Circuit
Court Judge
Sitting by Designation

276a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
VIAMEDIA, INC.,
Plaintiff(s),
v.
COMCAST CORPORATION
AND COMCAST SPOTLIGHT,
INC.,

Case No.
16-cv-5486
Judge Amy J. St.
Eve

Defendant(s).

JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):
 in favor of plaintiff(s) and
against defendant(s) in
the amount of $
,
which  includes pre–judgment interest.
 does not include pre–judgment
interest.
Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).

277a

 in favor of defendant(s) Comcast Corporation
and Comcast Spotlight, Inc. and against plaintiff(s) Viamedia, Inc.
Defendant(s) shall recover costs from plaintiff(s).

 other:
This action was (check one):
 tried by a jury with Judge
presiding, and the
jury has rendered a verdict.
 tried by Judge
without a jury and the above
decision was reached.
 decided by Judge Amy J. St. Eve on a motion for
summary judgment.

Date: 8/16/2018

Thomas G. Bruton, Clerk of
Court
Katie Franc, Deputy Clerk

278a
APPENDIX F
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
April 7, 2020
Before
WILLIAM J. BAUER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
No. 18-2852
VIAMEDIA, INC.,
Plaintiff-Appellant,
v.

COMCAST CORPORATION,
ET AL.,
Defendants-Appellees.

Appeal from the
United States
District Court for
the Northern
District of Illinois,
Eastern Division.
No. 1:16-cv-05486
Amy J. St. Eve,
Judge.

ORDER
On consideration of defendants’ petition for rehearing en banc, filed March 23, 2020, no judge in active service has requested a vote on the petition for

279a
rehearing en banc, and all judges on the original panel
have voted to deny the petition for rehearing.⁎
Accordingly, the petition for rehearing en banc
filed by defendants is DENIED.

⁎

Judge Flaum, Judge Rovner, and Judge St. Eve took no part
in the consideration of the petition for rehearing en banc.

280a
APPENDIX G
STATUTORY PROVISIONS
INVOLVED
15 U.S.C. § 1. Trusts, etc., in restraint of trade
illegal; penalty
Every contract, combination in the form of trust
or otherwise, or conspiracy, in restraint of trade or
commerce among the several States, or with foreign
nations, is declared to be illegal. Every person who
shall make any contract or engage in any combination
or conspiracy hereby declared to be illegal shall be
deemed guilty of a felony, and, on conviction thereof,
shall be punished by fine not exceeding $100,000,000
if a corporation, or, if any other person, $1,000,000, or
by imprisonment not exceeding 10 years, or by both
said punishments, in the discretion of the court.
*

*

*

15 U.S.C. § 2. Monopolizing trade a felony;
penalty
Every person who shall monopolize, or attempt to
monopolize, or combine or conspire with any other
person or persons, to monopolize any part of the trade
or commerce among the several States, or with foreign
nations, shall be deemed guilty of a felony, and, on
conviction thereof, shall be punished by fine not exceeding $100,000,000 if a corporation, or, if any other
person, $1,000,000, or by imprisonment not exceeding
10 years, or by both said punishments, in the discretion of the court.

281a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF ILLINOIS
VIAMEDIA, INC.,
Plaintiff,
v.
COMCAST
CORPORATION, and
COMCAST
SPOTLIGHT, LP,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No. 16-cv-5486
Hon. Amy J. St. Eve
FIRST AMENDED
COMPLAINT
JURY TRIAL
DEMANDED

SUMMARY OF ACTION
1. Plaintiff Viamedia, Inc. (“Viamedia”) represents cable television companies in the sale, placement, and distribution of Spot Cable Advertising, an
important source of revenue for cable television systems. In this business, Viamedia competes directly
with Defendant Comcast Spotlight, L.P. (“Comcast
Spotlight”), a wholly-owned subsidiary of Defendant
Comcast Corporation (“Comcast”). This lawsuit arises
from Comcast’s and Comcast Spotlight’s intentional
and anticompetitive efforts to deny Viamedia the ability to compete and, thereby, to enable Comcast and

282a
Comcast Spotlight to acquire and maintain monopolies in the Spot Cable Advertising Representation
market in geographic regions in which Comcast provides cable services.
2. Through its control of technical and business
infrastructure that is critical for the sale of Spot Cable
Advertising time, Comcast has impaired the ability of
Viamedia and other Spot Cable Advertising Representatives to compete with Comcast Spotlight. Comcast has used its unilateral power to admit or deny
competing cable television companies access to this infrastructure and condition access to this infrastructure upon those companies’ exclusive use of Comcast
Spotlight as their Spot Cable Advertising Representative. Comcast has also banned any competing company that wishes to access this infrastructure from doing business with Viamedia. This anticompetitive
conduct has harmed not only Viamedia, but also competition in the Spot Cable Advertising Representation
market more generally in areas in which Comcast provides cable services, as well as harmed small business
advertisers and those cable television companies that
compete with Comcast to provide cable television service.
3. The Spot Cable Advertising industry generates over $5.4 billion in television advertising revenues annually through the sale of Spot Cable Advertising time during the two to three minute commercial
breaks on cable networks that are reserved for sale by
local cable television service providers.
4. Cable operators in distinct regions of the country—known as Designated Market Areas (“DMAs”)—
have historically made use of critical technical and
business infrastructure called “Interconnects” to market, organize, and sell Spot Cable Advertising time to

283a
regional and national advertisers. Interconnects were
created to allow regional and national advertisers the
ability to buy Spot Cable Advertising Availabilities
(“Avails”) on all cable television service providers
within a DMA simultaneously. As such, the Interconnects function as the central marketplace around
which regional Spot Cable Advertising purchases are
conducted. Cable television service providers have
also used critical infrastructure called NCC to market, organize, and sell national Spot Cable Advertising time to national advertisers.
5. Maintaining open access to this critical infrastructure for all cable television service providers and
their third-party sales representatives has been a
longstanding practice in the industry, to enable ease
of access for national and regional advertisers.
6. Comcast has acknowledged that access to the
Interconnects is crucial to efficient and effective competition. In 2014, a senior Comcast executive testified
before a congressional committee during Comcast’s
failed attempt to acquire Time Warner Cable and,
when pressed by the Committee Chairman to unequivocally state that Comcast would not “exclude competitors or advertising from the Interconnects,” the
Comcast executive unambiguously testified that it
would not.
7. In response to press reports that the U.S. Department of Justice has launched a formal investigation into whether Comcast’s business practices have
hindered competition in Spot Cable Advertising, a
Comcast spokesperson was quoted as saying that Interconnects “increase efficiency and help keep costs
down for advertisers” and that Interconnects are
“good for advertisers and consumers.”

284a
8. Comcast is the world’s largest broadcast and
cable television provider by revenue, with annual revenues of nearly $70 billion and a market capitalization valued at more than $155 billion. It serves more
than 22 million cable and high-speed Internet subscribers. It owns Universal Studios and theme parks,
the Fandango online ticketing service, the NBC and
Telemundo television networks, 10 NBC affiliate television stations in different cities (including the six top
television markets), 17 Telemundo affiliate television
stations, nine regional sports networks, and 16 cable
programming networks. Through Comcast Spotlight,
Comcast is also the country’s largest Spot Cable Advertising Representative, controlling Spot Cable Advertising for over 35 million cable subscriber households nationwide (or more than half of the entire cable
industry) by virtue of its representation agreements
with other cable television service providers.
9. Viamedia is an independent third-party Spot
Cable Advertising Representative, representing primarily small and medium-sized independent cable television service providers that opt not to maintain
their own in-house advertising sales organizations for
purposes of selling and managing their Spot Cable Advertising. Viamedia employs roughly 360 people, has
approximately 7,000 advertisers, and its clients collectively serve approximately 2.9 million subscriber
households across the United States.
10. Through a series of acquisitions, Comcast has
gained control of the Interconnects in 15 of the 25
most populous DMAs (and 26 of the 50 most populous
DMAs) in the United States. With that control, Comcast has undertaken to fundamentally and anticompetitively change how Interconnects operate by excluding competing third-party sales representatives

285a
like Viamedia and their clients from the Interconnects.
11. Comcast has excluded Viamedia and its clients from the Interconnects in large DMAs, such as
Chicago and Detroit, where Viamedia had previously
participated in Interconnect sales for more than a decade. In other DMAs, Comcast has refused to allow Viamedia to participate in Comcast-controlled Interconnects for purposes of representing Viamedia’s clients.
12. Comcast has also used its control over the Interconnects—and its ability to selectively exclude or
threaten to exclude others from the Interconnects—to
coerce cable television service providers, such as RCN
and WOW, to end their business relationships with
Viamedia and transfer their business to Comcast
Spotlight. In such cases, Comcast and Comcast Spotlight informed rival cable companies that they would
only be permitted to access the Interconnects if they
ceased transacting business with Viamedia.
13. In the Hartford, CT, DMA, Comcast has refused to allow cable operators represented by Viamedia to access the Interconnect, even though the systems owned by these operators had, for years, freely
accessed the Interconnect prior to their entering a
business relationship with Viamedia.
14. Comcast is unlawfully exercising its control
over Interconnects in an attempt to drive Viamedia
and other independent Spot Cable Advertising Representatives out of business by denying or threatening
to deny cable television service providers access to Interconnects if those providers are represented by anyone other than Comcast Spotlight. Comcast has acted
with the specific intent to monopolize the market for
representing cable television service providers and

286a
with the specific intent to enable Comcast and Comcast Spotlight to control all Spot Cable Advertising
sales in each of the DMAs where Comcast provides cable services.
15. As is alleged further below, Comcast has employed other tactics along with its abuse of its power
over Interconnects in furtherance of its anticompetitive agenda. For example, Comcast has used acquisitions to gain control of NCC, the lone national clearinghouse for Spot Cable Advertising sales. On information and belief, Comcast is in the process of leveraging its control over NCC to anticompetitively
change the way that NCC operates and to embark on
a strategy to exclude or threaten to exclude clients of
Comcast Spotlight’s competitors from NCC, much as
Comcast has done with Interconnects.
16. Comcast’s and Comcast Spotlight’s exclusionary conduct harms competition and continues to injure Viamedia, causing losses to Viamedia’s business
of tens of millions of dollars, and not less than $75 million, in violation of state and federal antitrust statutes
and other laws.
PARTIES
17. Plaintiff Viamedia Inc. is a Pennsylvania corporation with offices in New York, New York, and Lexington, Kentucky. Viamedia is the largest independent Spot Cable Advertising Representative in the
United States, meaning that it is the largest representative firm that is not wholly owned and controlled
by a cable television service provider such as Comcast.
At present, Viamedia sells Spot Cable Advertising inventory on behalf of more than 60 small and independent cable television service providers that collectively

287a
serve approximately 2.9 million video subscribers
across the United States.
18. Defendant Comcast Corporation (“Comcast”)
is a Pennsylvania corporation with its headquarters
and principal place of business in Philadelphia, Pennsylvania. Comcast operates across the United States
and transacts a substantial amount of business in the
Northern District of Illinois, where it is the dominant
provider of paid television and broadband internet
services.
19. Defendant Comcast Spotlight LP (“Comcast
Spotlight”) is a Delaware corporation and a wholly
owned subsidiary of Comcast, with offices in New
York, New York. Comcast Spotlight operates across
the United States and transacts a substantial amount
of business in the Northern District of Illinois, where
Comcast controls the Interconnect for the Chicago
DMA. Through Comcast Spotlight, Comcast provides
Spot Cable Advertising Representative services to
other cable television service providers in the Northern District of Illinois and throughout the country.
Based on its exclusive control of all Avails sold by
Comcast and the competitor cable television providers
it represents, Comcast Spotlight controls the Spot Cable Advertising for more than 35 million cable subscriber households across the United States. For the
same reason, Comcast Spotlight today controls 100
percent of all Spot Cable Advertising sold in the Chicago DMA.
JURISDICTION AND VENUE
20. In this action, Viamedia asserts violations of
federal antitrust laws, including Section 2 of the Sherman Act, 15 U.S.C. § 2, against Comcast. Viamedia
seeks monetary and equitable relief under those laws

288a
and Sections 4 and 16 of the Clayton Act, 15 U.S.C.
§§ 15 & 26. Viamedia also asserts claims for violations of state antitrust laws and tortious interference
with a business expectancy against Defendants.
21. This Court has subject matter jurisdiction
over all claims herein, the bulk of which arise under
federal law and present federal questions, pursuant to
28 U.S.C. §§ 1331, 1337(a), 1367(a), 2201-02, and 35
U.S.C. § 1, et seq.
22. Venue is proper in this District pursuant to 28
U.S.C. § 1391, because a substantial portion of the
acts and omissions giving rise to Viamedia’s claims occurred here.
MULTI-CHANNEL VIDEO PROGRAMMING
AND SPOT CABLE ADVERTISING SERVICES
23. Tens of millions of households in the United
States subscribe to in-home multi-channel cable video
programming service, often colloquially referred to as
“cable television service.” Cable television service is
provided by a number of multichannel video programming distributors (“MVPDs”), which range in size, geographic reach, and number of subscribers. “MVPD”
is generally used to describe both conventional cable
television companies and other types of video program
providers, such as telecommunications and satellitebased companies that provide similar services.
24. Of the MVPDs, Defendant Comcast is the one
of the largest in the United States, and it dominates
many DMAs. A DMA is a regional viewing area used
to measure television ratings. Nielsen Market Research divides the United States into 210 separate
DMAs, which represent distinct metropolitan areas.
For example, the Chicago DMA—which includes all of
Northeast Illinois and Northwest Indiana—is the

289a
third largest in the country, and includes more than
8.2 million households. In the Chicago DMA, approximately three out of every four cable households are
Comcast subscribers.
25. There are also smaller MVPDs that provide
multi-channel video programming services. For example, Wide Open West (“WOW”) and RCN Corporation (“RCN”) are two independent MVPDs that have
historically competed with Comcast to supply cable
television services to subscribers in many of the same
DMAs, including the Chicago DMA.
26. These smaller MVPDs generally generate revenue in two ways. First, they charge a subscription
fee to their subscribers in exchange for providing cable
(and related telecommunications and/or Internet) service; and second, they sell advertising time inventory
to advertisers in the form of Spot Cable Advertising.
27. MVPDs enter into carriage agreements with
cable networks—familiar examples include, among
many others, CNBC, ESPN, MTV, and Comedy Central—under which the MVPDs pay the cable networks
a fee to carry their programming. As part of these carriage agreements, MVPDs are given the right to sell a
certain designated percentage of advertising time,
typically two to three minutes per hour on the network, to advertisers who wish to reach the MVPD’s
subscribers in a particular geographic area. This reserved advertising time is referred to as “Spot Cable
Advertising.”
28. The ability to sell Spot Cable Advertising is
crucial to the economic survival of independent
MVPDs, which must pay increasingly high cable programming costs.

290a
29. For purposes of this Complaint (and consistent with industry usage), a 15-second, 30-second,
or one-minute block of designated MVPD advertising
inventory is described as a “Spot Cable Advertising
Avail” or a “Spot Cable Avail.”
30. A Spot Cable Avail differs from traditional national cable advertising time, which is sold directly by
the cable network to the advertiser. Advertising sold
by the cable network airs simultaneously everywhere
that the network is carried throughout the United
States. For example, an advertisement sold by CNBC
during a political debate will air simultaneously everywhere in the country that CNBC is aired. Spot Cable Avails on CNBC, on the other hand, are separately
controlled by each of the various MVPDs that carry
the network and, therefore, are distributed only to the
subscribers of that MVPD.
31. Because of this local distribution, Spot Cable
Advertising offers significant advantages to advertisers. It allows them to “geo-target” their prospective
customers, meaning that the advertiser does not have
to buy advertising on a cable network throughout the
entire nation, but can instead select a particular geographic area to display the ad by buying Spot Cable
Avails from an MVPD serving that area. This targeted area is sometimes called an “ad zone.”
32. Geo-targeting allows advertisers to take advantage of the effectiveness of cable television advertising while maximizing the efficient use of their advertising dollars by focusing on specific geographic
targets for their message. Using the CNBC debate example, geo-targeting would allow an advertiser to
reach viewers in a particular geographic area—such
as early voting states like Iowa or New Hampshire or

291a
even a single congressional district—without having
to advertise to the debate’s entire national audience.
33. Geo-targeting is particularly important to local and regional businesses (and to candidates for
public office), whose consumer base (or target voter)
does not fit the entire national footprint of a cable network. For example, a local grocery chain or auto
dealer can effectively and efficiently advertise by purchasing Spot Cable Avails from MVPDs in the DMA
where it operates, but will not generally purchase national advertising from a cable network.
34. Spot Cable Avails are generally sold to advertisers in three ways. First, they are aggregated and
sold on a regional basis through a central clearinghouse called an Interconnect, each of which covers an
entire DMA. Second, they are aggregated and sold on
a multi-regional basis through National Cable Communications LLC (“NCC”), which allows Spot Cable
Avails to be combined among multiple MVPDs and
aired in multiple DMAs simultaneously. Third, they
are sold in local transactions, in which individual Spot
Cable Avails are purchased directly from a single
MVPD or its representative by local businesses to be
aired in a specific ad zone.
A. Regional
Spot
Cable
Through Interconnects

Advertising

35. Regional Spot Cable Advertising refers to
sales conducted through the Interconnects, which act
as clearinghouses that aggregate Spot Cable Avails
from the MVPDs in a DMA and sell packaged Avails
to advertisers in such a way that the purchased advertisements will run on all MVPDs across a given
DMA simultaneously. Each MVPD in a DMA has historically participated in that DMA’s Interconnect by

292a
making a portion of its Spot Cable Advertising inventory available through the Interconnect. The MVPDs
receive the revenues generated from such regional
sales on approximately a pro rata basis and pay a fee
to the Interconnect in exchange for its coordination
services.
36. Prior to the formation of Interconnects, many
advertisers found it difficult, if not impossible, to negotiate separately with each individual MVPD in a
DMA in order to coordinate their advertisements
across multiple MVPDs and ensure that their advertisements would run at the same time on the same cable network across the entire DMA simultaneously.
Interconnects were first developed in the 1990s as cooperative organizations among multiple MVPDs in order to solve this problem by providing the logistical
and technical coordination necessary to run DMAwide advertisements across all of the MVPDs in a
DMA at once.
37. In the absence of exclusionary conduct, the Interconnect functions as the central marketplace
around which all regional Spot Cable Advertising
sales in the DMA are transacted. Among other things,
an Interconnect provides a business and technical interface that allows MVPDs to list and sell Spot Cable
Avails in a single platform, providing regional advertisers with a “one-stop shop” where they can buy
same-time Avails from all the MVPDs in the DMA. As
a result, each DMA has typically contained just one
Interconnect, in which all of the MVPDs operating
within that DMA have participated.
38. Until Comcast began its anticompetitive campaign, Interconnects were open to all MVPDs and
their representatives, and MVPDs were encouraged to
participate in order to maximize the numbers of

293a
households advertisers could reach in that DMA. In
this way, the Interconnects provided a service—a single point of access for broad-based regional Spot Cable
Advertising—that did not exist prior to their creation.
39. As Comcast itself has described the process,
“interconnects were formed voluntarily by MVPDs in
markets to pool their resources and offer DMA-wide
selling of cable/MVPD advertising inventory . . . Otherwise, advertisers trying to cobble together a widefootprint MVPD-based advertising campaign would
have to go MVPD-by-MVPD.” As Comcast further explained, “[t]he value of an interconnect increases as
more MVPDs in an area participate, so our incentive
is to have as many MVPDs participate as possible.”
40. Although they participate jointly in Interconnects for the purpose of facilitating regional sales,
MVPD participants in a given Interconnect also compete with one another for cable subscribers as well as
Spot Cable Advertising revenue.
41. Historically, many independent MVPDs have
allocated roughly a third of their Spot Cable Avail inventories to regional advertiser sales through Interconnects and have vigorously competed with Comcast
and each other for Spot Cable Advertising sales. For
this reason, the Interconnects were originally designed to avoid giving preferential treatment to any
single MVPD participant, and the dominant MVPD in
the region was not able to exercise its influence over
the Interconnect to the detriment of other participating MVPDs.
42. At the time of their formation, oversight of the
Interconnects was performed by boards of directors
that were elected by a vote of all the MVPD members
of the Interconnect. Regular board meetings were

294a
held and decisions were based upon majority votes,
with the best interests of all MVPDs in mind. In form
and practice, Interconnects avoided discriminating
among or disadvantaging individual MVPD or representative members.
43. Access to Interconnects is critical for MVPDs,
enabling them to participate in regional Spot Cable
Advertising sales and to receive revenue generated
from regional sales.
44. Over time, and as a result of industry consolidation, regional advertising through the Interconnects in each given DMA has come to be managed and
controlled by the largest MVPD in the DMA, which
charges a fee to other participating MVPDs or their
representatives. Due to its size, Comcast today controls the Interconnects in 15 of the nation’s 25 largest
television markets and 26 of the Interconnects in the
nation’s top 50 television markets.
45. Interconnects controlled by dominant MVPDs
other than Comcast generally continue to treat all
participating MVPDs equally by, for example, charging the same fees to all MVPDs and ensuring all
MVPDs or their representatives have open and equal
access to the Interconnect.
46. Interconnect managers—including Comcast—have promised Congress and federal regulators
not to exclude their competitors from participating in
Interconnects, acknowledging that the Interconnects
constitute critical infrastructure that should be open
to all participants. One senior Comcast executive testified before the House Subcommittee on Antitrust
that Comcast would not exclude any competitor from
any Interconnect that it controlled. Implicit in this
commitment is the recognition that terms of access to

295a
and participation in the Interconnects ought to be applied by Interconnect managers in a nondiscriminatory manner, allowing for open access to the Interconnects for all MVPDs and their sales representatives
that wish to participate.
47. In each DMA, the existing regional Interconnect is the only viable and efficient option for advertisers that wish to purchase Spot Cable Advertising
across the entire DMA. Due to their historical position and wide participation, the Interconnects have no
competitors that offer a similar ability to sell regional
Spot Cable Avails across multiple MVPDs in a DMA.
48. Nor could a competing Interconnect be developed. In each region, the existing Interconnect already controls all or close to all of the available Spot
Cable Avail inventory, such that there would not be
enough remaining inventory for a competitor to meaningfully compete for regional sales or to achieve simultaneity across multiple MVPDs in a DMA.
B. National
Spot
Through NCC

Cable

Advertising

49. National Spot Cable Advertising refers to
sales conducted through NCC, the national clearinghouse that has historically functioned on a multiDMA level in much the same way that the Interconnects have functioned on a single-DMA level.
50. Formed in 1981 as a joint venture among the
five largest MVPDs that existed at the time, NCC acts
as the central clearinghouse for advertisers seeking to
place Spot Cable Advertising in multiple DMAs simultaneously. As a result of its acquisitions of other
MVPDs over the past 20 years, Comcast now owns 60
percent of NCC. By virtue of this majority ownership

296a
position, Comcast has the ability to effectively control
NCC.
51. NCC provides a “one-stop shop” for advertisers seeking to advertise on a national or multi-regional basis by aggregating Spot Cable Avails from
MVPDs across multiple DMAs simultaneously. NCC,
therefore, functions as the central marketplace
around which all national and multi-regional Spot Cable Advertising sales are conducted.
52. Historically, NCC has had agreements in
place with virtually every MVPD or its representative
in all 210 DMAs across the United States, including
major markets such as Chicago. In its promotional
materials, NCC states that its participating members
cover 98 percent of all multichannel television households in the United States. Each participating MVPD
or its representative pays a fee to NCC. Due to its
broad participation base, which includes nearly all
MVPDs and representatives across the country, NCC
has become the lone point-of-contact for advertisers
seeking to purchase Spot Cable Avails across multiple
MVPDs in multiple DMAs simultaneously.
53. NCC’s aggregation of Spot Cable Avails from
multiple MVPDs across the country allows advertisers to combine the broad reach of a national advertising campaign with the geo-targeting ability of Spot
Cable Advertising. For example, an advertiser for a
four-wheel-drive vehicle can use the NCC to simultaneously target multiple Northern DMAs—Chicago,
Boston, New York—where snowy conditions are likely
to make such a vehicle more attractive to potential
buyers.
54. Buying through NCC is the only practical option for advertisers that wish to purchase Spot Cable

297a
Advertising across multiple DMAs, and such advertisers have no choice but to use it. NCC has no competitors.
55. To attempt to build such an inventory, a
would-be competitor would have to simultaneously coordinate advertising purchases across multiple geographies and multiple MVPDs in each region, something which is impossible without NCC’s existing infrastructure. Even if the would-be competitor could
build the necessary infrastructure, NCC already controls so much of the available Spot Cable Advertising
inventory—through its existing agreements with virtually every MVPD in the country—that there would
not be enough remaining inventory for a competitor to
offer the ability to display ads simultaneously across
multiple DMAs, which is one of the critical goals of
national Spot Cable Advertising.
56. For these reasons, NCC long ago became the
only functional clearinghouse for all multi-DMA Spot
Cable Advertising sales in the United States.
57. There is a close technical and operational relationship between NCC and Interconnects.
58. Access to NCC is critical for all MVPDs, enabling them to participate in national Spot Cable Advertising sales and to share in the revenue generated
from national sales.
C. Local Spot Cable Advertising
59. Local Spot Cable Advertising refers to Spot
Cable Advertising sales that do not involve an Interconnect or NCC acting as an intermediary. In these
local sales, an advertiser deals directly with a single
MVPD or its representative to purchase those Spot
Cable Avails that run in a specific number of the
MVPD’s ad zones.

298a
60. Each DMA is divided into dozens of different
ad zones, allowing advertisements to be displayed on
a neighborhood-by-neighborhood or even a block-byblock basis. The division of its service area into ad
zones allows a single MVPD to run multiple advertisements at the same time in different areas within its
own MVPD footprint.
61. Local Spot Cable Advertising, therefore, is
well-suited to small businesses and other advertisers
with narrowly targeted geographic audiences. For example, a local hardware store might wish to advertise
only to cable subscribers within a several-block radius
of its location. Local Spot Cable Advertising sales
would allow the store to purchase Avails in the desired
ad zones directly from the MVPD at relatively low
overall price.
62. Because Local Spot Cable Advertisements
reach the narrowest audience, they are generally less
expensive to advertisers than regional or national
Spot Cable Advertising through an Interconnect or
NCC.
63. From the perspective of local and small businesses, Local Spot Cable Advertisements are a costeffective way to promote their businesses on television
in parity with larger national and regional advertisers. By allowing small businesses—like the local
hardware store—to purchase Avails on cable networks alongside national or regional chain competitors within a targeted ad zone, Local Spot Cable Advertising allows small businesses to more affordably
and efficiently compete in those targeted zones in
which they operate.
64. Historically, local Spot Cable Advertising has
been an area of significant competition among

299a
MVPDs. This competition has benefitted small business advertisers by reducing the price of local Spot Cable Advertising and giving them multiple opportunities to purchase local Spot Cable Advertising in specific ad zones. Such competition is eliminated when
one MVPD is able to control its competitors’ Spot Cable Avails.
D. The Need For Access To Regional,
National, and Local Sales Platforms
65. In order to have a meaningful opportunity to
sell its entire inventory of Spot Cable Avails to advertisers, an MVPD or its representative must have access to all three tiers of the system described above.
66. Regional sales through Interconnects can typically account for approximately one third to one half
of a given MVPD’s Spot Cable Advertising sales.
These sales generate a significant portion of an
MVPD’s total advertising revenue. Interconnects,
therefore, are important pieces of infrastructure for
allowing MVPDs to maximize their Spot Cable Advertising revenue.
67. National or multi-regional sales through NCC
can typically fill up to one third of a given MVPD’s
Spot Cable Avail inventory. NCC, therefore, is also an
important piece of infrastructure for allowing MVPDs
to maximize their Spot Cable Advertising revenue.
68. Local Spot Cable Advertising sales generally
account for the remaining approximately one third of
a given MVPD’s Spot Cable Advertising sales.
69. Independent MVPDs rely heavily on all three
tiers of advertising revenue in order to remain competitive with large competitors like Comcast. These
independent MVPDs experience a substantial loss of
revenue when they are excluded from participating in

300a
the Interconnects, making access to the Interconnects
crucial for their business.
THE MARKET FOR SPOT CABLE
ADVERTISING REPRESENTATION
70. Planning and coordinating an MVPD’s Spot
Cable Advertising transactions across the three tiers
of the sales system—including identifying the buyers
and achieving favorable business terms for transactions in each of these tiers—is often complex and time
consuming. Organizing, marketing, and selling Spot
Cable Advertising on behalf of MVPDs, therefore,
takes a substantial amount of specialized knowledge,
infrastructure, resources, and technical ability.
71. Some of the largest MVPDs—such as Comcast—devote entire subsidiary organizations to directing and organizing their Spot Cable Advertisement
sales operations. But most independent MVPDs do
not have the resources to invest in the highly-specialized infrastructure, equipment, staff, and expertise
necessary to run their own in-house Spot Cable Advertising sales operations.
72. As a result, there is a market for the provision
of third-party Spot Cable Advertising Representation
services to independent MVPDs, in which Viamedia
participates. In this market, third-party representative firms contract with MVPDs to assume responsibility for their Spot Cable Advertising for the purpose
of marketing and selling their Spot Cable Avail inventory to national, regional, and local advertisers. After
handling all aspects of such sales, the third-party representative firm generally retains a share of the revenue generated by the ad sales and pays the remaining
portion to the MVPD client.

301a
73. In order to compete in this market and to sell
Spot Cable Avails effectively, a representative firm
must have access to the Interconnects and NCC on behalf of it clients, as these are the only existing infrastructure for advertisers who wish to place regional
ads and the only points-of-contact for advertisers
seeking to buy Spot Cable Avails on a regional basis.
74. Viamedia is in the business of representing
MVPD clients for the purpose of selling their Spot Cable Avails. In this regard, Viamedia has long provided
its MVPD clients with the necessary sales, marketing,
and technology expertise and support to sell their Spot
Cable Avails to local, regional, and national advertisers, including by accessing and participating in the Interconnects and NCC.
75. Viamedia offers its MVPD clients complete
turn-key advertising sales, spot insertion, encoding,
validation, IT, monitoring, traffic, billing, and collection services. These constitute all of the services that
an independent MVPD would otherwise need to develop internally in order to sell, bill for, and insert
Spot Cable Advertisements into its programming on
its own.
76. Viamedia operates in more than 70 DMAs
across the United States, representing more than 60
distinct MVPD clients. These MVPDs vary in size and
sophistication, and range from a few thousand subscribers to several hundred thousand. All of them
have made a decision to outsource their Spot Cable
Advertising sales functions to Viamedia rather than
to invest in such functions internally. Historically,
many have also decided that they do not want to cede
control of their Spot Cable Avails to a competitor such
as Comcast.

302a
77. Viamedia inserts about one million advertisements per day for over 7,000 advertisers nationwide.
However, Viamedia’s MVPD clients often account for
only a small percentage of Spot Cable Advertising
Avails in any given DMA.
78. Comcast is the dominant MVPD in many of
the DMAs where Viamedia’s MVPD clients operate.
Viamedia’s MVPD clients, therefore, have historically
competed directly with Comcast to provide multichannel video programming services to subscribers
and to sell Spot Cable Avails to advertisers.
79. Comcast Spotlight competes with Viamedia to
represent independent MVPDs for purposes of controlling and selling these competing MVPDs’ Spot Cable Advertising to be aired in the competing MVPDs’
subscriber households in exchange for a share of the
advertising sales revenue.
80. In this way, although Comcast directly competes with independent MVPDs for subscribers and
advertising sales, it is also simultaneously seeks to
represent those same MVPDs—and in many cases is
representing them—for purposes of assuming control
of and selling their Spot Cable Avail inventories.
81. As opposed to Comcast Spotlight, Viamedia’s
status as an independent third-party representative
offers a number of pro-competitive advantages to
MVPD clients. Many small MVPDs are simply more
comfortable giving control of their Spot Cable Avail
inventory to an independent representative that is not
wholly owned and controlled by a competitor.
82. Viamedia’s independence allows it to focus on
obtaining both numerous local advertisers and a fair
share of advertising revenue for its MVPD clients in
Interconnects, which often involves monitoring and,

303a
when appropriate, challenging the decisions of Interconnects on behalf of its MVPD clients.
83. For these reasons, on a level playing field and
absent any coercion or exclusion by Comcast, a substantial number of independent MVPDs would elect to
use Viamedia—or some other independent firm—as
their Spot Cable Advertising Representative instead
of Comcast Spotlight.
84. Comcast has abused its control of Interconnects and NCC to avoid having to fairly compete with
Viamedia (and other independent firms) on a level
playing field. Instead, Comcast has threatened to exclude and has actually excluded Viamedia and its
MVPD clients from accessing the Interconnects and
NCC as a means of stifling competition in the Spot Cable Advertising Representation market and achieving
Comcast’s other anticompetitive goals.
COMCAST’S DOMINANT ROLE
IN CABLE ADVERTISING
85. Comcast Spotlight is the largest Spot Cable
Advertising Representation firm in the United States.
It controls 100 percent of all Spot Cable Advertising
Avails sold on Comcast’s own 22 million subscriber cable system, and through its third-party representation
of other MVPDs, Comcast Spotlight also controls the
Spot Cable Avails for more than 13 million additional
subscribers. By virtue of its contracts with the
MVPDs it represents, Comcast and Comcast Spotlight
make all significant decisions about how these Spot
Cable Avails are sold.
86. Comcast’s dominance is even more pronounced in specific large-market DMAs. For example,
in the Chicago DMA, Comcast manages the Interconnect and—as a result of the conduct described below—

304a
Comcast controls approximately 100 percent of all
Spot Cable Advertising Avails available for sale in
that market.
87. In the Detroit DMA, Comcast manages the Interconnect and—as a result of the conduct described
herein—Comcast controls approximately 100 percent
of all Spot Cable Advertising Avails available for sale.
88. In the Philadelphia DMA, Comcast manages
the Interconnect and—as a result of the conduct described herein—Comcast controls approximately 98
percent of all Spot Cable Advertising Avails available
for sale.
89. In the Boston DMA, Comcast manages the Interconnect and—as a result of the conduct described
herein—Comcast controls approximately 98 percent
of all Spot Cable Advertising Avails available for sale.
90. In the Washington, DC, DMA, Comcast manages the Interconnect and—as a result of the conduct
described herein—Comcast controls approximately
100 percent of all Spot Cable Advertising Avails available for sale.
91. In the Denver DMA, Comcast manages the Interconnect and controls approximately 93 percent of
all Spot Cable Advertising Avails available for sale.
92. In the Seattle-Tacoma DMA, Comcast manages the Interconnect and controls approximately 84
percent of all Spot Cable Advertising Avails available
for sale.
93. In the Pittsburgh DMA, Comcast manages the
Interconnect and controls approximately 96 percent of
all Spot Cable Advertising Avails available for sale.

305a
94. In the Portland, OR., DMA, Comcast manages
the Interconnect and controls approximately 97 percent of all Spot Cable Advertising Avails available for
sale.
95. Increasingly, Comcast—in concert and coordination with Comcast Spotlight—has used its majority
control and ownership in these Interconnects to exclude and disadvantage other MVPDs as a means of
coercing them into transferring control over their Spot
Cable Avail inventories to Comcast by forcing them to
accept representation agreements with Comcast Spotlight as a condition of having access to the Interconnects and NCC.
96. Since Comcast has come to control the majority of large regional Interconnects in the country, it
has used its power to exclude independent MVPDs
and their representatives and to coerce them into behaviors that benefit Comcast. In so doing, Comcast
has acquired and maintained a monopoly over all Spot
Cable Advertising and all Spot Advertising Representation in those DMAs where it controls the Interconnect.
97. Competition for advertisers is an important
aspect of competition between and among MVPDs. As
a result of its control of the Interconnects in, among
other DMAs, Chicago, Detroit and Hartford, Comcast
has the ability to exclude or limit its MVPD competitors from competing for certain advertising revenues.
98. Comcast has likewise used acquisitions to
gain control of NCC. As a result, Comcast now owns
a 60 percent stake in NCC, giving it control over this
critical infrastructure for national Spot Cable Advertising and the power to exclude other MVPDs and

306a
their representatives when doing so suits Comcast’s
business interests.
COMCAST’S MONOPOLIZATION
AND EXCLUSIONARY ACTS
99. Before Comcast embarked upon its current coercive and exclusionary conduct, the three-tiered system for Spot Cable Advertising—encompassing regional, national, and local sales—had functioned competitively since at least the 1990s. All MVPDs and
their representatives were permitted access to the regional Interconnects. This access allowed them to efficiently offer advertisers the desired combinations of
Spot Cable Avails in regional, national, and local markets, while competing with one another to increase
their respective subscriber bases and their own advertising revenue.
A. The Exclusion of Competitors From
Regional Interconnects
100.
An example of Comcast’s anticompetitive
use of the Interconnect and NCC infrastructure—
which are essential to participation in the market for
Spot Cable Avails—is its exclusion of competitors
from the regional Interconnects for the Chicago and
Detroit DMAs, in violation of the longstanding cooperative agreements and practices that had governed
those regional Interconnects’ operations since the
1990s.
101.
The Chicago Interconnect was formed in
August 1998 as an industry cooperative. At that time,
there were a number of independent MVPDs that participated in the Interconnect and that competed directly against both Comcast and each other for advertising sales.

307a
102.
Through a series of acquisitions of
MVPDs, however, Comcast gained a majority interest
in the Chicago Interconnect, ceased doing business
under the Interconnect’s preexisting structure, and
assumed unilateral control of regional advertising
through the Chicago Interconnect. The same practices were repeated in Detroit, where Comcast’s acquisition of other MVPDs permitted it to assume unilateral control of regional advertising through the Detroit Interconnect.
103.
From 2002 to 2012, Viamedia, acting on
behalf of two of its then most significant MVPD clients, WOW and RCN, participated in the Interconnects for Chicago and Detroit. Throughout this time,
Viamedia represented WOW and RCN for the purpose
of selling their Spot Cable Advertising.
104.
In 2011, Comcast Spotlight began attempting to take WOW’s and RCN’s business away
from Viamedia.
105.
Comcast’s executives made a series of
calls to WOW and RCN on behalf of Comcast Spotlight, expressing Comcast Spotlight’s interest in representing WOW and RCN for the purpose of selling
their Spot Cable Advertising in national, regional,
and local markets.
106.
At the time of these calls, both WOW and
RCN had longstanding contractual relationships with
Viamedia. Neither company had any interest, at that
time, in transferring its Spot Cable Advertising Representation from Viamedia to Comcast Spotlight.
107.
Independent MVPDs frequently advertise
and promote their own video subscription and broadband services using some of their own Spot Cable in-

308a
ventory. WOW and RCN are among the many independent MVPDs that follow this practice. Tendering
to Comcast Spotlight control over their Spot Cable
Avails, therefore, would also have required that WOW
and RCN provide Comcast Spotlight with the ad
schedule and advance copies of their actual advertisements, giving Comcast before-market knowledge of
their future pricing, promotions, and other efforts to
take market share away from Comcast.
108.
As RCN put it at the time: “Comcast
would prefer that RCN use Comcast Spotlight and not
Viamedia . . . . [But] RCN is not comfortable having
its largest and most formidable rival as its representative in the spot cable market and should be free to
choose a representative for such services that does not
present such an obvious conflict and competitive disadvantage.” Accordingly, both WOW and RCN remained with Viamedia as their Spot Cable Advertising Representative, for the time being.
109.
Throughout 2011 and early 2012, on information and belief, Comcast repeatedly told advertising agencies that it would have sole control over all of
WOW’s and RCN’s Spot Cable Advertising Avails “by
year’s end.”
110.
On June 1, 2012, Comcast unilaterally
ended Viamedia’s access to the Chicago and Detroit
Interconnects and removed WOW and RCN from participating in regional ad sales through the Interconnects. This occurred despite the fact that Viamedia
had represented WOW and RCN in both Interconnects for over ten years, during which time Viamedia
paid over $23 million in fees to Comcast to participate
in the Chicago and Detroit Interconnects.

309a
111.
At first, Comcast did not state the reasons
for this exclusion. It merely stated that MVPDs represented by Viamedia would not be permitted to continue to participate in or access the Interconnects in
the future.
112.
When pressed by Viamedia to provide a
reason for the exclusion during subsequent conversations, however, Comcast acknowledged that the exclusion was motivated by Comcast Spotlight’s desire to
replace Viamedia as WOW’s and RCN’s Spot Cable
Advertising Representative.
113.
Comcast informed WOW and RCN that if
they wished to regain access to the Interconnects, they
would be required to cease using Viamedia as their
Spot Cable Advertising Representative and would instead be required to retain Comcast Spotlight. Comcast also said that it had no intention of allowing Viamedia to participate in the Interconnects in the future.
114.
The immediate consequence of this forced
exclusion from the Interconnects was that Viamedia
and the MVPDs it represented were completely foreclosed from selling any Spot Cable Advertising Avails
through the Interconnects for Chicago and Detroit,
two of the largest markets for regional Spot Cable Advertising sales in the country.
115.
As a direct result of the exclusion, Viamedia and its MVPD clients lost tens of millions of dollars in revenue from the sale of Spot Cable Advertising through the Detroit and Chicago Interconnects.
116.
To Viamedia’s knowledge, prior to the
sudden and unilateral exclusion of Viamedia and its
MVPD clients from the Chicago and Detroit Interconnects, no third-party representation firm or MVPD

310a
had ever been excluded from an Interconnect for any
reason. Nor is such an exclusion reconcilable with the
economic purpose of the Interconnects or Comcast’s
own observation that “[t]he value of an interconnect
increases as more MVPDs in an area participate.”
117.
In April 2014, a senior Comcast executive
was called to testify before the House Subcommittee
on Antitrust in connection with Comcast’s efforts to
acquire Time Warner Cable.
118.
During the executive’s testimony, Subcommittee Chairman Spencer Bachus of Alabama
raised the issue of Comcast’s dominance over regional
Interconnects and asked the executive whether he
would “provide assurances that Comcast will not exclude competitors or advertising firms from the advertising interconnects that Comcast operates.” In response, the executive stated that Comcast was “not in
the business of excluding” competitors from Interconnects it controlled. When further pressed by Chairman Bachus to clearly and unequivocally state that
Comcast would not “exclude competitors or advertising from the Interconnects,” the executive unambiguously testified that it would not.
119.
At the time that this promise was made,
Comcast had been excluding Viamedia and its MVPD
clients from the Chicago and Detroit Interconnects for
several months.
120.
Following the executive’s testimony, Viamedia contacted Comcast and requested that Viamedia and all of its MVPD clients be given restored access to the Interconnects, consistent with the executive’s statement to Congress.
121.
In response to Viamedia’s requests, Comcast refused to provide any assurance that Viamedia

311a
or its MVPD clients would be permitted future to access any Comcast-controlled Interconnece. Comcast
refused Viamedia’s requests to access Interconnects in
many DMAs.
122.
With respect to the Chicago and Detroit
Interconnects specifically, Comcast said that it would
be willing to consider Viamedia’s readmission if, and
only if, Viamedia agreed to certain commercially unreasonable terms, which would have prevented Viamedia from meaningfully competing with Comcast
Spotlight.
123.
For example, Comcast demanded that it
be given the right to preempt, at its sole discretion and
with virtually no advance notice, any of the Spot Cable
Avails previously sold or controlled by Viamedia,
whether such ads were sold through the Interconnect
or not. This aspect of the Comcast’s proposal would
have given Comcast the unilateral ability to assume
control over the entire inventory of Viamedia’s MVPD
clients and to resell Avails that had already been sold
by Viamedia to other advertisers. This requirement
would have made it virtually impossible for Viamedia
to sell Avails to any regional or local advertisers for
fear that their ads would be preempted and resold to
different advertisers by Comcast. It was a term that
Comcast knew no Spot Cable Advertising Representative could reasonably accept, as it would have eliminated Viamedia’s ability to compete with Comcast
Spotlight or sell any local advertising on behalf of its
MVPD clients. This proposal was not a genuine offer
to allow Viamedia or its MVPD clients to rejoin any
Interconnect.
124.
On information and belief, in 2015, Comcast informed WOW and RCN that each could resume

312a
its participation in the Comcast-controlled Interconnects if they ended their relationship with Viamedia
and retained Comcast Spotlight as their sole Spot Cable Advertising Representative.
125.
Again, Comcast made clear that it would
not allow WOW and RCN to participate in the Interconnects as long as Viamedia continued to represent
them and controlled their Spot Cable Advertising
Avails.
126.
Upon information and belief, in April of
2015 Comcast provided a formal proposal to WOW,
which contemplated WOW’s readmission to the Chicago and Detroit Interconnects after WOW agreed to
replace Viamedia with Comcast Spotlight as its sole
Spot Cable Advertising Representative in those
DMAs. WOW accepted this proposal.
127.
As of January 1, 2016, Comcast Spotlight
now serves as WOW’s sole Spot Cable Advertising representative in the Chicago and Detroit DMAs.
128.
In order to gain access to the Chicago and
Detroit Interconnects, WOW was compelled to transfer to Comcast Spotlight total control of all of WOW’s
Spot Cable Avail inventory for the Chicago and Detroit DMAs. This transfer allows Comcast Spotlight
to control all of WOW’s Spot Cable Advertising in Chicago and Detroit for national, regional, and local inventory. Going forward, no advertiser will be able to
reach WOW’s Chicago and Detroit subscribers without dealing with Comcast Spotlight.
129.
On information and belief, were it not for
Comcast’s anticompetitive acts, including its exclusion of Viamedia and its MVPD clients from the Chicago and Detroit Interconnects, WOW would have

313a
continued to retain Viamedia as its Spot Cable Advertising Representative. WOW has, in fact, elected to
retain Viamedia as its sales representative in those
DMAs where Comcast does not control the Interconnect, and therefore does not have the power to exclude
WOW from the Interconnect.
130.
On information and belief, also in early
2015, Comcast Spotlight provided a formal proposal to
RCN to represent it in all Spot Cable Advertising
transactions for the Chicago, Detroit, New York, Philadelphia, Boston, and Washington, DC, DMAs. This
proposal also contemplated RCN’s readmission to the
Chicago and Detroit Interconnects if, and only if, RCN
replaced Viamedia with Comcast Spotlight as its sole
Spot Cable Advertising representative. RCN accepted
this proposal.
131.
As of January 1, 2016, therefore, Comcast
now controls all of RCN’s Spot Cable Advertising national, regional, and local inventory in Chicago (the
third largest DMA), Detroit (the eleventh largest
DMA), New York (the largest DMA), Philadelphia (the
fourth largest DMA), Boston (the seventh largest
DMA), and Washington, DC (the eighth largest DMA).
No advertiser will be able to reach RCN’s subscribers
in all markets without dealing with Comcast Spotlight.
132.
Comcast successfully used the threat of
continued exclusion from the Chicago and Detroit Interconnects to coercively gain control of all of RCN’s
Spot Cable Advertising Avails for six of the 11 largest
DMAs in the United States (constituting all of the
markets in which RCN operates).

314a
133.
On information and belief, were it not for
Comcast’s anticompetitive acts and exclusion of Viamedia and its MVPD clients from the Chicago and
Detroit Interconnects, RCN would have continued to
retain Viamedia as its Spot Cable Advertising Representative in these and other markets, consistent with
RCN’s previous statements to the FCC.
134.
On information and belief, Comcast has
used similar threats and exclusionary acts to gain control of other MVPDs’ Avails, allowing Comcast to consolidate its control over Spot Cable Advertising in
many of the largest DMAs in the United States.
135.
As of January 1, 2016—due to the conduct
described above—no MVPD is able to sell a Spot Cable
Avail and no advertiser is able to purchase a Spot Cable Avail in five of the 10 largest DMAs in the United
States without dealing exclusively with Comcast
Spotlight.
136.
This type of exclusionary conduct has also
occurred in other Interconnects that Comcast controls. For example, in 2014, Frontier Communications (“Frontier”) acquired a system that provides service to approximately 200,000 subscribers in the DMA
for Hartford and southern Connecticut. Comcast
Spotlight had previously been the representative for
that system for Spot Cable Advertising sales in Connecticut. Frontier has been represented by Viamedia
in the Portland, Oregon, Ft. Wayne, Indiana, and Seattle-Tacoma, Washington, DMAs. When Frontier
transferred the Spot Cable Avails inventory for its
newly acquired Connecticut subscribers to Viamedia
(despite Comcast Spotlight’s bid to retain the business), both Frontier and Viamedia were abruptly
dropped from the Comcast-controlled Hartford Interconnect.

315a
137.
To date, Comcast has continued to refuse
to allow Viamedia, acting on behalf of Frontier, access
to the Hartford Interconnect. This exclusion has deprived Viamedia of the ability to participate in Interconnect sales in the Hartford DMA on behalf of Frontier, costing Viamedia and Frontier millions of dollars
in lost revenue.
138.
On information and belief—as it did with
WOW and RCN in Chicago and Detroit—Comcast intends to condition Frontier’s re-admission to the Hartford Interconnect upon Frontier firing Viamedia as its
sales representative and entering into an exclusive
representation agreement with Comcast Spotlight.
139.
Comcast Spotlight has also contacted another MVPD client of Viamedia in Eastern Pennsylvania, whose current term of representation with Viamedia is scheduled to expire on December 31, 2016.
Comcast Spotlight has told that MVPD that Comcast
will guarantee the MVPD’s admission into the New
York City Interconnect, but only if the MVPD ends its
relationship with Viamedia and switches its representation from Viamedia to Comcast Spotlight.
140.
Other independent MVPDs and their representatives have expressed concerns about Comcast’s practice of excluding competitors from Interconnects unless they agree to retain Comcast Spotlight.
For example, Patriot Media, the company that manages the MVPD Grande Communications Networks
and Choice Cable TV (and RCN), has stated in public
filings that it believes “[c]ompetition in cable advertising markets will be harmed as Comcast increases its
ownership and control of entities that control national
and regional advertising and seeks to extend that into
local spot advertising markets.”

316a
141.
As independent MVPD CenturyLink put
it: “[Comcast’s] control over the crucial regional interconnects means that it can discriminate against
smaller MVPDs and deny access to the interconnects
unless the MVPDs comply with conditions [imposed
by Comcast].” For example, Comcast can “use its control to deny access to the interconnects to force smaller
MVPDs to deal with Comcast Spotlight . . . instead of
independent firms like Viamedia, or risk being excluded from the interconnect.”
142.
On information and belief, Comcast plans
to continue its exclusionary behavior in Chicago, Detroit, and Hartford, as well as many other DMAs, with
the ultimate goal of eliminating all independent competition in the Spot Cable Advertising Representation
market.
B. The Planned Exclusion of Competitors
From NCC
143.
Like the Interconnects, NCC was created
as a cooperative among several MVPDs to make possible multi-regional coordination for Spot Cable Advertising and traditionally operated under an openarchitecture in which all MVPDs were permitted to
participate.
144.
For years, Viamedia has participated in
NCC for the purpose of selling Spot Cable Advertising
to national advertisers on behalf of Viamedia’s MVPD
clients. During this time, Viamedia has remained in
good standing with NCC and has paid more than $40
million in fees to NCC related to its national Spot Cable Advertising sales.
145.
Viamedia’s current agreement with NCC
provides that its access to NCC will expire in December 2017. Despite repeated requests by Viamedia,

317a
however, NCC has refused to entertain a long-term
extension that would ensure Viamedia’s continued access to NCC beyond that date. On information and
belief, Comcast—as NCC’s majority and controlling
owner—is responsible for NCC’s decision not to allow
Viamedia’s to enter a long-term extension with NCC.
146.
On information and belief, Comcast has
also caused NCC to act in a discriminatory manner
toward Viamedia and other independent Spot Cable
Advertising Representatives in other ways. For example, Comcast has caused NCC to charge Viamedia
a fee for participation that is substantially greater
than the fee that Comcast itself pays or that NCC
charges to other participants. Comcast has also insisted that NCC impose other onerous conditions upon
Viamedia, with the planned culmination of Viamedia’s complete exclusion from NCC in December 2017.
147.
As it has done with the Interconnects,
Comcast now intends to shut Viamedia and its MVPD
clients out of participating in national Spot Cable Advertising sales as a way of coercing independent
MVPDs into transferring control of their Spot Cable
Avails to Comcast Spotlight.
148.
On information and belief, Comcast and
NCC, acting jointly, have approached several of Viamedia’s remaining MVPD clients and have urged
them to terminate their representation agreements
with Viamedia if they wish to continue to have access
to NCC and participate national Spot Cable Advertising sales beyond the expiration of Viamedia current
access agreement.
149.
In late 2014, NCC sent a presentation to
one of Viamedia’s MVPD clients showing that if the

318a
MVPD failed to terminate its relationship with Viamedia in favor of using NCC as its national sales representative and Comcast Spotlight as its Spot Cable
Advertising Representative for local and regional
sales, it would face a substantial reduction in revenue
due to being excluded from participating in national
sales through NCC. On information and belief, NCC
was acting at Comcast’s behest in sending this presentation to Viamedia’s client.
150.
As with the Interconnects, national Spot
Cable Advertising sales through NCC is a critical component of every independent MVPD’s business; exclusion from NCC would have a significant adverse effect
on an MVPD’s profitability. Comcast’s power to exclude independent MVPDs from participating in national Spot Cable Advertising through NCC gives
Comcast significant power to force MVPDs to enter
into exclusive Spot Cable Advertising Representative
agreements with Comcast Spotlight that the MVPDs
would not normally accept.
151.
On information and belief, many MVPDs
that would otherwise choose to be represented by Viamedia (or some other independent third party) will
be forced to transfer control of their Spot Cable Avails
to Comcast Spotlight in order to avoid exclusion from
NCC.
152.
As the American Cable Association stated,
Comcast’s control over the NCC and its corresponding
“ability to restrict its competitors’ access to NCC”
gives Comcast a powerful “lever to raise competing
MVPDs’ costs, restrict its competitors’ advertising capabilities, and harm consumers.”
153.
Comcast’s conditioning of access to the Interconnects and NCC on its rival MVPDs entering into

319a
exclusive dealing arrangements with Comcast Spotlight—and the corresponding concerted boycott of Viamedia—is an anticompetitive means of acquiring
and maintaining monopoly power in the market for
Spot Cable Advertising Representation.
C. Comcast’s Refusal to Deal with Viamedia
Is Irrational But For its Anticompetitive
Effects
154.
As described above, Comcast today controls and manages the Interconnects in 15 of the nation’s 25 largest television markets (DMAs) and 26 of
the Interconnects in the nation’s top 50 DMAs. The
economic value of each Interconnect is derived from
its ability to provide a single point of access for advertisers to purchase Spot Cable Avails that are capable
of reaching all subscribers within a DMA, which in
turn increases the economic value to the advertisers
and to participating MVPDs.
155.
Therefore, as the Interconnect manager,
Comcast has an incentive to maximize participation
in the Interconnect by eligible MVPDs (and their corresponding cable subscribers), despite the fact that
Comcast also competes with other MVPDs for subscribers and Spot Cable Advertising sales, and despite
the fact that Comcast also competes (including
through Comcast Spotlight) with representation firms
such as Viamedia. Comcast acknowledges this by explaining, as noted above, that “[t]he value of an interconnect increases as more MVPDs in an area participate, so our incentive is to have as many MVPDs participate as possible.”
156.
Consistent with this statement, Comcast
further states on its website that an “Interconnect” is
“[a] collection of two or more cable TV systems that

320a
work together to distribute commercials to a wider geographic area than a single system would otherwise
reach, giving advertisers the option to reach all cable
households within a market with one buy, one contact
and one tape.” (Emphasis added.) Similarly, the
Video Advertising Bureau, in which Comcast is on the
Board, states that “An interconnect gives advertisers
the option to reach all cable households within a given
market with one buy and one contact.” (Emphasis
added.)
157.
As an Interconnect manager, Comcast
also receives fees directly from participating MVPDs
and representation firms, who compensate Comcast
for managing and providing access to the Interconnects that it controls. Viamedia has paid and offered
to pay Comcast fair market value in exchange for accessing the Interconnects that Comcast manages. For
example, as discussed above, prior to Comcast’s refusal to deal, Viamedia paid over $23 million to Comcast in its role as Interconnect manager to participate
in the Chicago and Detroit Interconnects alone.
158.
Therefore, dealing with Viamedia would
have entailed no cost to Comcast as the Interconnect
manager, would have provided the Interconnect and
Comcast—both as the Interconnect manager and as a
participating MVPD—with immediate benefits, and
would have served the interests of the Interconnect
customers, namely the regional advertisers, to reach
all subscribers in the market. Comcast’s refusal to
deal with Viamedia is thus irrational and contrary to
these economic incentives.
159.
For example, when Comcast refused to
deal with and excluded Viamedia from accessing the
Detroit Interconnect on June 1, 2012, and Comcast
prevented WOW from participating in regional ad

321a
sales through the Interconnects because WOW was
being represented by Viamedia, this reduced significantly the number of cable subscribers covered by the
Detroit Interconnect from virtually all eligible cable
subscribers in the Detroit DMA to approximately 80%
of such subscribers. This significantly reduced the
economic value of the Interconnect and its regional
advertisements, and was directly contrary to Comcast’s own stated economic “incentive” as the Interconnect manager and a participating MVPD to “have as
many MVPDs participating as possible” and “to reach
all cable households within a market with one buy” in
the Interconnects that it controls. Further, as a result
of excluding Viamedia and WOW from the Detroit Interconnect, Comcast also forfeited direct fees that it
otherwise would have received pursuant to its role as
the Interconnect manager.
160.
Similarly, when Comcast refused to deal
with and excluded Viamedia—and by association
RCN and WOW—from the Chicago Interconnect on
June 1, 2012, the number of cable subscribers covered
by the Chicago Interconnect was reduced significantly
from virtually all eligible cable subscribers in the Chicago DMA to approximately 90% of such subscribers.
This significantly reduced the economic value of the
Interconnect and its regional advertisements, and
was directly contrary to Comcast’s own stated economic “incentive” as the Interconnect manager and a
participating MVPD. Further, as a result of excluding
Viamedia, WOW and RCN from the Chicago Interconnect, Comcast also forfeited direct fees that it otherwise would have received pursuant to its role as the
Interconnect manager.
161.
In the Hartford DMA, Comcast’s refusal to
deal with Viamedia by excluding it from the Hartford

322a
Interconnect in 2014 caused the subscribers owned by
Frontier, an MVPD represented by Viamedia, to cease
participating in the Interconnect as well. This reduced the number of eligible cable subscribers covered
by the Hartford Interconnect from virtually all eligible
cable subscribers to approximately 80% of such subscribers. As a result, the economic value of the Hartford Interconnect to Comcast, as the Interconnect
manager, as well as the advertisers and the MVPDs
participating in the Hartford DMA, including Comcast, was significantly reduced. Further, as a result
of excluding Viamedia and Frontier from the Hartford
Interconnect, Comcast also forfeited direct fees that it
otherwise would have received pursuant to its role as
the Interconnect manager.
162.
Comcast is now similarly refusing to deal
with Viamedia in the Seattle, Washington, Minneapolis, Minnesota, Jacksonville, Florida and Knoxville,
Tennessee DMAs, which is economically irrational for
the same reasons stated above.
163.
Unsurprisingly, because it would be irrational to do so, to Viamedia’s knowledge, no other
third-party representation firm (or MVPD represented by a third-party representation firm) had ever
been excluded from an Interconnect until Viamedia
and its represented MVPDs were excluded by Comcast as detailed above.
164.
By contrast, in DMAs where Comcast is
not the dominant player, Viamedia has access to the
Interconnect on behalf of the MVPDs it represents.
For example, in the Cincinnati, Tampa, Dallas, and
Waco-Temple-Bryan, Texas DMAs, where Charter
Communications (“Charter”) controls and manages
the Interconnects, Viamedia has access to the Inter-

323a
connects on behalf of its represented MVPDs. Similarly, in the New York DMA, where the Interconnect
is controlled and managed by Cablevision, Viamedia
has access to the Interconnect on behalf of the MVPDs
it represents, and Comcast is also a participating
member of the New York Interconnect on behalf of an
MVPD that Comcast represents. Behind Comcast,
Charter and Cablevision are the second and third
largest Interconnect managers in the United States.
165.
There are no procompetitive justifications
for Comcast’s refusal to deal with Viamedia and its
exclusion of MVPDs represented by Viamedia from
the Interconnects that it controls. These MVPDs either transfer their Spot Cable Advertising Representation business from Viamedia to Comcast, a direct
competitor, or cease participating in the Interconnect
at all. If the MVPDs place their Spot Advertising Representation business with Comcast, this simply replaces one intermediary with another because Comcast still acts as an intermediary between the MVPDs
and the advertisers who purchase regional advertising through the Interconnects.
166.
Even if there were any potentially improved efficiencies to be realized by consolidating
management of an Interconnect with Comcast’s provision of Spot Cable Advertising Representation services, refusing to deal with Viamedia is not necessary
in order to realize any such efficiencies.
167.
Moreover, there are no material administrability problems in allowing Viamedia to participate in Interconnects that it controls. As discussed
above, the other MVPDs participating in the Interconnects compete with Comcast—in its role as an
MVPD—for cable subscribers as well as Spot Cable
Advertising revenue, and at least some of the MVPDs

324a
that participate in the Interconnects managed and
controlled by Comcast also manage and control their
own Interconnects in other DMAs. Thus, by the very
nature of its role as Interconnect manager, Comcast is
already dealing with competitors.
168.
Refusing to deal with Viamedia as described herein is irrational but for its anticompetitive
effects, namely, its potential to eliminate competition
by using control of Interconnect to eventually cause
Viamedia to exit the market for Spot Cable Advertising Representation services.
D. Harm To Competition
169.
Comcast’s and Comcast Spotlight’s exclusionary conduct harms competition in several ways.
170.
Comcast’s conduct harms other participants in the market for Spot Cable Advertising Representation. Without access to Interconnects and
NCC, which together represent more than two-thirds
of the over $5 billion generated annually from Spot
Cable Advertising sales, Viamedia and other independent representatives cannot compete with Comcast Spotlight for Spot Cable Advertising Representation contracts with MVPDs. Left unchecked, Comcast’s tactics will ultimately force independent representatives, like Viamedia, out of the Spot Cable Advertising Representation business, and will prevent
others from entering the market. In time, therefore,
MVPDs will have no other option but Comcast Spotlight for their Spot Cable Advertising Representation.
171.
MVPDs are also harmed by this conduct.
Most MVPDs want choice in their Spot Cable Advertising Representation and many do not want to cede
control over their Spot Cable Avails to Comcast, their
largest competitor. In addition, as Comcast Spotlight

325a
eliminates independent competitors from representing MVPDs, it increasingly grows more able to impose
higher prices and other onerous terms on MVPDs, including terms that may ultimately make it impossible
for MVPDs to compete effectively with Comcast.
172.
Comcast’s dominance over Spot Cable Advertising gives it the incentive and ability to reduce
its rivals’ revenue by eliminating their access to regional and national sales and cutting them off from
these critical sources of funds. Without firms such as
Viamedia, independent MVPDs will have no choice
but to acquiesce to Comcast’s demands to control all
of their Spot Cable Avails or face being excluded from
national advertising revenue (through NCC) and regional advertising revenue (through Interconnects).
This exclusion will limit rival MVPDs’ ability to compete against Comcast for cable, broadband, and telephone subscribers because the MVPDs will have to either increase their subscriber fees or reduce their promotional efforts in order to compensate for their losses
in advertising revenue.
173.
In addition, MVPDs obliged to enter into
Spot Cable Advertising Representation agreements
with Comcast Spotlight will be forced to provide Comcast with sensitive business information, such as marketing efforts (including the schedule for placement of
the MVPD’s promotional ads), and special offers (including their own future prices and promotions to subscribers). This sensitive business information will
give Comcast an advantage over its rival MVPDs and
limit the ability of independent MVPDs to compete for
cable subscribers.
174.
In sum, Comcast’s exclusionary conduct,
coupled with the power it has amassed over Interconnects and NCC, impermissibly harms competition. It

326a
also creates a dangerous probability that Comcast has
or will monopolize the market for Spot Cable Advertising Representation services in every DMA in which
Comcast manages an Interconnect, and ultimately the
market for Spot Cable Advertising Representation
services nationwide.
E. Injury to Viamedia
175.
Comcast’s use of its control of the Interconnects and NCC to exclude Viamedia and its MVPD
clients constitutes a restriction on competition that
has handicapped Viamedia’s ability to meaningfully
compete with Comcast Spotlight in the market for
Spot Cable Advertising Representation.
176.
Comcast’s conduct has severely damaged
Viamedia and its business in many ways and will continue to do so. Viamedia has lost and will continue to
lose revenues from Spot Cable Advertising sales
through Interconnects, including Chicago, Detroit,
and Hartford, and its valuable contracts with WOW
and RCN, among others. This loss has resulted and
will continue to result in lost profits to Viamedia of
tens of millions of dollars, and in any event no less
than $50 million.
177.
Viamedia has also lost a number of other
representation clients and contracts as a result of its
exclusion from the Interconnects, its threatened exclusion from NCC, and other anticompetitive conduct
by Comcast. The amount of additional profits lost to
Viamedia attributable to these actions of Comcast is
tens of millions of dollars, and in any event no less
than an additional $25 million.
178.
Comcast’s exclusion of Viamedia from the
Interconnects, its threatened exclusion of Viamedia
from NCC, and its other anticompetitive conduct has

327a
caused other injuries to Viamedia’s business. For example, Viamedia’s shareholder value has fallen precipitously as a result of its inability to participate in
regional Spot Cable Advertising sales, and Viamedia
has lost potential investors as a further consequence
of Comcast’s exclusionary conduct. These injuries are
the direct and proximate result of Comcast’s anticompetitive actions.

328a
CLAIMS
COUNT I:
UNLAWFUL MONOPOLIZATION IN MARKETS
FOR SPOT CABLE ADVERTISING
REPRESENTATION IN DMAS
WHERE COMCAST CONTROLS
THE INTERCONNECT(S)
179.
Viamedia repeats and realleges Paragraphs 1-163 above as if fully set forth herein.
180.
The provision of Spot Cable Advertising
Representation services constitutes a relevant product market and the regional DMAs in which Comcast
controls the Interconnect constitute relevant geographic markets under the antitrust laws.
181.
Comcast has monopoly power in Spot Cable Advertising Representation in each of the DMAs
where it controls the Interconnect.
182.
Comcast has excluded Viamedia and
MVPDs represented by Viamedia from access to Interconnects controlled by Comcast in DMAs where Viamedia had previously represented MVPDs, and Comcast has further refused to allow Viamedia and
MVPDs represented by Viamedia to have access to
other Interconnects controlled by Comcast.
183.
By refusing to deal with Viamedia and
MVPDs represented by Viamedia, by conditioning access to Interconnects upon an MVPD’s agreement to
deal with Comcast Spotlight, by requiring that
MVPDs deal exclusively with Comcast Spotlight as a
Spot Cable Advertising Representative, by requiring
NCC to refuse to commit to a long term arrangement
with Viamedia and to otherwise offer nondiscriminatory terms to Viamedia, and through other exclusionary and anticompetitive acts, Comcast has unlawfully

329a
acquired and maintained its monopoly power in each
of the markets where it controls the Interconnect, in
violation of Section 2 of the Sherman Act, 15 U.S.C.
§ 2.
184.
Comcast could not have acquired or maintained its monopoly power in markets for Spot Cable
Advertising Representation but for its restrictions on
participation in the Interconnects, its coercive and exclusionary agreements and refusals to deal, and other
anticompetitive conduct. Thus, its monopolization is
not due to growth or development as a consequence of
a superior product, business acumen, or historic accident.
185.
Comcast’s monopolization has injured and
will continue to injure competition in these markets.
186.
Comcast’s exclusionary and anticompetitive acts effect interstate commerce and injures competition in multiple states.
187.
As a direct and proximate result of Comcast’s acts of monopolization and monopoly maintenance, Viamedia has suffered antitrust injury and
damages, including the loss of Spot Cable Advertising
Representation clients and the revenues generated
therefrom, as well as other damage to its business.
188.
Viamedia continues to suffer damage, and
will continue to do so, if Comcast does not cease its
monopolistic conduct.

330a
COUNT II:
UNLAWFUL ATTEMPTED MONOPOLIZATION
IN MARKETS FOR SPOT CABLE
ADVERTISING REPRESENTATION IN DMAS
WHERE COMCAST CONTROLS THE
INTERCONNECT(S)
189.
Viamedia repeats and realleges Paragraphs 1-163 above as if fully set forth herein.
190.
Comcast has excluded Viamedia and
MVPDs represented by Viamedia from access to Interconnects controlled by Comcast in DMAs where Viamedia had previously represented MVPDs, and Comcast has further refused to allow Viamedia and
MVPDs represented by Viamedia to have access to
other Interconnects controlled by Comcast.
191.
By refusing to deal with Viamedia and
MVPDs represented by Viamedia, by conditioning access to Interconnects upon an MVPD’s agreement to
deal with Comcast Spotlight, by requiring that
MVPDs deal exclusively with Comcast Spotlight as a
Spot Cable Advertising Representative, by requiring
NCC to refuse to commit to a long term arrangement
with Viamedia and to otherwise offer nondiscriminatory terms to Viamedia, and through other exclusionary and anticompetitive acts, Comcast has unlawfully
attempted to acquire monopoly power in each of the
markets where it controls the Interconnect, in violation of Section 2 of the Sherman Act, 15 U.S.C. § 2.
192.
Because of Comcast’s monopoly control of
regional Interconnects and its unilateral ability to exclude competitors from this infrastructure, which is
essential to market participation, there is a dangerous
probability that Comcast will be able to leverage its
position to gain and maintain monopoly power in the

331a
markets for Spot Cable Advertising Representation
where Comcast controls the Interconnect.
193.
Comcast has acted with the specific intent
of monopolizing the markets for Spot Cable Advertising Representation in regions where Comcast controls
the Interconnect.
194.
Comcast’s attempted monopolization has
injured and will continue to injure competition.
195.
Comcast’s exclusionary conduct and anticompetitive acts effect interstate commerce and injures competition in multiple states.
196.
As a direct and proximate result of Comcast’s attempted monopolization, Viamedia has suffered antitrust injury and damages, including the loss
of Spot Cable Advertising Representation clients and
the revenues generated therefrom, as well as other
damage to its business.
197.
Viamedia will continue to suffer additional damage in the future if Comcast is permitted to
continue its monopolistic conduct.

332a
COUNT III:
VIOLATION OF THE ILLINOIS
ANTITRUST ACT (740 ILCS 10/3)
198.
Viamedia repeats and realleges Paragraphs 1-163 above as if fully set forth herein.
199.
Comcast exercises exclusive control over
the Interconnects in many DMAs, including the Interconnect for the Chicago DMA. These Interconnects
are critical infrastructure for the sale of Spot Cable
Advertising time, and open access to the Interconnects is essential for any person or entity seeking to
represent MVPDs for purposes of selling their Spot
Cable Advertising Avails.
200.
The Interconnects cannot be practically or
reasonably duplicated, and there is no alternative to
the Interconnects that allows for the coordination of
or participation in regional Spot Cable Advertising
sales.
201.
Comcast has excluded independent representatives that compete with Comcast Spotlight and
has threatened to exclude competing MVPDs from the
Interconnects that Comcast controls, unless they enter into exclusive representation agreements with
Comcast Spotlight as a precondition for accessing the
Interconnects.
202.
Comcast has engaged in this exclusionary
action despite the fact that it could, if it elected to do
so, feasibly provide independent representatives and
their MVPD clients with access to the Interconnects.
203.
Through its threats to make participation
in the Interconnects available only to MVPDs that use
Comcast Spotlight for Spot Cable Advertising Representation services, its additional coercive and exclu-

333a
sionary agreements, and other anticompetitive conduct, Comcast has monopolized and unlawfully attempted to acquire a monopoly for Spot Cable Advertising Representation in Illinois in violation of Section
3 of the Illinois Antitrust Act. 740 ILCS 10/3(3).
204.
The provision of Spot Cable Advertising
Representation services constitutes a relevant product or service market under the Illinois Antitrust Act.
205.
Comcast entered into coercive and exclusionary agreements related to the Interconnects with
the specific intent of monopolizing the market for Spot
Cable Advertising Representation in Illinois.
206.
Comcast’s monopolization and attempted
monopolization has injured and will continue to injure
competition.
207.
As a direct and proximate result of Comcast’s monopolization and attempted monopolization,
Viamedia has suffered antitrust injury and damages,
including the loss of Spot Cable Advertising Representation clients and the revenues generated therefrom,
as well as other damage to its business.
208.
Viamedia will continue to suffer additional damage in the future if Comcast is permitted to
continue its monopolistic conduct.

334a
COUNT IV:
VIOLATION OF THE MICHIGAN
ANTITRUST REFORM ACT,
(Mich. Comp. Laws, Sec. 445.771 et seq.)
209.
Viamedia repeats and realleges Paragraphs 1-163 above as if fully set forth herein.
210.
Comcast exercises exclusive control over
the Interconnects in many DMAs, including the Interconnect for the Detroit DMA. These Interconnects are
critical instrumentalities for the sale of Spot Cable
Advertising time and open access to the Interconnects
is essential for any person or entity seeking to represent MVPDs for purposes of selling their Spot Cable
Advertising Avails.
211.
The Interconnects cannot be practically or
reasonably duplicated and there is no alternative to
the Interconnects that allows for the coordination of
or participation in regional Spot Cable Advertising
sales.
212.
Comcast has excluded independent representatives that compete with Comcast Spotlight and
has threatened to exclude competing MVPDs from the
Interconnects that Comcast controls, unless they enter into exclusive representation agreements with
Comcast Spotlight as a precondition for accessing the
Interconnects.
213.
Comcast has engaged in this exclusionary
action despite the fact that it could, if it elected to do
so, feasibly provide independent representatives and
their MVPD clients with access to the Interconnects.
214.
Through its threats to make participation
in the Interconnects available only to MVPDs that use
Comcast Spotlight for Spot Cable Advertising Repre-

335a
sentation services, its additional coercive and exclusionary agreements, and other anticompetitive conduct, Comcast has monopolized and unlawfully attempted to acquire a monopoly for Spot Cable Advertising Representation in Michigan in violation of the
Michigan Antitrust Reform Act. Mich. Comp. Laws,
Sec. 445.773.
215.
The provision of Spot Cable Advertising
Representation services constitutes a relevant product or service market under the Michigan Antitrust
Reform Act.
216.
Comcast entered into coercive and exclusionary agreements related to the Interconnects with
the specific intent of monopolizing the market for Spot
Cable Advertising Representation in Michigan.
217.
Comcast’s monopolization and attempted
monopolization has injured and will continue to injure
competition.
218.
As a direct and proximate result of Comcast’s monopolization and attempted monopolization,
Viamedia has suffered antitrust injury and damages,
including the loss of Spot Cable Advertising Representation clients and the revenues generated therefrom,
as well as other damage to its business.
219.
Viamedia will continue to suffer additional damage in the future if Comcast is permitted to
continue its monopolistic conduct.

336a
COUNT V:
VIOLATION OF THE CONNECTICUT
ANTITRUST ACT (Title 35, Sec. 35-27)
220.
Viamedia repeats and realleges Paragraphs 1-163 above as if fully set forth herein.
221.
Comcast exercises exclusive control over
the Interconnects in many DMAs, including the Interconnect for the Hartford DMA. These Interconnects
are critical infrastructure for the sale of Spot Cable
Advertising time and open access to the Interconnects
is essential for any person or entity seeking to represent MVPDs for purposes of selling their Spot Cable
Advertising Avails.
222.
The Interconnects cannot be practically or
reasonably duplicated and there is no alternative to
the Interconnects that allows for the coordination of
or participation in regional Spot Cable Advertising
sales.
223.
Comcast has excluded independent representatives that compete with Comcast Spotlight and
has threatened to exclude competing MVPDs from the
Interconnects that Comcast controls, unless they enter into exclusive representation agreements with
Comcast Spotlight as a precondition for accessing the
Interconnects.
224.
Comcast has engaged in this exclusionary
action despite the fact that it could, if it elected to do
so, feasibly provide independent representatives and
their MVPD clients with access to the Interconnects.
225.
Through its threats to make participation
in the Interconnects available only to MVPDs that use
Comcast Spotlight for Spot Cable Advertising Representation services, its additional coercive and exclu-

337a
sionary agreements, and other anticompetitive conduct, Comcast has unlawfully monopolized and attempted to acquire a monopoly for Spot Cable Advertising Representation in Connecticut, in violation of
Title 35, Sec. 35-27 of the Connecticut General Statutes (the “Connecticut Antitrust Act”).
226.
The provision of Spot Cable Advertising
Representation services constitutes a relevant product or service market under the Connecticut Antitrust
Act.
227.
Comcast entered into coercive and exclusionary agreements related to the Interconnects with
the specific intent of monopolizing the market for Spot
Cable Advertising Representation in Connecticut.
228.
Comcast’s monopolization and attempted
monopolization has injured and will continue to injure
competition.
229.
As a direct and proximate result of Comcast’s monopolization and attempted monopolization,
Viamedia has suffered antitrust injury and damages,
including the loss of Spot Cable Advertising Representation clients and the revenues generated therefrom,
as well as other damage to its business.
230.
Viamedia will continue to suffer additional damage in the future if Comcast is permitted to
continue its monopolistic conduct.

338a
COUNT VI:
TORTIOUS INTERFERENCE WITH A
BUSINESS EXPECTANCY
231.
Viamedia repeats and realleges Paragraphs 1-163 above as if fully set forth herein.
232.
Comcast hired at least one former Viamedia sales executive who surreptitiously listened in on
Viamedia sales meetings after that executive had left
Viamedia and shared access to Viamedia proprietary
information with other Comcast executives, thereby
creating and/or enhancing Comcast’s ability to interfere with Viamedia relationships with its clients and
advertisers.
233.
Based on its longstanding prior business
relationship with WOW and RCN, Viamedia possessed a reasonable expectancy of continuing its profitable contractual and business relationships with
WOW and RCN for purposes of providing them with
Spot Cable Advertising Representation.
234.
Comcast and Comcast Spotlight knew of
Viamedia’s profitable contractual and business relationships with both WOW and RCN and knew of Viamedia’s reasonable expectancy of continuing those
relationships.
235.
Comcast and Comcast Spotlight intentionally and unjustifiably interfered with Viamedia’s
reasonable expectancy by deliberately excluding Viamedia and its MVPD clients from Comcast-controlled Interconnects as a means of coercing WOW
and RCN into transferring their Spot Cable Advertising Representation business from Viamedia to Comcast Spotlight.
236.
Comcast and Comcast Spotlight’s intentional and unjustifiable conduct caused WOW and

339a
RCN to terminate some or all of their profitable business relationships with Viamedia.
237.
As a direct and proximate result of Comcast’s conduct, Viamedia’s expectancy of obtaining
further business from WOW and RCN was diminished
and lost. Viamedia has suffered significant injury and
damages as a result of Comcast’s actions, including
lost sales and revenue relating to its representation of
WOW and RCN and other damage to its business.
238.
After Comcast took over the WOW and
RCN markets on January 1, 2016, Comcast has continued to make it more difficult for Viamedia to operate by further interfering in Viamedia’s relationships
with advertisers and other MVPDs. In addition, Comcast has unlawfully contacted and tried to recruit various Viamedia sales executives to join Comcast and
thereby obtain confidential proprietary information of
Viamedia.

340a
PRAYER FOR RELIEF
WHEREFORE, Viamedia prays for judgment
against Defendants Comcast and Comcast Spotlight
as follows:
A. Awarding Viamedia all damages to which it is
entitled under state and federal antitrust laws and its
other claims for relief, including treble damages, reasonable costs, and attorneys’ fees pursuant to 15
U.S.C. § 2, and 15 U.S.C. §§ 15 & 26.
B. Awarding Viamedia all damages to which it is
entitled under state tort law and its other claims for
relief, including punitive damages for Comcast’s willful and malicious tortious conduct;
C. Enjoining Comcast from engaging in the anticompetitive and tortious conduct alleged herein, including any effort to exclude Viamedia or its MVPD
clients from participating on a fair and open basis in
Interconnects and NCC in the future;
D. Ordering such divestitures by Comcast as
may be required to restore competition and to prevent
the recurrence of future antitrust violations; and
E. Granting such further relief as the Court
deems just and proper.

341a
JURY DEMAND
Viamedia demands a jury trial for those issues so
triable herein.
Date: November 21, 2016 Respectfully submitted,
/s/ Britt M. Miller
Britt M. Miller
Matthew D. Provance
MAYER BROWN LLP
71 South Wacker Drive
Chicago, IL 60606
Tel: 312.782.0600
Facsimile: 312.701.7711
bmiller@mayerbrown.com
mprovance@mayerbrown.com
AND
Mark W. Ryan (Pro Hac Vice)
MAYER BROWN LLP
1999 K Street NW
Washington, DC 20001
Tel: 202.263.3000
Facsimile: 202.263.3300
mryan@mayerbrown.com
Counsel for Plaintiff
ViaMedia, Inc.

